<html>
<title> - DEPARTMENT OF TRANSPORTATION AND RELATED AGENCIES APPROPRIATIONS FOR 1998</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]


<DOC>
 
                    DEPARTMENT OF TRANSPORTATION AND
                    RELATED AGENCIES APPROPRIATIONS
                                FOR 1998

========================================================================

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                              FIRST SESSION
                                ________

 SUBCOMMITTEE ON THE DEPARTMENT OF TRANSPORTATION AND RELATED AGENCIES 
                             APPROPRIATIONS

                    FRANK R. WOLF, Virginia, Chairman

TOM DeLAY, Texas             MARTIN OLAV SABO, Minnesota
RALPH REGULA, Ohio           THOMAS M. FOGLIETTA, Pennsylvania
HAROLD ROGERS, Kentucky      ESTEBAN EDWARD TORRES, California
RON PACKARD, California      JOHN W. OLVER, Massachusetts
SONNY CALLAHAN, Alabama      ED PASTOR, Arizona
TODD TIAHRT, Kansas          
ROBERT B. ADERHOLT, Alabama  

NOTE: Under Committee Rules, Mr. Livingston, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

John T. Blazey II, Richard E. Efford, Stephanie K. Gupta, and Linda J. Muir,
                           Subcommittee Staff
                                ________

                                 PART 4
                                                                   Page
DEPARTMENT OF TRANSPORTATION:
   Federal Highway Administration.................................    1
   Federal Transit Administration.................................  991
   National Highway Traffic Safety Administration.................    1
RELATED AGENCY:
   Washington Metropolitan Area Transit Authority................. 1379

                              <snowflake>

                                ________

         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE

41-214 O                    WASHINGTON : 1997
------------------------------------------------------------------------

             For sale by the U.S. Government Printing Office            
        Superintendent of Documents, Congressional Sales Office,        
                          Washington, DC 20402                          







                       COMMITTEE ON APPROPRIATIONS                      

                   BOB LIVINGSTON, Louisiana, Chairman                  

JOSEPH M. McDADE, Pennsylvania         DAVID R. OBEY, Wisconsin            
C. W. BILL YOUNG, Florida              SIDNEY R. YATES, Illinois           
RALPH REGULA, Ohio                     LOUIS STOKES, Ohio                  
JERRY LEWIS, California                JOHN P. MURTHA, Pennsylvania        
JOHN EDWARD PORTER, Illinois           NORMAN D. DICKS, Washington         
HAROLD ROGERS, Kentucky                MARTIN OLAV SABO, Minnesota         
JOE SKEEN, New Mexico                  JULIAN C. DIXON, California         
FRANK R. WOLF, Virginia                VIC FAZIO, California               
TOM DeLAY, Texas                       W. G. (BILL) HEFNER, North Carolina 
JIM KOLBE, Arizona                     STENY H. HOYER, Maryland            
RON PACKARD, California                ALAN B. MOLLOHAN, West Virginia     
SONNY CALLAHAN, Alabama                MARCY KAPTUR, Ohio                  
JAMES T. WALSH, New York               DAVID E. SKAGGS, Colorado           
CHARLES H. TAYLOR, North Carolina      NANCY PELOSI, California            
DAVID L. HOBSON, Ohio                  PETER J. VISCLOSKY, Indiana         
ERNEST J. ISTOOK, Jr., Oklahoma        THOMAS M. FOGLIETTA, Pennsylvania   
HENRY BONILLA, Texas                   ESTEBAN EDWARD TORRES, California   
JOE KNOLLENBERG, Michigan              NITA M. LOWEY, New York             
DAN MILLER, Florida                    JOSE E. SERRANO, New York           
JAY DICKEY, Arkansas                   ROSA L. DeLAURO, Connecticut        
JACK KINGSTON, Georgia                 JAMES P. MORAN, Virginia            
MIKE PARKER, Mississippi               JOHN W. OLVER, Massachusetts        
RODNEY P. FRELINGHUYSEN, New Jersey    ED PASTOR, Arizona                  
ROGER F. WICKER, Mississippi           CARRIE P. MEEK, Florida             
MICHAEL P. FORBES, New York            DAVID E. PRICE, North Carolina      
GEORGE R. NETHERCUTT, Jr., Washington  CHET EDWARDS, Texas                 
MARK W. NEUMANN, Wisconsin             
RANDY ``DUKE'' CUNNINGHAM, California  
TODD TIAHRT, Kansas                    
ZACH WAMP, Tennessee                   
TOM LATHAM, Iowa                       
ANNE M. NORTHUP, Kentucky              
ROBERT B. ADERHOLT, Alabama            

                 James W. Dyer, Clerk and Staff Director








 DEPARTMENT OF TRANSPORTATION AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  1998

                              ----------                              

                                          Thursday, March 13, 1997.

                 FEDERAL HIGHWAY ADMINISTRATION (FHWA)

                               WITNESSES

JANE F. GARVEY, ACTING ADMINISTRATOR, FHWA
ANTHONY R. KANE, EXECUTIVE DIRECTOR, FHWA

        NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION, (NHTSA)

                               WITNESSES

RICARDO MARTINEZ, ADMINISTRATOR, NHTSA
PHILLIP R. RECHT, DEPUTY ADMINISTRATOR, NHTSA
DONALD BISCHOFF, EXECUTIVE DIRECTOR, NHTSA

                            Opening Remarks

    Mr. Wolf. I want to welcome Ms. Jane Garvey, Acting 
Administrator of the Federal Highway Administration who I think 
everybody hopes will be nominated as the Administrator. I would 
hope that Secretary Slater would make the appointment quickly 
because I think it is wrong to keep these openings open too 
long. The same way with the FAA, the quicker there is somebody 
there, the better.
    Hopefully by next week we can call you the Administrator. 
And Dr. Martinez, the Administrator of the National Highway 
Traffic Safety Administration, welcome.
    This year both agencies are appearing before the 
Subcommittee jointly, reflecting the interrelationship between 
highway construction and highway safety. Yesterday morning the 
Administration released its reauthorization proposal for ISTEA. 
I know the staff of the Committee was provided a briefing late 
yesterday afternoon. The legislation arrived this morning and 
the outline released yesterday contained mostly the same 
policies outlined in the President's budget in February with 
the exception of the state allocation formulas.
    We look forward this morning to learning more details about 
the President's reauthorization proposal and other issues. At 
this time I would ask each of the witnesses to summarize 
briefly your statements. The full statements will appear in the 
record and the questions will bounce between the two of you. 
Mr. Sabo.
    Mr. Sabo. Welcome.

                          FHWA Opening Remarks

    Ms. Garvey. Thank you very much, Mr. Chairman, and 
Congressman Sabo. It is a pleasure to be here. Thank you for 
your kind comments. I always go back and report to the 
Secretary what has happened at hearings so I will, if you do 
not mind, mention your first comment to him.
    Mr. Wolf. I would be shocked if he did not appoint you. 
Frankly, with the difficulty that the reauthorization of ISTEA 
will pose and with the good job that you have done, I think 
they would have a hard time explaining why they did not 
nominate you. You can tell them that.
    Ms. Garvey. Thank you, Mr. Chairman.
    Mr. Wolf. And I think he will frankly because I think 
Secretary Slater is a good person.
    Ms. Garvey. Thank you very much, Mr. Chairman. Joining me 
here this morning is Tony Kane, our Executive Director, and 
other key FHWA staff members. We are all prepared to answer any 
questions that you or members of the committee may have.

                  overview of Administration Proposal

    Yesterday, Mr. Chairman, as you mentioned, President 
Clinton, Vice President Gore, and Secretary Slater announced 
the Administration's proposal for reauthorization of surface 
transportation programs. This budget, the 1998 budget, is as 
you have indicated the first of the post-ISTEA era and we are 
very excited about that.
    When Secretary Slater appeared before this subcommittee 
last week, he spoke about three key national transportation 
priorities--strategic investment in infrastructure, a 
commitment to safety, a commitment that he spoke about in terms 
of both a moral commitment and a policy imperative, and a 
commitment to common sense government and innovation.
    We believe the FHWA budget both supports and advances these 
very important goals. The budget we are submitting is built 
around the Administration's authorization proposal for surface 
transportation programs. The reauthorization proposal 
constitutes a strategic use of limited resources with funding 
increases for the National Highway System, for interstate 
maintenance, for congestion mitigation and air quality, and for 
safety programs--clear national priorities.
    Our proposal will also increase the states' ability to use 
their federal-aid dollars more effectively and more flexibly. 
We think we need to give the states the flexibility, the 
options to create the transportation solutions that work for 
them.

                           budget highlights

    Our budget proposes $20 billion in obligations for the 
nation's highways and bridges. This includes a federal-aid 
highways obligation ceiling of $18.17 billion which is 
approximately the same level of discretionary funding as the 
fiscal year 1997 budget. The 1998 budget also includes proposed 
contract authority for the highway program of $22.8 billion, 
which is a significant increase over the average annual 
contract authority authorized by ISTEA.
    While the obligation limitation we propose is lower than 
contract authority for 1998, I want to stress that we are 
hopeful economic conditions will improve so that budgets in 
future years will permit the use of funds that cannot be 
reached this year. I need to say at the outset that we realize 
that the proposed funding levels do not fully meet the needs of 
the nation's highway systems but we believe it does represent a 
continued commitment to investment while at the same time 
dealing with both the President's and the Congress' efforts to 
balance the budget and reduce the federal deficit.
    The budget also advances other national goals. We have 
asked ourselves whether can we offer the tools to help reduce 
the tragic toll of highway deaths even in the face of growing 
traffic. Our budget provides the resources to maintain safety 
as the highest national transportation priority. Our proposal 
builds on the strong components of the existing law but 
streamlines programs, consolidates some categories, creates new 
flexibilities, and offers incentives for safety agencies to 
work together more closely in dealing with their safety 
programs.
    And I must say that just as we have consolidated and 
coordinated the program elements, we have worked very hard with 
NHTSA to coordinate our staff efforts as well. We have done 
that both in Washington and the field. We have worked very 
closely this past year in particular. The goal for both of us 
is to deliver a safety program that is not only highly 
coordinated but also complementary, and builds on our 
individual agencies professional and organizational strengths.

                 common sense government and innovation

    The Secretary also spoke last week about common sense 
government and innovation. It is certainly true that a 
cornerstone for the future is a strong emphasis on innovation, 
innovation that will provide a greater return on our 
investment. For FHWA, this moves us from a traditional 
oversight role to one, as the Secretary says, of proactive 
leadership, leadership in technology, leadership in technical 
assistance-technical assistance in its broadest terms, from 
engineering advice to environmental expertise to planning and 
financial expertise.

                         infrasture investment

    In fact, in the area of finance, we are promoting new 
financial techniques that have the added benefit of leveraging 
new resources for transportation, including those of the 
private sector. Our budget proposes a new $100 million credit 
enhancement program to encourage private sector investment in 
transportation projects of national significance, projects that 
may be too large for a state program or even too large for an 
infrastructure bank.
    We are also proposing to continue the funding for state 
infrastructure banks at a level of $150 million a year. We are 
proposing significant increases in programs which support 
technological innovation. Our budget request and our 
reauthorization proposal recognizes that a strong federal 
transportation research and technology program is not a trade-
off with infrastructure funding, but instead it is a powerful 
tool to support the investments we have made.

                   intelligent transportation systems

    We have learned through our ITS research efforts that an 
intelligent transportation infrastructure applied to our 
transportation programs can improve efficiency productivity and 
safety. We have done work with NHTSA that shows we can achieve 
a 17 percent reduction in crash avoidance in all accidents by 
using ITS.
    Our budget requests a funding level of $150 million for ITS 
research. This research will focus on a number of areas of high 
potential benefit. Finally, Mr. Chairman, as we consider the 
federal role in transportation, the Federal Highway 
Administration has taken a comprehensive set of streamlining 
actions to support departmental initiatives, to meet our 
mission changes mandated by ISTEA and to develop the agency 
workforce that will make us leaders into the 21st century.
    We have evolved as an agency from solely an engineering 
management and oversight organization to one that is highly 
focused on customer service, on technical assistance, and 
devoted to strengthening the partnerships with those served by 
our agency. We have decentralized responsibility for program 
delivery to the lowest practical level in the organization, 
generally our division offices at the state level.
    In our western regions we have established consolidated 
centers for human resources, finance, and information 
management functions, and the agency is in the final stages of 
establishing similar centers for its eastern regions. Those 
shared resource centers are designed to reduce the costs, 
improve services to our external customers and to our 
stakeholders.
    In closing, Mr. Chairman, I want to say that we look 
forward to working with Congress and with this subcommittee in 
particular. To build on our accomplishments, to continue the 
programs that work, to refine those programs that have not yet 
fully realized their promise and to create new incentives and 
new initiatives which apply what we have already learned. Thank 
you very much, and we would be happy to answer your questions.
    [The prepared statement and biography of Jane Garvey and 
biography of Anthony Kane follow:]

[Pages 5 - 23--The official Committee record contains additional material here.]


                         NHTSA Opening Remarks

    Mr. Wolf. Dr. Martinez.
    Mr. Martinez. Thank you, Mr. Chairman. I appreciate the 
opportunity to testify before you and the rest of the 
subcommittee again this year. It is a pleasure to appear with 
Jane Garvey, the Acting Administrator for the Federal Highway 
Administration. I echo your strong support for her. She is an 
inspiring, articulate leader. It is also fairly obvious she is 
a snappy dresser.
    I am pleased to report that safety is the Secretary's 
priority. Mr. Slater has been very forceful in this and we are 
thrilled to have his support. He believes it justifies a 
strategic investment of resources and in fact safety is really 
a goal of all Americans.
    When we designed the budget for fiscal year 1998 it was 
from the perspective of a balanced program that makes gains 
both in vehicle safety and driver safety. We see ourselves 
essentially as a public health agency. Highway crashes are the 
leading cause of death under age 44 and our goal is to prevent 
or to lessen crash injury.
    I view our task as one of providing people with the tools 
they need to take responsibility for addressing injury 
prevention and improving overall highway safety. To be more 
effective in this role, we have really changed the way we do 
business over the last few years. We have become more 
collaborative, working with, more partners and morepartnerships 
such as state and local policy makers, health care professionals, 
educators, private sector and community safety leaders.
    We are also strengthening the link between the vehicle 
safety engineers and the medical researchers. We focus on the 
real issue which is the injuries themselves and not just 
development of dummies. I was going to point out for Mr. 
Packard that one of our trauma centers is in his district and 
is one of our key links to getting information about what 
happens in the real world.
    These various approaches allow us to leverage our resources 
and get maximum impact out of our programs. In a way the 
federal highway folks are becoming more involved in safety 
programs, NHTSA is involved with building bridges because we 
realize that is where the money is.
    One of the reasons we are more effective is because we are 
working better through the field offices. We have worked the 
last year, Jane Garvey and myself, and Mr. Slater in his 
previous role, to talk about common visions and how they fit 
together and to get rid of any overlap to make sure we maximize 
our resources and find how to improve our different resources.
    As a result, we have been able to deliver programs better. 
We are working together building safe communities. We have done 
the Moving Kids Safely conferences, and we have various 
programs and teams that are working together in the field. I am 
actually very thrilled about that.
    We have a number of difficult issues ahead. We have a 
concern that as the economy goes up there is more exposure, 
there are more miles of travel. We have an aging population. We 
have a second baby boom coming. Overall this agency has dropped 
traffic deaths dramatically since 1966, but it has stagnated 
somewhat over the last few years. That is one reason we changed 
our approach and expanded our constituency. It is simply too 
big a problem to be a small group's problem. It is everyone's 
problem and everyone is part of the solution and so therefore 
we are trying to do that.
    The direct cost of highway crashes is still over $150 
billion a year and $17 billion of this cost is just in health 
care. The taxpayer portion is about $14 billion a year. There 
are no easy fixes. We need more complex effective measures to 
deal with the trends that I have mentioned above. We have 
created an effective program for FY 1998 and we request the 
resources to implement that.

                          NHTSA BUDGET REQUEST

    This year we are requesting $333 million which is about 11 
percent higher than the amount enacted for FY 1997. This 
reflects the high priority given to safety by this 
Administration and the role, quite frankly, that motor vehicle 
injuries play in the entire transportation system, 94 percent 
of the fatalities and 99 percent of the injuries are motor 
vehicle related.
    We have a balanced program. That is, we address both the 
vehicle and behavioral safety arenas. We carry out strong 
safety research and we study how to reduce crash injury. We 
also have a very strong behavioral program to go hand in hand 
with the reasonable use of regulatory approaches. Both are 
important safety tools.

                              SAFETY BELTS

    Safety belts are a major priority for us and we have been 
building a constituency to make that happen. Stronger safety 
belt laws and stronger child seat laws we think are very 
important. The key to implementing this is working together and 
using tools like the child safety video in our coalitions to 
influence policy makers, as well as those who fail to use seat 
belts.
    The low use of seat belts and child seats means that we are 
failing to fully use one of the most effective tools for 
reducing traffic death and injury. We have put a strong focus 
on child passenger safety. The video that we have talked about 
is now going out both in English and in Spanish. We also had a 
very successfully Child Passenger Safety Week this year, and it 
is growing each and every year.

                             AIRBAG SAFETY

    We issued a proposal in February to simplify child seat 
installation in passenger vehicles by the use of uniform 
anchorages. As you know, a lot of our discussion will be about 
air bag safety. It has been a top priority for us. I have 
initiated a comprehensive effort to fully realize the 
lifesaving attributes of the passenger and driver air bag 
systems and to pave the way for the introduction of advanced 
air bags in the near future.
    Our effort relies on both educational programs and also 
research and regulatory programs and working together with all 
the resources available to attack this problem in short order. 
I think we are making great headway in a short period of time, 
thanks in many ways to the support of you and to others who 
have worked with us on this issue.
    Our budget therefore contains an increase of $8 million for 
air bag work and this is my top priority increase for fiscal 
year 1998. In the safety behavior area, the biggest risks focus 
on drunk driving, speed management, and other forms of 
aggressive driving, in addition to child seat and seat belt 
use.

                            SAFE COMMUNITIES

    We are working collaboratively with the states. The safe 
community programs continue to grow. This allows people to work 
together to solve their own problems with best practices from 
around the nation. We are very proud of that program. It 
continues to grow. We started with zero two years ago. We are 
up now to over 200 programs. We have a new goal for an 
additional 200 next year. We began meeting with groups 
representing different cultural diversity in various parts of 
the states that we have not worked with before. By working 
closely with the governor's highway safety representatives, I 
think we will get there.

                              DATA LINKAGE

    We are also providing grants to help states create and link 
crash data and medical data systems to provide new insights 
into safety issues to help reach program decisions. As reported 
to the Congress, we found that by linking certain data types, 
we developed precise information at the state level for the 
first time on the true cost of not buckling up or not 
implementing a motorcycle helmet law. This could be a powerful 
motivator when a state considers the wisdom and benefits to be 
gained by strengthening the child seat law.

                         DRUG AND YOUTH SAFETY

    Our budget also has increased support for drug and youth 
safety and incentive grant programs for strengthening the seat 
belt and alcohol provisions. With regards to research and 
development, our behavioral initiatives alone cannot prevent 
crashes or prevent injury from such crashes once you are in a 
crash. There is a tremendous amount of energy in that crash and 
you can mitigate that through good research design.

                            KEY INITIATIVES

    We need to continue to pursue vehicle solutions in areas 
such as frontal offset crashes and rollover as well as advanced 
smart air bag systems. I would like to complete my statement by 
highlighting a few key initiatives planned in our research 
program. As mentioned earlier, we are seeking an increase to 
support research into new smart air bag systemsbeing developed 
in conjunction with the private sector.

                         BIOMECHANICS RESEARCH

    We are also intensifying our work in the National 
Transportation Biomechanics Research Center in order to gain a 
better understanding of how injuries occur and how we can 
prevent them. To strengthen our insight, we have combined the 
expertise from medicine, engineering, and vehicle design.
    I am pleased to present this budget to you for 
consideration and I would be pleased to answer any further 
questions from the subcommittee. Thank you.
    [The prepared statement and biography of Ricardo Martinez; 
senior staff biographies; and NHTSA budget-in-brief follow:]

[Pages 28 - 77--The official Committee record contains additional material here.]


              Flexibility and Discretionary Grant Programs

    Mr. Wolf. Thank you very much, Doctor. We have a lot of 
questions today so we will try to move quickly and I will ask a 
couple of questions and then recognize the other members. If 
one goal, Ms. Garvey, as you mentioned, is to increase the 
flexibility provided to the states and localities so they can 
address their individual local transportation needs, why has 
the Department proposed a number of new categorical, 
discretionary grant programs, such as the flexible highway 
infrastructure safety grant program, $403 million, the 
intelligent transportation integration program, $100 million, a 
set-aside for the Appalachian highway development for $200 
million, and an integrated safety planning program, $50 
million, which effectively limits states' flexibility and 
reduces funds allocated to the states by over three-quarters of 
a billion dollars?
    Ms. Garvey. Well, let me address the first part. You are 
absolutely right in recognizing the Administration's commitment 
to flexibility. For example, in the Surface Transportation 
Program, we have added eligibility for Amtrak and for publicly-
owned freight rail so that states and localities can make 
choices that work for them.
    Let me take the discretionary programs one by one. In the 
area of safety, the incentive program that we are proposing 
encourages states that have localities that are working 
together to improve coordination of their safety management 
programs because we think that is very important, so we're 
proposed an incentive program.
    We think in the area of safety it is important enough to 
warrant its own incentive approach to safety management. In the 
area of ITS, what our research has shown and what some of our 
work with our stakeholders has shown is that we need to 
encourage deployment but we need to encourage deployment in a 
very integrated way so the programs that we have set up advance 
those goals that we think are important nationally.
    Mr. Wolf. But it does limit the states' flexibility.
    Ms. Garvey. Well, I think the added flexibility of the STP 
program and--even the NHS, is going to be very well received. 
In the core programs which have gone up in proposed funding by 
about 30 percent, we do have some additional flexibility and I 
think that is important.

                          APPALACHIAN HIGHWAYS

    Mr. Wolf. I have not seen the bill. All I know about is 
what I read in the paper but I saw a little news flash last 
night. You have included $2.1 billion for Appalachian regional 
corridors which I know will make Senator Byrd of West Virginia 
very happy.
    Ms. Garvey. $200 million.
    Mr. Wolf. But over the life of the bill what is it?
    Ms. Garvey. Over the life of the bill?
    Mr. Wolf. $2.1 billion?
    Ms. Garvey. Yes.
    Mr. Wolf. So it is not $200 million, it is $2.1 billion?
    Ms. Garvey. Right.
    Mr. Wolf. Does this funding come out of the states' formula 
or is it above the allocation?
    Ms. Garvey. It is above, and there are 13 states involved 
in that. This honors a long-term 30-year commitment that this 
Administration and previous Administrations have had to the 
Appalachian area and we think this will move those projects 
closer to completion. That is very important and has been a 
longstanding commitment.

                      NEXTEA STATE APPORTIONMENTS

    Mr. Wolf. But areas of the nation are in gridlock. As you 
quickly look at the state allocation tables released with the 
President's announcement, I am struck by the fact that the 
state allocations as a percentage of total apportionments 
remain virtually unchanged from ISTEA.
    Population growth states see no increase in their 
allocation. For example, Georgia is up a little over a tenth of 
a percent. Virginia is up a little over a tenth of a percent. 
Texas is up almost two-tenths of a percent. And states like 
Arizona, Maryland, North Carolina, Wisconsin and Florida, all 
of which have had significant population growth and the 
congestion over the last several years. In fact, Florida 
actually receives less than they did in ISTEA.
    These states are also donor states and states like New 
Jersey, Pennsylvania, and New York all get increases. Given 
these allocations, how does the Department answer the charge 
that the new formula is more of the status quo and it ignores 
need, population growth and the state's contribution to the 
trust fund?
    Ms. Garvey. I think the formulas are probably the most 
difficult issue that we are going to wrestle with as we go 
through the discussion on the bill. What we tried to do with 
our formula is to strike a balance. We looked at each one of 
the categories. We left the interstate maintenance and the 
bridge formulas pretty much intact. The NHS and the STP we made 
some changes to.
    Last year at our hearing before your Subcommittee you 
pointed out how outdated, for example, the population numbers 
were. We have updated those and are proposing to use the most 
current population numbers which we think is a step in the 
right direction. We havetried to balance needs of both the 
donor and the donee states. It is a very, very tough balance to strike.
    And I would say that we do not see our formula as being 
cast in stone, but we hope that they will be part of the 
debate. We know there are lots of numbers our there and lots of 
different approaches particularly on the equity pieces. We want 
to be part of that debate.
    Mr. Wolf. It will be very difficult. How could the state of 
Florida ever support this?
    Ms. Garvey. The state of Florida will probably have a 
different approach. I agree with you.
    Mr. Wolf. Would the states of Georgia, Arizona, my state--I 
think you really did miss an opportunity.
    Ms. Garvey. I think if you look at the numbers, 26 states 
do better, and we have struck a balance. It is a very tough 
balance. I agree with you. Again, we have discussions going 
with different staff members about other approaches that might 
work as well. I think the updated factors are an important 
component and I think that in particular is going to be very 
helpful.

             Trust Fund Contributions versus apportionments

    Mr. Wolf. Would you submit a table showing each state's 
return on taxes paid into the trust fund?
    Ms. Garvey. Yes, we can do that for the record.
    [The information follows:]

[Page 81--The official Committee record contains additional material here.]


                       New Discretionary Programs

    Mr. Wolf. The last question I will have and then I will 
recognize Mr. Sabo. The Administration has proposed a number of 
new discretionary programs including border crossing and trade 
corridors, transportation infrastructure credit, ITS deployment 
programs. In the aggregate, how much additional funding will be 
available to the Secretary to make discretionary grants 
currently available?
    Ms. Garvey. Let me ask Mr. Kane to provide that final 
number. I may have to get that for the record. All of those 
discretionary programs that you listed are new programs.
    Many of them grew out of the regional meetings that we had 
over the last year. As you know, we had 13 regional meetings 
across the country. We had about 150 focus groups working with 
state and local officials on what works, what did not, what 
recommendations would they have.
    We heard a great deal about border issues. We have proposed 
a small amount of money, but we think it can provide a magnet 
for private capital. It can provide an incentive for states to 
consolidate and coordinate their efforts along the border so it 
acts again as an incentive.
    Much of what we are trying to do is to move towards 
incentive programs and performance-based programs. We think 
that is an important component. And, again, a lot of this is 
what we heard from the focus groups and regional forums that we 
held over the last year. Do you have the total number, Tony?
    Mr. Kane. Mr. Chairman, we have proposed approximately $445 
million if you take a look at the ITS deployment program which 
is $100; the corridor program, $45 million; infrastructure 
banks, $150 million; credit program, $100 million; and the 
integrated safety planning incentive program at $50 million--so 
$445 million.
    If I might just add on the formulas, if I could, the issue 
on the core programs, National Highway System and the Surface 
Transportation Program, the adjustments really move towards 
trust fund contributions and population level. I think the real 
issue will come, as Ms. Jane Garvey mentioned, with regard to 
various definitions of equity and equity adjustments.
    But in terms of reforming the core programs, National 
Highway System and Surface Transportation Program, I think the 
Administration makes a real advance in terms of moving in the 
direction of activity and population change and trust fund 
contributions.

                     Appalachian Regional Highways

    Mr. Wolf. I think of the areas of the country that are just 
gridlocked, just gridlocked, where you cannot even move. Around 
here in my region we are the second most congested region in 
the country, I think LA and San Francisco, Phoenix and Atlanta 
are near the top. Would the money for the Appalachian regional 
highways just come off the top so it would be guaranteed $2.1 
billion in total?
    Mr. Kane. Mr. Chairman, yes, it is over and above. Our 
basic apportionments, however, are some $3 billion above what 
the ISTEA ones were. What we propose in the Appalachian 
highways is to change the current process, with both general 
fund and trust fund authorizations each year. It would all be 
trust fund authorizations in the Administration proposal.
    Mr. Wolf. In doing so, you are shortchanging the other 
growth areas of the nation.
    Mr. Kane. Appalachian road needs, which will be finalized 
in a few months, will probably be about $7 billion, so the 
level over the six-year bill of $2.1 billion is a small stretch 
towards that.
    Mr. Wolf. Some of the Appalachian roads are not even 
supported in the region any more completely and I do not know 
what you tell the other areas of the country. I mean it begins 
to be--well, anyway, we will talk more about it. Mr. Sabo.

                             Bicycle Safety

    Mr. Sabo. Thank you, Mr. Chairman. I have a couple of 
questions at this point. First to Mr. Martinez, I am struck 
that in your budget one area that does not seem to get the 
priority I think it should have is bicycle safety. Congress 
over a period of years has been involved in promoting bicycle 
usage, coordinating it with other transportation programs. I 
have to say that the FHWA has been most accommodating and moved 
from reluctance to building that into their program which I 
think is very good.
    But we have more fatalities from bicycle crashes than we do 
in all areas--than we do I think in aviation, railroad or 
maritime activities. And it is a growing problem, and a number 
of them involve young people.
    I think the growth of the use of bikes is both good 
transportation policy. It is also good recreation. It serves 
both roles.
    But in terms of safety priorities, it clearly is a 
significant problem that we need to pay more attention to. I 
know you have some funds and some proposed increase, but 
frankly not enough.
    I think air bag safety is very important. But in terms of 
number of young folks involvedbiking involves a substantially 
greater number of fatalities and injuries for young people. I hope that 
you would re-examine and place some higher priority on aggressive 
education programs like bike safety.
    Mr. Martinez. I appreciate your thoughts quite a bit 
because that is an area we are very interested in. I am sorry 
it does not reflect as well as it should. Perhaps a quick 
review of the budget. Let me tell you about some of the 
programs that we have focused on, and one of those that is most 
important because of the effectiveness, is the bicycle helmets 
program.
    We have a program with the National Football League that is 
done at the Super Bowl every year, Ride Like A Pro. We did one 
in Arizona which was very nice actually, and the NFL camera 
crew came to help film so that we could distribute it. We give 
away free helmets--we did it in Georgia the year before. Now we 
are trying to bring the program out to the communities through 
collaboration not just with the NFL, but through role models 
who wear helmets in sports. We want to help get over that peer 
pressure problem that children have.
    And that is going quite well. We had funding for the 
Partnership for Walk America which looks at some of the issues, 
such as where do you ride bicycles. One of the concerns we have 
often times is that children buy their bikes in toy shops, and 
then they are told they cannot ride them on sidewalks so they 
have to ride them in the streets.
    We have addressed that issue by working intermodally, 
looking at three things; the rider, the vehicle, and the 
environment. As we work on safe communities, bicycle safety is 
a part of that safe communities outreach. We also have begun to 
work with the American League of Bicyclists. They have been 
very supportive. They have a program that is teaching youths 
about bicycle safety.
    We have increased our funding for that from about $473,000 
overall on bicycle safety up to $655,000. We are trying to 
strike a balance. We are also trying to leverage our dollars by 
working with the Department of Health and Human Services more, 
and this has been an issue also for the Moving Kids Safely 
conferences. I can assure you that bicycle safety was addressed 
in all ten regional conferences around the country last year.
    But I agree with you, this is actually kids' 
transportation. The other interesting thing is that the growing 
number of major injuries and deaths are actually occurring in 
adults because it has become more recreational. We are 
concerned about two things; bicycle helmet use, and development 
of roads where bicycles can be ridden safely.
    I can tell you that when I was at Stanford, I rode my 
bicycle to work often nine miles, and I was in bicycle lanes 
most of the way except for about 100 yards total. When I moved 
to another city, I could not ride my bike simply because there 
was not an environment that was friendly for that. I had a 
helmet but I needed more than that, I think, to be safe.
    So trying to balance all of our programs, we have included 
an increase to help focus on those issues. I am glad you 
mentioned that.

                     Highway Apportionment Formulas

    Mr. Sabo. I personally think it should be receiving even 
relative greater emphasis within your budget.
    Ms. Garvey, I do not envy you as you try to figure out 
distribution formulas. There is no perfect formula. I come from 
a state that is in the middle. We were a donor or donee three 
years and the opposite two years out of the last five.
    But we would like to have as exact a formula applied to how 
defense funds flow in this country. Somehow we come out very, 
very short on where those monies are spent and lots of federal 
spending where the inequities are much more substantial than 
they are in the highway program.
    But I am curious. As you do look at this question of the 
relative balance between what is paid locally and what comes 
back, how are you dealing with the issue of other methods and 
other fuels for automobile transportation? Is that factored 
into your formula?
    Minnesota relies heavily on ethanol. I am increasingly 
concerned that as ethanol use that escalates, it will reflect 
an even lower effort in the traditional method of allocating 
federal gas tax receipts. I would assume the same would be 
happening in other states--for example, in California with the 
use of electric cars. We are mandating the use of alternatives, 
which I assume put the same kind of demand on the highway 
system, but will not be showing up in revenues for a number of 
gas tax collections.
    I expect there are other complications like these that we 
will be facing in the next several years. Do you factor these 
into your formula?
    Ms. Garvey. I think it is a very fair question. It is 
something we look at. It is more long-term in its implication. 
It is not yet factored into this formula because it is a more 
long-term issue but it is one we are watching. It is one we 
have done some research on and we are going to continue to 
watch that. It is a fair observation. We may have to rethink in 
years to come how we approach that very basic issue.
    Mr. Sabo. Well, I would hope you would do some quick re-
examination. The percentage of ethanol used in our state is 
already significant. I am not sure where that type of 
alternative energy in our other states is headed, but it is a 
significant amount already. And it can skew the donor and donee 
state relationships, particularly in regard to the 90 to 95 
percent requirements.
    I expect that as you deal with the authorizing committees 
that question will be coming, and I think you should be looking 
at ways to deal with it. Thank you.
    Mr. Wolf. Mr. Olver.
    Mr. Olver. No.
    Mr. Wolf. Mr. Pastor.
    Mr. Pastor. Good morning.
    Ms. Garvey. Good morning, Congressman.
    Mr. Pastor. I want to thank the Chairman, first of all, for 
taking on the issue of the formula and obviously youcannot find 
the perfect formula but I think you need to move to a formula that is 
equitable in terms of where the population is shifting. Some of the 
concerns that we are facing, as Chairman Wolf repeated a number of 
times, in Arizona because of the growth, we are finding ourselves with 
a need to improve our transportation modes.
    And we also have the concern of EPA and clean air trying to 
meet their requirements so we have gone to ethanol now more and 
more as a major form of fuel that is consumed and even though 
you are looking at it in the long run we also have the same 
problem that we need to find some relief in the short run 
because these issues are all putting demands on us in a growing 
state.
    I know there is a form of payment that becomes very popular 
in the education system. Maybe you ought to look at it in 
transportation, vouchers. As people move from the Northeast or 
Midwest into California or Florida or other states maybe they 
ought to carry a voucher with them to pay their transportation 
aids.
    But I would hope that as we continue the debate, and I was 
happy to hear that these formulas are not set in concrete, and 
we will continue the discussion and we look forward to 
participating with you because in Arizona I think it is 85 
cents returned on the dollar. I think that is the figure I have 
seen. But we have those needs and we look forward to working 
with you.
    There are three issues I would like to talk about and one 
of them, I have a new status in my life of having a 
granddaughter and most recently wanting to insure that when she 
travels from Tucson to Phoenix that she would have a safe chair 
as she was driven in the automobile. But I have to tell you I 
am not much of a shopper, but I looked around and I had a hell 
of a time finding one that was safe in terms of you look at it 
and it tells you how it fits on the seat but you really are not 
told--it is very difficult to ascertain how safe it is. You 
look at the frills and the colors and the animals.
    But the question I have after being through that 
experience, is there an effort to bring a more standard type of 
child safety seat so that those of us who are consuming this 
product know for sure that it is safe and that our loved ones 
are going to be safe in case they are involved in an accident?
    Mr. Martinez. I think you are exactly right. I am a new 
father since I have been in this position, and had to go into a 
place where there were 100 seats and understand which ones were 
approved and not approved. Unfortunately, they also put baby 
carriers in the same area often that they sell the seats.
    We have over 100 different types of seats out there. And 
there are over 900 different cars. The other issue you did not 
raise is compatibility. If you buy the seat, you have no idea 
whether it really fits in your car and how to install it.

                           child safety seats

    Mr. Pastor. Because they do not let you take the chair or 
the seat out to the----
    Mr. Martinez. And you will appreciate this, in my previous 
life, trying to educate doctors back in California, I actually 
got thrown out of a store because of the same issue. They 
thought I was writing down prices, because I was photographing 
everything. There was so many things to do to get the proper 
information. There was too much information.
    Right now for us to train our trainers to go out and teach 
people how to put their seats in, takes us four days. We have 
just worked out a deal with Safe Kids to do an accelerated 
program in two days. That to me is a concern for us to keep 
involved as the marketplace expands and focuses on the people 
using these products.
    We put together a blue ribbon panel two years ago and 
brought the car seat manufacturers together with car 
manufacturers. We talked about that issue. We brought in 
engineers, consumers, medical people and educators. Their 
number one recommendation was that we make it simple to use the 
seats, like buying an appliance, you can take it home no matter 
who makes it and it works.
    We have now proposed that. The notice came out in February. 
The docket closes in May. We expect those child seats to be in 
the marketplace as early as 1999 or before. Also, we tried to 
make more information available to the dealers and we actually 
have a program. We talked about bringing people together. I do 
think that bridging the gaps does help.
    We have a program called Adopt a Dealer where emergency 
nurses are working with dealers to do that. We have also 
upgraded our standards. I think the point you are making about 
when they sell car seats they should be able to say which ones 
meet federal standards or make sure there is a label on them. 
This is something we are very interested in. How do you let 
people know which ones meet the federal standards easily and 
understandably?
    We are focusing very much on consumer information. My hope 
is that within the next 18 months or so, you will see more 
uniformity in how seats attach to the cars. Then you do not 
have to learn a new system every time you move from your car to 
your daughter's car or another person's car. They will be 
better labeled, so that people understand.
    We also have a tremendous amount of public education 
efforts underway now because unfortunately 80 percent of the 
seats are used improperly.
    Mr. Recht. If I could just add one thing to that. We are 
also working on a CD-ROM program that would help solve a 
problem that Dr. Martinez alluded to which is this 
compatibility problem. The CD-ROM program would be available at 
dealers and you could plug in what kind of car you have or what 
kind of seat you are about to buy and see if in fact they fit 
together. And over the next year or two, we hope to finalize 
that and get that out. That will make a big difference.

                 child seat resources for the indigent

    Mr. Pastor. Before I came to Congress, I was county 
commissioner, county supervisor, and we had indigent health 
care as a responsibility and one of the things I saw there, and 
I still see today, is there are many families who do not have 
the ability to afford these seats. Is there an initiative that 
you have proposed or have implemented that would help provide 
for temporary use so that indigent mothers would have access to 
these child safety chairs?
    Mr. Martinez. Yes, sir, we do. The cost of the seats is 
around the $40 to $60 range, and for the indegent, we want to 
make sure those children are safe. We have done several things. 
With the GM settlement, we basically began to distribute car 
seats.
    Mr. Recht. Over $6 million has been spent so far to 
purchase----
    Mr. Martinez. And the interesting thing about it is that we 
have actually got case reports now of children who have been 
basically saved by the child seat that has been given to them. 
We have just signed off with additional groups to distribute 
seats. We expect to receive more funding in the near future.
    We also have a Patterns for Life program which basically 
augments public-private partnerships to do this at the local 
level; We are trying, as I said, to bring groups together. We 
are also working through Department of Health and Human 
Services. There are some places where they make it eligible 
using Medicaid funding to buy the seats and we even have 
stories where children have been saved from those.
    It is interesting because the leading cause of disability 
in youth is motor vehicle related. We are also trying to bring 
groups together so there is a larger purchasing power so they 
can get seats made at a lower price. That is one of the things 
we did with the General Motors agreement; there is a big effort 
to do more of that as proposed in our budget. That is the 
Patterns for Life Program and we are using that as a way to 
help coordinate all those efforts.

                           speed limit issues

    Mr. Pastor. The second area I would like to visit is the 
speed limit.
    Mr. Martinez. By the way, I just want to make a simple 
point in that we believe there is talk about driver's 
education. We believe passenger education is really the focus 
here. We are working with hospitals also, so that a child can 
come home with a proper child seat. I also wanted to compliment 
this committee, especially Mr. Wolf, with helping us put 
together these videos which inform parents about that, and also 
educate them on how to put the seats in properly from the 
moment that child is getting ready to leave the hospital.
    Mr. Pastor. We have gone from 65 to 75 and as I drive 
throughout the district probably now people are driving at 80, 
85, and sometimes a little higher. What have statistics shown 
as a result of the increase in the speed limit in almost I 
think all the western states?
    Mr. Martinez. Well, it is a mixed bag right now and one of 
the reasons why, is that with the national maximum speed limit 
being repealed, it also got rid of the requirement that states 
report a lot of different data.
    The second thing is that some states have changed speed 
limits on different types of roads and also at different times 
of year so it is going to take us a little bit longer to give 
you any sort of broad picture. I can tell you that early 
information shows an increase in fatalities. There are 
significant increases in fatalities on roads posted over 55 and 
a decrease in those below that. But whether that is due to the 
speed limits or something else, we cannot really tell you right 
now.
    The other thing that is important as we look at the 
different states is that some of them are increasing 
enforcement and some of them not, so speed control is a central 
issue to look at. I was actually in the back seat of some 
police cruisers in Arizona last year, and they have an 
aggressive driving task force in Phoenix which I think is well 
received. There is a lot of public information about it. They 
announced it over the radio. People know it is coming. And I 
think that makes a difference on being able to control speed.
    Certainly in areas where you do not have speed control, 
speed creep comes about. I think that is human nature. People 
tend to respect what you inspect. We will have a report ready 
as requested by Congress probably in September or so, but I 
think what we are trying to do is work with the states, to help 
them manage the issues of speed and working with our partners 
on that.
    Mr. Recht. If I can just add also, we were just passed a 
note that, according to our statistics, in calendar year 1996 
the fatalities in Arizona in fact dropped. But just to add to 
Dr. Martinez's point, when we talk around the country about 
aggressive driving enforcement, Arizona has one of the model 
programs. It is very effective.
    Mr. Martinez. Just be concerned, a drop in numbers always 
varies. It is the rate we have to look at, and we cannot 
determine that until we get the exposure numbers.
    Mr. Pastor. As I drive either between Phoenix and Tucson 
down to Nogales or to Yuma which is long stretches of road, you 
just see that everybody is now just hiking it up a little 
higher and 75 now is probably----
    Mr. Martinez. Everybody hedges a little bit.
    Mr. Pastor. Everybody hedges a little bit.
    Mr. Martinez. And I have to tell you, one of the things we 
have to make sure is that we give law enforcement the resources 
to do something about it. We have seen--in the last decade--the 
number of miles traveled increased by 35 percent on essentially 
the same roads with no increase in law enforcement. I think 
many times those of us who are driving the roads and wondering 
why the travel is somewhat unruly, tend to notice that there is 
no law enforcement there. As soon as you have one--even on the 
side of the road--writing a ticket, everyone suddenly obeys the 
speed limit. We are looking for ways to help work with law 
enforcement to leverage their resources through technology or 
whatever we can.

                           aggressive driving

    Mr. Pastor. The other phenomenon I have seen more and more 
is this aggressive driving where people cut each other off and 
then before you know it there is a pursuit and they are 
barreling down the freeway chasing each other and then I read 
most recently, I guess here in D.C., you had that problem where 
some deaths have occurred because people have been--what are we 
doing to minimize that because I see that increasing more and 
more and I do not know what the solution is but what are your 
recommendations?
    Mr. Martinez. Well, this is really a good area. We work 
cooperatively with the Federal Highway Administration. We see 
the car as a 3,000-pound weapon with an on button essentially. 
Everyone thinks they are in total control of that vehicle, but 
in truth when you drive aggressively, you increase the risk for 
everyone.
    And, again, this goes back to the fact that we have got 
less law enforcement on there. People have less belief they are 
going to be caught. I was back in New Orleans for the holidays 
and noticed that I was driving the same roads that were there 
when I was a kid except it is now bumper to bumper. So people 
tend to cut in front of each other and drive on the side of the 
road. It isnot just New Orleans, it is everywhere.
    We have actually done several things. Number one is to try 
to increase the awareness of the problem through campaigns. 
Number two is to begin to work with law enforcement to begin to 
do things that can help them create some additional presence as 
well as campaigns with the Federal Highway Administration such 
as the Red Light Running Campaign amd looking at automated 
speed enforcement. Where people know that there is a compliance 
mechanism, they are more likely to address the issue.
    We also have some studies ongoing on best ways to support 
law enforcement or ways they should attack it. For example, in 
Arizona they have an aggressive driving group. Maryland has a 
program and California has a program. We have contracts with 
them to do evaluations, and our job is to try to find best 
practices and disseminate the information.
    Lastly, it is not just a matter of law enforcement, it is 
also one of adjudication. We get a little bit concerned when 
people are caught driving aggressive and essentially killing 
other people. It escalates. And then the legal system gives 
very minor penalties or lets them go. They say it is an 
accident and there is nothing you can do about it.
    And then what happens is that it becomes a low priority for 
enforcement because they do not have support through the 
courts. We are working with the judicial system to look at that 
also. Lastly, we are beginning to look at what the penalties 
are, and whether or not we need to make recommendations to 
increase those penalties. I think this is a very important 
tool. If you want judges to do the right thing, we need to give 
them the tools.
    There was a case recently in Maryland where a gentleman was 
doing 60 miles per hour in a 30-mile per hour zone. He lost 
control of the vehicle, as one would predict. He went into a 
bus stop, killed a mother and four children, and his penalty 
was about $2,000 in traffic fines. Clearly, the judge was 
hampered somewhat in his ability to do anything.
    The case in Washington, D.C. I think was a little bit 
different. The judge went beyond the sentencing guidelines in 
order to make the effort. We have to try to work with law 
enforcement and the judicial system to do that.
    Mr. Pastor. Thank you very much. Thank you, Mr. Chairman.
    Mr. Wolf. Mr. Olver.
    Mr. Olver. Thank you, Mr. Chairman. I will learn eventually 
to just take my turn whenever you are willing to give it, I 
suspect, but my colleague from Arizona had been here first. I, 
first of all, just want to welcome Administrator Garvey. It has 
been quite a few years since we have sat across the fiscal 
tables from each other in the role that you previously 
performed as Public Works Commissioner in Massachusetts and 
where I was in the similar fiscal committee in the 
Massachusetts legislature and I am certainly looking forward to 
four years of being in this position again and with the kind of 
working relationship that we have had in the past.
    I have a couple of commendations and a couple of questions 
and maybe just a general comment, though I could go on, 
especially out of the previous discussion that my colleague was 
having. First, Ms. Garvey, it is almost impossible not to call 
you Jane. If you do not mind, I will.
    Ms. Garvey. You would be the only one who is not.

                  ISTEA Reauthorization Funding Levels

    Mr. Olver. Okay. I notice that the FHWA under Secretary 
Slater, than Administrator, and your leadership, I am using 
your testimony, has used the Work Force Restructuring Act and 
have to its fullest and been able to reduce the number of what 
are called management control occupation positions and that you 
will meet the national performance review goals for reduction 
there by the year 1999, and I certainly want to commend you for 
that leadership that you and he have provided in that area.
    I also want to commend you for the additional flexibility 
that is provided in the NEXTEA proposal. And I do not want to 
get into the precise details of that. That takes a little bit 
more time. Let me just ask one question. Early in your 
testimony, you had pointed out that the last four year which is 
a little bit different from the ISTEA authorization but I 
understand where four-year sections of time come from, that you 
had pointed out that the average federal commitment in the four 
years from 1990 to 1993 was $21.1 billion and then for 1994 to 
1997 it has been $25.5 billion.
    Under the ISTEA proposal, what would be 1998 through the 
year 2001, I guess that next four-year period? What would the 
average be under the proposal that you are putting forward?
    Mr. Kane. It is essentially equal. Those were grand totals 
of all infrastructure funding within the department. If you 
take a look at authorizations that we have in the core highway 
programs, we are increasing authorizations about $3 billion a 
year in those programs, but the numbers you cited were overall 
levels. These levels were proposed in the context of the 
balanced budget.
    Mr. Olver. Well, I take it your answer--you may want to put 
this in greater detail for the record but----
    Mr. Kane. Absolutely.
    Mr. Olver. For the record, your answer is that for the next 
four years it would be essentially level with what it has been 
for the last four years?
    Mr. Kane. In terms of spending based on today's forecast. 
Within the context of balanced budget, we have built-in 
authorizations to go to a higher level.
    Mr. Kane. We will give the detail.
    Ms. Garvey. Right. We can provide more detail but I think 
that is an important point that Tony last made. We have 
provided the authorization levels that are higher in the hopes 
that if the budget conditions improve we have room to move 
there, we can reach those resources if that becomes the case.
    [The information follows:]

    Funding under the Department's reauthorization proposal for 
FY 1998-FY 2001 are as follows: $29,088, $29,030, $28,894, and 
$28,853. The average over this four year period is $28,966.

    Mr. Olver. Well, all right. I am quite willing to accept 
the complexity of the answer but I do point out that in the 
paragraph on page three of the testimony, the first full 
paragraph there, annual federal investment in transportation 
infrastructure increased by 21 percent in the past four years 
from an average of $21.1 billion in fiscal years 1990 to 1993 
to an average of $25.5 billion in fiscal years 1994 to 1997.
    So I guess I am trying to put a number before the fact as 
to what those projections would be--recognizing that for the 
years 1998 through 2001, given the fact that whenever one 
projects into the future you have to depend upon whatever the 
authorizations and whatever the law is that is passed. You can 
always look back with certainty. But I was wondering what your 
plan was for the next four years, and I recognize that there 
are uncertainties in how that answer has to be given.
    Let me make then one comment. I have to enter into the 
conversation that my colleague from Arizona was having in 
regard to the formulas. Everybody can look at those formulas 
and once you have gotten down in numbers you are in deep doo-
doo. But my colleague said he was happy to see that the formula 
was not set in concrete but of course we will set it in 
concrete and when we have gotten done setting it in concrete we 
will have a whole series of problems, one in setting it in 
concrete we will have a whole series of problems.
    But one I would just allude to here. One of the key 
controversies of the way the last ISTEA formula was set up was 
that it used 1980 census figures, I guess, even though at its 
very inception we had already had the 1990 census and could 
have done better. And here in this next five-year period we are 
going to have another census part way through the time of the 
authorization.
    And particularly for a state such as Arizona just to use it 
as an example, it is rising in population so fast that while 
the original could have been only ten years out of date by the 
time you get finished with the authorization you are 15 years 
out of date as compared with where they were in the actual 1980 
census.
    And just using that as an example, I think it represents a 
case where these formulas ought to be flexible enough to deal 
with, you know, huge population changes that are occurring in 
some of the states and which will continue and which we know 
very much from the demography occurred during the course of the 
ISTEA period. So it is not a good thing that we set these 
things as much in concrete as we will undoubtedly do.
    Ms. Garvey. And, Congressman, let me just add that we 
provide for annual population updates so that it will be 
current.
    Mr. Olver. Well, you are to be commended then on that for 
providing that flexibility. With that, thank you, Mr. Chairman.
    Mr. Wolf. Mr. Tiahrt.
    Mr. Tiahrt. I have no questions at this time.

                Federal-Aid Highway Formulas and Factors

    Mr. Wolf. Last year, Mr. Slater stated that there were 
weaknesses in the current allocation of financial resources, 
that the formulas are mechanical, based more on political 
influence and should be ideally based on factors that reflect 
need and national program goals. How does the Administration's 
proposal reflect these needs and goals?
    Ms. Garvey. Mr. Chairman, in the Administrations 
reauthorization proposal we see a 30 percent increase in the 
core programs including interstate maintenance, the NHS and its 
intermodal connectors, the bridge program, safety, transit. 
There is a very strong commitment to those national priorities, 
and I think that is a strong statement for the Administration.

                      Systems Performance Measures

    Mr. Wolf. The current federal-aid highway programs all use 
formulas that distribute funds among the states according to 
system size, traffic or prior program expenditures. As a 
result, the allocation formulas tend to perpetuate the status 
quo, fail to reward states for road systems that are superior, 
and fail to assist states whose road systems are in disrepair. 
Therefore, states have not focused their road improvements 
programs directly on system performance. How will the 
Administration's proposed allocation formula changes 
specifically encourage states to focus their programs on system 
performance?
    Ms. Garvey. Let me mention a couple of factors. One is that 
in the interstate maintenance program, we propose a tightening 
of the preservation and the rehabilitation requirements of the 
system. In the bridge program there is a tightening of the 
ability to flex funds out because of the enormous needs that we 
see in the bridge category.
    Even within the NHS system, while we have retained the 
flexibility for flexing the first 50 percent of funds 
apportioned for the NHS, we have in fact tightened some of the 
maintenance provisions on the NHS. We have a renewed emphasis 
on maintaining and rehabilitating the system. Rehabilitation, 
maintenance, and rewards for doing the job well will result in 
inproved maintenance of the system.
    I might also add that another element is ITS, which is an 
eligible activity within all of those major categories. States 
are able to use those funds for ITS if they would like, which 
will improve to the operation and maintenance of the system.

                       State Administrative Costs

    Mr. Wolf. With regard to state administrative costs, the 
state highway systems vary widely in administrative costs from 
a low of 2 percent of disbursements in Nebraska to a high of 
over 15 percent in Maryland. Nationwide, administrative costs 
have risen 127 percent in the last 11 years, over three times 
faster than inflation and 37 percent faster than highway 
capital funding.
    Administrative costs now account for more than 8 percent of 
state highway disbursements. What actions has the Department 
taken or can they take to reduce the growth rate of state 
administrative costs and should there be an incentive program?
    Ms. Garvey. The approach that we are taking, Mr. Chairman, 
is really to highlight those places where things are working 
well. We are providing case studies to states wheretheir 
operations are performing effectively. Working closely with AASHTO, we 
have a very interesting effort underway where we are creating software 
that provides some techniques for states that are state-of-the-art, 
best practices.
    Mr. Wolf. What about incentives?
    Ms. Garvey. We do not have any incentives per se in place. 
I would also mention that operations costs of state highway 
departments vary depending on how they set up their operation. 
For example, the administrative costs are lower if they 
contract out a lot of their work. On the other hand, if they do 
more internally, the administrative costs may appear higher. 
Tony, did you want to add anything to that?
    Mr. Kane. I think that is it. There is a definitional 
problem with some of the analyses we have looked at because of 
the facts that Jane mentioned. And if you actually compare 
contracting out, you may or may not have gained in terms of 
total cost but on the state ledger you will not see staffing 
costs in the administration area.
    Another point is just that since it is fixed amounts that 
states get, it is in the states' best interest to be as 
efficient as they can because they are not getting any 
additional federal aid. And our approach now is to show and 
share good management practices. We are doing it a lot more. 
This sharing had been traditionally in the past mostly on 
engineering, but now we are doing it on management practices 
showing contracting out, where it works, where it does not, 
good maintenance management practices, et cetera. So we will be 
sharing case studies.

                         state level of effort

    Mr. Wolf. A newly released Department of Transportation 
study on level of effort shows that many donor states invest 
less of their own state resources into transportation than 
other states, while many of the donee states dedicate a greater 
percentage of their own resources to their highway programs.
    Should states be required to maintain a given level of 
spending from their own funds in addition to the federal grants 
they receive, or should existing level of effort be considered 
in the allocation of federal transportation funds?
    Ms. Garvey. We have done a study on the level of effort. 
Your observation is correct. The first bit of the study 
indicated that there had been a decline in the level of effort 
and that was a concern to us. A more recent update is showing 
that has stabilized somewhat.
    We also found in the study that this is a very complicated 
issue. It was very, very difficult to assess how to correctly 
evaluate the level of effort, so at this time we have not 
factored it into the formula. We would be happy to brief your 
staff in more detail on that report. It is an interesting one 
and contains interesting observations about the donee states 
that in many cases are pushing very hard with their local 
resources.

            eligibility of amtrak under federal-aid programs

    Mr. Wolf. The Administration's proposal makes Amtrak 
projects eligible for funding under the National Highway System 
and Surface Transportation Program categories. What makes the 
Department believe that the states will use this flexibility?
    Ms. Garvey. We are not sure what states will use it. We 
certainly heard from some that they are interested in it.
    Mr. Wolf. What states? Delaware?
    Ms. Garvey. I think Maryland has indicated--or Delaware has 
indicated a real interest in Amtrak. I think there are some--
California has suggested that at times it may use the option. 
Again, what we are trying to do is create some options and some 
flexibilities for states and localities to make their own 
decision.
    Mr. Wolf. To what extent, if at all, can states pay for 
Amtrak operating costs from federal-aid highway program 
categories?
    Ms. Garvey. This is for capital investments, not the 
operating costs.
    Mr. Wolf. Well, how would that work for Delaware then?
    Ms. Garvey. They would upgrade their track which would be 
part of the capital investment. That is at least what Secretary 
Canby has indicated.
    Mr. Wolf. But isn't the operating costs their greatest 
problem?
    Ms. Garvey. I am not sure how they would handle the 
operating costs. I would be happy to speak directly with Ann 
Canby about that. Tony has just mentioned they would probably 
shift some of their traditional operating costs.

                    istea reauthorization priorities

    Mr. Wolf. What are the FHWA's most important goals and 
priorities for the reauthorization of ISTEA?
    [The information follows:]

    NEXTEA is based on 9 core principles. The first is Putting 
Safety First. We have focused on three key areas: driver 
behavior, road design, and vehicle standards. The programs that 
we are proposing in support of this principle include the 
Flexible Highway Infrastructure Safety Program, the new 
Integrated Safety Fund, and the Motor Carrier Safety program.
    The second principle is Rebuilding America. To fulfill this 
principle, the Administration is proposing authorizing $175 
billion over 6 years, an 11 percent increase over ISTEA funding 
levels. We propose to significantly expand the core programs, 
such as Interstate Maintenance, National Highway System, Bridge 
Replacement and Rehabilitation, Surface Transportation Program, 
Congestion Mitigation and Air Quality Improvement Program, and 
the Federal Lands programs. We are also proposing to provide 
the States with greater flexibility in their use of funds, and 
to streamline the process.
    The third principle is Increasing Investment through 
Innovative Finance Tools. We propose to open the State 
Infrastructure Banks to participation by all States and provide 
$150 million per year in seed money. In addition, we have 
proposed establishing a new $100 million per year federal 
credit program.
    The fourth principle is Ensuring Global Competitiveness. We 
propose creating new programs to facilitate trade, e.g., border 
crossing pilot program, supporting new programs of national 
significance through SIBs and credit program, and expanding 
eligibility of programs to include access to intermodal 
terminals and access to ports.
    The fifth principle is to Improve Access to Jobs and 
Training. Our efforts include proposing a 6-year, $600 million 
program to support flexible, innovative transportation 
alternatives to get people to where the jobs are. Also, we wish 
to increase incentives to provide job training in conjunction 
with federal-funded technology and construction projects.
    The sixth principle is Protecting the Environment. We 
propose retaining key environmental programs (CMAQ, 
Transportation enhancements, Scenic Byways, Recreational 
Trails). NEXTEA increases funding for CMAQ and TE by more than 
25%.
    The seventh principle is Improving Transportation through 
Technology. NEXTEA funds at $100 million/year a new ITS 
incentive deployment program to help areas integrate ITS 
elements. IT also expands eligibility of program funds to 
include ITS and increases overall investment in technology 
research. FHWA's portion would increase about 20%, and focus on 
closing the gap between state of the art and state of the 
practice.
    The eighth principle is Strengthening Urban Communities. We 
propose sustaining investments in urban areas through the mass 
transit programs and surface transportation program. Our bill 
emphasizes technology that will provide needed additional urban 
travel capacity. Also, Welfare to Work programs will directly 
benefit urban areas.
    The ninth principle is Serving Rural Communities. NEXTEA 
strengthens the role of rural areas in the planning process. It 
also increases investment in core programs, such as NHS, STP 
and Rural Transit Assistance, which directly affect rural 
areas.
    Finally, it raises the authorizations for Federal Lands 
Highway Programs to $525 million (from $447 million).

           istea reauthorization nhtsa's goals and priorities

    Mr. Wolf. What are NHTSA's most important goals and 
priorities for the reauthorization of ISTEA?
    [The information follows:]

    The agency's overriding goal in NEXTEA (National Economic 
Crossroads Transportation Efficiency Act) is to reduce motor 
vehicle fatalities and injuries, and lower associated health 
care costs. NHTSA has worked closely with other DOT modes, 
including FHWA, to fashion an effective reauthorization 
proposal that cuts across intermodal lines to help achieve a 
safe and secure U.S. transportation system. Proposals for 
NEXTEA reflect the fact that safety is the Secretary's number 
one priority.
    The NEXTEA proposals must contend with the fact that motor 
vehicle deaths and injuries have increased in recent years, and 
the traffic fatality rate has ceased its decline and instead 
stagnated. A number of risk factors associated with crashes are 
evident: the number of older and younger drivers are 
increasing; use of alcohol and other drugs is rising, and the 
results are showing up in our crash statistics; safety belt and 
child seat use is still low; and speeding and other forms of 
aggressive driving have increased, as well as higher speed 
limits and attempts to weaken or repeal motorcycle helmet laws.
    NEXTEA needs to provide a balanced program for NHTSA that 
addresses both vehicle and behavioral safety problems, while 
providing a foundation for research, crash data and injury 
prevention activities. An active technical assistance program 
is required to support our safety partners in the states and 
communities, health and business arenas, educators, and safety 
advocates. This is consistent with NHTSA's role as a public 
health agency.
    A critical need in NEXTEA is to make an adequate Federal 
investment in highway safety, consistent with the top priority 
assigned to safety by the Administration. Coupled with this is 
our proposal to fund all of NHTSA's program from the Highway 
Trust Fund. NHTSA and FHWA incorporated flexibility for states 
to be able to shift their infrastructure safety funds to 
address other critical highway safety issues.
    A goal includes continuing a performance-based Section 402 
grant program that supports basic highway safety programs in 
states and communities. NHTSA's proposal also recommends 
continuing the use of incentive grant programs because 
incentive grants have proven effective in motivating states to 
enact stronger laws and begin better programs. The proposal 
recommends incentives for new laws, programs and safety results 
in the areas of impaired driving deterrence and increased 
restraint usage, plus new initiatives to strengthen state data 
systems, and institute programmatic and legal actions to deter 
drugged driving.
    Since behavioral programs alone cannot prevent vehicle 
crashes and crash injury, the reauthorization needs to provide 
an adequate resource base for NHTSA's initiatives in both 
vehicle safety and consumer safety information. National 
surveys indicate the public wants safer travel and an active 
Federal safety program, including strong vehicle safety 
standards. The agency's goal is to maintain our statutory 
ability to fulfill motorists' safety expectations, and provide 
a secure resource base for meeting vehicle safety 
responsibilities.
    A final goal for NEXTEA is to create a foundation of 
critical research for pursuing future safety initiatives in 
vehicle crash worthiness and crash avoidance, as well as 
behavioral areas. Priorities include linking vehicle safety 
engineering and medical research to learn more about preventing 
crash injury. High among our priorities are promoting ``smart'' 
air bags, collision avoidance under DOT's Intelligent 
Transportation System program, and intermodal human factors 
work using research tools such as advanced motion-based 
simulation. Continuation of national crash and injury data 
systems is also crucial.

                 effect of delayed enactments of istea

    Mr. Wolf. In testimony before the Senate, Deputy Secretary 
Mort Downey indicated that it was important to have the 
reauthorization bill enacted by October 1, 1997. What would be 
the immediate practical effect if enactment of a bill were 
delayed beyond the beginning of the fiscal year?
    [The FHWA information follows:]

    Even though the Intermodal Surface Transportation 
Efficiency Act (ISTEA) expires on September 30, and if 
legislation has not been enacted, the Federal-aid program will 
not immediately shut down because multi-year availability of 
contract authority apportionments that have been made to the 
States.
    We estimate that States would have a total of about $11 
billion in funds subject to the Federal-aid obligation ceiling 
that will carry over and be available for obligation until the 
reauthorization legislation is passed.

    [The NHTSA information follows:]

    The immediate affect would be on NHTSA's Section 402 grant 
and National Driver Register programs--those programs that 
require contract authority authorization. In the absence of a 
reauthorization or a continuing resolution that might extend 
ISTEA authorizations, funds for the states to administer the 
Section 402 grants program would not be available. Without 
administrative funding, States would not only be unable to 
start new Section 402 projects, but also would not be able to 
continue to administer projects that were implemented in prior 
years. The implementation of the proposed Alcohol Impaired 
Driving and Occupant Protection incentive grants programs would 
also be delayed--programs that are specifically targeted to 
address some of the agency's greatest challenges.
    The services of the National Driver Register (NDR) program 
would also be interrupted. States would be unable to obtain 
crucial information on problem drivers, information that is 
relied upon by state licensing officials in determining whether 
or not to issue a license as well as the FAA in issuing pilot 
licenses.
    NHTSA staff would also be adversely affected, as funding 
for field office and NDR staff salaries would not be available.
    A delay in authorization, unless other measures were taken, 
would have an immediate and unfavorable affect on highway 
safety and NHTSA staff.

    Mr. Wolf. Estimates developed by the FHWA indicate that 
there will be about $11 billion in unavailable contract 
authority due to annual obligation limitations at the end of 
fiscal year 1997. These funds would be available to fund a 
program after October 1, should no authorization be enacted. 
How long can a robust federal-aid program be continued with 
these balances, assuming the limitation on first quarter 
disbursements is continued? When would the individual states 
completely deplete their balances?
    [The FHWA information follows:]

    The States should not have major problems continuing their 
programs through the first quarter of FY 1998, though their 
flexibility may be limited if apportionments within a 
particular program categories have been depleted. If 
reauthorization legislation is not in place by January, it is 
likely that many State programs would be significantly 
affected.

    Mr. Wolf. Is it accurate that states could manage a fairly 
robust program through the first quarter without severe 
disruptions?
    [The FHWA information follows:]

    In general, States should not have a major problem 
continuing their programs through the first quarter of fiscal 
year 1998, though their flexibility may be limited if 
apportionments within a particular program categories have been 
depleted.

    Mr. Wolf. How would the states manage their programs in the 
event there were no authorization and to what extent will 
variations in the states' unobligated balances by program 
category disrupt the federal-aid program?
    [The FHWA information follows:]

    In the event that reauthorization legislation has not been 
passed, there is about $11 billion in carry-over balances that 
are available for obligations by the states. State's balances 
will vary and portions that will remain within a specific 
program category (such as Interstate Maintenance of National 
Highway System) will vary also. States also may have limited 
flexibility once a particular program categories has been 
depleted.

              proposed changes in highway funding formulas

    Mr. Wolf. In testimony before the Committee, the GAO 
indicated that the existing formula for distributing highway 
funding is irrelevant and that outdated factors underlie the 
calculations for certain highway programs. Others call the 
formula unfair, inequitable and incomprehensible. What changes 
is the Administration proposing in the distribution of highway 
funds?
    [The FHWA information follows:]

    In recognizing the need to replace outdated and outmoded 
apportionment factors, we have proposed Highway Trust Fund 
apportionment formulas that we believe are fair to all states, 
yet relate effectively to the objectives of the basic program 
elements and satisfy the overall goal of the Federal-aid 
program to meet the Nation's need for the safe, efficient, and 
environmentally sound movement of people and goods. The basic 
formulas we propose are simple, easily understood, and 
generally recognized as valid, reliable, easy to gather, and 
can be readily updated.
    Major programs for which we have proposed new formulas 
include the National Highway System (NHS) and the Surface 
Transportation Program (STP), the two programs which we felt 
had the most outdated formula factors.
    Additionally, we are proposing new formula factors for the 
Infrastructure Safety Program and Congestion Mitigation and Air 
Quality Improvement Program.
    For the NHS program, the apportionment formula is comprised 
of (1) Contributions to the Highway Trust Fund-Highway Account 
(75%); (2) Commercial Vehicle Contributions to the Highway 
Trust Fund-Highway Account (15%); and (3) Total Public Road 
Mileage (10%). Our proposal also incorporates a \1/2\% minimum 
provision. We believe these factors provide a reasonable 
measure of the use and extent of the system, while they 
recognize that when the system was designated, there was a 
Federal commitment not to use system miles or travel directly 
as apportionment factors.
    For the STP, the formula is comprised of (1) Contributions 
to the Highway Trust Fund--Highway Account (70%) in order to 
capture highway use; and (2) Population (30%), in an effort to 
capture the overall demand for travel, and thereby achieve the 
broad, multi-modal goals of STP. Our proposal also incorporates 
a \1/2\% minimum provision.
    We recognize that a sudden change to new formula factors 
could be disruptive to state programs, and we have proposed 
certain equity adjustments to ease the transition to a more 
sound, logical basis for the apportionment of Federal highway 
dollars. Specifically, a Minimum Allocation adjustment will 
ensure that each state receives apportionments of at least 90 
percent of its percent contributions to the Highway Account of 
the HTF. Secondly a ``90 Percent of Apportionments'' adjustment 
ensures that each state receives apportionments of at least 90 
percent of its prior year's dollar apportionments throughout 
NEXTEA years. Lastly, a State Percentage Guarantee ensures that 
each state's share of NEXTEA annual apportionment dollars must 
equal at least 95 percent of its average ISTEA (FY92-97) 
percent apportionments throughout all NEXTEA years.
    In presenting these factors for conclusion, we fully 
understand that there is not one ``right answer'' to the 
question of apportionment formulas, and we will be pleased to 
work closely with you to develop apportionment formulas that 
will best meet all competing demands.

                        donor/donee state issues

    Mr. Wolf. The current allocation of highway funds results 
in the distribution of funds as a percent of contributions to 
the trust fund from 83 percent to 707 percent. With respect to 
the equity issue, what specific changes is the Department 
seeking its reauthorization proposal to address the donor/donee 
state issue?
    [The FHWA information follows:]

    While we will be proposing a transition to formula factors 
that we believe relate well to the objectives of the basic 
program elements, and which we believe will be fair to all 
States, we recognize that equity adjustments will be needed to 
ensure an orderly transition to this more sound, logical basis 
for the apportionment of Federal highway dollars. In trying to 
respond to the needs of both donor and donee States, we have 
proposed certain equity adjustments to ease the transition to a 
more sound, logical basis for the apportionment of Federal 
highway dollars. Specifically, a Minimum Allocation adjustment 
will ensure that each state receives apportionments of at least 
90 percent of its percent contributions to the Highway Account 
of the HTF. Secondly, a ``90 Percent of Apportionments'' 
adjustment ensures that each state receives apportionments of 
at least 90 percent of its prior year's dollar apportionments 
throughout NEXTEA years. Lastly, a State Percentage Guarantee 
ensures that each state's share of NEXTEA annual apportionment 
dollars must equal at least 95 percent of its average ISTEA 
(FY92-97) percent apportionments throughout all NEXTEA years.
    The situation of donor states under our proposal is more 
equitable than under ISTEA, with the apportionment shares for 
most States converging towards their percent contributions to 
the HTF (Highway Account). In fact, most donor States' 
apportionment shares increase under the formulas proposed in 
the Administration's bill, primarily due to the inclusion of 
HTF Contributions (Highway Account) as a major factor in the 
proposed formulas for NHS and STP.
    While most donor States increase their apportionment shares 
relative to their shares of HTF Contributions under our 
proposal, a few states still lie below 90% of their percent 
contributions to the HTF (Highway Account), prior to equity 
adjustments. Therefore, to protect these states, we have 
included a Minimum Allocation equity adjustment, whereby all 
donor states are guaranteed to receive at least 90 percent of 
their percent contributions to the HTF Highway Account.
    Although nearly all donee states gain apportionment dollars 
relative to ISTEA under our proposal, many lose small amounts 
in apportionment shares as we move toward new formula factors 
that are more closely related to Federal program purpose. 
First, donee states (primarily small states) are protected by 
the retention of the \1/2\ percent minimum for the NHS, STP, 
and IM programs (and \1/4\% for Bridge R&R). Second, 
geographically large, donee States are protected through the 
inclusion of Total Public Road Mileage as a factor in the NHS 
formula. Lastly, and most importantly, including a `State 
Percentage Guarantee' as an equity adjustment ensures that all 
states will receive at least 95 percent of their average ISTEA 
(FY92-97) percent apportionments throughout all years of the 
NEXTEA bill.
    We recognize that a sudden change to new formula factors 
could be disruptive to state programs, and we recognize that an 
equity adjustment must consider what States have contributed to 
the Highway Trust Fund, but must also provide some protection 
from rapid changes in apportionment dollars received. We 
believe our proposal will do that, but we fully understand that 
there is no one ``right answer'' to the question of 
apportionment formulas, and we will be working closely with you 
to develop apportionment formulas that will best meet all 
competing demands.

                       system performance rewards

    Mr. Wolf. Will the Administration propose a ``reward'' 
allocation to those states that have improved their system 
condition, and similarly, will the Administration propose an 
``assistance'' allocation to assist states whose systems are in 
disrepair?
    [The FHWA information follows:]

    Although we believe performance measures can play an 
important role in improving the planning and administration of 
the Nation's transportation system, we are not proposing to use 
a performance-based ``reward'' allocation such as you suggest 
as a way of apportioning Federal-aid highway funds. There would 
be a number of difficulties in doing so, including the 
difficulty of developing a single, widely agreed upon set of 
performance measures for highway system conditions that would 
be valid across time and from State to State. In fact, many 
States have expressed serious reservations about the 
feasibility of such an approach.
    Regarding an ``assistance'' allocation to assist states 
whose systems are in disrepair, the Administration has not 
proposed a specific provision because such a provision may 
carry with it a perverse incentive for States to allow their 
highway infrastructure to worsen in order to capture a greater 
share of Federal funds. We have proposed apportionment factors 
for the NHS, STP, and Interstate Maintenance program formulas 
which reflect the use and extent of the system, and therefore, 
serve as proxies for system needs. We believe that use of these 
proxies mitigates any perverse incentive which may be 
associated with direct needs measures. Additionally, the use 
and extent factors utilized in the FHWA-proposed formulas 
(e.g., vehicle miles of travel, Highway Trust Fund 
contributions, and lane miles) have been shown in studies to 
hold a close correlation to system needs.
    The one program for which direct needs measures continue to 
be used is the Highway Bridge Rehabilitation and Replacement 
Program (HBRRP) formula. The current Bridge formula, based on 
the cost to repair deficient bridges in each State, was 
retained due to special nature of bridge needs and limitations 
of prospective alternative factors. The Administation's NEXTEA 
proposal attempts to mitigate any perverse incentive associated 
with retention of the current `cost to repair' formula by 
limiting the percentage of Federal bridge funds which a State 
can transfer to other programs (e.g., the NHS or STP) to 50 
percent, and by allowing such a transfer for a State only when 
none of its NHS bridges require posting under the National 
Bridge Inventory Item 70, which evaluates the load-carrying 
capacity of a bridge. Additionally, Federal bridge funds 
transferred to other purposes in fiscal years 1998 through 2002 
must be restored by the State to their HBRRP apportionment by 
the end of FY 2002. Any amounts not restored by that time will 
be deducted from the total cost of deficient bridges for that 
State in FY 2003, thus reducing their HBRRP apportionments.

             Congestion Mitigation and Air Quality Program

    Mr. Wolf. Since air quality is improving in virtually all 
states, congestion is essentially a local phenomenon, and the 
link between air quality and congestion is unclear, why is an 
increase in the congestion mitigation and air quality program 
of almost one-third necessary, and if it is, why not allocate 
these funds based on the actual congestion in each state?
    [The FHWA information follows:]

    Air quality is improving in most areas of the country. 
Nonetheless, 68 areas still do not meet the current standards 
for ozone, another 31 do not meet the standards for carbon 
monoxide (CO), and 79 do not meet the standards for small 
particulate matter (PM-10).
    The FHWA cannot precisely specify the link between 
transportation and air quality given current models, but there 
is a clear correlation between the amount transportation-
related emissions generated and transportation behavior 
including: the number and length of trips, overall speeds and 
the number and duration of hard accelerations. In that 
transportation still accounts for a minimum of 27 percent of 
emissions for hydrocarbons (a precursor of ozone) to a maximum 
of 64 percent for carbon monoxide according to EPA estimates, 
there is still a need to reduce emissions from transportation 
sources.
    The Administration's reauthorization proposal includes a 30 
percent increase in CMAQ funding because it is a highly 
successful program on a multitude of fronts. It is ISTEA's most 
flexible program. The CMAQ program has funded over 
$1,700,000,000 in transit improvements, and another 
$500,000,000 has gone for ridesharing, demand management and 
bicycle and pedestrian programs. It has succeeded in bringing 
new players into the transportation planning process. And it 
provides many benefits, especially congestion relief, energy 
conservation and even economic development. The Administration 
believes it is important to preserve these benefits and to 
enhance them by increasing the authorization level.
    The program has historically been focussed on air quality. 
Funds are apportioned on the basis of air quality need, and 
eligibility is allowed only in cases where air quality is 
improved. Switching from an air quality basis to a congestion 
basis would be difficult because there is no uniformly accepted 
method for measuring congestion, even in a single metropolitan 
area. Apportioning funds on this basis would be highly 
controversial. Finally, it would result in only a slight change 
the form and function of the program, because most of the 
projects funded under CMAQ also relieve congestion.

             Proposed Transfers from the Highway Trust Fund

    Mr. Wolf. In addition to funding new programs from the 
highway trust fund, like Amtrak and the state infrastructure 
bank and transportation infrastructure credit programs, the 
Department is proposing to use the highway trust fund to pay 
for other highway construction projects performed by other 
federal agencies, such as the National Park Service, the Forest 
Service and the Bureau of Indian Affairs, among others. This 
funding is different from the existing federal lands programs 
which covers public lands highways, park roads and parkways, 
and Indian reservation roads programs. How much in total would 
be transferred from the highway trust fund to the general fund 
to pay for these agencies' highway construction activities?
    [The FHWA information follows:]

    Section 7006 of the proposed bill directs that the 
Secretary transfer receipts from the highway trust fund (other 
than the Mass Transit Account) to the general fund of the 
Treasury in an amount equal to the enacted annual 
appropriations for selected transportation-related programs of 
other agencies. These other agencies are limited to the 
Department of Energy, the U.S. Park Service, the Bureau of 
Indian Affairs, the Department of Agriculture, the Department 
of Housing and Urban Development, the Environmental Protection 
Agency, and the Appalachian Regional Commission. The amount 
transferred each year would only equal the amount that Congress 
appropriates for the transportation-related portion of the 
listed accounts. Although the bill does not identify specific 
amounts, it is estimated that the total amount of funding 
covered by this section will be approximately $3.213 billion 
for fiscal years 1998-2003.

                    Highway Trust Fund Outlay Rates

    Mr. Wolf. The outlay rates of the new programs to be funded 
out of the highway trust fund, including Amtrak and the 
transportation infrastructure credit program, are much higher 
than the typical federal-aid highway program. To what degree 
will this result in an increased drawdown of the trust fund?
    [The FHWA information follows:]

    The new transportation infrastructure credit enhancement 
program will have a slight impact on trust fund balances, since 
the grants made to capitalize revenue stabilization funds for 
selected projects of national significance likely will be made 
up-front--probably within a year of their obligation. Thus, 
resulting outlays from the highway trust fund will occur more 
quickly than outlays for the regular Federal-aid program, which 
typically occur over a period of several years following the 
obligation of funds. However, the new credit enhancement 
program is funded at $100 million,which means that maximum 
first-year outlays of $100 million would exceed the historic 
Federal-aid outlays of $17 million by about $83 million. This 
difference would have a minimal impact on the highway account 
balance, which is currently about $10 billion.

           Shift of Programs from General Fund to Trust Fund

    Mr. Wolf. In total, what amount of funds in fiscal year 
1998 are to be derived from the highway trust fund that are 
currently derived from the general fund? Given these increased 
expenditures, will this bring the balance of the fund close to 
a ``prudent minimum balance''?
    [The FHWA information follows:]

    Programs currently funded from the general fund that will 
be included in NEXTEA as trust funded programs are as follows:

FY 1998 Funding

        Program                                            (In millions)
State Infrastructure Banks....................................   $150.00
AMTRAK (including NECIP)......................................    767.45
WMATA.........................................................    200.00
NHTSA Operations & Research \1\...............................    147.50
Transit Administration \1\....................................       ???
Other Agencies................................................    646.00
                    --------------------------------------------------------------
                    ____________________________________________________

  Total....................................................... $1,910.95

\1\ Split-funded in previous years.

    The projected balance for the Highway Trust Fund at the end 
of FY 1998 is $27,766 million, with $16,481 million in the 
Highway Account and $11,285 million in the Mass Transit 
Account. A ``prudent minimum balance'' for the Trust Fund is 
considered to be about $3,500 million, with $3,000 million of 
that in the Highway Account. Such a balance would provide a 
safeguard for the programs supported by the Trust Fund from 
unforeseen events. An example is the oil crisis in the mid-
seventies, which reduced the amount of revenue flowing into the 
---------------------------------------------------------------------------
Fund below anticipated levels.

    [The NHTSA information follows:]

    The amount of funds to be derived from the highway trust 
fund in fiscal year 1998 which is currently derived from the 
general fund is $87.3 million. NHTSA's total trust fund 
request, including the $87.3 million currently derived from the 
general fund, is $333 million or 1.1% of the total trust fund 
($29.071 billion). Therefore, the impact of these increased 
expenditures to the trust fund balance is negligible.

    Mr. Wolf. Why should these programs be funded from the 
highway trust fund?
    [The FHWA information follows:]

    The Administration's intent behind these funding changes is 
to fund all surface transportation-related programs from the 
highway trust fund.

    [The NHTSA information follows:]

    The Department is proposing to shift funding in fiscal year 
1998 for a number of transportation-related programs currently 
funded, in whole or in part, from the general fund to the 
Highway Trust Fund including: Amtrak; transit planning and 
research and operations: and NHTSA operations and research.
    The basis for this shift is that programs to be funded from 
the Trust Fund be directly associated with highway construction 
or preservation, provide transportation services that reduce 
the demands placed on the nations highway and/or provide direct 
safety benefits to highway users.
    NHTSA's motor vehicle and behavioral programs provide 
direct safety benefits to highway users--those who directly 
contribute to the Highway Trust Fund through the federal 
gasoline tax. In previous years the Highway Trust Fund 
supported most of NHTSA's programs, approximately 75 percent of 
NHTSA's enacted budgets. This proposal would fund all of 
NHTSA's programs in FY 1998, a total request of $333 million.

                  central artery/tunnel project costs

    Mr. Wolf. As you know, the Central Artery/Tunnel project, 
estimated to cost $10.4 billion, is one of the largest and most 
expensive highway construction projects ever undertaken. It has 
advanced further in the last year than at any other time in its 
history. With the Ted Williams Tunnel open to traffic and 
construction of the underground Central Artery well underway, 
the project is about 75 percent designed and 25 percent 
constructed.
    About $8 billion of the $10.4 billion in contracts are 
either completed or awarded. Last week, the GAO reported that 
the costs have increased on the project but that these 
increases have been offset by assumed savings to keep the total 
price tag at $10.4 billion. Do you share the GAO's opinion?
    Ms. Garvey. GAO, raised a number of concerns but they are 
concerns that we have shared all along, which is exactly why we 
have the cost containment measures in place. As you know, we 
are monitoring the cost of the project on a monthly basis. We 
have a cost management system in place that allows us to do 
that and it has been very effective.
    We feel that the benchmarks that we have in place, the 
systems that we have in place allow us to keep very close tabs 
on the project. I think GAO has done as others have done and 
flagged some issues for us but we feel it is very much under 
control at this point.
    The most immediate issue for the state right now is their 
own finance plan. As you know, we had set April 1 as a date for 
them to work with their legislature to identify more 
specifically which options they wanted to use locally to 
finance the plan.
    I understand that they are working very closely with their 
legislature and that they expect to vote either this week or 
next week honing in on the options that they will be choosing. 
That is an important date for us, April 1, to move that plan 
forward.

     central artery/tunnel cost containment goals and project costs

    Mr. Wolf. The GAO reported that the assumed savings, the 
biggest of which come from the projects' owner-controlled 
insurance program, may be optimistic, and they noted that the 
project is not meeting its cost containment goals and that 
construction cost increases are nearly double what the project 
predicted. Do you believe that the project costs can be kept 
within the $10.4 billion?
    Ms. Garvey. I think it can. Many of the increases in the 
early years were due to design changes. It is a much clearer 
issue, I think, when you are dealing with construction 
contracts so that makes it a little bit easier to nail down 
costs.
    So, again, we have the benchmarks in place and the 
mechanism in place so that if there are problems we know it 
right away. The monthly monitoring has made a big, big 
difference.

                central artery/tunnel insurance program

    Mr. Wolf. Are the states' projections on the savings on the 
insurance program realistic?
    Ms. Garvey. I know that Tony has looked at that carefully, 
but the wrap-up insurance does seem to be a very effective 
savings for them.
    Mr. Kane. Mr. Chairman, the original estimate for it was 
based upon nationwide average insurance risk. As a result of 
the first four years of construction, there has been a much 
better safety record on the project than nationwide. In fact, 
we are able to build in to the last adjustment about a $200 
million savings.
    Periodically they are adjusted and what has been happening 
is that the rates have been coming down on the package. So to 
date, the history is telling us that it is on track, it is 
safer than the national averages, and as a result the annual 
adjustments and the wrap-up costs have been coming down.
    Mr. Wolf. Is there a history of projects having that type 
of savings?
    Mr. Kane. Most have not been as big. That project is just 
of such a different scale. You have not had a duration of 
construction as long and so that is why they originally started 
out with nationwide averages.
    A little more simple answer to the question without knowing 
all the projects is that most of them have been of a smaller 
scale. We have used that concept, smaller duration, and you 
tend to just stay with the average rates.

                  central artery/financing strategies

    Mr. Wolf. Massachusetts' December 1996 feasibility study 
proposes a strategy of borrowing to cover project funding 
shortfalls between now and the year 2005, including a $1 
billion contribution from the Massachusetts Turnpike Authority 
based on revenue bonds backed by toll increases, and, two, 
issuance of short term grant anticipation notes, to be repaid 
with future federal highway apportionments. Does Federal 
Highway believe that the financing strategies outlined in the 
consultant's study are appropriate or viable?
    Ms. Garvey. Massachusetts outlined a number of strategies. 
Some I think hold more promise than others. I think some of the 
bonding strategies that they outlined hold some promise. Using 
some of the resources from the Massachusetts Port Authority 
hold some promise for them, and we did not suggest which option 
was preferable.
    We said you need to work that out with your legislature, 
you need to work that out with your state finance people, come 
back to us with the strategies that you think offer you the 
most promise. I think the grant anticipation note has good 
potential for them.
    Mr. Wolf. You do not tell them what to do?
    Ms. Garvey. No, exactly, Mr. Chairman.
    Mr. Wolf. Are you conveying your recommendations to them on 
a regular basis so that they know?
    Ms. Garvey. We have talked with them at various points 
throughout the plan. They have been very forthcoming about not 
only presenting the plan but also telling us how they are doing 
with their deliberations, what their legislature may be 
concerned about, what direction they are heading. So there 
seems to be a very good cooperative spirit. It is a tough issue 
for them but they seem to be taking it on in a very forthright 
manner. I have a lot of respect for them.
    Mr. Wolf. If you can notify the committee. I know that GAO 
and IG and your people are looking at it and I appreciate that. 
If you can notify the committee if any red flag comes up if any 
significant changes taking place.
    Ms. Garvey. We will be very happy to do that, Mr. Chairman.

               central artery/tunnel advance construction

    Mr. Wolf. The Federal Highway Administration has allowed 
the continued use of advance construction authorities to meet 
project requirements until April 1, 1997. In doing so, the 
Federal Highway Administration indicated that this would allow 
sufficient time to complete third party arrangements and pursue 
legislative options identified in the feasibility study. What 
actions will Federal Highway take if legislation is not passed? 
They were going to act this week or next week, right?
    Ms. Garvey. That is right. We have to look at the actions 
before us and see how well they are doing. They are very 
concerned. They know we are very serious about the April 1 
date.
    Mr. Wolf. So they are obligated to act by----
    Ms. Garvey. Yes, absolutely, Mr. Chairman. I think in some 
ways it has been a help to them because it kept the pressure on 
all parties and has given them a goal to shoot for.

                central artery/tunnel insurance program

    Mr. Wolf. In FHWA's opinion, are the state's projections of 
savings on the insurance program realistic?
    [The information follows:]

    We understand that the GAO is concerned about the degree of 
certainty that can be assumed for the large savings that have 
been reported for the Owner Controlled Insurance Program (OCIP 
or Wrap-Up Insurance). Given the fact that the project is 
entering the heaviest phase of construction over the next 
several years, GAO is concerned that the level of savings 
trended for the OCIP may not occur. While we understand the 
cautionary tone reflected in GAO's comments, the FHWA continues 
to believe that, as in a number of other areas on the CA/T 
project, an appropriate management and oversight strategy for 
the OCIP is to set clear and measurable objectives or 
milestones regarding project costs and schedules. Then FHWA's 
and the Project's performance can be clearly measured against 
meeting these objectives or milestones.
    Given this recommended oversight strategy, the OCIP is an 
excellent example of one of the more readily ``trackable'' 
programs. The Project Management Monthly Report tracks the 
Insurance Program's measures on a monthly basis, giving early 
indications of any positive or adverse trends. The structure of 
the insurance program now reflects and benefits from that 
trackability in its use of a ``retrospective'' approach that 
allows for adjustments in the cost of the program based on how 
claims have occurred during a preceding year. The extraordinary 
success of the Insurance Program can be reported as very real 
given the established track record of safety programs and 
insurance claims on the project during the last four years, a 
period that certainly contained its share of heavy construction 
in sensitive areas. Each year that successes occur in very 
measurable and actuarial aspects of the insurance program, the 
Project is more and more able to report a firming up of the 
expected performance of the program in the future. Likewise 
given the ``retrospective'' adjustments based on year by year 
performance, the Project will have early indicators of any 
trends that may be developing. Finally, the Project continues 
to proactively explore ways to further improve the excellent 
safety record. Therefore, in summary, FHWA has accepted and 
believes that the state's projected savings on the insurance 
program are realistic.

               central artery/tunnel project cost review

    Mr. Wolf. What is FHWA doing to review and scrutinize 
project costs?
    [The information follows:]

    The FHWA is actively involved with the Massachusetts 
Highway Department (MHDF) Central Artery/Tunnel (CA/T) staff in 
scrutinizing and in controlling total project costs, and in 
developing a variety of cost saving strategies. The 
unprecedented allocation of resources to staffing in FHWA's 
Massachusetts Division Office and assistance from both Region 
and Headquarters Offices, has enabled the FHWA to provide a 
program of both comprehensive and tailored oversight regarding 
cost, schedule and quality. The FHWA engineering and technical 
staff provide a range of project or contract specific design 
and construction monitoring based upon a geographic assignment 
of responsibility. Each ``area'' engineer is specifically 
responsible for monitoring all Federal-aid work within this 
assigned area, reviewing designs to ensure that components are 
both economical and cost-effective. This design review also 
ensures compliance with necessary standards. Area engineers are 
also responsible for monitoring of costs and quality for their 
area during construction, monitoring construction procedures 
and the administration of change orders as necessary. A variety 
of technical experts are available from the Division, the 
Regional and the Headquarters levels of FHWA to provide special 
expertise to the area engineers as needed during both design 
and construction. This expertise is especially valuable in 
``bench marking'' design or construction procedures and cost-
effectiveness in areas such as specialty tunnel areas or 
environmental mitigation.
    Besides contract-specific monitoring, FHWA's Massachusetts 
Division Office, supplemented with assistance from the Region 
and Headquarters, also provides programmatic oversight through 
a variety of ``task team,'' ``peer review,'' or ``process 
review'' activities. These activities insure that design and 
construction processes are designed or re-engineered to provide 
streamlined and cost-effective outcomes. To give two examples 
from 1996, task team/process reviews were conducted on the 
wrap-up insurance program and the geotechnical instrumentation. 
Cost saving strategies were identified in each review. The 
Division Office also participates in a number of MHD CA/T 
committees that have been charged with managing costs on the 
project. Examples of these activities include the Cost 
Containment Committee (generating innovative approaches such as 
the ``Design to Cost'' program, an approach that controls 
growth of design estimates) and the Project Contingency 
Allowance Committee (controlling costs associated with such 
issues in construction as changed site conditions). Through 
further participation on value engineering teams and through 
construction partnering, Division Office representatives ensure 
that cost-effective functional designs are provided and moved 
to construction in a fashion where costly litigation or dispute 
resolution is avoided through collaboration with the 
contracting industry. Total costs and cost trends are closely 
monitored by the FHWA upper management at all levels by 
proactive involvement in Project Management Monthly reporting 
and through quarterly briefing of FHWA's highest management. 
These review activities include monitoring and periodic 
validation of macro-level Finance Plan assumptions or trends in 
areas such as information and bidding results.

                  central artery/tunnel cost estimate

    Mr. Wolf. Does FHWA believe it is time for Massachusetts to 
revise its cost estimate to be more realistic?
    [The information follows:]

    The cost estimate for the Central Artery/Tunnel (CA/T) is 
in essence being revised monthly. This has been done for 
approximately a year now as part of the Project Monthly 
Management report which tracks the actual project cost and 
schedule, compares it to the Cost/Schedule Update 6 (Rev 6) and 
previous forecast, and develops a new forecast for the 
remaining cost and schedule. The report also shows the changes 
from the previous month for actual verses planned costs and 
schedule time. The result is a current cost-to-go and total 
cost, and a current schedule on a monthly basis. Assumptions 
used for Rev 6 are also being tracked. While some of the 
assumptions are tracking better than others, the overall 
project cost is staying within budget. As part of the next 
Finance Plan Update, presently planned for October 1, 1997, 
FHWA will assess the need to revise these assumptions.

             central artery/tunnel grant anticipation notes

    Mr. Wolf. Is the use of grant anticipation notes to 
leverage future federal funds a feasible strategy for financing 
$1 billion or more of a project's costs? What experience has 
FHWA had with these kinds of instruments?
    [The information follows:]

    The FHWA believes that the use of grant anticipation notes 
(GANs) is a prudent and effective way to cover the timing gap 
between a project's up-front cash flow requirements for 
construction and the receipt of future anticipated Federal aid. 
The amount that can be financed through GANs depends on the 
size of the cash flow shortfall, the term of the notes, and the 
predictability of the future Federal grants to be used to repay 
the GANs.
    GANs have been used extensively in connection with other 
Federal aid programs (notably FTA and EPA), but only 
occasionally with FHWA receivables because States have had 
sufficient cash balances in their highway programs to 
internally finance the timing gap, thus avoiding the need to 
borrow externally through GANs. For large projects, such as the 
Central Artery, now it may be necessary to consider using GANs 
to meet cash flow needs.

               central artery/tunnel shortfall estimates

    Mr. Wolf. Does FHWA believe that the annual shortfall 
estimates are accurate? How much will these estimates go up if 
costs increase?
    [The information follows:]

    Yes, the annual shortfall estimates (cashflow needs) are 
believed to be as accurate as can be for the scenario(s) used 
in the CA/T Finance Plan, and recognizing that the actual 
Federal funding levels for post-ISTEA are still unknown. The 
effect of cost changes, even assuming the same scenario(s) for 
unknown post-ISTEA Federal funding levels, would depend in what 
year the associated changes were build and needed to be paid. 
That is, a design change or construction change could be known 
today, but its affect would depend on whether the actual 
billing for the resultant work occurred in a peak cashflow year 
or afterwards when cashflow needs are not as great.

        state funding options for central artery/tunnel project

    Mr. Wolf. What fallback position is available to the state 
if the strategies outlined in the consultant's report are not 
sufficient to meet the funding gaps?
    [The information follows:]

    The Metropolitan Highway System (MHS) Financial Feasibility 
Study contained several options for the State's share of costs 
associated with the CAT interim cashflow needs, total CAT 
project cost needs, and also operating expenses for an MHS. The 
options included revenue bonds backed by toll increases, 
interim borrowing backed by anticipated Federal funds, 
increased gas tax, toll increases, and/or other State sources. 
The Executive Office of Transportation and Construction 
requested legislation, which passed both houses of the State 
legislature and is expected to be signed by the Governor 
shortly, which turns the construction of the CAT, and operation 
of the MHS (including CAT) over to the Massachusetts Turnpike 
Authority (MTA). The legislation also indicates the amount of 
State share to be paid by the Massachusetts Port Authority 
(MassPort or MPA), MTA, and the Massachusetts Highway 
Department (MHD). It also enables them to adjust tolls as 
needed to cover such costs. The State would have the option of 
covering funding needs by such tolls, short term borrowing, or 
if necessary could consider a gas tax. The latter is not 
considered needed by the State, at least at this time.

                           air bag fatalities

    Mr. Wolf. In January 1997, NHTSA reported 54 air bag 
fatalities, 35 children and 19 adults. Has this number changed?
    Mr. Martinez. Yes, those numbers have changed.
    Mr. Wolf. What would it be with regard to children?
    Mr. Martinez. I want to tell you, Mr. Chairman, that in my 
mind there are cases under investigation and cases that have 
been finished. I will just give the last number. There are 38 
children now.
    Mr. Wolf. 38?
    Mr. Martinez. Yes, sir.
    Mr. Wolf. And adults?
    Mr. Martinez. Adults, total is 24 adults.
    Mr. Wolf. 24. So it is growing.
    Mr. Martinez. Yes, sir, and that is the issue ahead of us 
and the reason we have focused on the awareness issue in order 
to minimize that growth while we move on to more logical 
solutions.

                          depowering air bags

    Mr. Wolf. Now let me ask one other question and then I will 
turn to Mr. Tiahrt on that issue. On December 19, as you know, 
the subcommittee held a hearing on air bags, and at that 
hearing NHTSA stated that the Department was moving rapidly to 
reduce or eliminate the number of fatalities to children and 
small-stature adults.
    Shortly thereafter, the agency issued a notice of proposed 
rulemakings to depower air bags and allow for consumers to 
deactivate their air bags. While everyone is pleased that the 
agency has moved rapidly on these rules, it is my understanding 
that the agency has not yet issued a final rule on depowering. 
In fact, I had heard that you may want to come up and do that 
today.
    Mr. Martinez. It is imminent, yes, sir.
    Mr. Wolf. At the December 19th hearing, the automobile 
manufacturers testified that if this rule was not implemented 
by mid-February, depowered air bags could not be installed in 
model year 1998. What are you doing to assure that the 
depowered air bag rule is expedited so we can eliminate the 
tragic fatalities?
    And, if you recall, I remember in fact sitting about where 
you are sitting the gentleman from one of the auto 
manufacturers said that if the rule was not issued by mid-
February, you would lose a whole year. If you produce about a 
million cars a month you are talking about missing 12 million 
cars.
    Mr. Martinez. Right. That comment concerned me. Let me put 
it in perspective for you. When I first came into this 
Administration, the average time from the notice of proposed 
rulemaking to the final rule was 18 months. We began to re-
engineer the process, because we thought there could be 
significant savings. We got the time down to about 14 or 15 
months.
    The last rules we released were at a record pace, within 
four to five months. I am telling you that we will have this 
one out imminently, within three months.
    Mr. Wolf. Well, then that means you actually missed the----
    Mr. Martinez. No, that is my second point. That comment 
concerned me so I went back to investigate. I met with Mr. Card 
to ask about that. That comment addressed when they start their 
purchasing for the next year. That window of opportunity is 
open through May, and I explained my concern to him about 
putting down a marker like that. In truth the industry has said 
to Canada that they were going to have depowered air bags in 
the marketplace by 1998, because they do not have the 
constraints we have in the United States. They should already 
be working on those vehicles.
    I am fully confident from my conversations with the 
industry, that we are on the same page and we will have 
depowered air bags sooner rather than later. We will make the 
1998 date if not before. I believe the industry is working very 
hard on this.
    Mr. Wolf. So you have not missed the year?
    Mr. Martinez. No, sir. That was when they start their 
window of opportunity, their purchasing aspect. That would 
close somewhere around the end of May. I certainly appreciate 
their concern to move things forward. I have had conversations 
with the industry to keep abreast of what their current plans 
are and I think this will probably even come into the fleet 
before the 1998 model year starts.

                   states with increased speed limits

    Mr. Wolf. Okay. Mr. Tiahrt.
    Mr. Tiahrt. Thank you, Mr. Chairman. First of all, we 
allowed states to raise the speed limits. Do we know how many 
states have raised the speed limit as of this date?
    Mr. Martinez. Yes, Mr. Tiahrt. Thirty-four states have made 
changes, 23 states have increased the speed limits to 70 miles 
per hour or greater. We discussed this a little bit earlier, 
and to recap on that, we are looking to evaluate that. There 
are two issues to that. One is to look at fatalities and 
injuries. The second is to look at the number of miles driven.
    Not all of this data is available at the same time. We are 
trying to gather information as best we can. We will try to 
have a report to Congress by September.
    Mr. Tiahrt. In many states like Kansas and Wyoming, I am 
interested in knowing how much the average speed has changed 
even though the speed limit has changed. I know that in going 
through Wyoming several years ago my father got a speeding 
ticket and it was $5.00 and I think he was traveling about what 
the speed limit--now it is about 75 but at that time of course, 
it was 55 and they had ways of softening the blow.
    How can you take into consideration the average speed 
increase in your data? Have you thought about that? And I 
apologize for not being here earlier but did you address that 
issue? In addition, is there a way to find that out?
    Mr. Martinez. We do try to find what the average speed is 
before and after and also look at what was done. For example, I 
believe Maryland raised their speed limit from 55 to 65, and in 
truth the actual speed was somewhere like 64 miles an hour. 
When they raised it to 65 they increased their law enforcement 
and found that the average overall speed varied very little, 
still somewhere around 65 miles an hour or so. Some states have 
been very vigilant about that.
    One of the concerns we have is that the repeal of the 
national maximum speed limit also repealed the reporting 
requirements. We are working with states on how to get thebest 
data we can. I cannot tell you off the top of my head that I know all 
that. We have worked through the Federal Register to make sure that 
everyone can comment on how we move forward, and on what sort of 
information we need and what information we will use to make estimates 
where we do not have actual information.
    Mr. Tiahrt. When I was in the Kansas state Senate we 
addressed the issue of whether we should require helmets for 
people who use motorcycles and some of the information that was 
presented in the transportation utilities subcommittee was that 
head injuries per accident or per 100,000 miles was about the 
same for motorcycles that it was for automobiles.
    And it seemed there was not anything we could do to offset 
that. I mean it seemed like that logic was that if you are 
going to require helmets for motorcycles you should also 
require them for motor vehicles.
    But is there information--you probably have access to a lot 
of other studies too comparing automobile head injuries per 
miles driven versus motorcycles.
    Mr. Martinez. Off the top of my head, I cannot tell you 
that I know the answer to that. I can say that, you know, the 
physics of a car crash versus the physics of a motorcycle crash 
are two very different things. In a car crash you basically 
have areas that are padded inside. In fact, we passed head 
injury protection last year to allow that to occur.
    You could be coupled in the car and the car can absorb all 
the injury from the crash. In fact, in a motorcycle crash you 
are essentially ejected from the vehicle because you are 
sitting. There is nothing in front of you to hold onto the 
vehicle. You cannot do it with your strength, and of course you 
do not even want to be belted to the bike because it tends to 
rise up and come over and crush you, especially if there is 
something in front of you.
    The two areas of immense injury from motorcycle crashes are 
the lower extremities, this is very difficult to prevent 
because you are essentially like a pedestrian. If you go 
forward in a crash, your lower extremities tend to hit in front 
of you. The second one is your head. Instead of putting a car 
around you, we put a helmet around your head; and that is the 
way we try to make a difference.
    We did do a study last year which actually showed even more 
effectiveness with motorcycle helmets than we knew before, 
because what it did was take real data from real states such as 
Kansas. We now have funding for the states to get a look at the 
real data. It took crash data and linked it with emergency 
medical service data and hospital data and found that 
motorcycle helmets were even more effective. Now you are 
talking about bringing it to where the real diagnoses are made 
with a CT scan and MRI. We found that the helmet is 67 percent 
effective in preventing a head injury. And those head injuries, 
as you know, are a large cost to society. You don't really 
necessarily get better, so you end up having disability costs 
and everything else.
    We can certainly point to real data from real states to 
show that the helmets are much more effective than we thought, 
and are making a difference in taxpayer dollars. Regarding the 
question asked about the exposure data, I would have to get 
better numbers from you and take a look at that.

                         Woodrow Wilson Bridge

    Mr. Tiahrt. For those of us that commute from Virginia, the 
Woodrow Wilson Bridge is kind of a bottleneck, and we try to 
avoid it. Perhaps the best solution is to require all District 
of Columbia city personnel to live within the District. That 
would stop a lot of the traffic.
    But until that happens, we may want to do something with 
the Woodrow Wilson Bridge. And it is only six lanes, and I 
guess the estimate to increase it to 12 lanes would be about 
$1.6 billion. You do have something in the budget for that, I 
assume. How much is it? I thought it was around $400 million. 
But what is it this year? Do we know?
    Ms. Garvey. That is correct, Congressman. We do have that 
included in the budget, $400 million. We are also looking at 
innovative financing techniques to help support the cost of the 
bridge.
    I can tell you in terms of the schedule, we are in the 
final stages of the design work, getting ready to prepare the 
environmental statement which will be ready for public comment 
probably about a month from now, with a record of decision 
sometime in early June.
    Mr. Tiahrt. So we don't know where the rest is going to 
come--I guess we don't have a firm estimate on--because we 
don't know what the design is. Obviously, you are not going 
to--it is not going to be a tunnel. Right?
    Ms. Garvey. That is correct. The committee that worked on 
it--I thought did some wonderful work and came up with a 
preferred alternative. That is reflected both in a draft report 
that we have ready for submission to Congress, as well as the 
EIS. And you are right. The preliminary estimates are 
preliminary. More refined estimates will be available as we 
move into the design phase.

                          District of Columbia

    Mr. Tiahrt. I know we have a vote coming up. I sit on the 
District of Columbia Appropriations Committee which proves I 
have probably done something wrong in my life. You have $125 
million, I believe, for transportation here inside the District 
of Columbia.
    And one of the concerns I have coming out of the 
contracting area before I got into this job in another life, 
looking at how that process works, in Kansas when they let 
contracts on the highway system, you know, in about 120 days 
they can request a bid and give a contract out. Here, just the 
process to contract takes about 150 days, even longer--just 
that one portion of the overall bidding process. Now, you do 
some oversight of the District of Columbia. How is that going, 
and do you have any suggestions for improving it?
    Ms. Garvey. Let me make a couple of comments. We have 
actually been providing technical assistance to the District to 
look at that very issue, to reduce the number of days it takes 
to let contracts and the process they use. And you are right. 
It takes too long in the District.
    There have been some improvements. I think there is a ways 
to go, and we are continuing with that kind of technical 
assistance. We completed a very comprehensive report about a 
year ago making some recommendations for how the procedures 
could be improved. And the District has implemented some of 
them. Some of them areworking through the Finance Board as well 
as with the Mayor's Office to make sure that they are put in place.
    I will just mention the plan--the transportation piece of 
the President's plan which he is getting ready to submit to 
your committee for legislation. It does include some elements 
that will have an effect on the District of Columbia's Public 
Works Department. We are suggesting that a governing authority 
be set up that could establish some of the priorities on the 
national highway system.
    I think one of the comments the President made very early 
on is that the District is not really a city and not really a 
state. And our proposal would allow the Federal Highway 
Administration, the Department of Transportation to assume some 
of those state responsibilities so that we could focus on the 
NHS and the NHS bridges within the District and allow the 
District of Columbia Public Works Department to focus on the 
local roads, which is really what a city DPW does in most other 
communities.
    The governing board would establish the priorities. The 
implementing arm would be the Federal Highway Administration, 
either our District Division Office or our Federal Lands 
Office--working very closely with the District to talk through 
that plan and to talk through some of the elements. So I think 
there is some promise there to make the kind of investment and 
make the kind of improvements that are needed for the District.
    Mr. Tiahrt. So if I understand you correctly, you would 
take over the highways basically----
    Ms. Garvey. We would take over the national highway system, 
which in all other states, as you know, are state 
responsibilities. And then the street maintenance and street 
care would still stay within the Public Works Department.
    And we would continue--and I think it is an important point 
the technical assistance that we have been giving for the last 
year to the District so that we can continue the kind of 
improvements that I think the District is interested in 
achieving themselves.
    Mr. Tiahrt. There are some structural changes--not physical 
but policywise that I think probably need to occur inside the 
District of Columbia. That is one of the things that we have to 
look at in order to smooth the process. Apparently, some piece 
of paper stops on somebody's desk for an extended period of 
time.
    Ms. Garvey. Absolutely.
    Mr. Tiahrt. And your contracting process works smoother. I 
don't know if it is the best. It is not the worst. But 
certainly there are some suggestions that you could have, and I 
would be open to looking at those.
    Ms. Garvey. If you would like a briefing, we can give you a 
full briefing on the work we did last year that lays out the 
recommendations that we have made to the District and to the 
Mayor's Office, and also a more in-depth discussion of our 
proposal as well if that would be helpful. We would be happy to 
do that.
    Mr. Tiahrt. Okay.
    Ms. Garvey. Thank you.
    Mr. Tiahrt. Mr. Olver, do you have any more questions? I 
guess we are going to recess until after the vote so we have 
got about 10 minutes left in this vote, and we will be back 
after that.
    [Recess.]

                         Woodrow Wilson Bridge

    Mr. Wolf [presiding]. I apologize. The vote is over. I 
think we are going to be free for a good while. As I left, I 
heard music in my ear of Mr. Tiahrt talking about the Woodrow 
Wilson Bridge. And I have some questions, and I didn't ask----
    Ms. Garvey. You would have loved my answers.
    Mr. Wolf. I don't know what you said so I am going to jump 
ahead and get to that subject. At the outset, let me just say 
that I really think what the Department has done is really 
insufficient. I think it is wrong. The Woodrow Wilson Bridge is 
a Federal bridge. And if that bridge were being constructed 
under the highway program, the bridge program, it would be 90/
10. Certainly you could argue 80/20. And to propose a federal 
share of $400 million, it will create gridlock in this area.
    The bridge is falling down, and, obviously, you were not 
there during the period of time so these comments are not 
personally directed to you. There really is negligence--almost 
malfeasance that I think could almost be a case of litigation, 
if you will. That bridge has deteriorated so badly. So let me 
just cover a couple of the issues.
    The bridge is the only part of the interstate owned by the 
Federal Government, the only portion on the capital beltway 
that is six lanes, the only drawbridge in the metropolitan DC 
area on the interstate system, and the only segment of the 
capital beltway with a life expectancy of less than 10 years. 
And now I think they are talking about seven years now. I don't 
know how accurate that is. Further incremental rehabilitation 
of the bridge is no longer effective. Why did you only come up 
with a $400 million federal share for the bridge?
    Ms. Garvey. First of all, we did, Mr. Chairman, look at the 
language within the NHS Designation Act which did speak about 
rehabilitation or replacement of the bridge in kind. And if you 
want to replace it in kind, that is approximately the number 
that you would reach.
    We also put funding for the bridge in the context of a 
balanced budget, other needs and so forth. But I must say I 
certainly had similar conversations with both Secretary 
Martinez and Secretary Winstead, two very effective DOT 
leaders, and I certainly hope over the next few weeks the three 
of us can sit down and talk through how we might be able to 
finance this bridge.
    We are going to work with Congress, and this is our best 
shot at this. And we are certainly willing to work with members 
of Congress and with the two Secretaries--but trying to keep 
costs within the context of balanced budgets and many other 
needs.
    Mr. Wolf. Well, without airing dirty laundry, when I look 
at some of the other things in the Administration's 
reauthorization proposal, and I am not going to comment on what 
those proposals are, but some of them are very political.
    I understand this is ``the political process,'' and, you 
know, there are competent, capable members of both bodies who 
are advocating programs for their regions. And I don't mean any 
criticism with respect to that; I truly don't. I want to make 
that clear. That is not said in a sarcastic way. I don't have 
any criticism of people trying to help their area.
    This though really is, for better or for worse, the 
responsibility of the Federal Government. It is the 
responsibility of the President of the United States. He is the 
CEO of a large corporation that owns the bridge. It is the 
responsibility of the Secretary.
    You can't put a toll on that bridge. You put a toll on that 
bridge, we will be backed up for an unbelievable period of 
time. Cameras will show backups there day in and day out. It 
will be difficult enough for the region to reconstruct the 
bridge because during that period of time, there will be 
traffic and there will be problems and things like that.
    When the Department comes to ask for a new computer system 
for example AAS or the NAS or when the FAA comes to the Hill to 
say, ``We would like to have a new air traffic control 
system,'' they don't say, ``We just want the amount of money 
necessary to replace the system that we currently have.''
    So to say that the administration is just going to give the 
area the amount of money to replace the current bridge is a no-
brainer. I mean, it is an insult to the region.
    The Department was to submit by October 1 of '96 a proposed 
agreement between the Secretary and the bridge authority. It is 
now March, five months. Why have we had that delay?
    Ms. Garvey. Senator Warner also raised that issue last 
week, and let me say that we have a draft report complete save 
the negotiated agreement. And as we read the NHS Designation 
Act language, one of the elements was that the report would 
contain a negotiated agreement among the parties, the states, 
the District, and the Federal Highway Administration or the 
Department of Transportation.
    And because we have not been able to reach an agreement, we 
have not submitted the report. Senator Warner suggested last 
week that we submit the report that we have, and we think that 
is a good suggestion. We will get that to you very quickly.
    Mr. Wolf. Were you going to submit a report if there was 
not an agreement?
    Ms. Garvey. We will submit a report with the 
Administration's proposal, and we may also include, at 
Secretary Slater's suggestion, the states' views as well so 
that we will have all the information contained in the report.
    Mr. Wolf. When do you expect to begin solicitation for the 
overall project management consultant for the final design?
    Ms. Garvey. For the final design, the record of decision we 
hope will be in early June. We are in the final environmental 
stages now. We expect comments during the month of late April 
and into May with a record of decision in early June. It would 
allow us to go to contract or bids at about that time.
    Mr. Wolf. Has the Department considered build-design for 
the Woodrow Wilson Bridge project?
    Ms. Garvey. We have and we have actually talked with 
Secretaries Martinez and Winstead about that. And I must say 
that early in our discussions, there seemed to be more interest 
from the states in the design build. They now have raised some 
questions about it. We are looking with them at a number 
innovative contracting techniques that we could use to make 
sure that the project moves smoothly.
    So while design build is still on the table, I must say 
that both the States of Maryland and Virginia, at least at the 
engineering levels, have raised some questions. And I do want 
to revisit that with both Secretaries Martinez and Winstead 
directly.
    Mr. Wolf. If an earthquake were to destroy the Woodrow 
Wilson Bridge, presumably the $1.6 billion would be provided 
under the emergency provision. Would that not be accurate?
    Mr. Kane. Yes. One issue would be the approach work needed, 
and that is while you may look at the span itself, it depends 
on how wide the earthquake is--if the damage were just to the 
span itself. To do the full cost, 12 lanes wide, of the pier to 
pier for the bridge itself, we might be talking $550 million. 
The $400 million we talked about was replacement in kind of the 
size structure that presently exists.
    Close to $1 billion of the total cost is on property that 
Virginia and Maryland own--all the new interchanges, the right-
of-way, et cetera, so that the bridge itself, which is the only 
part the Federal Government owns, we are talking maybe $550 
million for the full-width structure. That is what would be 
covered. So there is still that $1 billion on state-owned land 
and roadways, the interchanges, and all that would be part of 
this overall project.
    Mr. Wolf. Yes. I think you see the point though.

                             air bag safety

    Mr. Kane. Yes.
    Mr. Wolf. It is the responsibility of the Federal 
government. Some of you only live here four years. Some of us 
live here 40 and 60 and 80 years. I think it is time to come 
together. I would hope that there can be a meeting of the 
entire area delegation with all of you to put this together and 
come up with something that would be agreeable to all parties.

                           depowered air bags

    I worry a little bit about your statement indicating that 
you haven't missed the production year. Canada is moving ahead. 
There is the sled test, the ADG test, the two options. What 
should the American manufacturer look for? Canada has made a 
decision, have they not?
    Mr. Martinez. It is the other way around. Canada asked the 
American manufacturers why they did not have depowered bags in 
the cars. The manufacturers said they would have them in the 
cars for 1998. So it wasn't a matter of making a decision. They 
said how come we don't have a depowered bag, and I confirmed 
that by calling Transport Canada and talking to my colleague 
the other day.
    The reason why people in the industry say that they don't 
have depowered bags here is because of our standard. NHTSA's 
rule basically is making a change to how we test for that 
standard. That gives them more flexibility than they currently 
have.
    Mr. Wolf. What is Canada doing today to test?
    Mr. Wolf. To test. What is Canada doing to test?
    Mr. Martinez. They do a belted test. I don't think they use 
the sled test. No one uses the sled test really. This is kind 
of a new idea.
    Mr. Wolf. Well, where are we with regard to Canada and 
here? Are we at a different point?
    Mr. Martinez. Well, not really. I mean, Canada has already 
asked the manufacturers to depower. They said that they are 
going to do that and have it in 1998. We are working to change 
our testing to sled testing.
    Mr. Wolf. One or the other or both?
    Mr. Martinez. One or the other.
    Mr. Wolf. And what one? That is the key, isn't that?
    Mr. Martinez. Yes. We are in rulemaking, and we have not 
released that rule so that is why I am a little reluctant to 
say that.
    Mr. Wolf. Well, that is what I am concerned about. This 
issue is not a new issue. You talked about doing this in May.
    Mr. Martinez. No, sir, I did not talk about doing this in 
May. I said they have a window that closes in May. I said that 
we have run at record pace to get standards out in two and 
three and four months, which is fairly fast. We expect to have 
it out imminently. I did not mean to make you believe we were 
going to wait until May. I said I went and followed up on the 
conversation with Mr. Card to find out what that window really 
was, and he said it went until May.
    Mr. Wolf. Okay. Well, just keep us informed because I----
    Mr. Martinez. Oh, absolutely. Let me just make----
    Mr. Wolf [continuing]. Am really worried that we are going 
to miss----
    Mr. Martinez. No, I don't think so. I think that to the 
credit of the manufacturers too, they have no intention to go 
through their own bureaucracy. My understanding is that there 
is no one who doesn't want to do this as quickly as possible.
    Mr. Wolf. I agree.
    Mr. Martinez. And I expect to see this way before 1998 
myself, or I would be surprised.
    Mr. Wolf. Do you believe that a depowered air bag will 
prevent deaths of unbelted occupants both in low and high-speed 
crashes?
    Mr. Martinez. We think that the depowered air bag will 
significantly decrease the current risks which are causing the 
deaths. We think that there are some tradeoffs to probably 
larger people and people at higher speeds. We think that would 
be mitigated by seat belt use. Our second big concern, of 
course, is that we want to make sure that children are in the 
backseat no matter what, because that is the safest seat.

                 proposed rulemaking to depower airbags

    Mr. Wolf. NHTSA's current proposed rulemaking states that 
``depowering could necessitate foregoing the opportunity to 
save a significant number of unbelted teenagers and adults. 
There could be a reduction of up to 650 unbelted drivers and 
between 86 and 280 unbelted passengers that would otherwise 
have been saved by the air bags.''
    These numbers are significantly higher than the current 
losses we are experiencing in the U.S. Do you predict that we 
are going to be revisiting the air bag issue again in the near 
term once depowered bags become commonplace in motor vehicles?
    Mr. Martinez. Well, it is a concern to us about the 
tradeoffs. Remember, right now we have one-size-fits-all 
technology. When you do that, and you say, okay, instead of 
using this dose, as it were, we are going to move to a smaller 
dose so it is less hostile to a child. It may not be as 
therapeutic as you want it to be.
    Unfortunately, right now the majority of people who we are 
saving are unbelted, and that group is largely teenagers and 
young adults. So, therefore, we have raised concerns that this 
may be the tradeoff which we are looking at.
    The numbers that you give are part of a range. We said that 
is worst-case scenario. It may not be as bad as that, but we 
wanted to set the markers out. We have spoken to the industry, 
and they believe those numbers are not that bad. Both of us 
look to very little real-world experience out there.
    There is one bag out there called the Holden bag which is a 
depowered bag in Australia. I will remind you it actually meets 
current standard 208 so nothing prevents people from doing that 
now. But that bag has shown that there are some fairly good 
benefits and may still offer some fairly good protection.
    The difference over that bag, unfortunately, is that they 
have 95 percent seat belt use in Australia, so we don't get a 
big view of the unbelted. Secondly, it has a very high 
threshold before it goes off, which may account for a lot of 
the benefits.

                waivers to permit depowering of air bags

    Mr. Wolf. Currently, NHTSA must grant waivers permitting 
manufacturers to deactivate a vehicle owner's air bag. How many 
waivers have you approved to date, and of these waivers, have 
any consumers actually been able to get their air bags 
disconnected?
    Mr. Martinez. Two separate questions, two very good 
questions. We have a team that looks at bringing the letters in 
and turning them around as quickly as possible. We have given 
out probably several hundred by now, and the rest we intend to 
take care of through the finalizing of the deactivation rule.
    The second question is whether you give somebody a piece of 
paper that says we won't enforce the law on you, that does not 
give comfort necessarily to those performing the disconnect. We 
have seen some resistance to doing that especially with the 
recent furor over our concerns about liability.
    Our goal is to put together a process that meets a lot of 
the issues that have been raised, but allows them to be done in 
those cases in which we think there is a fundamental reason for 
it.
    Mr. Wolf. What is the longest delay that you know of? Of 
somebody who got a waiver and yet hasn't had the air bag 
disconnected?
    Mr. Martinez. I don't know if I have--I can ask about that 
and see if anybody knows a particular case.
    Mr. Recht. I don't know of a particular case, but I know we 
have received a number of calls back on our hotline. People 
receive these letters, and they cannot find a mechanic or a 
dealer who will do it. I think there are a number of people who 
are sitting there today with letters in their hands who have 
simply been unable to find somebody to do the disconnect.
    Mr. Martinez. The trick for us is to find a balance that 
works, so we have really tried to address as much information 
as possible. Mr. Recht has met with the dealers of the National 
Automobile Dealers Association. We have had open discussions 
with manufacturers. And we are meeting this week to continue to 
finalize a solution that works for everyone.
    Mr. Wolf. I note that you are considering allowing 
consumers the freedom of choice to have their air bags 
deactivated. However, dealers, manufacturers, and repair 
businesses are opposed, as you know, to deactivation for all 
owners because of litigation risks. These businesses have 
recommended that NHTSA should continue approval on a case-by-
case basis. Do you have the staff to do case-by-case basis?
    Mr. Martinez. That is a big question. I will tell you that 
we all share the goal of not having mass deactivation. The way 
we proposed it was to say that we did not want panic 
decisionmaking but informed decisionmaking in those particular 
instances in which there was a risk. We felt allowing the 
person the opportunity to disconnect the air bag or to put a 
cutoff switch in would be of benefit to them.
    We have received a tremendous amount, as you know, of 
feedback on this. When you open a docket, you can get nothing 
or you can get a lot. We have gotten a lot of comments from 
just individuals--over 500 comments to that docket right now.
    Mr. Wolf. Who should pay for the cutoff switch?
    Mr. Martinez. The cost would be borne by the consumer.
    Mr. Wolf. Even though they paid for the safety device What 
will that cost?
    Mr. Martinez. For just disconnect, we think that is a 
fairly low cost--under $30. We are trying to find information 
on that. Remember, when we first started looking at this whole 
issue, the industry told us it was impossible to do.
    They wouldn't put the resources into it so we really didn't 
have a lot of information to judge that. There now has been 
some reconsideration on that, and I think we are beginning to 
get more information about possible cutoffs.
    Mr. Wolf. So what do you think it would cost for a cutoff 
switch?
    Mr. Recht. We have heard estimates of $50 to $100 depending 
on how complex they are. We have heard of ideas to have 
switches that would allow cutoffs on either side and more 
complex than the current switches and the like.
    Mr. Wolf. Many automobile and child safety seat 
manufacturers have expressed a growing concern over the number 
of air bag fatalities in the United States, particularly those 
related to children. To solve this problem, there has been a 
call for advanced or ``smart'' air bags to be installed in 
vehicles beginning in model year 1999.
    NHTSA held an advanced air bag meeting on February 11 and 
12 where definitions and timetables were discussed. The U.S. 
may be the first country to establish a rule mandating advanced 
air bags in vehicles. Will the American rule set the 
international standard, or will manufacturers have to install 
different systems depending on where the vehicle is sold?
    Mr. Martinez. Well, this is one of these opportunities I 
think that we should take advantage of, and right now 208 is 
considered one of the best standards and one of the most used 
standards in the world. What we are really saying is to enhance 
frontal crash protection standards in this country.
    As we said before, we are trying to bring everyone to the 
table. I think that was one of the central messages that you 
had when you asked us to begin to hold our roundtable lunch. We 
have used that as an opportunity to bring people together. 
Conversations we have had recently have been about solving the 
issues together with industry and other research groups.
    So my response to you then, given that background, is that 
we have an opportunity here to enhance 208 which means we will 
have a better standard coming down the pike.

                        SMART AIR BAG DEFINITION

    Mr. Wolf. When will we have a definition of a smart air 
bag?
    Mr. Martinez. Oh, fairly soon. We used the roundtable to 
flush out several definitions and bring two or three 
definitions to the table, number 1. Number 2 is to get 
agreement from the major players that we had the dummies 
available to begin to do a rough outline of what that 
performance standard should look like.
    In the February 11 and 12 meetings, there was a separate 
roundtable to basically hammer that out. We are meeting with 
the industry and others to put together a joint proposal that 
brings us not only to the answers but into rulemaking within 
this year.
    Mr. Wolf. And the technology will be available in--
    Mr. Martinez. You know, that is a very interesting 
question. When we did our request for comments and asked 
information from the manufacturers, there was the estimate of 
1999 for smart air bags coming into the fleet. Also, in order 
to validate those comments, we are beginning to work with NASA 
to help us validate technology to see if it is ready for prime 
time.
    Mr. Wolf. I was going to ask do you have the technology to 
know?
    Mr. Martinez. Well, I called Dan Golden and asked him if we 
could work together on that. They have some experience with 
that also. In some ways this is rocket science. So we are doing 
a joint program with them to go and evaluate the existing 
technologies.
    Mr. Wolf. And is he cooperating with you?
    Mr. Martinez. Sure. We signed a letter of agreement with 
NASA. We also signed a letter of agreement to work with Canada, 
because what we want to do is work in parallel with them rather 
than independently. For instance, we are working on the 
performance measures with dummies on children and women. I 
think in many ways what we have been able to do is leverage our 
resources and create the network.
    The idea is to bring people to the table with a common 
goal, and I am happy to say that just in the last two weeks 
from conversations with industry, both our domestic and 
international partners, we are getting close to some agreed-
upon timetables and goals to work in parallel. And the basic 
issue here is to speed everything up as fast as we can.

                             AIRBAG FUNDING

    Mr. Wolf. A recent USA Today article noted that ``air bags 
account for about a third of the additional $33 million NHTSA 
is seeking over its fiscal year 1997 budget of $300 million. 
The agency is asking Congressfor an additional $11 million for 
air bag education programs and research including extra money for crash 
investigations.'' In looking at the budget, you can only account for an 
$8 to $8.4 million increase. What is the accurate amount?
    Mr. Martinez. $6 million is for research hardware. This 
includes special crash investigations. It also includes safety 
systems and biomechanics research. Biomechanics is always 
fairly expensive because it involves testing dummies. The third 
component is, our surveillance system that we are working with, 
through the hospitals to get surveillance of crashes.
    $2 million is for traffic safety programs which is really 
education and outreach aspects with a big focus on hard-to-
reach communities; for example, Hispanic communities, rural 
communities and others.
    We think that is our role, but we are using that to 
leverage our funding with the Air Bag Safety Campaign that we 
initiated to try to get out and get the information. About $2 
million is for information-education and about another $6 
million is for research hardware.

                          AIRBAG EFFECTIVENESS

    Mr. Wolf. NHTSA's August 1996 report on the effectiveness 
of air bags indicates a ratio on the passenger side of five to 
six adults saved for every child killed. Is this an acceptable 
level of effectiveness?
    [The information follows:]

    NHTSA's report estimated that during 1986-95 passenger air 
bags had saved the lives of 88 passengers age 13 or older. The 
agency knew of 14 child passengers who had apparently received 
fatal injuries from interactions with air bags in low severity 
crashes during that time period. That ratio has stayed about 
the same in more recent data. NHTSA now estimates that, 
cumulative through March 1, 1997, passenger air bags have saved 
the lives of 196 passengers age 13 or older, whereas the agency 
has been informed of 38 children who have apparently received 
fatal injuries from interactions with air bags.
    In the agency's view, saving five adults for each child 
lost is not an acceptable level of risk. NHTSA is therefore 
working diligently to develop and institute measures to 
minimize the risk to children as well as others at risk. As 
part of a comprehensive air bag safety strategy, NHTSA has 
issued regulations requiring improved, attention-getting 
labels, and has also worked with organizations and coalitions 
to get information out to parents and the general public on the 
dangers to children of air bag deployment.
    On March 14, 1997, NHTSA issued a final rule permitting 
automobile manufacturers to depower air bags. Another 
rulemaking action is currently underway that would permit 
vehicle owners to arrange for deactivation of the air bags in 
their vehicles. And as a longer term regulatory measure, the 
agency is working with the automobile industry and air bag 
suppliers to facilitate research, testing and introduction of 
improved air bag systems into passenger vehicles at the 
earliest feasible date.

                          AIRBAG DEACTIVATION

    Mr. Wolf. When does NHTSA plan on issuing a final rule on 
whether or not deactivation of air bags on a broader scale may 
occur?
    [The information follows:]

    The agency considers this to be of the highest priority. 
The comment period on the NPRM for deactivation closed on 
February 5, 1997. The agency received over 500 comments to this 
NPRM. Many complex issues are involved with final decisions 
associated with this proposed action. Once resolution of these 
issues has been reached, the agency will issue a final rule.

                     motor vehicle safety standards

    Mr. Wolf. Does NHTSA plan on having functionally equivalent 
standards between the United States and the European Union? If 
the standards are functionally equivalent, would a rulemaking 
still be necessary to state equivalency and certify the 
standards in both localities?
    [The information follows:]

    On January 16, 1997, the agency held a workshop to discuss 
a proposed step-by-step process for determining functional 
equivalency of U.S. and other international regulatory 
requirements. The workshop drew the participation of some sixty 
persons, representing; consumer and insurance interests, 
manufacturers--both foreign and domestic, automotive suppliers, 
several foreign governments and other agencies of the Federal 
Government.
    The proposed process leads the assessment of functional 
equivalence through the review of available information 
including; safety benefits analyses, compliance test data, 
engineering analyses, research results. The result is a 
determination or non-determination of functional equivalence. 
In the case of determination of functional equivalence, 
rulemaking is initiated to permit certification to either of 
the regulations considered in the determination; and, in the 
event that the foreign regulation is determined to be 
functionally equivalent because it yields superior safety 
benefits or its performance level is judged more stringent; 
proposing to upgrade the performance level of the United States 
regulation to that of the foreign regulation. Rulemaking would 
be necessary to effectuate a determination of functional 
equivalence because, absent a change to the Federal Motor 
Vehicle Safety Standard (FMVSS) involved, vehicle manufacturers 
would continue to be required to comply with the previously 
existing requirements of the FMVSS. The reason for this is that 
the statutory authority for the FMVSSs prohibits the sale or 
importation of vehicles that do not comply with the FMVSS. (See 
49 U.S.C. 30112(a).) Likewise, manufacturers would continue to 
be required by statute to certify their vehicles as complying 
with those previously existing requirements since section 
30112(a) also prohibits the sale or importation of vehicles 
that are not certified as complying with the FMVSS.
    In the case on non-determination of functional equivalence 
because the foreign regulation is less stringent than the 
United States regulation, the determination of functional 
equivalence of the United States regulation to the foreign 
regulation and the resulting regulatory action are the purview 
of the foreign regulatory authority. Of course, the assessment 
conducted by the agency would be made available to the foreign 
regulatory authority for its consideration.

    Mr. Wolf. In its ``smart bag'' standard, does NHTSA plan to 
amend the standard as technology improves?
    [The information follows:]

    Depending on the form and timing of the improved air bag 
rulemaking, the agency will certainly consider future 
technology improvements. One of our initial goals is, however, 
to promulgate any regulation in a form that would not hinder 
(or would, in fact, encourage) the use of more sophisticated 
air bag technologies.

    Mr. Wolf. The Department is planning to require the 
installation of ``smart air bags'' into vehicles within the 
next five years. When do you expect to issue a notice of 
proposed rulemaking defining what constitutes a ``smart air 
bag''?
    [The information follows:]

    The agency completed a public workshop on improved air bag 
definitions and technology on February. 11-12, 1997. Meetings 
are continuing with vehicle manufacturers and equipment 
suppliers to discuss and evaluate the level of existing 
technologies and the development of future technologies. The 
agency has entered into a joint-funding contract to have the 
National Aeronautical and Space Administration (NASA) conduct 
an independent assessment of these issues. Based on the outcome 
of these actions and evaluations of the safety needs, the 
agency will determine the appropriate timing for rulemaking.

    Mr. Wolf. Will this rule be moved on an expedited basis so 
that vehicles with ``smart air bags'' technology will be 
available on the American market by model year 1999?
    [The information follows:]

    Based on the outcome of the agency's studies and 
evaluations of the safety needs, the agency will determine the 
appropriate timing for this rulemaking. Certainly, the agency 
plans to work as expediently as possible to assure that the 
safety possible air bag systems are provided to the American 
public as quickly as possible.

                         Air Bag Safety Program

    Mr. Wolf. NHTSA is requesting $2 million for an air bag 
safety program. This program is designed to enhance public 
education about the dangers of air bags and assist states in 
conducting high visibility, statewide enforcement and education 
campaigns.
    Private sources have already provided over $13 million to 
fund the Air Bag Safety Campaign, which has a three-pronged 
approach to increase public education, strengthen seat belt and 
safety seat enforcement activities, and strengthen states' seat 
belt and safety seat laws.
    What does NHTSA plan to do differently than the Air Bag 
Safety Campaign? Why should Congress fund this program when the 
private sector has contributed significant resources for these 
activities?
    [The information follows:]

    The additional $2 million would be used to complement the 
activities of the Air Bag Safety Campaign (ABSC) and would not 
be redundant to those efforts. The ABSC supports only six State 
safety belt enforcement programs. Approximately $1 million of 
this $2 million request would allow the 21 States that are 
currently participating in the Campaign Safe & Sober 
Demonstration Grants to continue program operations. This 
funding enables these States to conduct high visibility, 
statewide enforcement and education campaigns that support the 
President's goal of increasing seat belt use. Approximately 
$300 thousand would be used to measure public awareness of 
efforts to enforce state safety belt use laws in each of the 
States over time. This system will allow NHTSA to assess the 
degree to which different enforcement activities result in 
increased public awareness of enforcement of the safety belt 
and child passenger safety laws.
    The balance of approximately $700 thousand would be used 
for educational activities that, again, complement and are not 
redundant to the ABSC efforts. NHTSA has found a partner that 
will distribute the Protecting Your Newborn video to 
professional educators in the medical and public health fields. 
NHTSA funding would be used to place this video in pubic 
libraries, video rental stores, and other places where it would 
be accessible to the general public. Another effort is an 
educational campaign to provide NHTSA air bag warning labels to 
vehicle owners that may not have received labels from vehicle 
manufacturers. Two other needs that are not being addressed by 
the ABSC are a comprehensive Spanish language child safety seat 
brochure and a billboard with a ``Kids in Back'' message.

    Mr. Wolf. Mr. Tiahrt.
    Mr. Tiahrt. Thank you, Mr. Chairman. One of the things that 
I think you have advocated is lowering the alcohol content for 
drivers from what?--.0 to .08? Is that correct--the alcohol 
limit for drivers?
    Mr. Martinez. Yes. That is part of the safety programs--the 
highway safety grant programs. We have supported .08 because of 
its effectiveness.

                           Underage Drinking

    Mr. Tiahrt. What about underage drinking? Have you taken a 
position on that?
    Mr. Martinez. Yes, we do. We think that is a major problem. 
Interestingly enough, we had a problem in this country just 
last year where, you have age 21 as the drinking age, and yet 
if you are stopped for drinking and driving and you are under 
age 21, you were considered drinking and driving as opposed to 
the fact that you weren't supposed to be drinking at all under 
age 21.
    It was interesting. You couldn't drink under 21, but if you 
are driving, you were kind of thrown into this other category. 
So with the President's leadership, we began to propagate the 
zero tolerance that was passed by Congress last year, and I am 
happy to say that we have seen a great response by the states 
on that.
    The other thing is that when it comes to underage drinking, 
one of the problems we have been able to identify is that the 
places where the alcohol is bought and consumed is different 
than the normal mechanisms. So if law enforcement, for example, 
checks the bars and restaurants, then they may not pick up the 
underage drinking driver.
    However, if they go to, the riverfront or lakefront or 
playgrounds in the evening where people buy their alcohol from 
a convenience store and then consume it there, then they are 
more likely to pick up the underage driver. So we have begun to 
work with adjudicators and law enforcement and others to focus 
on youth as a separate issue including separate laws, separate 
enforcement mechanisms, and separate adjudication.
    And then, lastly, in graduated licensing programs, we tried 
to focus on the fact that when you get your license, you should 
do it in stages so that youth cannot only just get the 
knowledge and skills to drive a 3,000 pound weapon, but also 
develop the attitude and behaviors.
    And part of that graduated licensing program is that not 
only can they not be drinking, but there can be no alcohol in 
the cars. So, it is a way to help develop those healthy 
behaviors. There have been several programs where we are doing 
a focus on that.

                              drug testing

    Mr. Tiahrt. Are you looking at any innovative ways to 
detect drug abuse as well as not just alcohol but other areas? 
You know, some people would argue that, if you squash down 
alcohol use, then you will encourage drug abuse. And so I think 
we ought to address the whole problem, and certainly we haven't 
done enough in this country to stop the abuse of drugs. So is 
there any new technology besides blood testing or--I am not 
sure exactly the best means now detecting it.
    Mr. Martinez. Well, you raise a very good point. Just to 
kind of tie these two in, we have a program called Partners in 
Progress. Drunk driving has been going down for the last 
decade. It went up last year for the first time. We don't see 
the trends dropping like they used to.
    They are beginning to flatten out so we initiated a program 
called Partners in Progress, which involves law enforcement, 
the health community, business and others. We brought them in 
and said, ``How can we move forward?'' I am pleased to announce 
we have just recently released over $1.6 million in grants 
demonstrating innovative programs to attack the problem in new 
ways.
    The other thing that we have done is to try to look at what 
youths gets from us as a message and do we need to do other 
things, which raises exactly what you are saying. There is a 
truth to the fact that if I know you can test easily for 
alcohol, then I will smoke marijuana. We are concerned about 
that.
    We met with 6,000 youth in some of our outreach; found that 
75 percent of them saw drugs as a growing problem. 
Interestingly enough, 50 percent thought that if you had strong 
laws and good detection, it would make a big difference. This 
is from the youth themselves. The President asked us to put 
together a report on drugged driving and youth especially. The 
one who led that report for us was Mr. Philip Recht, my Deputy 
Administrator. I would like to turn it over to him.
    Mr. Recht. Yes. I would just add that in response to the 
President's initiative we worked with the Office of National 
Drug Control Policy (ONDCP), Departments of Justice and 
Education, and HHS and came up with a program, and this year we 
are going to start a pilot demonstration to allow drug testing 
in two to four states--prelicensure drug testing for young 
people.
    And as Dr. Martinez alluded to, we actually met with about 
6,000 teenagers to get their reaction to it before we, in fact, 
proposed it, and they thought this would be effective in 
reducing both teen drug use and drugged driving. And, 
interestingly, 75 percent of them said exactly as you observed, 
that they have been out on the roads with friends who have been 
doing drugs and driving simultaneously. And, of course, that 
creates a hazard.
    We also in the future, are going to create an incentive 
program to encourage states to improve their drug driving laws 
which are not nearly as strong as the alcohol laws. We also are 
going to put in the next few years additional monies into our 
training for prosecutors and Judges and police officers which 
is a major problem.
    You may be familiar with our DEC program which has been 
very successful. Most police officers can detect alcohol by 
simply smelling your breath, but they are not so sure how to 
detect drugs which requires a lot more sophisticated 
techniques. In any event, we have a comprehensive approach 
moving forward precisely to the issue you raise.
    Mr. Tiahrt. So we are going to come up with some new 
technology someday and----
    Mr. Martinez. We are looking at new technologies. For 
example--I don't want to get too technical--but there are 
things like saliva testing and urine strips, that sort of 
thing. And also passive detectors are all being looked at as a 
technological approach to solve it.
    We have certainly done that with alcohol, and in many of 
these alcohol sensors they have now, they want you to blow 
through it--passive sensors where you can at least know if 
something is coming or someone has been using alcohol. So we 
are looking at technology and trying to move that into the law 
enforcement community.
    Mr. Tiahrt. I have to tell you that part of me says that we 
shouldn't have to do any of this, that the concept of liberty 
has been so misunderstood. It has been substituted for freedom. 
Instead of freedom to do the right thing, which I think is what 
liberty means, it is freedom to do anything. Somehow we are not 
conveying that to our kids, and I think that is part of the 
sociological crisis that we are going through in this country.
    If people don't do the right thing, then you have to have 
more and more laws and regulations to get them to do things 
that aren't harmful to themselves, which is what they should do 
anyway. So I think this new technology is something that is 
more easy, especially for police who have probably the toughest 
job in America today.
    Saliva would be a lot easier to extract than something 
else--blood or urine I think. So I hope that we do develop that 
and be part of the plan. Because of this new technology, do you 
see any increased liability upon the states and perhaps the 
Federal Government because of this?
    Mr. Recht. Well, currently, we do a lot of drug testing at 
the Department of Transportation--not NHTSA but with respect to 
FAA and motor carriers, and we continue to use the urine tests 
because of their effectiveness and accuracy and the like.
    In putting together this program that I was describing a 
few moments ago, we spent a lot of time talking about these new 
emerging technologies--saliva, hair testing, and the like. I 
think on the part of states and others that are engaged in 
this, they are concerned about the reliability issues, and they 
have shied away.
    My sense though is in the private sector, hair testing, in 
particular, is coming on strong. People seem to be a little 
less concerned. But as the reliability issues get resolved, 
certainly also the cost issues--become more favorable. It seems 
to me the governments are going to move in the direction of 
these new less invasive technologies.

                           aggressive driving

    Mr. Tiahrt. In kind of following this same misuse of 
liberty, aggressive driving has been a problem here locally. 
Many of you recall last year the accident on George Washington 
Parkway.
    I have had personal instances where people have been very 
aggressive. I drive an '84 Chevy van with curtains in it, you 
know, and sometimes I just have to signal and slowly move over. 
And I thought I was making a lot of friends because they all 
honked at me. It took me a while to realize that this is not 
Kansas anymore.
    But what are you doing about aggressive driving? How can we 
address that issue? And, again, it goes back to the same 
philosophy. We shouldn't have to do anything. But if people are 
going to continue and it becomes a hazard on even the George 
Washington Parkway, are there any studies that you are doing or 
profiles or----
    Mr. Martinez. We certainly are. I mean, one of the things 
about aggressive driving is that it is a real concern to people 
throughout America. A recent study around here showed that 
people are more concerned about aggressive driving than they 
are about drunk driving now just because of the feeling of 
threat to life.
    We are doing studies actually to better understand the 
ideology of aggressive driving. There are some very interesting 
characteristics. I mean, people who would not get in front of 
you in line in the bank will make sure they ran their car in 
front of you.
    I think we have tried very hard to begin to increase 
awareness on aggressive driving through outreach and education 
programs and working with the media, and they have actually 
done a very good job of beginning to raise this issue.
    We are also working closely with law enforcement to look at 
what works. As I had mentioned a little bit earlier to some of 
the other Congressmen, California has a program, Maryland has a 
program, Arizona has a program. We are working with them to 
begin to understand what works and what the effectiveness is 
and how that can be transferred to other states as they 
struggle to cope with this.
    We are also looking at ways for law enforcement to extend 
their reach through programs in conjunction with the Federal 
Highway Administration such as red light running campaigns or 
red light technology that is able to basically begin to put 
some sort of compliance issue out there so people realize that, 
if they run the red light, there is some consequence to pay for 
that.
    One of the concerns we have is that we have seen tremendous 
growth in miles traveled and yet no concomitant increase in law 
enforcement. So, therefore, you often don't see law 
enforcement. What you get is kind of a cowboy mentality on the 
highways of everyone on their own, able to do what they want to 
do with no consequences. And eventually--if you interview 
people, they will tell you, ``Everybody else is doing it so, 
therefore, I can get away with it.''
    So we have got a series of programs that we are doing, and 
it is an area that has focused us on the judicial system 
because we are very concerned that the penalties are way too 
low and not used properly, and that we have not given the 
Judges the tools they need in order to support it. Therefore, 
law enforcement finds it difficult to enforce some of the laws.
    We have also tried to point out, by the way, there is a 
very strong link between enforcing routine traffic laws and 
picking up high-risk individuals. And in doing so, we hope to 
stem the tide of when law enforcement on the highways is taken 
off the highways because that is not considered to be an 
important thing for them to do. They are told to go get 
criminals, and yet, highway crashes are the leading cause of 
death out on our highways right now. We are trying to ensure 
you can do both at the same time.

                        law enforcement services

    Mr. Tiahrt. One of the concerns that people have--I know in 
Wichita we had a quarter-cent sales tax increase for law 
enforcement. And a lot of the concern was that these police 
would not go to catching criminals--what most people think is 
criminals--the drug dealers, the people who are dangerous in 
our society--but they were concerned that they would end upjust 
being hassled by traffic cops.
    And although it is very necessary, it seems like there has 
been--don't hassle me. We took the quotas off, for example, on 
highway patrol in Kansas, and they started running just 
courtesy vans. And they would come--you know, when somebody had 
a flat tire, they would stop and ask if you would need help.
    And there was a much more positive response to the police, 
and people actually started being kinder on the highways and 
driving more sanely as far as speed limits. It was kind of a 
positive reinforcement. I wonder if there is any incentive 
program?
    I was just reading the questions that my wife was getting 
to renew her driver's license in Kansas, and all of them were 
technical questions. None of them had to do anything with 
common courtesy and sitting in Traffic Court.
    I went down to Traffic Court in Fairfax one time just to 
see what was going on and listened for about a half an hour. 
And the Judge was reprimanding a gentleman who had driven down 
the shoulder to cut in front of a half dozen cars, and the 
policeman gave him a ticket for it. And the Judge said, ``What 
made you think you are better than the six people you passed to 
get ahead of?'' and I never thought about that before.
    Why don't we have some kind of common sense questions just 
even in our driver's tests? And I am wondering if you have any 
incentive to get states to do something like that, to just have 
kind of civility questions or good citizens questions? You 
know, we used to learn that in school--good citizenship. I 
don't know where it is being taught now; apparently nowhere. It 
is not----
    Mr. Martinez. Well, you raise some very good points. You 
really do. One of the focuses of the graduated licensing 
program is that, it is too easy to get a license in this 
country. You get it and then we don't see you until you are in 
big trouble. Then we see you again because you have been in 
some big crash or they pulled you over for something else. But 
most of the time there are no consequences, there is no 
adjustment of behavior and attitudes.
    We have really begun to work closely with AAA, for example, 
and with the motor vehicle administrators throughout the 
country to really focus on some of these issues, including the 
rules of the road--just basic civility, courtesy, those sort of 
issues. We just signed a memorandum of understanding with AAMVA 
to work more closely.
    I think it is important too that we do have some support 
for law enforcement. People understand that law enforcement--
when they say to protect and serve, that really does mean to 
protect by doing good law enforcement. We have found that by 
bringing law enforcement more into contact with some of our 
partners, we have been able to support them better.
    For example, we have a program with the emergency 
physicians working with the law enforcement called the Cops and 
Doctors Program. From talking to the law enforcement, they have 
found that it is the doctors in the hospitals who benefit from 
what they do and also can speak for the community and help set 
that message.
    We have also got the law enforcement more involved in child 
safety seat distributions and child safety stops. In Virginia, 
the law enforcement is very involved in the compatibility issue 
such as teaching children and parents how to put the child 
seats in properly. All these things help set the message that 
law enforcement is part of the social message of supporting a 
healthy community.
    By the way, I was going to point out we have a safe 
community working in Cedric County where we bring law 
enforcement into the community to talk about these injuries and 
these crashes as, you know, a quality of life issue.
    The interesting point you made about law enforcement, is we 
have to really look at its value. You know, when you stop 
someone else who is taking risks on the road, that is good law 
enforcement. When you stop me, it is harassment because I 
pretty much know what I am doing. Otherwise, I wouldn't be 
doing it.
    I get this all the time. One person wrote, ``The problem 
is, you are stopping me as opposed to those people who can't 
hold their liquor. See, I can hold my liquor.'' So we have to 
look at ourselves to determine how much we support or don't 
support law enforcement.
    We did a study to look at the effects of law enforcement. 
The governor of North Carolina, well known for his Click-It-Or-
Ticket Campaign, found that when you increase officers on the 
road, you get a lot of benefits.
    And then those who continue to break the law, despite the 
law enforcement presence, often have alcohol on board or have 
outstanding warrants for arrest or other things. I remind 
people that the alleged bomber, Mr. McVey, was picked up for a 
routine traffic stop, and so there is some value there.
    We looked at one study that found that 37 percent of a 
police department's felony arrests came from routine traffic 
stops, even though that was one of the smallest parts of the 
department. So, again, all these things are we are trying to 
build these links and help position it and I think leverage 
resources that are out there--scarce resources, unfortunately.
    Mr. Tiahrt. Well, I appreciate what you are doing in 
Sedgwick County. Thank you very much, and thank you, Mr. 
Chairman.

                    air bags and child safety seats

    Mr. Wolf. Mr. Foglietta.
    Mr. Foglietta. Thank you, Mr. Chairman, and apologize for 
being late, but there was another Appropriations subcommittee 
hearing scheduled simultaneously with this one. Dr. Martinez, 
since early last year, as you well know, I have been working 
with you and our Chairman to press for greater attention of the 
critical issue of children and air bags.
    This issue is certainly in the spotlight right now, but I 
see you have--as I sat here, I saw this information which is 
being presented in this wonderful booklet, and the video I 
assume is on the same subject or some sort of related subject?
    Mr. Martinez. Yes.
    Mr. Foglietta. But, however, on a very practical matter, if 
I am a concerned parent who is trying to properly install a car 
seat, how many people at NHTSA do you have on staff dedicated 
to answering consumer questions?
    Mr. Martinez. Well, that is a very good question because 
what we found was we didn't have enough. We have the hotline 
which answers questions and also lets people know about 
recalls, which we are very concerned about. People don't always 
know.
    But we have also begun to train trainers around the 
country. We have a group of individuals who do the training. We 
have actually just finished working with the Safe Kids program 
so that there are trained trainers throughout the country. We 
now have training programs in all 50 states or experts in all 
50 states.
    What we do is set up a network so when calls come in, we 
can refer them back through an expanded network. Clearly, we 
did not think that the appropriate thing was to have everyone 
just call us, but rather move the information into the states. 
So I am glad to say that we are working with the Emergency 
Nurses Association who are training trainers, and they are also 
putting those trainers in with dealerships around the country 
through the Adopt-a-Dealer Program.
    In addition to that, we are developing a CD-ROM that makes 
it very simple for people to look up whether a seat fits in a 
car or doesn't fit in a car. That has been a lot of work, but 
it is actually a very useful tool for us to make available for 
dealers. Mr. Recht just went to the dealers' meeting in Atlanta 
a few months ago to help us move that into that arena.
    Lastly, we have our Internet site that we have built to be 
user friendly. The child safety seats is a big area hit. We are 
getting over 6,000 hits a day. We also have a fax-back system 
we put into the hotline so people can get information from 
there.

                      Child Safety Seat Education

    Mr. Foglietta. How much of your budget or what percentage 
of your budget is dedicated to this kind of educational 
program?
    Mr. Martinez. We have a program called Partners for Life 
which is dedicated to that. I can see if I can find out what 
the exact number is because a lot of this is woven into it. We 
have also put it through our $11 million campaign, Safe and 
Sober, again, where we are using law enforcement to help us get 
the information out. And we have, of our air bag safety 
information, a large component of it, as child safety seat 
information. So I would say it is several million dollars.
    Mr. Recht. And the hotline as well.
    Mr. Martinez. And the hotline. It would be hard for me to 
give you an exact number. I can, but it is woven into most 
everything we do.

                        Child-Size Test Dummies

    Mr. Foglietta. What plans do you have for extensive sled 
and crash testing involving dummies approximately the size of a 
child?
    Mr. Martinez. We started last year in trying to improve the 
children's dummies. It is very interesting. We have a situation 
where no one really wants to see a child harmed, but there has 
not been a lot of studies on children.
    It is hard to do studies on children. So you have to really 
come up with the dummies and evaluate the dummies. That means 
really investigating children who are injured. It means having 
a very close link to the health care facilities, like 
Children's Hospital of Philadelphia, for example. We are 
working with them. They have a very strong relationship between 
the engineers and the doctors. We have seven other centers 
around the country.
    And so in our biomechanics program for next year, the $3.15 
million--a lot of that is to improve children's dummies and 
small-statured female dummies, and we are also leveraging that 
through working with Canada on similar projects. Again, we 
think that the fastest way to speed things up is to work in 
tandem with others.
    The last thing I will tell you is that we have brokered an 
agreement internationally. Research priorities will be on 
biomechanics so that other countries that have the same 
problems we have of trying to make budget decisions, we can 
work internationally.
    We started last year when we came to Mr. Wolf and asked for 
monies for the National Transportation Biomechanics to 
specifically start on small children last year. This year we 
have, in response to the air bags, even more money put into 
that.
    Mr. Foglietta. I would assume that you are collecting this 
kind of data for the purpose of devising or designing new 
safety standards?
    Mr. Martinez. Yes, sir, certainly to enhance both our 
understanding of the issues and, secondly, to enhance our 
standards. Let me make this point, because I remember Mr. Wolf 
asked me, I think it was December--December 19, how much was 
known about children being injured. And I had made the comment 
that in our request for comments, we didn't get a lot of 
information.
    What we did was we had to actually identify what was 
causing these children to be injured. Was it just the power of 
the air bag or was it more, and we actually identified a fairly 
different mechanism which is the membrane effect. And trying 
figure that out and translate how you solve that really means 
we have to have a good dummy that represents the peculiar 
differences of a child. So that is a priority issue for us.
    Mr. Foglietta. I am sure you are collecting the data that 
indicate how many miles that children travel as occupants in 
automobiles and at what age they travel and so forth so that is 
all part of your database?
    Mr. Martinez. Yes, sir.

                        Air Bag Safety Standards

    Mr. Foglietta. Really what I am trying to get at in this 
questioning is how much data we do collect and how much do we 
have on hand and how do you work in concert with the automobile 
industry in moving toward setting new standards to increase air 
bag safety?
    And, you know, do you or do you not possess the information 
that is necessary to make sensible and effective standards 
possible? And is there a shortage of relevant information, and, 
if there is, does this information shortage continue to expose 
children to the risk of injury or death?
    Mr. Martinez. If you had asked me last year, I would have 
said that we were staring into a relative void in some areas. I 
mentioned earlier to Mr. Wolf that I have not met anyone who is 
not terribly dedicated to solving this problem as quickly as 
possible. And what that has done is ignited a lot more research 
than that has been done in a very long time on children's 
issues.
    We already have one relationship with a children's 
hospital. We have the other ones that we are trying to nurture 
further. We have strengthened our relationships with the 
American College of Pediatrics. We have focused more 
onchildren's injuries, and we are really pulling the train when it 
comes to children's injuries given the relative amount of information 
known internationally.
    Now, having said that, I think we are in fairly good shape 
because what we have done is begun to identify not only our 
strengths but our weaknesses and other people's strengths. We 
are weaving a web, as it were, or a network that will allow us 
to move forward by having everyone contribute what they can to 
identify fully the issues.
    I think that that has already led into tremendous insights. 
Most everything being done on the standards is being done from 
what we did through our emergency research program and other 
people's work. I think we are going to be coming out with 
performance standards for advanced air bag technology in a 
relatively short time frame.
    Mr. Foglietta. Thank you very much, doctor. And with your 
permission, Mr. Chairman, I have a couple questions for Ms. 
Garvey.
    Mr. Wolf. Sure. Go right ahead.
    Mr. Foglietta. First of all, I would like to welcome you 
here, Ms. Garvey----
    Ms. Garvey. Thank you.
    Mr. Foglietta [continuing]. As the Federal Highway 
Administrator or Acting Federal Highway Administrator?
    Ms. Garvey. Yes. That is correct.
    Mr. Foglietta. We will look forward to eliminating that one 
word from your title.
    Ms. Garvey. I hope it is acting and not administrator.
    Mr. Foglietta. Very good, very good. I certainly did mean 
acting.
    Ms. Garvey. Thank you.
    Mr. Foglietta. First of all, I want to applaud Secretary 
Slater's efforts to establish urban FHWA intermodal offices in 
the cities, as well as throughout the rest of the country. The 
cities in metropolitan areas have different needs and issues 
than their counterparts in the nonurban areas.
    The standards for design sometimes don't take into account 
the special needs and challenge of densely populated areas. In 
cities like Philadelphia, for instance, sidewalk traffic 
probably exceeds that of many nonurban roads throughout the 
country. That is why it is so critical to have the Federal 
Highway officials who are sensitive to the special challenges 
that urban transportation faces.
    These multimodal offices have and will go a long way toward 
enhancing the mobility of urban areas nationwide. Can you speak 
to us for a few minutes about the Department's views on these 
urban offices and services they provide?
    Ms. Garvey. Yes, I can, Congressman. We have four 
proposals, as you know, for potential sites. One is Los 
Angeles, and that office has actually opened, and we have both 
FTA and FHWA employees there serving the City of Los Angeles.
    Chicago, Philadelphia, and New York are the other three 
areas, and we hope to have those offices in place and 
operational before the end of the fiscal year--we are looking 
for locations at this point.
    But I think you are right. We view them as a satellite, if 
you will, of both the existing regional FTA and the Division 
FHWA offices--but a way to get closer to the customer and deal 
with issues that are unique to urban areas--we are looking 
forward to that.
    Mr. Foglietta. I think we have all heard the recent reports 
qualifying the dangers of car phones and driver safety. If you 
combine the use of car phones, people who smoke while they are 
driving, people who are looking at maps, infrastructure 
defects, with the removal of the national speed limit and other 
factors that impair driver safety like driver fatigue and 
aggressive driving that we talked about earlier, we have a real 
recipe for disaster on our roads.
    I think there is a new role for national leadership on 
driver safety. Does the Department have any plans to undertake 
new driver initiatives--safety initiatives?
    Ms. Garvey. We have a number of initiatives underway and 
are working very closely with Dr. Martinez and his staff, both 
with NHTSA and FHWA, but certainly the Share the Road Campaign 
that some of our safety advocates have worked very hard on is 
key. We have also been working the No Zone Program which our 
Office of Motor Carriers has been very aggressively involved 
in.
    The ITS which we had mentioned a little bit earlier--
working with NHTSA we have undertaken a study which holds some 
very promising results about how we can use intelligent 
transportation systems to help us reduce the number of crashes.
    And the numbers and the statistics that we have seen 
indicate they can reduce crashes by about 17 percent using ITS. 
We talk a lot about ITS with traffic flow improvements, and 
that is important. But I think some of the safety improvements 
that can occur because of ITS are significant as well.
    Mr. Martinez. And on top of that, we also have a focus on 
youth and how they come into this system and also their 
decisionmaking process and what they need to know.
    We have been working with states to look at graduated 
licensing programs which give not only special training to 
youth, but also watch them as they come into the system so that 
we can focus on those who are high risk early on and hold them 
to some different standards such as everyone has to be buckled 
in their car, no alcohol, certain limited times in which they 
can drive.
    Those have been shown to be very effective, quite frankly, 
in reducing crashes and fatal crashes. On top of that, we have 
three research programs ongoing regarding driver's education 
for youth and expect to turn those into programs within the 
next year or two.

                             I-95 Corridor

    Mr. Foglietta. Last year, Secretary Slater came to 
Philadelphia to visit the site of a disastrous tire fire that 
we had on I-95 within the City of Philadelphia. That disaster 
taught us a valuable lesson on just how important the 
interstate system is to Philadelphia.
    Trucks carrying goods, automobiles carrying commuters, 
providers of services, travelers, everything came to a 
screeching halt because of that one breakdown. The fire and the 
damage it caused just created havoc with the City of 
Philadelphia. But the Department came swiftly to our aid, and I 
want to thank Secretary Slater and former Secretary Pena for 
their responsiveness.
    But the fire served to highlight another problem we are 
facing. Last year, our governor killed plans to make 
improvements on 51 miles of I-95 that run through Pennsylvania 
between Delaware and New Jersey. The project would have 
resurfaced the badly deteriorated highway;undertaken critical 
projects to enhance safety and allow traffic to move more efficiently.
    The difference in quality and safety between Pennsylvania's 
I-95 corridor and that of Maryland, Delaware, and New Jersey is 
compelling. It is critical to the efficient flow of goods, 
services, and commerce that the I-95 corridor be maintained at 
the highest standard and is able to safely accommodate the 
traffic that uses that interstate every day.
    For example, in Philadelphia on I-95 there have been 
numerous accidents on the interstate or bridges and viaducts 
where no shoulders exist. I know of an example where several 
disabled vehicles have been hit by tractor trailers and people 
killed and seriously injured because there were no shoulders 
for safe refuge for automobiles that were temporarily disabled.
    Further, interchanges are in desperate need of 
modification. Again, we have had killings--people being killed 
getting on and off of the ramps. And arterial movement are 
critical to coping with the heavy flow of traffic feeding from 
and to the interstates.
    Moreover, the state's plans to perform a resurfacing with a 
five year life expectancy is shortsighted, and I think is 
wasteful of tax dollars--had only had a five year life 
expectancy of the improvements.
    Now, for anyone who has driven on I-95, the difference 
between the segment that runs through Pennsylvania and those of 
Delaware and Maryland is incredible. I am concerned that the 
impact of Pennsylvania's scale-back plan may compromise the 
safety of the interstate's users.
    That is why last year I was able to have language included 
in the report accompanying FY 1997 legislation which asks FHWA 
to work with states along the I-95 corridor to ensure that they 
continue their investment in the interstate, and it asks the 
FHWA to assess the impact on mobility and commerce if that 
investment is not maintained.
    Can you tell me what the status of your efforts--your 
Department's effort is to encourage states to make the 
commitment to making 95 improved and to make it a seamless 
artery that it should be and needs to be to ensure safety and 
mobility in the area?
    Ms. Garvey. I remember both the fire incident and also the 
discussion about the intermodal project or the mobility 
project, and I remember the disappointment when the project was 
scaled back.
    The good news that I can offer is that in terms of the 
President's reauthorization proposal, you will see a 
significant increase in the interstate maintenance category for 
the issues that such use the one you are talking about, the 
need to maintain the interstate system. There is also 
significant increase in the NHS program which, again, could be 
be used in this area.
    We are working with Pennsylvania, looking at the contracts 
that they have ahead of them. We know what their schedule is. 
We are looking at their certification annually and the impacts 
to I-95. They are staying certainly within the regulations at 
this point, but we are watching that very carefully and working 
with them very closely.
    And I would say, again, the best news is that the 
interstate maintenance program will increase with ISTEA 
reauthorization, and I think that is imperative and important.
    Mr. Foglietta. I thank you, Ms. Garvey. I thank you, Dr. 
Martinez. Thank you, Mr. Chairman.

                          Innovative financing

    Mr. Wolf. Mr. Sabo.
    Mr. Sabo. Just an observation, and then I have a question. 
I am interested in the discussion of the relationship of law 
enforcement to safety in automobiles. We have this illusion 
that motor vehicles pay for all their costs through the gas 
tax.
    I would observe that local governments spend substantial 
amounts of public property tax dollars to pay for public safety 
costs that are associated with automobile and truck travel. 
Although, I am not sure what the percentage is.
    A number of years ago I saw cost figures for a community 
that had very high public safety costs that were directly 
related to motor vehicles. I make that observation in light of 
arguments by some that gas tax dollars should only go for 
direct construction.
    One of the areas have questions about are programs to 
develop innovative financing at the Federal level and what we 
are trying to accomplish with them.
    It strikes me that the people who have the most favorable 
circumstances for borrowing money are state and local 
governments through general obligation bonds, which are tax 
exempt at the Federal level. These state and local governments 
borrow money more cheaply under general obligation bonds than 
we do.
    And so I am not quite sure what our federal goals are in 
this area. In reality existing federal law provides significant 
benefit through the tax code for state and local governments to 
do finance construction projects already.
    So I am not sure what we are trying to do with new 
financing programs because that opportunity exists if they 
choose to use it. So the question I guess is, how and why?
    Ms. Garvey. How and why?
    Mr. Sabo. Yes.
    Ms. Garvey. Let me make a couple of observations and see if 
I can answer that question. First, when you look at how public 
works have been financed in this country, we have mostly relied 
on one strategy, and it has been grant reimbursement. The check 
is in the mail. And that is really how we have built 
infrastructure in this country.
    I think what we are saying at the Federal level is that in 
a time of shrinking resources, we need to be a little more 
creative. We need to look at multiple strategies in much the 
same way that the private sector does. I think it is a mistake 
to present any aspect of innovative financing as a silver 
bullet or as a substitute for the grant program.
    What we are trying to suggest at the Federal level is we 
want to make sure that we are providing multiple tools that 
states can pick and choose. The NHS Designation Act was 
wonderful to both Federal Highway and to states because it gave 
us some increased flexibility.
    I have to tell you, if you are in the private sector, I 
understand, some of the increased flexibility is fairly routine 
for them. But for us in infrastructure investment at the 
Federal and the state level, it is pretty new.
    For example, we now have the ability to take the Federal 
dollars and pay off those interest rates that you are talking 
about. States and cities can go out and borrow. But in the 
past, up until the NHS, Designation Act they not allowed to use 
their Federal dollars to pay off the State interest.
    And as we all know for anybody who has mortgaged a house, 
it is those interest costs in the early years that really can 
do you in. So that kind of flexibility is what I would call 
innovative financing, and it is a way the Federal Government 
can help.
    Another opportunity is allowing the private sector to 
provide the local match. That is something that is fairly new 
to us, and it is a way to attract some additional dollars. So 
in a sense, I think what we can do at the Federal level is to 
provide some flexibility in the program that we have so that 
the states can use their dollars more effectively. Sometimes 
they do suggest going out and using your own borrowing 
capabilities, but giving you the flexibility to use the Federal 
dollars to pay off some of those costs.

                       State Infrastructure Banks

    In terms of the state infrastructure bank, what we are 
providing is a tool. What we are saying is that you could use 
some of your federal dollars to set up a capitalized fund, and 
fund projects that have a potential revenue stream. Not every 
project has that. Lots of projects within a state could never 
generate revenues to pay off a bond, for example.
    Mr. Sabo. That would be rather rare, wouldn't it?
    Ms. Garvey. That there wouldn't be a stream of revenue, or 
that there would be?
    Mr. Sabo. No, that there would be.
    Ms. Garvey. Well, actually not. Again, I don't want to 
suggest it is the whole program. In most cases it is probably 
less than ten percent, but let me give you an example. Ohio has 
built, using a revolving loan fund, and some of their CMAQ 
dollars, an intermodal facility that serves both freight and 
rail. They have created a revenue stream from some of the fees 
there. They have a transportation district that they use as 
part of the revenue stream, in addition to some of the federal 
dollars that they receive. They haven't used tolls, but they 
have taken a combination of revenues that they have to fund 
these very important projects.
    Again, this isn't to suggest that it solves the whole 
problem or that it would replace the grant program, but we want 
to try to provide those opportunities, if you will, for states 
who are interested, in more tools. Some states will use them. 
Some states won't.
    It is probably a much longer conversation, though, and I 
would be happy to brief you and keep you informed.

                       Revenue Bonds/Volume Caps

    Mr. Sabo. We have under other law the capacity for states 
to use revenue bonds, but we put tight limits on that which 
they can use for a variety of reasons.
    Ms. Garvey. Right
    Mr. Sabo. Those caps probably need to be increased.
    Ms. Garvey. That is a very good point.
    Mr. Sabo. No, those are imposed by the federal level on how 
much----
    Ms. Garvey. The volume caps, yes.
    Mr. Sabo. Yes, on volume caps. And we are running into 
problems with that, but that applies to a variety of purposes 
that states can--well, I will just have to get a little better 
educated on it.
    Ms. Garvey. We are, by the way, not suggesting changing any 
of the Federal tax exempt provisions.

                 Child Safety Seat--Proposed Rulemaking

    Mr. Wolf. Child safety seats. And we will move quickly, 
because I think Mr. Pastor already raised a number of issues. 
You are in the final stages of a proposed rulemaking which 
would simplify the installation.
    Mr. Martinez. Yes, sir. The docket closes in May.
    Mr. Wolf. So if we can--docket closed?
    Mr. Martinez. Closes in May. It is a 90-day docket.
    Mr. Wolf. Closes in May. And when will that come out?
    Mr. Martinez. We expect that we will turn that around 
fairly quickly. At this point, I expect, because of how we came 
up with the proposal, that there will be a significant 
difference from the original rule proposed.
    Mr. Wolf. Does the rulemaking address trucks as well as 
automobiles?
    Mr. Martinez. Yes, for light trucks.
    Mr. Wolf. And how long will it take to get them into the 
system?
    Mr. Martinez. Well, we proposed two years, meaning 1999. We 
created a blue-ribbon panel. It turned out that these groups 
had not spoken before. Based on that, some of them, as we 
understand, are working to get out before that time frame. All 
the world wants to know is that we have come to a single 
solution.
    And this not only involved our manufacturers and our child 
safety seat manufacturers as well as consumers, but we have 
worked internationally. Australia has been involved. Canada has 
been involved, and Europe has been involved. So I think that 
the proposal has been well received, but it was also well 
crafted by bringing these groups together. We put out a rule 
that looked at the ways to synthesize the differences, and our 
goal is to get it out as quickly as possible, but we left a 
docket time for full consideration.

                     Child Safety Seat Installation

    Mr. Wolf. Currently there are about 100 models of child 
safety seats on the market and not every one fits into the 900 
models of passengers cars or trucks. Some seats require locking 
clips to keep retracting shoulder harnesses tight. Others need 
supplemental hardware to attach the seats to the vehicle seats, 
columns, or floors. Because of these difficulties, securing a 
child safety seat in a vehicle is complicated. Approximately 80 
percent of the child safety seats are installed incorrectly. 
What is NHTSA doing to overcome these problems?
    [The information follows:]

    NHTSA rulemaking efforts have addressed some of these 
incompatibility problems including a proposal for a universal 
child restraint attachment system which would allow the child 
seat to be installed using specially designed belt attachment 
points in the vehicle seat and corresponding attachment systems 
on the child seat. These new designs will take a couple of 
years to be introduced to the market following any rulemaking 
changes. Under other rulemaking, all vehicles manufactured 
since September 1995, must have a locking feature in the 
passenger seating positions that allows a child seat to be 
installed without using a locking clip. This is a new feature 
which requires some effort to educate the consumer that the 
feature is present in the belt system. Manufacturers either 
label the belt directly or place information in the owner's 
manual.
    In the meantime, a number of efforts are underway at the 
agency to provide efficient consumer assistance through both 
educational and technical means. The agency has designed a 
computer program, ``Your Child, Your Care, Your Choices,'' that 
will match ten years of vehicles with the over 100 child seat 
models and a specific age/size child in a specific seating 
position. The data are currently being collected by a trained 
team of experts and a pilot version of the program has been 
pilot tested for user friendliness. The agency also offers a 
number of experts throughout the country to call consumers back 
who have called into the NHTSA Auto Safety Hotline for help.
    Finally, the agency is pilot testing a new National Child 
Passenger Safety Standardized Technical Training curriculum 
with several national organizations including National SAFE 
KIDS Campaign, International Association of Chiefs of Police, 
National Safety Council, AAA, National Easter Seal, Emergency 
Nurses Association, Fire and Rescue organizations and Child 
Care Providers. Participants in the training can qualify for 
certification as child safety seat ``technicians,'' 
instructors, or ``Master Trainers.'' This training will provide 
the opportunity to ensure an infrastructure of experts at the 
local community level to provide direct assistance to 
consumers.

    Mr. Wolf. What types of systems could make the installation 
of car seats simpler?
    [The information follows:]

    In 1996, the agency formed a ``blue ribbon'' panel to study 
the issue of uniform child restraint systems to simply the 
installation of car seats. This panel has worked closely with 
the ISO committee on the ISOFIX design. A number of vehicle and 
child seat manufacturers, represented on the blue ribbon panel, 
concluded that other approaches than the ISOFIX four point 
system may provide a better solution. In June 1996, this group 
petitioned the agency to proceed with rulemaking on a modified 
uniform child restraint anchorage (UCRA). After granting and 
studying this petition, the agency issued a notice of proposed 
rulemaking (NPRM) on February 20, 1997. This NPRM proposes the 
adoption of the UCRA system with the flexibility to allow the 
introduction of an ISOFIX sytem. Focus group studies conducted 
by General Motors and other organizations have supported the 
position that the development and regulation of a uniform child 
restraint system will significantly improve the method and ease 
by which parents can install a child safety seat into their 
vehicle.

                 child safety seat--proposed rulemaking

    Mr. Wolf. A recent New York Times article noted that NHTSA 
was in the final stages of developing a proposed rulemaking 
that would simplify and standardize the installation of car 
seats. What is the status of this rulemaking?
    [The information follows:]

    The agency issued a notice of proposed rulemaking (NPRM) on 
February 20, 1997. This NPRM proposes the adoption of a uniform 
child restraint system. Comments are due to this NPRM no later 
than May 21, 1997. After review and due considerations of the 
comments, the agency intends to proceed quickly to a final 
rule.

    Mr. Wolf. When do you believe a final rule will be issued 
and when will these products be designed for automobiles and 
trucks?
    [The information follows:]

    After a review and due consideration of the comments, the 
agency intends to proceed quickly to a final rule. The agency 
expects to issue a final rule before the end of 1997. The 
agency proposed that the new vehicle seat designs and car seat 
designs be phased-in two years after thee issuing of the final 
rule.

    Mr. Wolf. Because of the large number of cars and seats in 
use, how long would it take before new systems are in place in 
every vehicle?
    [The information follows:]

    Since the expected life of current vehicles and car seats 
may exceed ten years, it will take many years to have the 
uniform systems in every vehicle. Therefore, the capability 
must be maintained to allow present car seats to be installed 
in all future vehicles.

    Mr. Wolf. Could this system be retrofitted into current 
vehicles and be used with current child safety seats?
    [The information follows:]

    The proposed system is flexible enough so that it is 
possible manufacturers could offer retrofit kits for current 
vehicles. However, the proposed system does maintain the 
requirement that current child safety seats capable of being be 
installed in the same manner in which they are installed today.

                  child safety seats--cd-rom data base

    Mr. Wolf. NHTSA is in the process of developing a CD-ROM 
database which would inform the public about the compatibility 
of a specific vehicle with child safety seat combinations. When 
will this database be available to the general public?
    [The information follows:]

    The data available on the CD-ROM ``Your Child, Your Car, 
Your Choices,'' is currently available to consumers; however, 
additional vehicles and supporting information will be included 
in the database after the initial pilot tests and evaluations 
are completed. The CD-ROM can be obtained from NHTSA's Auto 
Safety Hotline (800-424-9393) and from sales locations such as 
baby product retailers, auto dealers, child safety advocates, 
police, and other health and safety professionals.
    The CD-ROM was initially developed for use by child 
passenger safety educators and automotive dealers. The 
information provided on the disk was designed to assist parents 
in making correct choices regarding child seat installation. By 
filling in data fields for a child's age and weight, child 
safety seat preference, and vehicle make, model and year, the 
program matches the child safety seat to the vehicle to 
determine compatibility between the child seat and the vehicle. 
The CD-ROM then shows in diagram format the specific seating 
positions in the vehicle where the selected child seat can be 
installed safely. Other helpful fields provide step-by-step 
instructions for installing the safety seat correctly, such as 
whether locking clips or tethers should be used.
    To date, approximately 35 child safety seat models have 
been analyzed in a limited number of 1994 through 1997 model 
vehicles. The agency is currently pilot testing the CD-ROM with 
various child passenger safety experts and advocacy groups 
across the country, asking that these professionals critique 
and evaluate its content.

                       state infrastructure banks

    Mr. Wolf. In an October 1996 report, the GAO stated that 
the state infrastructure bank program needed more time to 
mature and develop and that it was too early to evaluate 
comprehensively the success of the program. In light of this 
statement by GAO, which spends a lot of time kind of looking at 
these issues, why does the Department believe that an 
additional $150 million should be appropriated in fiscal year 
'98 to supplement those funds provided in last year's 
appropriation act?
    Ms. Garvey. I think another comment the GAO made--and I am 
not sure it actually is in the report--but in talking with GAO, 
another issue that they did raise is that in surveying the 
states, they found that the states found these difficult to do, 
and that it was helpful to have an incentive. We are really 
trying to encourage participation. And providing that kind of 
financial incentive seems to be a good way to encourage states 
to try it out, to test it out. This is new for states. It is 
new for even those of us in the federal government. And it 
takes a lot of work at the state level. They are working with 
their legislators, very often changing state law. They are 
sometimes working with administration and finance arms of state 
governments. So we found it was a good way to provide an 
incentive for states.

                     innovative financing programs

    Mr. Wolf. The Administration proposes over $2 billion for 
innovative financing programs. How will the Department ensure 
that the majority of these funds would not be used to benefit a 
minority of states?
    Ms. Garvey. That is a good question. Well, first of all in 
terms of the state infrastructure banks, we would open it up 
and allow any state that is interested to work with us to try 
to set up an infrastructure bank. So in a sense we are 
expanding the program. And I think that would deal with 
geographic distribution, if you will.
    Mr. Wolf. How did the first ten work?
    Ms. Garvey. The first ten actually was a fairly good 
distribution. And we did look at geography. We looked at----
    Mr. Wolf. What states and how close?
    Ms. Garvey. Let me see if I can remember. I know it is 
Arizona, Ohio----
    Mr. Wolf. Well, maybe for the record.
    Ms. Garvey. Yes. Right, those are using existing federal 
aid dollars. But, South Carolina, Texas, Virginia, California 
and Missouri were of the first ten.
    [Additional information follows:]

    --Arizona
    --California
    --Florida
    --Missouri
    --Ohio
    --Oklahoma
    --Oregon
    --South Carolina
    --Texas
    --Virginia

                            tax exempt debt

    Mr. Wolf. One principal barrier to attracting private 
capital is the fact the Internal Revenue Code restricts private 
involvement in tax-exempt debt. What changes, if any, has the 
Department proposed to the tax code to reduce inhibitions of 
private participants in projects financed by these leveraged 
banks, particularly those to be financed by the new 
transportation investment credit program? Is the answer none?
    Ms. Garvey. Yes, on the tax change, that is correct.
    Mr. Wolf. Why?
    Ms. Garvey. Well, I will tell you, Mr. Chairman, we did 
look at that issue. We looked at it long and hard and we had 
lots of discussions with Treasury. Treasury feels very strongly 
about some of their policies on tax exempt financing, as well 
as junior liens, and our proposal therefore reflects those 
concerns, but I think also it gives us the ability to provide 
some credit enhancement to move some of the transportation 
policies forward, that is dealing with projects of national 
significance. The Treasury Department feels very strongly about 
some of those policies. And we respect----
    Mr. Wolf. From a deficit point? What does that mean?
    Ms. Garvey. More from the tax expenditures.
    Mr. Wolf. Tax expenditures?
    Ms. Garvey. Yes, and, policy point of view. We are going to 
continue our conversations with Treasury, though.

   state infrastructure bank/transportation infrastructure investment

    Mr. Wolf. Would you describe for the committee how the 
state infrastructure bank program differs from the proposed 
transportation infrastructure investment program for which the 
Department is seeking $100 million, and can't the state 
infrastructure bank support both direct loans and loan 
guarantees if----
    Ms. Garvey. The state infrastructure bank, we are finding, 
is very good for those projects at the state level or 
multistate level that have a revenue stream, and are a small 
part of a statewide program. We still think there is a slice of 
projects, and not a huge number but a number of projects that 
have some national significance, that do not neatly fit into a 
statewide program and are really even too big for a state 
infrastructure bank. That is, in part, because the 
infrastructure banks are still in an infancy stage. In ten 
years or in 15 years SIBs may be able to handle projects like 
this and you might not need any national program, but at this 
point we think it is worth, certainly, exploring and looking at 
a credit enhancement program for those projects of national 
significance.
    Mr. Wolf. And what would those projects be, for instance?
    Ms. Garvey. They might be toll roads. They might be NAFTA 
corridors. They might--I was going to suggest the Woodrow 
Wilson Bridge, but----
    Mr. Wolf. No, that is not an adequate one.
    Ms. Garvey. We actually were thinking that some of the 
credit enhancement might--yes, I-95 that the Congressman 
mentioned earlier would be a candidate as well.
    Mr. Wolf. Alameda Corridor, would have the Alameda Corridor 
been----
    Ms. Garvey. The Alameda Corridor? Yes, I think the Alameda 
Corridor might have been a project of national significance.
    Mr. Wolf. What about the Boston Central Artery Tunnel?
    Ms. Garvey. At this point?
    Mr. Wolf. No.
    Ms. Garvey. If it had been ten years ago or something like 
that----
    Mr. Wolf. Both.
    Ms. Garvey. At this point, I don't think so. I think the 
way that the state is approaching it, trying to bring its state 
resources--I hate to eliminate anything, but if the state is 
bringing its resources to the table, it seems to be a more 
appropriate way to go with the artery. And perhaps if this 
program had been around ten years ago, that might have been a 
possibility.

                            alameda corridor

    Mr. Wolf. You have used the Alameda Corridor project as a 
model in the agency's effort to create the transportation 
infrastructure credit program. Why was the Alameda Corridor 
federal loan seen as a promising way to finance other projects 
considering that the corridor is in the early states and there 
are a number of unanswered questions concerning the risk to the 
federal government if other funding sources are not realized 
and the success of this type of federal loan at leveraging 
other funding?
    Ms. Garvey. We have shifted a bit. The Alameda, I would not 
say at this point is a perfect model for the credit enhancement 
program that we are talking about now. I think, however, the 
Alameda does provide some very good examples. We have been very 
careful about structuring flexible payments so that the federal 
government is paid on a timely basis.
    Mr. Wolf. But that is so new.
    Ms. Garvey. But it is new. You are right. I agree.
    Mr. Wolf. And it is hard to base much----
    Ms. Garvey. Right. And again, I would just say that the 
proposal that we have submitted provides more credit 
enhancements, not the direct loan like the Alameda. So we 
started thinking maybe the Alameda is a good model. That is 
really not where we ended up.
    Mr. Wolf. Okay. We will have some other questions on that 
area.

                  infrastructure bank program barriers

    The GAO noted that there exist numerous barriers that limit 
states' ability to participating in the state infrastructure 
bank program. These barriers include a limited number of 
projects that could generate revenue and thus repay loans made 
by the SIB as well as significant legal, constitutional and tax 
issues. How does the Department plan to address these issues to 
ensure that we are getting the biggest bang for our buck?
    [The information follows:]

    The purpose of the SIB program is to offer states other 
options for financing transportation projects beyond 
traditional grant financing. Naturally, legal and institutional 
barriers will have to be overcome for some states to take 
advantage of the SIB program. Thee has already been an 
overwhelming response by states to the program and these 
barriers have started to fall. GAO also noted that there are a 
limited number of revenue generating projects. These are the 
types of projects where the SIBs will be beneficial; however, 
the SIBs are not expected to be the primary funding source for 
transportation projects. We believe that states with SIBs will 
identify more revenue generating projects than is currently 
anticipated once project sponsors see that a SIB may help 
initiate projects sooner than grant funding. The Department 
will work with states to encourage effective uses of the SIB.

                state infrastructure bank program funds

    Mr. Wolf. News reports indicate that 28 states have applied 
to join the ten states already involved in the SIB program. How 
will the Department divide the funds provided in the 1997 
appropriations act? Will it, for example, divide the funds 
among the ten states that are now in the program or spread the 
money around to new states? If the Department were to allocate 
funds to all 38 states, the funds wouldn't go very far and 
might only cover administrative costs.
    [The information follows:]

    Twenty-eight states submitted applications in December and 
since then one additional state has been added to one of the 
regional SIBs. The method for dividing the funds is still under 
consideration, but the intent is to provide funds to the first 
ten states and to some of the new states. Since some of the new 
states may not be ready to implement the SIB this year, funding 
may not be provided to all of those states. In any case, the 
$150 million will not go very far since it will be divided 
among a number of States and will be outlayed over several 
years in accordance with the legislation. We consider these 
funds as seed money to assist the states in creating and 
financing the SIBs, which is the basis for our request for 
additional funding in future years. These funds will not be 
used only to cover administrative costs because the law limits 
administrative costs to 2% of the Federal funds.

                 new state infrastructure bank programs

    Mr. Wolf. Given the findings of the GAO report on the state 
infrastructure bank program, isn't the request to create yet 
another new program too premature?
    [The information follows:]

    The Transportation Infrastructure Credit Enhancement and 
SIB programs are designed to serve projects of a different size 
and scope. SIBs are a flexible financing toll, better suited 
for assisting portfolios of smaller, shorter-term projects in 
addressing State/local investment needs. large projects of 
national significance--which can cost in excess of $1 billion--
are simply too big to be financed within existing funding 
mechanisms. As start-up financial institutions, SIBs will be 
limited in the amount of assistance they can provide in the 
near-term. Over time (5-10 years), they may be able to develop 
the financial resources to be of benefit to these national 
investments. The Transportation Infrastructure Credit 
Enhancement Program is designed to fill the gap during this 
period.
    The need for and efficacy of Federal assistance (whether 
direct credit or credit enhancement) for large revenue-
generating projects of national significance is already being 
demonstrated by the TCA toll roads and Alameda Corridor. 
Establishing a direct credit or credit enhancement program 
provides the benefits of being able to clearly set forth 
prudent and consist policy guidelines and fiscal parameters 
that will advance vital national transportation goals while 
maximizing efficiency and minimizing risk. Without a 
programmatic structure, such Federal credit assistance provided 
on an ad-hoc basis may not have the desired level of 
efficiency, equity, and effectiveness.

                       istea direct loan program

    Mr. Wolf. ISTEA authorized a direct loan program in which 
participation has been very limited. Why then is another direct 
loan program needed and what makes FHWA believe that this 
program will attract more participants?
    [The information follows:]

    ISTEA authorized $40 million per year for a revolving loan 
fund (sec. 1105(i)) to assist States with certain high priority 
corridor projects. That authorization was inconsistent with 
provisions of the Federal Credit Reform Act of 1990 (FCRA) 
which established a consistent budgetary basis for all of the 
Federal Government's credit (direct loan and loan guarantee) 
activities. Beginning in fiscal year 1992 (also the beginning 
of the ISTEA authorization period), Federal agencies could not 
provide loans or other forms of credit assistance without 
legislative authority consistent with FCRA. Existing revolving 
funds and other lending accounts were to be liquidated in 
accordance with FCRA. DOT, in consultation with OMB, determined 
that one ``cycle'' of lending from the high priority corridor 
revolving fund newly authorized by ISTEA would be consistent 
with FCRA provisions. Thus, in 1994, two direct loans totaling 
$40 million were made:
    Arkansas, $24 million for the construction of Highway 71 
between Fayetteville and Alma, Arkansas as part of the North-
South High Priority Corridor; and
    Michigan, $16 million to widen a 60-mile portion of highway 
M-59 from MacComb County to I-96 in Howell County, Michigan.
    Notwithstanding the inconsistencies with credit reform, 
other aspects still would have limited the usefulness of the 
ISTEA revolving loan fund:
    (1) ISTEA section 1105(i) authorized ``advances'' (loans) 
which would be repaid in three years. That time frame is much 
too short to be of use to large infrastructure investments 
requiring Federal credit assistance. Potentially one of the 
Federal Government's most useful roles in surface 
transportation is to be a ``patient,'' long-term investor in 
projects requiring up-front capitalization assistance.
    (2) The $40 million authorization was probably too small to 
provide significant help to trade corridors and other large 
infrastructure investments.
    (3) The ISTEA authorization provided for repayment of 
advances through reductions in subsequent year NHS 
apportionments rather than project-related revenue sources. 
This type of ``advance funding'' of grant assistance does not 
benefit from the fractional scoring of true credit assistance 
and does not encourage additional private or other non-Federal 
resources.
    The proposed credit enhancement program will assist 
nationally significant transportation projects in accessing 
private capital through Federal participation as a co-investor. 
It is a discretionary program that will complement existing 
finance techniques by providing Federal credit assistance to 
major projects--such as intermodal facilities, expansion of 
existing highways, border infrastructure, trade corridors, and 
other infrastructure investments with national benefits--that 
otherwise might be delayed or not constructed at all because of 
risk or scope. It will encourage more private sector and non-
Federal participation, address important public needs in a more 
budget-effective way, and build on the public's willingness to 
pay user fees to receive the benefits and services of 
transportation infrastructure sooner than would be possible 
under current grant-based financing.

                     credit enhancement candidates

    Mr. Wolf. The budget materials indicate that projects of 
national significance will be supported by this program. What 
criteria will guide the FHWA's decisions in making awards under 
this program? Can the Department provide examples of the types 
of projects that would be financed by this new program? For 
example, Amtrak, the Alameda Corridor, or the Woodrow Wilson 
Bridge?
    [The information follows:]

[Pages 144 - 145--The official Committee record contains additional material here.]


                       commuter rail eligibility

    Mr. Wolf. The Department has suggested that public commuter 
railroads would be eligible. How would public commuter 
railroads (most of which are publicly subsidized) be expected 
to compete if an eligible project is to be of national 
significance and have an independent revenue stream to support 
a credit line?
    [The information follows:]

    Since commuter rail is supported in part by user charges 
(fares) it would technically satisfy DOT's eligibility 
criterion on that issue. In addition, most transit systems 
finance their capital improvements with revenue bonds backed by 
sales tax revenue, another dedicated revenue source. Since 
sales tax revenue tends to grow with inflation and economic 
growth in a very correlated fashion, it is a relatively secure 
revenue stream over the long term.
    A few commuter railroads generate broad economic benefits 
by carrying hundreds of thousands of passengers a day to and 
from important centers of commerce. The determination of 
whether or not a project is nationally significant is also 
based on a project's ability to stimulate new economic 
activity, reduce traffic congestion, and protect the 
environment. Public commuter railroads meet each of these 
criteria.

                         federal credit program

    Mr. Wolf. I understand the Department of the Treasury has 
brought a number of troubling, programmatic issues to your 
attention. Does the Department of the Treasury support or 
endorse these new direct loan and loan guarantees? Please 
elaborate for the Committee the problems or concerns identified 
by the Department of the Treasury.
    [The information follows:]

    The Treasury Department shares DOT's view that large 
projects of national significance require additional forms of 
assistance, but on fiscal policy grounds favors credit 
enhancement tools over direct lending techniques. Our proposal 
synthesizes DOT's programmatic objectives of encouraging 
innovative finance and private sector participation with 
Treasury's preference for using credit enhancement mechanisms.
    The concerns that the Department of the Treasury has 
brought to DOT's attention regarding direct lending techniques 
are identified and discussed below:
    1. Treasury Concern: By making a direct loan, the Federal 
Government has an implied guarantee on the capital market debt. 
DOT does not agree with this assertion. Neither the ratings on 
the capital markets debt (generally BBB) nor the investors' 
credit analysis reflects any implicit Federal guarantee. Under 
a direct loan program, both DOT and the capital markets 
investors would be creditors of the project.
    2. Treasury Concern: A Federal credit program would result 
in additional tax-exempt debt issuance, which has a tax 
expenditure associated with it. DOT believes that in the 
absence of a Federal credit program, most of the large projects 
qualifying for assistance would be financed in any event at 
some point with 100 percent tax-exempt debt, so the marginal 
issuance is minor. Having the Federal government fund a direct 
loan for up to a third of project cost would actually reduce 
the amount of tax-exempt debt issued, by a corresponding 
amount. Treasury has no objection to making Federal grants 
which encourage or credit-enhance tax--exempt debt, such as 
capitalizing reserve funds (EPA State Revolving Funds, NEXTEA 
Revenue Stabilization Funds) or directly subsidizing interest 
payments on tax-exempt bonds (School Construction Loan 
program.) The Department does not understand why Treasury would 
object to funding loans which have a less direct impact on tax 
exempt debt issuance.

    Mr. Wolf. To what extent will these problems affect the 
transportation infrastructure credit program and the 
Department's ability to administer an efficient and effective 
program?
    [The information follows:]

    The concerns that the Department of the Treasury has 
brought to the attention of DOT have been addressed in DOT's 
NEXTEA proposal. The new Transportation Infrastructure Credit 
Enhancement program will avoid the concerns by providing 
grants, not direct loans, to fund debt service reserve funds 
and enable projects to secure external debt financing.
    DOT acknowledges, however, that grant-based funding is not 
a budget-effective way to assist nationally significant 
projects intended for this type of program. A direct loan 
program would leverage substantial private and non-Federal 
funding for projects. For example, a $33 loan, scored at a 10 
percent budget cost, extended to a $100 project has an implicit 
leveraging ratio of 33 to 1 ($3.30 budget cost to $100 total 
investment). Grant-funded credit enhancement tools have 
substantially lower leveraging ratios. For instance, if a $9 
grant (3 years debt service) is used to secure a $33 loan for a 
$100 project, the implicit leveraging ratio would be 11 to 1 
($9 budget cost to $100 total investment).

                        loan guarantee projects

    Mr. Wolf. Given the Department has had limited experience 
with loan guarantee projects such as the Alameda Corridor, 
should more experience be gained before establishing a 
nationwide program?
    [The information follows:]

    The need for and efficacy of Federal assistance (whether 
direct credit or credit enhancement) for large revenue-
generating projects of national significance is already being 
demonstrated by the TCA toll roads and Alameda Corridor. 
Establishing a direct credit or credit enhancement program 
provides the benefits of being able to clearly set forth 
prudent and consistent policy guidelines and fiscal parameters 
that will advance vital national transportation goals while 
maximizing efficiency and minimizing risk. Without a 
programmatic structure, such Federal credit assistance provided 
on an ad-hoc basis may not have the desired level of 
efficiency, equity, and effectiveness.
    Also, we believe any direct credit or credit enhancement 
program should be limited in scope--targeted to a relatively 
small number of projects of national significance. Each project 
will be one-of-a-kind, evaluated according to a unique set of 
benefit and cost factors. It is not expected that the Federal 
government will or should generate a large portfolio of such 
project financings. The program should rely on the discipline 
and credit evaluation expertise of the private capital markets. 
One measure of the program's success might be the extent to 
which it demonstrates the feasibility of long-term 
infrastructure investments to the private capital markets and 
can eventually be phased out.

                    reorganizaton and consolidation

    Mr. Wolf. Two years ago, Secretary Pena indicated that the 
Department believed that significant--and I can remember he was 
sitting just where you are sitting--savings could result from 
consolidating the field offices of the Federal Highway 
Administration, FRA, FTA, NHTSA, and that consolidation would 
improve customer service through one-stop shopping and 
efficiencies. To date, little, if any, consolidation has 
occurred. In fact, rather than reducing its field presence, the 
Federal Highway has actually increased its presence with its 
newly established metropolitan field offices. Has the 
Department abandoned its consolidation activities?
    I remember he talked about Atlanta.
    Ms. Garvey. Well, in Atlanta we are actually all together. 
I guess we have been together for 100 days.
    Mr. Kane. There is a new building where we have all come 
together.
    Ms. Garvey. Yes, right.
    Mr. Wolf. But have we abandoned wider consolidation 
efforts?
    Ms. Garvey. No, and--a fair question. I will tell you I 
think one of the dilemmas that we faced is we started to look 
at real consolidation and one-stop shopping. We found that many 
of the customers we serve like the individual identity that 
they have with the modes. We do have a plan that we are going 
to present to the Deputy Secretary and to the Secretary very 
soon. It is a result of all of our efforts, a co-location plan 
that lays out what the costs would be, what the savings would 
be, where it would happen, what a time line would be. We have 
identified at least 50 locations that are good candidates for 
co-location.
    In addition, I want to say that in terms of Federal 
Highway, we are looking at our own regional offices as well--
both the role that they play and the number that we have. We 
are taking a very hard look at our skills and the skills that 
we are going to need for the 21st Century. That assessment is 
going to be ready this summer. We are taking a hard look at 
reorganizing within our own agency. It is priority for both 
Tony and for myself.
    Mr. Wolf. It is a budgetary issue and it is also a 
convenience issue. What about NHTSA?
    Mr. Martinez. Well, we have a very different issue to deal 
with. We have actually dramatically expanded our constituency 
and have about 100 staff out there in total. So it is very hard 
to collapse any more that we have. What we have tried to do is 
to work with others to address the needs of all these 
constituents and better deliver our programs. We have done that 
mostly through working with FHWA in several ways.
    One is that we have co-located, as Jane pointed out. We 
have co-located a lot of our field people together, at least in 
most of the regions. We have ten regions. Each region covers 
several states and only has about seven to twelve people in it.
    Secondly, we have a senior management safety team at the 
national level, as well as regional intermodal safety teams. 
That actually was given birth through our desire to work 
together. We also jointly share programs where we can attack 
problems locally. We determine the various ways to attack it, 
as pointed out by various members. In one place it may be a 
design issue, it may be an education program, or it may be to 
work together.
    We use the moving kids safely programs and the safe 
communities to do that. I think, quite frankly, just from 
talking to modal administrators, that is a real model of how 
you might work together to improve the quality of safety at the 
local level and meet the needs of various groups, as well as 
bring other groups together. For example, one of the benefits 
is that our staff knows more of the people in the roadway part 
of the world. A good example is Texas, where the DOT of Texas 
is now working with our programs much better. That is very 
helpful.
    Now there are big differences in that we have a lot of 
behavioral people and engineers. This is the way to begin to 
think the same.
    Mr. Wolf. In every location town that you are in and that 
Federal Highway is in, are you together?
    Mr. Martinez. Yes, sir. In the ones that we share, we are 
together.
    Mr Wolf. What plans does NHTSA have to reduce its field 
office presence?
    [The information follows:]

    NHTSA has no plans to reduce its field office presence. The 
agency has only ten Regional offices; each office has only 7-12 
people, for a total of 84 full time field employees. These are 
NHTSA's only field offices. NHTSA has lean, efficient Regional 
offices which are critical to support its performance-based 
safety program and Presidential and Secretarial national safety 
priorities. Furthermore, the results of a recent survey, with a 
remarkable 75 percent of the states and territories responding, 
indicated that NHTSA's customers are pleased with the way 
services are currently being delivered. The highest rating was 
in having the Regional offices be responsive to the state 
inquiries and requests--8.99 on a scale of 1-10. About half of 
those responding stated that their relationship with their 
NHTSA field office was a ``10.'' NHTSA is working with the 
other modal administrations in DOT to pursue further co-
location of its field offices, where possible, to improve 
customer services and achieve administrative efficiencies.

                            Field Structure

    Mr. Wolf. Officials of the Department stated before the 
Committee that the Department planned to focus on changes in 
the field structure during 1996 and to finalize the 
Department's consolidation plans by the end of the year. What 
specific proposals for streamlining field operations and 
offices have FHWA and NHTSA completed over the past year, and 
what significant changes do you envisions occurring in your 
field structure this fiscal year?
    [The FHWA information follows:]

    The Department's surface transportation field offices have 
taken the lead in developing and implementing intermodal 
strategies and have taken action designed to achieve more 
effective program delivery, more efficient utilization of 
Departmental resources, and improved service to our customers.
    Examples of specific field restructuring activities that 
are underway or planned by FHWA and NHTSA in one or more 
regions include the following:
          Senior Management Safety Team comprised of senior officials 
        from FHWA and NHTSA established to identify and implement a 
        national program of improved safety program policy and delivery
          Establishment of Intermodal Safety Groups
          NHTSA serving as Executive Agent for 402 (State and Community 
        Highway Safety) program in several regions; joint 402 and Motor 
        Carrier Safety Assistance Program activities
          Joint public outreach activities--Moving Kids Safely, Safe 
        Communities, Child Airbag Issue
          Safety liaison positions in FHWA Division offices to work 
        with NHTSA on behavioral safety initiatives
          Administrative resource sharing--Government-owned vehicles 
        (where co-located); videoconferencing and other audio visual 
        equipment, copying and fax equipment, conference rooms (NHTSA 
        and FHWA have recently co-located within the same space in 
        Baltimore and are sharing a wide range of administrative 
        services.)
          Joint FHWA, NHTSA, and FTA contract for computer support 
        services in the field.
          Pilot program in one region where an FHWA employee is working 
        with NHTSA to provide training on FHWA programs and technical 
        areas.
    The Department will continue to build and expand upon the progress 
it has made in creating a more streamlined, intermodal surface 
transportation field structure that will provide our customers with 
``one-stop shopping'' through a more customer-focused approach to the 
business of transportation. During the remainder of fiscal year 1997 
and during fiscal year 1998, we plan to give the activities identified 
above time to become completely established and to continue to explore 
options for further program delivery enhancements.

    [The NHTSA information follows:]

    NHTSA has been working with FHWA to create a more efficient and 
effective field operation with:
          Senior Management Safety Team--NHTSA and FHWA established a 
        team of top level managers in headquarters to set joint 
        priority areas for field activities.
          Shared locations--NHTSA's offices are located with FHWA, 
        except in Regions 2 and 10 (White Plains, NY, and Seattle).
          Regional Intermodal Safety Teams--NHTSA's Regional staff took 
        the lead in creating Intermodal Regional Safety Teams, 
        involving FHWA, FTA, FRA, and sometimes FAA. A major joint 
        effort will be implementing Safe Communities.
          Shared program delivery--NHTSA trained FHWA, FTA, and FRA to 
        deliver air bag safety programs in every Region and worked with 
        all modes to conduct Moving Kids Safely conferences in each 
        region.
          Shared administrative resources--NHTSA and FHWA are sharing a 
        contract for computer services in the field. NHTSA is sharing 
        all administrative services with FHWA in Baltimore (i.e., 
        phones, mail, xerox).
    NHTSA plans to continue these important intermodal activities. In 
addition, this fiscal year a review is underway in Kansas City and 
Denver concerning shared locations, to include not only NHTSA and FHWA, 
but other DOT modes as well.

                     changes in dot field structure

    Mr. Wolf. Do you envision any significant changes in the 
field structure in fiscal year 1998, and if so, what cost-
savings have been included in the budget?
    [The FHWA information follows:]

    In keeping with the goals of the Department's restructuring 
effort, the most significant changes that will occur in the 
Department's field structure will continue to be primarily 
along programmatic lines. For over a year, the surface 
transportation modes have been engaged in a variety of joint 
and cooperative program delivery activities as well as 
administrative resource sharing. As a result of these 
activities, the FHWA plans to look at its current nine region 
structure to determine if this organizational structure is the 
most appropriate for shared program delivery among the surface 
transportation modes.
    Additionally, the FHWA, along with the other surface 
transportation modes, is an active participant in the 
Department's Co-location Task Force. The objectives of the task 
force are to identify opportunities to improve customer 
service, increase efficiency, reduce costs, and advance the 
National Performance Review recommendations.
    The task force is currently looking at a number of co-
location opportunities for the Departmental operating 
administrations' field offices around the country. While cost 
savings are an important aspect of all co-location endeavors, 
the Department's main focus is on enhancing program delivery 
and customer service. In fact, potential cost savings may be at 
least partially offset by increased rental costs associated 
with co-location opportunities being considered in the central 
business districts of major metropolitan areas, as well as the 
establishment of the Department's four new metropolitan offices 
in Philadelphia, New York City, Chicago, and Los Angeles.

    [The NHTSA information follows:]

    NHTSA does not envision any significant changes in its 
field structure in fiscal year 1998. NHTSA's field structure is 
composed of ten Regional offices, with a total of 84 employees. 
These lean, efficient offices are critical to support NHTSA's 
performance-based safety program and Presidential and 
Secretarial national safety priorities.

[Pages 151 - 152--The official Committee record contains additional material here.]


                             its deployment

    Mr. Wolf. In 1996 the Department established a goal of 
having the nation's 75 largest cities deploy an intelligent 
transportation infrastructure, ITI, by the year 2005. Is it 
realistic to assume that the 75 largest cities can implement an 
integrated ITS system by the year 2005 when state and local 
implementors still have to overcome several key, fundamental 
obstacles to deployment, and should this goal be revised to 
more accurately reflect the current status of ITS deployment?
    Ms. Garvey. I can certainly ask Christine Johnson or Tony 
to add to this, but let me say it is an aggressive goal. It is 
a very challenging goal, but I think it is one I would like to 
stay with. I think it is good to have a goal that does 
challenge us. And the budget that we have proposed for next 
year recognizes the need to do some additional training. One of 
the things the GAO has talked about is that we need to train 
some of the local officials out there.
    We do need to train state officials particularly around the 
area of integration. A lot of our constituencies understand 
elements of the ITS system, but putting it together and fitting 
it together and making sure it is integrated is really the most 
immediate goal for us. How can we encourage that kind of 
deployment? I like the goal. It may be aggressive and it may be 
something we will need to revisit eventually, but I think it is 
important to have it out there.

           cost of intelligent transportation infrastructure

    Mr. Wolf. The Department estimates that it will cost on 
average $300 million for a city the size of Washington to 
implement from scratch a fully integrated ITI. However, there 
is no mention of the operation and maintenance costs needed to 
sustain the investment. What levels of yearly operation and 
maintenance costs can cities expect to incur after they 
implement an integrated ITI?
    Ms. Garvey. ITS capital investment is included in each one 
of the categories. The operations would be primarily the 
responsibility of the local and the state government.
    Mr. Wolf. And do they have the money and do they know what 
they are getting into?
    Mr. Kane. In terms of some systems right now, we can 
certainly provide information on what it is costing. One thing 
we are making clear in the NEXTEA legislation is the emphasis 
on operations--our planning requirements we are building into 
the requirements at metropolitan areas focus on the operations 
issue. They build those costs into their financial plans--as 
well as the eligibility in our basic categories. The NHS Act 
opened up the operation of ITS facilities as an eligible 
federal aid expense, so it is built in there.
    The actual dollar costs though, Mr. Chairman, we couldget 
that for some of the existing systems and give you information.
    Mr. Wolf. If it were to cost $300 million to build a system 
for the nation's capital, what would it cost--maybe Christine 
can help--what would it cost to operate the system once it was 
in place?
    Ms. Johnson. Our early evidence indicates that you are 
running about ten percent, ten to fifteen percent of the 
original capital cost. Now let me make a comment on the $300 
million. Our model deployment taught us a lot about that 
number. We had estimated that amount as though you went into an 
area that had no signal system in place or no freeway 
management in place, nothing. We find that in fact most major 
metropolitan areas have significant infrastructure in place and 
what you are paying for is bringing it together. In the 
legislation that we have put forward we have broadened the 
eligibility for maintenance to pay for operations and 
maintenance.
    Mr. Wolf. Excuse me, can you repeat that, please?
    Ms. Johnson. In the legislation that we had put forward, we 
have broadened several categories to be eligible for operations 
and maintenance for ITS.
    Mr. Wolf. So if we were to apply this to Washington and the 
capital costs were $300 million, the whole region would have 
roughly $30 to $45 million a year on operation costs? Is that a 
fair estimate?
    Ms. Johnson. That is what our early indication is.
    Mr. Kane. It is one of the reasons, Mr. Chairman, we put it 
in our planning language as well, because of the financial 
constraint and financial planning requirements in there, so 
that there is a clear focus by the states and MPOs. As they 
launch into projects, they are aware of it financially and 
build that into the process.
    Mr. Wolf. I know you have implemented model deployment with 
New York City, San Antonio, Phoenix and Seattle. I would 
sincerely hope that we could do it here in the Washington D.C. 
area. This area could be the fifth.
    Just so you know, and I know people view me as the 
Congressman from the District. My district actually extends 
from about Western Fairfax County, down into the Shenandoah 
Valley where congestion is not a problem. I don't represent 
Arlington County, nor do I represent Montgomery County, but 
this region is second in the nation in congestion.
    I almost spoke up when Mr. Tiahrt was speaking. The reason 
there is such an aggressive driving problem, I believe, in this 
region is you are finding people that are getting up at 5:00, 
4:30 in the morning to beat the traffic. It is not uncommon for 
a mom or a dad in Prince William County to tell me they are 
getting up at 4:30 in the morning. The best time to commute in 
this region is between 5 AM and 6:30 AM. The HOV hours are set 
up in such a way that if you don't pierce the vale by a certain 
time, you can't get on them. People coming from the western 
areas have no ability to even access HOV. They come down the GW 
Parkway. A third of the people on the parkway are coming in 
from Maryland. They are double crossers, crossing over, coming 
down and crossing back.
    I think the aggressive driving is really because people are 
in traffic, their hearts are beating. They can't get from point 
A to point B. I think the area, the nation's capital, is in 
need of such an ITI system. We all represent the District of 
Columbia. It ought to be a city on a hill. It is the place 
where everyone from all around the country, or the world, 
comes. So I would hope that this region, the Washington D.C. 
area, could be viewed as one of the ITI deployments, because 
you have the opportunity to work in your backyard.
    I will tell you what, I will ask if Mr. Olver has any 
questions, and then we will recess, in fairness to all of you, 
for about 15 minutes or a half an hour. You can go down and get 
a bit to eat, after which we will come back and then complete 
the last questions relatively fast. Some of the questions we 
will ask, others will submit questions for the record.
    Ms. Garvey. Sure.
    Mr. Wolf. So you can grab a sandwich or something.

                             its deployment

    Why has the Department decided to make deployment of ITS a 
focus of ISTEA reauthorization?
    [The information follows:]

    The Department's reauthorization proposal balances a new 
emphasis on deployment with a continued commitment to research 
and testing of ITS technology. Widespread ITS deployment has 
always been a goal of the ITS program. In fact, it was the 
first goal listed in the authorizing language for the program 
contained within ISTEA. Although the program has funded some 
limited deployment support and promotion activities over the 
last five years, the program has been focused primarily on 
performing basic research and technology testing activities to 
ensure that the vision of integrated, intermodal, interoperable 
ITS deployment was achievable. We believe that, with the 
completion of the Architecture, the launching of the standards 
program, and the results of our more than 80 operational tests, 
deployment of basic ITS infrastructure can now be pursued in a 
technically sound, effective manner.
    There also now exists an important window of opportunity, 
as several States and metropolitan areas have begun to 
extensively invest in ITS infrastructure deployment, and many 
more are in the process of getting started. Without Federal 
leadership now, there is a serious risk that ITS infrastructure 
will be deployed across the nation in a patchwork, non-
integrated and non-interoperable fashion. Rather than seizing 
the opportunity to use ITS to bridge the modal and agency 
fragmentation, in many areas ITS will likely be deployed in the 
existing agency and modal stovepipes--hardening the 
fragmentation that exists and making seamless, intermodal 
management of the transportation system more difficult, if not 
impossible.

                        its deployment obstacles

    Mr. Wolf. How is the Department planning to address 
existing obstacles to deployment such as the lack of (1) 
working knowledge of the systems architecture; (2) technical 
standards; (3) technical knowledge at the state and local level 
about ITS; and (4) cost/benefit data on ITS?
    [The information follows:]

    We have proposed to spend approximately $22 million in FY 
1998 on Mainstreaming activities, which are aimed at providing 
state and local officials benefit/cost information, technical 
guidance, and training needed to ensure that the technologies 
and services deployed are done so in an interoperable, 
intermodal fashion.
    We have proposed $13 million to continue the standards 
development program currently underway. Over a dozen high 
priority standards will be ready for operational use by the end 
of the year. By the end of 1998 we will have drafts of 
standards that we believe are absolutely critical to regional 
compatibility.
    We also plan to initiate training and technical assistance 
activities focused specifically on standards to ensure that 
Federal, State and local public officials understand how to 
effectively use them.
    Finally, we are conducting detailed architecture training 
courses this year for systems integrators and a series of short 
courses on architecture over the next two years for agency 
professionals who will work system integrators. We are also 
developing a series of guidance documents geared to target 
communities. The Transit document was available in January and 
will be updated in May. Four more will be released this year.

    Mr. Wolf. How will the Department adequately address these 
obstacles before providing federal financial assistance to 
state and local agencies for deploying ITS?
    [The information follows:]

    Federal aid highway resources are now being used to deploy 
ITS at the rate of over $1 billion a year. That is why the 
department has made such an urgent appeal to this Committee for 
training and technical assistance resources both last year and 
in the current FY 1998 budget.
    We are confident that the incentive program will lead 
several of these early deployer's toward integrated and 
regionally compatible systems. That incentive program, coupled 
with a fully funded aggressive training, guidance and technical 
assistance effort, as has been proposed, will put us ahead of 
the wave of mainstream deployers.

                    implementation of its technology

    Mr. Wolf. This committee is told repeatedly that states and 
local agencies do not have sufficient resources to meet some of 
their most basic transportation needs. Why won't this 
significantly impact the states' desire and ability to 
implement ITS technologies?
    [The information follows:]

    Because deployment of ITS infrastructure, technologies, and 
service help fulfill a basic transportation need--the effective 
operation and management of the transportation system. In fact, 
most States and many metropolitan areas are already using 
Federal-aid and State and local funds to purchase ITS 
infrastructure components (e.g. traffic signal systems, freeway 
management systems, transmit management systems, incident 
management systems, electronic fare payment and toll collection 
systems, traveler information centers, railway-highway grade 
crossing systems, and emergency management systems) to help 
satisfy this need. ITS infrastructure components are not new 
budget items to State and local jurisdictions. The challenge 
now is the convince the remaining State and local jurisdictions 
that ITS technologies an services can provide substantial 
benefits to their customers, and ITS infrastructure must be 
deployed in an integrated, intermodal, interoperable fashion.

                             its investment

    Mr. Wolf. How can FHWA be sure that state and local 
implementors will deploy ITS when they have so many other 
pressing needs for their existing infrastructure funds?
    [The information follows:]

    As noted above, we already have ample evidence that State 
and local governments will invest in ITS once they are 
convinced of the benefits.
    ITS saves scarce transportation dollars so that they can be 
used to address other pressing needs.
    For example, a recent analysis performed for the Department 
concluded that, over the next ten years, a combination of ITS 
infrastructure deployment and some addition of physical 
capacity to the transportation system could satisfy anticipated 
travel demands at a cost 35% less than that of building the 
additional needed capacity without ITS. This included the cost 
of operating and maintaining the ITS infrastructure.

                           consumer its costs

    Mr. Wolf. What information does the FHWA have that 
indicates that the average consumer is willing to sacrifice 
personal privacy, generally wants, and is willing to accept and 
pay for ITS technologies?
    [The information follows:]

    We have seen Americans give up far more privacy in their 
cellular phone usage, bank and credit card usage. Further, many 
technologies do not identify the individual and or the data is 
stored only in a matter of moments. A Privacy and ITS: Results 
of a National Opinion Survey, conducted by The Institute of 
Policy, George Mason University, in 1996, showed the American 
public overwhelmingly (78 percent of the respondents) prefers 
that ITS be designed so that they collect anonymous 
information. For automatic toll collection, the purchase of the 
pass is voluntary, systems that use debit cards can be used 
anonymously. The popularity of automatic toll systems indicates 
a willingness to trade off privacy for the convenience of a 
faster trip. The survey further revealed, in general, Americans 
want to give their consent to the collection and release of ITS 
information. Over half of the respondents want to be able to 
give their consent for release of information collected by ITS 
for non-travel purposes and about a quarter regard release with 
consent as unacceptable. Another good example of consumer 
acceptance is, the same survey uncovered, between 70 and 80 
percent of respondents favored three purposes for using highway 
computers and cameras: to improve traffic control and design; 
to identify where policy should be posted; and to give a 
warning.
    In conjunction with ITS America, FHWA drafted a set of Fair 
Information and Privacy Principles to guide providers of ITS 
services and products as they deploy systems that could utilize 
personal information. Currently, the Principles are in draft 
final form. The Principles cover: individual centered, visible, 
comply, secure, law enforcement, relevant, anonymity, secondary 
use, and freedom of information act. This version has been 
presented to privacy advocates, representatives of law 
enforcement and state transportation officials for review and 
comment. Proposed changes from these groups are indicated on 
this version of the Principles. It is expected that the 
stakeholder outreach effort will continue in 1997.
    The Fair Information and Privacy Principles are advisory in 
nature. It is recommended that providers of ITS services and 
products use these principles or publish their own and make 
them known to the public. There is no empirical data indicating 
that the average consumer is willing to sacrifice personal 
privacy for ITS technologies. These Principles, however, 
recognize this concern. The individual centered principle 
stresses that an individual's expectation and right to privacy 
must be respected. Consequently, it is recommended that 
information regarding what data is collected, how it is used, 
and how it is distributed be made known to the consumers of the 
ITS services or products. The visible principle addresses this 
point. Most importantly, the anonymity principle advocates that 
ITS services that are capable of collecting personal data be 
designed to do so on an anonymous basis. For example, automatic 
toll collection systems are already in place that deduct tolls 
from an anonymous debit account. The success of such systems 
are E-Z Pass program in and around New York City may be the 
best testament to the public acceptance's of ITS technologies. 
It is believed that by following these and other Fair 
Information and Privacy Principles, providers of ITS services 
and products will be able to serve the consumer demand while 
balancing the need to protect individuals' expectation and 
right to privacy.

                         its commuter benefits

    Mr. Wolf. Given that the majority of commuters are 
intimately familiar with primary and alternative commuting 
routes, what additional benefit can technologies such as in-
vehicle route guidance offer the every-day commuter?
    [The information follows:]

    Early results from our consumer research indicates that the 
everyday commuter traveling to and from work will not generally 
use the route guidance functions of an in-vehicle device 
(although they can be extremely useful for non-commute and 
recreational trips). However consumers indicate that they see 
great value in an in-vehicle navigation device with the 
incorporation of real-time traffic condition information.

                      model deployment initiative

    Mr. Wolf. The FHWA has implemented the Model Deployment 
initiative, which is designed to showcase and demonstrate the 
costs and benefits of an integrated ITS system. Four 
metropolitan areas have been selected as model sites, New York 
City, San Antonio, Phoenix, and Seattle. These projects are to 
be operational sometime in calendar year 1997, and the results 
of these model sites will not be available until late 1998 or 
1999. Considering this, isn't a large-scale deployment of an 
ITI in the nation's 75 largest cities a bit premature?
    [The information follows:]

    The U.S. DOT is not proposing a large scale deployment 
program in the $100 million incentive program. A large scale 
deployment program would be measured in the billions. This 
program is intended (among other objectives) to lead deployers 
in metropolitan areas toward integration--before incompatible 
deployments had hardened existing modal and regional 
fragmentation in a given region for the next 10 to 20 years.
    We know that in 1995 there was over $1 billion in Federal-
aid funding for highways spent on ITS deployment. That doesn't 
count FTA funding, or state, local and toll authority 
expenditures. In 1996 a detailed survey by Oak Ridge National 
Laboratory indicated that most of the 75 major metropolitan 
areas had some level of ITS expenditure underway and more 
planned. The bad news was--virtually none of it was integrated. 
That has been confirmed by a recent Volpe report. Without some 
intervention, we risk having ITS infrastructure deployed in the 
institutional and modal stove pipes that characterize the 
industry today. It is happening now. That in analogous to each 
state, or each metropolitan area building its own version of 
the Internet without preparing for the possibility of hooking 
them together. Or each metropolitan area building its own 
version of a limited access freeway--with no vision for a 
national Interstate System.
    By encouraging agencies to make provisions for 
interoperability, and compatibility with other agencies in a 
metropolitan area, we have an unusual opportunity to bridge the 
modal and institutional fragmentation that exists today with an 
infrastructure that will allow us to manage the system of the 
21st century intermodally and seamlessly.

                           nhtsa its program

    Mr. Wolf. Why is NHTSA entering into cooperative agreements 
with industrial partners to encourage the development and 
deployment of effective collision avoidance warning systems, 
on-road evaluation of heavy vehicle drowsy driver detection 
systems, operational tests of rear-end collision avoidance 
systems, and first generation road departure collision 
avoidance systems? Many of these technologies have already been 
manufactured, tested, and marketed. What is NHTSA doing that is 
different?
    [The information follows:]

    The NHTSA collision avoidance program is designed to 
address specific safety problems. A major thrust of the program 
has been the identification and detailed description of events 
that produce collisions. System concepts and technologies for 
addressing each safety problem have been identified and work is 
underway to understand the system capability needed to solve 
each problem. For these problem areas, NHTSA has done work on 
technologies for sensing, logic for determining if a warning is 
necessary to alert the driver, and the driver interfaces 
necessary to effectively communicate the warning to the driver. 
At the present time, there are no commercial products being 
used in passenger vehicles for any of these areas. Cooperative 
agreements with industrial partners will provide significant 
new understanding of the relationship between system 
capability, user acceptance and safety benefits. This improved 
level of understanding will provide a solid foundation for 
system development by the motor vehicle industry and valuable 
information for the buying-public.

        Operational Test of Rear-End Collision Avoidance Systems

    NHTSA continues to address, with the cooperative 
agreements, the barriers to large scale deployment and public 
acceptance-human factors issues, false alarms, etc. After these 
barriers are overcome, an operational test, real systems in 
real vehicles driven by real people on real roads, will be the 
next logical step.

       First Generation Road Departure Collision Avoidance System

    Prior to initiation of the NHTSA program, this technology 
has been largely in the experimental area and has been the 
subject of laboratory and test track experiments associated 
with military applications. HNTSA issued a cooperative 
agreement to an industrial partner and a competitive contract 
to a research university to develop the technology further to 
the point where an operational test would be a viable option. 
Real world challenges such as driver acceptance, system cost, 
and safety impact will be studied in operational tests.

              Heavy Vehicle Drowsy Driver Detection System

    One objective of NHTSA's drowsy driver technology program 
is to develop, test, and evaluate a drowsy driver detection and 
warning system for commercial motor vehicle applications. The 
Office of Crash Avoidance Research identified the need for, and 
then established an experimental research protocol to 
independently validate drowsiness detection systems, including 
algorithms previously developed under NHTSA sponsorship. First, 
university partners will provide the initial validation for 
each device using sleep deprived subjects in a controlled 
laboratory setting. Second, devices that reliably and validly 
detect drowsiness in the laboratory will be further examined in 
combination for reliable and valid operation, by industry 
partners, using commercial drivers under actual driving 
conditions.

                          National Speed Limit

    Mr. Wolf. Last year the National Highway System Designation 
Act repealed the national speed limit. With that, many states, 
particularly in the west, raised their maximum speeds to 75 
miles per hour. Highway safety advocates predicted that high 
speed limits would inevitably lead to more fatalities. A year 
later, what do the statistics indicate?
    [The information follows:]
    Preliminary estimates of the traffic toll for 1996 indicate 
that while total fatalities declined very slightly by 0.7% 
compared to 1995, fatalities occurring on the Interstates 
increased by 9% and by 4% on U.S. routes, the roadways most 
likely to have been affected by increases in the posted speed 
limit. While NHTSA believes that repeal of the national maximum 
speed limit (NMSL) and motorcycle helmet laws will have an 
impact on traffic fatalities, it may be too early to determine 
what the impact will be. Following the repeal of the NMSL in 
November 1995, with passage of the National Highway System 
(NHS) Designation Act, states began to pass legislation 
increasing speed limits on selected roadways. Of the States 
that have increased speed limits, only nine (Arizona, 
California, Illinois, Massachusetts, Montana, Nevada, Oklahoma, 
Pennsylvania, Wyoming) have had the increased limits in place 
for all or most of calendar year 1996.

    Mr. Wolf. Mr. Olver.
    Mr. Olver. Mr. Chairman, I think you have handed me a hot 
potato, because if I start asking questions at this point, 
keeping people waiting----
    Mr. Wolf. No, that is--no.
    Mr. Olver. No, actually I am being facetious. I will pass.

                            air bag funding

    Mr. Wolf. Okay, why don't we----
    Mr. Martinez. Mr. Wolf, if I could correct for the record--
you asked me about $10 million for air bag safety versus what 
the number was. I told you ten million.
    Mr. Wolf. The statement before you indicated $11 million 
yes.
    Mr. Martinez. Right. It is $8 million overall. It is $2 
million on traffic safety programs and $6 million in our 
research programs.
    Mr. Wolf. Okay.
    Mr. Martinez. Proving once again not to believe everything 
you read in the paper.
    Mr. Wolf. Okay, we will recess till about quarter of two.
    [Recess.]
    Mr. Wolf. We have a vote coming up at 3:00, so we 
definitely will be finished by then and maybe even sooner. 
Hopefully we can let you go before long. Did you get a 
sandwich, or something to eat?
    Ms. Garvey. Yes, thank you.

                            speed management

    Mr. Wolf. So we will have a couple model deployment 
questions. And a speed question, Dr. Martinez. If you can--
highway advocates predicted higher speeds would inevitably lead 
to more fatalities. When do you expect more precise 
information, because everyone I ask has a different answer than 
you came up with today. We asked GAO and others. When do you 
expect some data that we can rely on where we can see what 
actually has happened?
    Mr. Martinez. We can say that we will deliver our first 
report to Congress by the end of September of 1997. We are 
strugging with the facts that now the states have been required 
to report certain types of information. We started going 
through the Federal Register to find a methodology. The biggest 
concern we have is that we don't want to do a report and have 
people taking pot shots at it. So we tracked as best we can. It 
has been out for comment and I think now it is a good report. I 
think it will be able to give you a clear picture. I think it 
will have some fuzz in it, because last year, all the states 
did things differently. I think for this first year, we will 
have a fairly good report by September.

                      state speed limit increases

    Mr. Wolf. What states have raised their speed limits? Maybe 
you can give us that for the record.
    Mr. Martinez. I can submit that for the record.
    [The information follows:]

    The following states have raised their speed limits above 
what was allowed under the National Maximum Speed Limit (NMSL): 
AL, AZ, AR, CA, CO, DE, FL, GA, ID, IL, IA, KS, MD, MA, MI, MS, 
MO, MT, NE, NV, NM, NC, OH, OK, PA, RI, SD, TN, TX, VA, WA, and 
WY.
    Of these states, 23 have increased speed limits to 70 mph 
or higher, In some states, such as Massachusetts and 
Pennsylvania, only speed limits on some freeways were increased 
to 65 mph. Under the NMSL, these same freeways, located in 
urban areas of 50,000 population or greater, were limited to 55 
mph.

    Mr. Wolf. How many?
    Mr. Martinez. 34 have raised their limit.
    Mr. Wolf. 34?
    Mr. Martinez. 34, two-thirds of the states.

                       states with no speed limit

    Mr. Wolf. And how many have taken them off altogether, like 
Montana?
    Mr. Martinez. Only Montana. It is the only one. Twenty-
three though, have increased their speeds above 70 miles per 
hour. We can provide for the record the states and the limit 
they set.
    Mr. Wolf. Of those states that raised the speed limit, 
which ones have a primary seat belt law?
    Mr. Martinez. I would have to get that for you for the 
record, because I don't have that off the top of my head. Some 
states may increase enforcement of other programs in 
conjunction with the speed limits, but I think that is a good 
question. I could give you the information for the record.
    [The information follows:]

    The following states have raised their speed limits and 
have enacted primary seat belt laws: California, Connecticut, 
Georgia, Iowa, Louisiana, New Mexico, North Carolina and Texas.

    Mr. Wolf. Okay. And with the speed limit increases, as Mr. 
Pastor was saying, have you found that when the speed limit is 
60, they generally are going 65. If it is now 75, are they 
going 80, 85? What is anecdotal and what have you found out?
    Mr. Martinez. Anecdotal is a mixed bag. One thing we are 
trying to do with our speed management program is to get 
reports back from the states and be able to present a clear 
picture. For example, one state had an increase of 70 percent 
mostly on the rural two-lane roads because they raised the 
speed on those roads. In other states they have actually had 
some drops. We have to look at exposure and also enforcement. I 
think it is really still too early for us to get a clear 
picture and not be seen as being----
    Mr. Wolf. But what about accidents or speed, because I----
    Mr. Martinez. Fatalities.
    Mr. Wolf. Okay, I was talking about speed, though. When the 
law was 55, people went 60, 65. Now if it is 75, are they going 
75 or are they going 80 or 85 miles an hour? Because I came 
through back from the Republican retreat in Williamsburg and on 
I-95 everyone was going far above the speed limit. I was even 
interested on the George Washington Parkway--and I appreciate 
your help and your support with regard to that. At 50, the 
other night I was driving home alone and everyone was passing 
me, and so I was just wondering are there studies to show that 
it--and I think I know the answer, but I want you to tell me if 
I am right or wrong. Have they gone up to 75 or are they just 
going 85? Are they going ten miles above whatever it is, five 
miles above? Maybe you want to answer that for the record.
    Mr. Martinez. I can't tell you that we have a program that 
has gone out and looked at that. Anecdotally we find that to be 
true. One of our concerns about the whole fate of the speed 
limit is that it was, in many places, perceived as a message 
that speed is not important, speed doesn't matter or it is not 
something that is going to be enforced highly.
    Mr. Recht. Just to reiterate, we have some anecdotal 
information. I mean, I recall hearing in one state where the 
speed, actual speed, went up about two miles an hour and all 
this even though there was a ten-mile-an-hour increase. But 
what we are finding is that the enforcement piece plays a major 
factor, particularly with respect to the early information on 
fatalities. Where the state said okay, we are going to increase 
the speed limit. We are also going to up our enforcement 
activities so as to get the message out that just because the 
speed limit is increasing it doesn't mean you can in fact, 
still take ten or take 11, as they say in the police business. 
We found that fatalities stay the same and come down. Where 
there is lesser enforcement activity, it appears maybe 
fatalities are going up.

    Mr. Wolf. Anecdotal evidence seems to be mixed--in Wyoming, 
death rates have decreased since the repeal of the speed limit, 
while in Nevada, auto fatalities are up eleven percent. What 
trends are apparent?
    [The information follows:]
    While we believe that repeal of the national maximum speed 
limit (NMSL) will have an impact on traffic fatalities, it may 
be too early to determine what that impact will be. Following 
the repeal of the NMSL in November 1995 with passage of the 
National Highway System (NHS) Designation Act, states began to 
pass legislation increasing speed limits on selected roadways. 
Of the states that have increased speed limits, only nine 
(Arizona, California, Illinois, Massachusetts, Montana, Nevada, 
Oklahoma, Pennsylvania, Wyoming) have had the increased limits 
in place for all or most of calendar year 1996. We compared 
Interstate (the roadways most likely to be affected by an 
increase in the posted speed limit) fatalities and Non-
Interstate fatalities for the first six months of 1995 to the 
first six months of 1996 for each of the nine states listed 
above. Three (Montana, Nevada, Oklahoma) of the nine states had 
an increase in fatalities on Interstate highways; the remaining 
states had no change or had a decrease in Interstate 
fatalities.

                    state interaction on speed issue

    Mr. Wolf. Are you doing anything with the states, urging 
them to either not raise their speed limits or to increase the 
enforcement. Is there a formal----
    Mr. Martinez. Yes. We have a STEPS program and we have a 
campaign safe and sober. It is focused on speed both in English 
and Hispanic. We have been working very hard with law 
enforcement, they are very concerned about this. A couple of 
concerns they have had also is that the message--that is why I 
relayed this--was kind of clear that people can just judge 
their own speed, that speed is not a big factor. There is even 
a state, as you pointed out, that has no speed limit. Now what 
kind of message does that send? So we have been working with 
states in order to talk about speed management overall.
    The second thing is that we had a fairly large public 
education campaign. We have also sent information about our 
statistics to governors and state legislators. I can tell you 
that Secretary Pena wrote to every governor. I myself wrote to 
every governor. We are kind of fighting an uphill battle in 
some ways, because this is seen in many ways, as a state's 
rights issue not as a safety issue. We are trying to go back 
and get the data they need to make informed decisions.

                              helmet laws

    Mr. Wolf. Maybe you should have some of your governors who 
have been sympathetic to write to other governors. Governor 
Hunt's man keeps coming. Maybe you should askGovernor Hunt to 
contact all of the governors. Governor to governor carries a lot more 
weight than the Federal Government.
    Helmet law, what has been the effect?
    Mr. Martinez. Right now no state has repealed its helmet 
laws, but there are many states looking to repeal those helmet 
laws. We are, trying to build on the foundation of our expanded 
constituency using the CODES states, which have shown that, 
people pay the bills when the medical costs are incurred. And 
we have fairly active technical assistance programs through the 
states to help them address those issues. So far we have not 
seen much in the erosion of helmet laws, but we are concerned 
that will change.
    Mr. Wolf. If the first state rolls it back or repeals it, 
then I think Katy Boggs is right, they may just follow.

    Mr. Wolf. Total motor vehicle fatalities and deaths per 
100,000 people began increasing in 1993 after declining since 
the mid-1970s. Do you believe that the repeal of the national 
speed limit and motorcycle helmet laws rather than a change in 
the birthrate had any impact on recent fatalities?
    [The information follows:]
    The agency closely examined the increases in motor vehicle 
fatalities that occurred in 1992-1993 and continued in 1994-
1995. The consensus regarding the 1992-1994 increase was that 
while alcohol and safety belt programs are continuing to have a 
favorable impact, the increases in motor vehicle fatalities 
appear to have been driven by economic forces and increased 
travel (exposure to the risk of a crash). In 1994-1995, the 
characteristics of the increases in motor vehicle fatalities 
point to increased crash risk on roads posted at or above 55, 
suggesting higher travel speeds and not as related to economic 
and exposure factors as in 1992-1994.
    Preliminary estimates of the traffic toll for 1996 indicate 
that while total fatalities declined very slightly up 0.7% 
compared to 1995, fatalities occurring on the Interstate 
increased by 9% and by 4% on U.S. routes, the roadways most 
likely to have been affected by increases in the posted speed 
limit. While we believe that repeal of the national maximum 
speed limit (NMSL) and motorcycle helmet laws will have an 
impact on traffic fatalities, it may be too early to determine 
what the impact will be. Following the repeal of the NMSL in 
November 1995 and passage of the National Highway System (NHS) 
Designation Act, states began to pass legislation increasing 
speed limits on selected roadways. Of the states that have 
increased speed limits, only nine (Arizona, California, 
Illinois, Massachusetts, Montana, Nevada, Oklahoma, 
Pennsylvania, Wyoming) have had the increased limits in place 
for all or most of calendar year 1996.

                            alameda corridor

    Last year, Congress provided a direct loan of $400 million. 
Can you bring the committee up to date on the status and the 
terms of the loan?
    Ms. Garvey. We have negotiated an agreement with the 
Alameda Corridor. By the way, their contracting schedule--they 
are set to go into construction in May and I believe they are 
actually going to sign a contract or issue a contract either 
this week or the beginning of next week. We have negotiated a 
loan agreement with the Alameda Corridor project proponents. It 
is, I think, a very tightly constructed loan agreement.
    We have flexible payments in place for paying back the 
loan, but it is very tightly outlined in the loan agreement. We 
have also put a provision in that, if the revenues are not 
proceeding as they are expecting and as some of their early 
investment ratings had indicated, then they will have to raise 
the rates for the shippers who are using the Alameda Corridor. 
So we built in a couple of provisions to give ourselves some 
protection with the loan agreement.
    Mr. Wolf. I read the other day in the paper about the Long 
Beach Port. Is that one of the ports that is being served by 
this?
    Ms. Garvey. That is one of the ports being served by it.
    Mr. Wolf. So we are doing this to help the Communist 
Chinese. That troubled me a little bit when I saw it. Did we 
know that the Chinese were----
    Ms. Garvey. That would be--I apologize, Congressman. I am 
not----
    Mr. Wolf. The Long Beach Naval Yard that we read about in 
the paper the other day, will it not be served by the Alameda 
Corridor?
    Ms. Garvey. I believe that is abandoned.
    Mr. Wolf. Right, but will it not be served by the Alameda 
Corridor?
    Mr. Kane. I don't know the exact location of it. The harbor 
itself ought to be a part of the improvement effort. I don't 
know directly for that facility. We can----
    Mr. Wolf. Could you check?
    Mr. Kane. Absolutely.
    Mr. Wolf. The inference was that the Alameda Corridor was 
going to make the Long Beach Naval Yard a prosperous 
opportunity for Chinese operation operations. The thought of 
this committee, of us appropriating anything to help the 
Chinese government to profit--somehow it bothers me. The fact 
that the Chinese government sold skud missiles to Sadam Hussein 
that were then used against American soldiers and also sold 
technology equipment to the Iranians and now gets the use of an 
American naval base--that just troubles me. It doesn't seem 
right. So if you can let us know.

                   pending lawsuits--alameda corridor

    The struggle between the ports of Los Angeles and Long 
Beach and the smaller corridor cities over the project has 
continued for more than a year. It has been the subject of a 
pending lawsuit. Do you know what the status of the lawsuit is?
    Ms. Garvey. Yes, Mr. Chairman, the court has agreed to hear 
the small communities case. I don't believe there is a date 
when that has been scheduled yet. We will follow up on that, 
but it has agreed to hear the small communities case. I 
continue to hope that they can work on these issue 
collectively. And I think that actually the court's decision 
may make both ports more amenable to sitting down at the table 
with the small communities. Los Angeles, I think, has been 
particularly, perhaps, a little more forthcoming and willing to 
work with the smaller communities, and I am hoping that this 
may encourage Long Beach as well.
    Mr. Wolf. To what extent will this lawsuit delay 
construction and to what extent will any monetary settlement to 
the smaller cities affect the ability of the ports of Los 
Angeles and Long Beach to finance the project?
    [The information follows:]

    The Smaller Corridor cities have never sought an injunction 
to halt construction. The ground breaking for the first project 
in the Corridor's north end is scheduled for May 15, 1997. For 
ACTA to built the mid-Corridor section that lies within the 
cities themselves, however, it will be necessary to settle the 
lawsuit. Mid-Corridor construction is not scheduled to begin 
for a few years. The cities have indicated throughout 
negotiations with the ports that they strongly support the 
Alameda Corridor, but are concerned about the local impacts of 
the multi-year construction process. The monetary settlement 
that has been discussed between the cities and the ports 
constitutes a small fraction of the total project cost, and 
would not inhibit ACTA's ability to finance construction.

                         alameda corridor bonds

    Mr. Wolf. A bond rating agency has informed the GAO that 
the project's bonds would likely be investment grade, but the 
agency cited several factors that could affect the project's 
ability to secure the $711 million needed in bond sales. 
Current risk factors include the capacity of the prime 
contractors to complete a complex construction project within 
the estimated costs; the potential of revenue diversion of 
funds from the ports to the cities of Los Angeles and Long 
Beach; and the increasing potential for further litigation by 
cities along the corridor. How concerned is the Department 
about the ports' bond ratings and their ability to get the 
additional $711 million in bond sales?
    Ms. Garvey. We have had some informal conversations with 
the bond counsel. They have said repeatedly that many of these 
issues are not unusual--in this stage of the project's life, I 
think, having the contract in place within the next week will 
outline some of the construction cost issues. In terms of the 
revenue diversion, we think that we have a rate covenant 
provision within the law that gives us protection on that 
issue. So I guess I would say that these are legitimate issues 
and we certainly have to watch them, but in talking with bond 
counsel this is not unusual at this point of the project. We 
will continue to monitor that.
    Mr. Wolf. Should this project be reviewed by the GAO and 
IG, much like BART, the Central Artery, and others, since it is 
the first project of its kind, and such a large financial 
commitment by the Federal government. It is not that I suspect 
there is any problem, but since the Department is predicating 
other loan programs, using this as an example and hailing it as 
an opportunity, I wonder if the IG and the GAO, working with 
your people, keep a watchful eye on this project?
    Ms. Garvey. That is a good suggestion. We should--we will 
follow up with both the IG and GAO. Just parenthetically, the 
IG has been exceedingly helpful in Massachusetts, literally on 
a daily basis, in our division office working with people side 
by side, anticipating potential problems. And I could see a 
similar situation here. We will follow up with the IG and with 
GAO.
    Mr. Wolf. I think we are going to ask them to do the same 
thing on the L.A. Metro and on the San Francisco BART project. 
I think these--and I wonder, the I-15 project up in Utah, what 
about that?
    Ms. Garvey. Just quickly, are you trying to----
    Mr. Wolf. I just wonder, should that also be--that is over 
a billion dollars, isn't it?
    Ms. Garvey. Yes.
    Mr. Wolf. You know, I just want to let the record show I am 
not opposed to any of the projects. It is just that these are 
very large problems that have the potential to have significant 
problems. Then something happens and then people say why didn't 
somebody see it coming. I just wonder if that is not----
    Mr. Kane. On all of them we learn practices that help on 
other big projects.

                           utah I-15 project

    Mr. Wolf. Yes. Why don't you tell us a little bit about the 
Utah project. I have some questions on it a little bit later 
that maybe won't have to be asked. What were you going to tell 
me?
    Ms. Garvey. Well, one, I think that is wonderful is that we 
have a finance plan. Remember you raised that issue last year 
during our hearing. And this is really the first project that 
follows the policy determination that we would require a 
finance plan.
    Mr. Wolf. How much--that is over a billion, $1.2 billion. 
How much of that will be federal money?
    Mr. Kane. Hard to say. They are planning in the contingency 
that there is no Federal money to have state resources for it. 
They have just had a gas tax increase and other revenue 
increases, so they will be potentially looking at maybe using 
future federal aid apportionments, maybe not. They have also, 
because of the impact of reconstructing that facility as well 
as others in Utah, have been thinking of potential for a 
special project fund, which we are not, you know. But in light 
of the Olympics in 2002, they have been requesting possible 
special aid there, so it is very uncertain as to how much we 
would be involved with them on. But they have the potential to 
fund it entirely on their own.
    Mr. Wolf. Good.
    Mr. Kane. But at the same time we will still be following 
closely with them doing all the rules we normally would in the 
potential that there would be federal aid involved in the 
project. We had federal aid involved in the early planning 
work, but the amount is uncertain. But we will still have a 
financial plan required from them and will follow closely on 
the project.

                    alameda corridor loan agreement

    Mr. Wolf. Back to the Alameda Corridor, last year the 
Administration and project sponsors suggested it would not cost 
the government anything in the long run, the program was alone. 
At the same time it was suggested that the federal loan was 
needed to improve the project's credit rating by both 
decreasing the revenue bonds needed and as a general sign of 
federal commitment to the project. Why then in the loan 
agreement was the federal loan repayment made junior, 
subordinate, to the repayment of the revenue bonds?
    Ms. Garvey. That is a question the Treasury Department 
often has asked us, as well. I think one of the advantages that 
the federal government can bring to projects like this is that 
we can afford to be a patient investor. It does not mean we 
should not be paid. It is not a question of whether or not we 
will be paid, but when we will be paid. And in this case the 
way that we have structured the loan with a time table with 
very fixed dates when payments are due. But we have given the 
project a little time to get started. In the early years is 
when the ramp up is difficult. So our first payment, I believe, 
is in 2002. But it allows us to be a patient investor but still 
get paid and still be, obviously, protected under the loan 
agreements, under the----

                       potential alameda default

    Mr. Wolf. When you default at the federal level, IRS is 
always first in line, as you know, when there is a bankruptcy. 
I just wonder why we have taken a subordinate position. What 
would the exposure be if----
    Ms. Garvey. Right.
    Mr. Wolf. If there were a default? Should there be a 
default, what would it involve?
    Ms. Garvey. Good question. Again, according to the 
agreement, if there is default, we are on equal footing.
    Mr. Wolf. We are equal?
    Ms. Garvey. With the other creditors.
    Mr. Wolf. Okay, what would we lose if there were a default?
    Ms. Garvey. I wish my statement was all still there. I 
think it is about----
    Mr. Wolf. What assets would there be?
    Mr. Wright. There may be a facility at least partially in 
place and operating that would be available for division among 
those----
    Ms. Garvey. We can give you more information, but it is 
essentially the capital investment.

                  contribution to the alameda project

    Mr. Wolf. Project officials have stated that the Los 
Angeles Metropolitan Transportation Authority's ability to meet 
its commitment to contribute as much as $350 million to the 
project is uncertain. In fact, as a result of its subway 
construction delays and cost overruns, a recent court order to 
consent decree for additional bus operations, and significantly 
lower than estimated tax receipts, which are to secure a bond 
for the corridor, MTA is currently reevaluating its existing 
funding commitments. Is the Department concerned about MTA's 
ability to participate?
    Ms. Garvey. We have had pretty direct communication with 
MTA, and they have identified two sources, either an existing 
sales tax or some of their future federal aid apportionment as 
a possibility for their share. And a decision is forthcoming 
from them. But we are at this point assured that they have an 
opportunity in one of those two areas for their participation, 
either the sales tax or the federal aid apportionment that goes 
to MTA.
    Mr. Wolf. It is an existing sales tax. What is that money 
going for now?
    Ms. Garvey. I am not sure, Congressman. I can get back to 
you, though.

                           Alameda Bond Sales

    Mr. Wolf. Another issue affecting the project's ability to 
secure the $711 million in bond sales is its tax exempt status. 
What action, if any, has been taken to date to change the tax 
status of the bonds that the Alameda Transportation Corridor 
Authority plans to sell?
    [The information follows:]

    The Internal Revenue Service is considering ACTA's request 
for a private letter ruling seeking tax exempt status for the 
revenue bonds. Legislation was introduced in the prior session 
of Congress to amend the Internal Revenue Code to allow the 
project's debt to be issued tax-exempt; however, Congress did 
not act on that proposal.

                         Alameda Revenue Bonds

    Mr. Wolf. Will the revenue bonds be fully or partially tax-
exempt? How could that affect the federal government?
    [The information follows:]

    Under current law, without special legislative authority, 
ACTA believes that a portion of its revenue bonds could be 
issued as tax-exempt debt (relating to public use/public 
purpose). The amount of the tax-exempt debt ultimatley issued 
for the project should not affect the security of the Federal 
government's investment, as the budgetary cost of the Federal 
loan was ``scored'' conservatively based on the assumption of 
all revenue bonds being taxable.

                         Alameda Financing Plan

    Mr. Wolf. How much of the corridor's financing is based on 
federal funding, including both direct and indirect federal 
funds, both with and without the federal loan?
    [The information follows:]

    The $2 billion project is a public-private venture among 
the ports and cities of Los Angeles and Long Beach, the 
regional transportation authority, the railroads using the 
corridor, and the Federal government. Direct Federal 
contributions to the project include $45 million in ISTEA 
demonstration funds (USDOT), $2 million in Economic Development 
Administration funds (Commerce), and the $400 million direct 
Federal loan. Thus, the project will receive $447 million ($47 
million without the Federal loan) in direct Federal funding.
    In addition, the Metropolitan Transportation Authority 
(MTA) will provide another $329 million of apportioned Federal-
aid highway funds. Total Federal funding for the project 
(including indirect Federal-aid highway funds passed through 
the Los Angeles County MTA) equals $776 million ($376 without 
the Federal loan).

                       Annual Alameda Loan Needs

    Mr. Wolf. Based on these various programmatic 
considerations and other factors, how likely is it that the 
annual loan levels enacted last year will exceed the annual 
need? In other words, should the annual loan levels be revised, 
spread out over a longer period of time, or rescinded in part?
    [The information follows:]

    The Federal loan which was signed January 17, 1997, is a 
vital part of the project's financial package. The full amount 
of the loan--up to $400 million--has been obligated and the 
disbursement schedule is stipulated in the law. However, the 
project would benefit from a more flexible schedule that could 
reflect the construction program more precisely. Allowing ACTA 
greater discretion over when to request the funds would 
decrease its financing expenses without affecting the Federal 
Government's budgetary costs.

                   FHWA Project Management Oversight

    Mr. Wolf. We will have some more for the record with regard 
to major projects, State of Utah, and some others.
    The GAO recently reported that cost management and cost 
containment are not a goal of FHWA's oversight nor part of its 
organizational culture. As a result, FHWA has few requirements 
that ensure that cost containment is an integral part of large-
dollar highway management. At a time of scarce federal 
resources, is it time that FHWA rethink its role in managing 
the costs of large-scale highway projects?
    [The information follows:]

    The Federal-aid highway program provides financial 
assistance to the States for their administration of highway 
projects which they select, plan, design, and administer. The 
FHWA role has always been to assure that the standards used, 
the engineering details specified, the contracting and 
construction methods employed, and the finished product were in 
accordance with acceptable standards and at a reasonable cost. 
Benefit-cost ratios, Value Engineering, and low bids have been 
precepts of the Federal-aid program for many years.
    With the aging of Interstate highways, States are 
initiating some large scale reconstruction projects in urban 
areas costing billions of dollars, such as I-15 in Salt Lake, 
UT and Central Artery in Boston, MA. The FHWA required the 
States to develop plans for these two projects. These financial 
plans contain cost containment provisions and are updated at 
specified intervals as appropriate.
    As part of its reauthorization proposal, FHWA would require 
a financial plan for all projects estimated to cost 
$1,000,000,000 or more. All of these factors reflect the 
evolution of the nation's highway system and FHWA's role.

                    state highway project management

    Mr. Wolf. What requirements does FHWA have in place to 
ensure that cost containment is a key part of state highway 
project management?
    [The information follows:]

    Several requirements are imposed on the States to contain 
costs or produce reductions in costs. Value Engineering has 
proven to be effective in reducing costs on some costs on some 
highway projects and has served to provide alternates to some 
details that are more commonly available at no increase in 
cost. The FHWA recently issued a regulation implementing Value 
Engineering programs in all States.
    There also is renewed emphasis in the use of Life Cycle 
Cost Analysis for major highway projects. The NHS Designation 
Act required the States to perform Life Cycle Cost Analyses on 
all project useable segments that are estimated to cost 
$25,000,000 or more. The FHWA is working closely with the 
States to implement these provisions and will share best 
practices as they are identified.
    Other provisions such as Partnering and Incentive/
Disincentive clauses are designed to provide opportunity for 
the contractors to suggest design and construction changes that 
will be of benefit to them and decrease the cost to the State.

              highway projects cost containment mechanism

    Mr. Wolf. Many state officials have cited value engineering 
as a formal cost containment mechanism, yet FHWA has never 
required the states to perform value engineering on highway 
projects that receive federal funds. Why?
    [The information follows:]

    The FHWA has for many years preferred to encourage the 
States to establish programs to perform Value Engineering 
reviews on projects rather than requiring them to do it. 
Training workshops and technical assistance have been effective 
in promoting the principles of Value Engineering, and in 
getting approximately 30 States to perform Value Engineering on 
a routine basis. The idea was that Value Engineering would be 
attractive enough without a formal requirement. And it is to 
many States.

                       Value Engineering guidance

    Mr. Wolf. In 1995, Congress required that all projects on 
the National Highway System that have an estimated total cost 
of $25 million or more be subject to value engineering 
analysis. FHWA has not yet issued guidance to the state to 
implement the law. What is the delay?
    [The information follows:]

     A regulation implementing the provisions of the NHS 
Designation Act was published in the Federal Register on 
February 14, 1997 with an effective date of March 17, 1997.
    when Congress passed the NHS Designation Act, FHWA had 
already begun a rulemaking to obtain comments on a proposal to 
require all States to apply Value Engineering to selected 
Federal-aid highway projects. The review of the comments and 
the redrafting of the proposed requirements culminated in the 
publication in the Federal Register on February 14, 1997. The 
regulation requires Value Engineering analyses on all projects 
on the NHS estimated to cost $25,000,000 or more.

                      Large Project Finance Plans

    Mr. Wolf. In 1995, this Committee sought to enact 
legislation that would have required biannual and periodic 
updates of the finance plan of the Central Artery project. In 
response, the House authorizing committee proposed language 
that would have required any project with costs in excess of $1 
billion to submit annual financial updates. This language was 
later dropped in conference and not included in the National 
Highway Systems Designation Act. In your opinion, should this 
requirement be included in the reauthorization to ISTEA?
    [The information follows:]

    Yes, the Administration's reauthorization proposal, NEXTEA, 
contains a provision to require financial plans for any 
projects estimated to cost $1,000,000,000 or more.

                   Finance Plan for Utah I-15 Project

    Mr. Wolf. The State of Utah is beginning to undertake 
improvements to I-15, the largest project ever undertaken by 
the state and the largest design/build project ever attempted 
in the United States. In July 1996, Utah DOT estimated the 
total project cost at $1.36 billion. Will the FHWA require the 
State of Utah to complete a finance plan prior to its 
concurrence in the contract award?
    [The information follows:]

    While there is currently no regulatory requirement to do 
so, FHWA requested a financial plan for the Utah I-15 design-
build project as a condition of the authorization for this 
project. It will be completed and submitted in time for the 
concurrence in award.

                           Utah I-15 Funding

    Mr. Wolf. While no federal funding has been committed to 
the I-15 project, Utah DOT is expected to seek up to 80 percent 
of the costs during reauthorization. Based on February 1997 
estimates, this could represent almost $1 billion. What 
concerns does the FHWA have at this time with respect to the 
design/build contract and the state's ability to control costs 
on the I-15 project?
    [The information follows:]

    The FHWA worked with Utah DOT on the overall project 
oversight and special task forces during the development of the 
request for proposal (RFP) document. The RFP includes 
significant input from both FHWA and the highway industry. The 
joint ventures submitted price and technical proposals in 
January 15, 1997, and the project is on schedule for an April 
14, 1997 Notice-to-Proceed.
    Unlike traditional design-bid-build highway construction 
projects, the successful design-build proposer will assume all 
of the responsibility for the project design when constructing 
the project.. The lump sum bid submitted with the price 
proposal will include all costs associated with the design and 
construction of this contract. Utah DOT included a provision 
for the clean-up of hazardous materials on a unit price basis 
to cover the possibility of on-site hazardous materials. 
Similarly, there are other provisions for providing incentives 
to the design-build proposer for both quality and timely work.
    The Administration's reauthorization proposal does include 
any special funding considerations for the reconstruction of I-
15. The Utah DOT has certified that sufficient funds will be 
available to construct the I-15 project without any Federal 
funding. In March 1997, the Utah legislature formalized their 
commitment to fund a ten-year transportation program, including 
the I-15 project, for a total amount of $2,400,000,000. While 
the Governor has not yet signed this funding package, he is 
expected to do so in the near future.
    In sum, the design-build procurement method is intended to 
provide a quality construction project with minimal cost 
increases, and the financial plan submitted by Utah DOT shows 
that sufficient funds will be available to construct the I-15 
design-build project. Based on the efforts thus far, the FHWA 
believes that the design-build contract is the appropriate 
mechanism for reconstructing I-15 and is confident in the Utah 
DOT's ability to control cost on the project within the 
framework of this mechanism.

                          utah i-15 financing

    Mr. Wolf. The Utah state legislature plans to complete its 
session by the middle of March, with one of the actions being a 
financing plan for its overall transportation program. Will the 
financing sources for the I-15 project be clearly defined and 
locked in (private sector financing is one option, for example) 
such that FHWA can concur in the award of the design/build 
contract by the end of March?
    [The information follows:]

    Yes, as already noted, the project is on schedule for an 
April 14, 1997 Notice-to-Proceed.

                    highway project financial plans

    Mr. Wolf. I believe the FHWA has the administrative 
authority to require periodic updates of finance plans on major 
highway projects. Other than the Central Artery project (and 
the I-15 project, perhaps), what projects has the FHWA required 
the submission of periodic finance plans?
    [The information follows:]

    Recently, the Central Artery and I-15 are the only two 
projects for which FHWA has requested a financial plan. The 
FHWA has requested these financial plans under the authority of 
existing regulations. Specifically, 23 CFR 1.5 states that ``At 
the request of the Administrator, the State Highway Department 
shall furnish to him such information as the Administrator 
shall deem desirable in administering the Federal-aid highway 
program.'' The FHWA believes that the submission of a financial 
plan with periodic updates is a reasonable requirement for all 
mega-projects.
    The Administration's reauthorization proposal would require 
a financial plan for any project with an estimated total cost 
of $1,000,000,000 or more.

                       highway projects oversight

    Mr. Wolf. What factors does FHWA consider to determine the 
appropriate level of federal involvement and oversight on 
highway projects?
    [The information follows:]

    Before the ISTEA was passed, Certification Acceptance and 
the Secondary Road Plan provided the only alternative methods 
of discharging FHWA's responsibilities under Title 23. The 
ISTEA provided Special Rules for 3R projects on the NHS whereby 
the State could certify on a project by project basis that all 
the work would meet or exceed the applicable standards. In 
addition, it provided that FHWA would not be involved in the 
Title 23 requirements on non-NHS projects with estimated cost 
less than $1,000,000.
    These provisions presented the first factors for FHWA to 
consider in deciding what level of oversight to provide. The 
FHWA proposes, as part of the reauthorization legislation, to 
provide for the State and FHWA to mutually agree on the level 
and extent of oversight on NHS projects. The factors to be 
considered could include project cost and complexity, workload, 
resources available, and other factors, based on an assessment 
of the State's and FHWA's experience. Non-NHS projects would be 
administered under State rules without routine FHWA oversight.
    When determining the appropriate level of Federal 
involvement and oversight, the FHWA considers the scale and 
complexity of the project in terms of its cost and potential 
use Federal-aid highway funds, importance to interstate travel, 
and possible environmental consequence.

                   highway projects cost containment

    Mr. Wolf. The Vice President's National Performance Review 
in 1993 identified widespread concern about the need for the 
federal government to better manage the planning, budgeting, 
and acquisition of fixed assets. The Government Performance and 
Results Act generally required that federal agencies target 
resources and develop specific, measurable goals and plans to 
achieve them. The Office of Management and Budget requires cost 
containment practices when federal agencies acquire large-
dollar capital assets such as buildings, equipment, and 
information systems. Aren't these requirements an appropriate 
mode for management of large-dollar highway projects, 
notwithstanding the fact that the federal-aid highway program 
is a federally assisted state program?
    [The information follows:]

    Because the Federal-aid highway program is one of Federal 
financial assistance to the States, there is not the same 
financial risk to the Federal government for project increases 
as there would be for Federal procurement. Also, the fact that 
the Federal share is only part of the project cost tends to 
make the States more cost conscious.
    Based on recent experience with several large projects, 
FHWA included in its reauthorization proposal a requirement 
that State prepare a financial plan for all projects estimated 
to cost $1,000,000,000 or more. The FHWA will work closely with 
the States to make the financial plans viable and effective.

                       utah i-15 project funding

    Mr. Wolf. The staff indicates here that they were under the 
impression that Utah expected to have 80 percent of the cost 
included in the reauthorization for the I-15. Does that run a 
little bit different than what you said?
    Mr. Kane. One finance plan assumed that they would be 
trying to seek up to a half a billion dollars in special 
project funds, but they have state resources to fund it in the 
absence of getting anything in terms of special project funding 
and reauthorization. And whether or not they dedicate or pledge 
any of their future federal aid apportionments is also an open 
question, but as I mentioned before, they have full state 
resources to go behind it, both dedicated new gas tax revenues, 
as well as increased bond revenues that are coming into the 
state. So it is unclear how much they would use.

                   fhwa oversight on highway projects

    Mr. Wolf. How much should the Federal Highway be involved 
in oversight on the highway projects? What do you consider your 
involvement to be?
    Ms. Garvey. Well, first of all the finance plan is the 
first sense of that involvement. We have worked very closely 
with them through the----
    Mr. Wolf. Well, not--no, no, just----
    Ms. Garvey. Oh, I am sorry, just generally?
    Mr. Wolf. Yes, in general.
    Ms. Garvey. I think we should be a full partner with them. 
This is a very big project. I think the kind of oversight that 
we have had in place----
    Mr. Wolf. But is there a point where your oversight should 
be required there be some standards where the Federal Highway 
Administration----
    Mr. Kane. Well, on all projects when it comes to issues 
like civil rights laws, non-Title 23 laws, environmental laws, 
we are involved, clearly. On the engineering side, ISTEA 
started a new way of doing business where without going into 
the real details it was mainly focusing the federal resources 
in terms of reviewing plan specifications and estimates, 
engineering kind of issues, on the National Highway System, and 
projects that are off the National Highway System to rely on 
state resources and procedures.
    That is the direction that we are clearly heading in 
because of continuing program growth, as well as, agency size 
not expanding. So I think our real focus from an engineering 
perspective is on the National Highway System. And there ISTEA 
gave us some rules on low-cost projects, under a million, for 
simple rehabilitation projects where states could opt out of 
our engineering oversight.
    So in simple terms it has been a history now, since ISTEA, 
of NHS having our engineering involved in projects over a 
million dollars, which are--it is a much lower dollar 
threshold, but it is the system, it is the National Highway 
System. Our involvement off of the NHS is one very much of 
worrying about state processes being good in terms of their 
contracting techniques. Technical assistance, we will give them 
with regard to everything from standards to construction 
practices.
    So I think that is a fair place for us to be involved, and 
it is at a lower level in terms of the National Highway System 
dollar threshold. As Jane mentioned on the financial side, we 
have established the billion dollar threshold for very strong 
financial plans that continue to be done. But on virtually all 
major projects on the National Highway System we would have a 
close engineering involvement.
    Ms. Garvey. This project has a particular interest to us, 
too, because of the design/build. And it is the largest design/
build project that we have underway. And it is one of our 
design/build innovative contracting examples that we are 
looking at. So we are watching it very carefully, even just for 
those reasons in addition to the ones that Tony has mentioned.

                              bid rigging

    Mr. Wolf. Speaking of federal involvement, where are you 
now on bid rigging? If you recall, we went through that quite 
extensively a couple years ago. I have seen nothing in the 
paper about it anymore. Are you active in that now?
    Mr. Kane. Oh, yes. We are still on any projects that have 
federal money involved in it have a debarring function when 
there is problems with contractors.
    Mr. Wolf. How many people have been debarred in the last 
year?
    Mr. Kane. It is probably--we can give you the exact 
numbers. It is probably under a dozen.
    Mr. Wolf. So there is no bid rigging going on anymore?
    Mr. Kane. I won't say that. What has happened is that the 
states have been very aggressive about it. In fact, several 
years back when--I am going to go back a dozen years when there 
was really a strong finding of it. Lots of good analytical 
tools were developed.
    Mr. Wolf. When was that, in the early 80s?
    Mr. Kane. Yes, and the states got very concerned, 
obviously, and we did as well. And they developed very neat 
software called BAMS, bid analysis techniques of looking at all 
the bids that came in.
    Mr. Wolf. Are they all using that?
    Mr. Kane. They are all using it now.
    Mr. Wolf. Every state, all 50?
    Mr. Kane. Yes, and it has really helped in terms of 
assessing bids, analyzing, and finding where there would be 
problems.
    Mr. Wolf. These things go in cycles, it seems. And if it 
was in the early 80s, we are into the mid 90s now. With all the 
federal money I just wonder if there is something going on. But 
you are confident the bid rigging issue is----
    Mr. Kane. Well, I am pretty confident when----
    Mr. Wolf. I haven't seen a story----
    Mr. Kane. When issues get raised, we are on top of it. Our 
IG is also active in there as well.
    Mr. Wolf. Your IG is not as active as----
    Mr. Kane. The FBI will get involved in it as well, which is 
a Department of Justice function--at least with regard to any 
of the efforts that have federal aid in it. But we can give you 
the historical pattern and what has happened in the last couple 
years.
    Mr. Wolf. You don't believe there is any major bid rigging 
going on now in any particular state?
    Mr. Kane. I hope--not that I know of. I hope not.

                         woodrow wilson bridge

    Mr. Wolf. Estimates to replace the Woodrow Wilson Bridge 
with a new twelve-lane span total some $1.6 billion. Last year, 
you informed the Committee that the federal government's 
contribution would be about $400 million. Has the federal level 
of participation changed over the past year?
    [The information follows:]

    No. The federal level of participation that has been 
recommended in the past remains the same.

               Woodrow Wilson Bridge Federal Contribution

    Mr. Wolf. How was the figure of $400 million arrived at?
    [The information follows:]

    The NHS Designation Act of 1995 Section 407(c)(2)(b) 
specifies that the minimum Federal share of project costs will 
be 100 percent of (1) the cost of continuing rehabilitation of 
the existing bridge until the replacement facility is 
constructed and operational, (2) the cost of replacing the 
bridge with a comparable modern bridge designed according to 
current engineering standards, and (3) the cost of planning, 
preliminary engineering and design, environmental studies and 
documentation, and final engineering for the project. The sum 
of these costs and, thus the total minimum Federal share as 
defined by the NHS Designation Act, is $400,000,000:

Federal Share of Project Costs

                                                              Total cost
                                                          (1997 dollars)
Cost Item:
    Continuing Rehabilitation...........................     $10,000,000
    Comparable Replacement Facility.....................     329,000,000
    Final Engineering Design............................      61,000,000
                    --------------------------------------------------------
                    ____________________________________________________
      Total.............................................     400,000,000

                 Woodrow Wilson Bridge Cost Difference

    Mr. Wolf. How does the FHWA expect to make up the $1.2 
billion difference?
    [The information follows:]

    The FHWA expects that the difference would be made up 
through a mix of sources--a portion financed with long-term 
tax-exempt, debt backed by user or other special fees, and a 
portion from the States which could include allocations of some 
part of their annual apportionments of Federal-aid highway 
funds.

                      Woodrow Wilson Bridge Tolls

    Mr. Wolf. It occurs to me that if the Woodrow Wilson Bridge 
project is a candidate for the new transportation 
infrastructure credit program, the Department is presuming the 
use of tolls on the bridge. At this time, based on the 
preliminary engineering and other design work conducted to 
date, what level of toll would be required?
    [The information follows:]

    The FHWA has developed a financial model to explore 
different funding alternatives for the Woodrow Wilson Bridge 
Project. The model is based on a toll-supported facility 
consisting of a ten-lane (expandable to 12 lane with HOV), 70-
foot twin drawbridge, plus two interchanges with major highways 
on each side of the Potomac River.
    The model is designed to evaluate the impact on toll rates 
of varying numerous assumptions, including construction costs 
and drawdown schedule, traffic volume and mix, and contributed 
capital levels from the Federal and State governments. If the 
Federal share would consist of a grant in the amount of the 
replacement cost of the existing span (approximately 
$400,000,000), and the balance of construction costs would be 
funded from the proceeds of long-term tax-exempt senior project 
bonds, a $2.25 toll (one-way) would need to be charged to meet 
debt service requirements. This analysis assumes no Federal 
loan. However, if Federal Credit Enhancement facilitates the 
project's access to junior-lien financing, the toll could be 
reduced by up to $.50.

                woodrow wilson bridge financial analysis

    Mr. Wolf. I believe that more than 80 percent of the 
traffic on the Woodrow Wilson Bridge are local drivers. This 
may well limit the ability to provide a break in a toll for 
local drivers. In the course of your financial analysis, what 
considerations were given to charge a lower rate to regional 
drivers and a premium to non-local drivers?
    [The information follows:]

    Although it would be technically feasible to provide 
reduced tolls for local travelers, most likely it would not be 
practical due to the high volume of local traffic using the 
facility. While initially the bridge was planned as a part of 
bypass around Washington D.C., today it serves as a primary 
means for hundreds of thousands of area residents to get to and 
from work, shopping, and other regional activities.
    Toll levels for non-local residents would need to be set at 
prohibitively high levels in order the revenues forgone by 
reducing the fairs for local residents. High tolls for non-
local residents would lead to high diversion rates. High 
diversion rates would lead to lost revenues and, consequently, 
revenue shortfalls. For these reasons, the Department did not 
give consideration to charging lower rates to regional drivers 
in its financial analysis.

                          variable toll issues

    Mr. Wolf. What difficulties have other toll authorities 
encountered with variable or discount tolls, particularly with 
their ability to secure alternative financing of the projects?
    [The information follows:]

    There is very limited experience in the U.S. with variable 
priced toll facilities. SR 91 in California has instituted a 
variable toll element to its pricing structure by granting 
discounts to local users; however, SR 91 is different from the 
Woodrow Wilson Bridge in that SR 91 is located in an area with 
a lack of alternative routes. Numerous other facilities (e.g., 
the New Jersey Turnpike and Washington Area Metro System) offer 
frequent user discounts, which essentially amount to a fair 
reduction for local travelers. The structure of the facility's 
pricing mechanism should not have an impact on the project's 
ability to secure regular or alternative financing, provided 
the pricing structure is viable and generates sufficient 
revenues to meet annual debt service requirements.

                    woodrow wilson bridge agreement

    Mr. Wolf. The Department was to submit by October 1, 1996, 
a proposed agreement between the Secretary and the Woodrow 
Wilson Memorial Bridge Authority which includes, among other 
items, the selected alternatives, implementation schedule, and 
costs of the project. It is now early March, over five months 
past the due date, and the Congress has yet to receive that 
report. What are the reasons for the delay and what progress 
has the Department made on the final environmental impact study 
and financial analysis?
    [The information follows:]

    In the NHS Designation Act of 1995, Congress requested that 
DOT submit an agreement between the Secretary (Department) and 
the Signatories (States) that specifies the selected 
alternative, implementation schedule, costs of the project, and 
Federal share of project costs.
    Due to differences of opinion between the States and the 
Department concerning the appropriate Federal contribution 
(States are seeking 100 percent Federal funding) and agreement 
has not been reached.
    The project, however, continues to move forward. It is 
advancing through the environmental process and into design. 
Other requested elements of the report (i.e., the selected 
alternative, implementation schedule, and total costs of the 
project) have been determined. The Department also has prepared 
a proposed transfer of ownership agreement. This information 
has been included in the report to Congress which is under 
review within the Department.

          woodrow wilson bridge environmental impact statement

    Mr. Wolf. When do you expect to finalize the environmental 
impact statement, the record of decision, and identify the 
preferred alternative for the Woodrow Wilson Bridge?
    [The information follows:]

    The FHWA believes the environmental process is nearing 
completion. The FHWA is in the final stages of coordination 
with Federal and State resource agencies and should issue the 
Final Environmental Impact Statement soon. A 30-day comment 
period is required prior to issuing the Record of Decision.

    Mr. Wolf. Is the Department likely to transmit any report 
if it is unable to reach a negotiated deal with the states of 
Maryland and Virginia?
    [The information follows:]

    Yes, the report is under review within the Department and 
should be submitted to Congress soon.

                        Project Management Plan

    Mr. Wolf. When does the FHWA expect to begin its 
solicitations for the overall project's management consultant 
and for final design?
    [The information follows:]

    The FHWA and the States are completing a management plan 
for the project and will proceed with advertisement of the 
project management contract later this spring with the design 
contracts immediately following.

                     Woodrow Wilson Bridge Funding

    Mr. Wolf. The Department has proposed $40 million under the 
federal-aid highway program for the Woodrow Wilson Bridge in 
fiscal year 1998. These funds would be withheld from 
distribution under the annual obligation limitation. What 
assumptions are you making for the out-years and what factors 
led you to these annual levels?
    [The information follows:]

    In addition to the $40,000,000 included for the Woodrow 
Wilson Bridge in FHWA's fiscal year 1998 budget request, the 
Administration's reauthorization proposal includes $180,000,000 
annually in 1999 and 2000, totaling $400,000,000.

                  Funding Source-Woodrow Wilson Bridge

    Mr. Wolf. Over the past two years, funds for the Woodrow 
Wilson Bridge were drawn from the administrative takedown. Why 
the change in fiscal year 1998?
    [The information follows:]

    The fiscal year 1998 funding has been proposed from the 
obligation limitation rather, than the administrative takedown 
because we feel that expenditures of this nature are of a 
program nature and are generally inconsistent with the nature 
of the administrative takedown.

                   Woodrow Wilson Bridge Design/Build

    Mr. Wolf. Has the Department considered design/build for 
the Woodrow Wilson Bridge project in order to reduce costs?
    [The information follows:]

    A design-build approach may not be cost-effective because 
of the site constraints at this location from an environmental 
standpoint and potential displacement. The States have 
indicated that they prefer the project to be constructed in the 
traditional manner, and not as a design-build project.

                          district of columbia

    Mr. Wolf. I understand that Mr. Tiahrt asked many of the 
D.C. questions, although I don't know what ones he did. Maybe 
you can just bring me up to speed. Where are we with regard to 
what you are trying to do with District of Columbia? I was out 
of the room then.
    Ms. Garvey. I will answer very quickly. There are really 
two efforts----
    Mr. Wolf. How much have they used? Two years ago we gave 
them money.
    Ms. Garvey. Right.
    Mr. Wolf. How much have they been able to use?
    Ms. Garvey. They used about $70 million last----
    Mr. Wolf. Of?
    Ms. Garvey. Oh, total. Do you remember, Tom, the full 
total?
    Mr. Wolf. A hundred and some.
    Ms. Garvey. We will have to get the full total.
    Mr. Ptak. They get about $90 million a year.
    Mr. Wolf. No, but they want back, though.
    Ms. Garvey. Right, the backlog. We will get the exact 
number.
    Mr. Wolf. How much--excuse me. Go ahead.
    Ms. Garvey. They have another $70 million that is about 
ready to go to projects--underway for this spring, leaving 
another balance, I think, of about $130 million.
    Mr. Wolf. How much will they lose? When is the drop dead 
date that they will lose some of this?
    Ms. Garvey. They have been very effective at obligating the 
money as they have gone along, so they haven't really lost any.
    Mr. Wolf. When is the cutoff date?
    Ms. Garvey. September. Right?
    Mr. Kane. Well, the two-year period in that special match 
waiver program is done. They are in the payback mode right now.
    Mr. Wolf. Have they been able to pay back----
    Ms. Garvey. Oh, yes. Yes.
    Mr. Kane. Yes, there was one payment of a million dollars 
and then the other payments will be due September 30.
    Mr. Wolf. What will their total payment be?
    Mr. Kane. About $10 million overall.
    Mr. Wolf. And when will that be due?
    Mr. Kane. This September 30 and subsequent September 30.
    Mr. Wolf. How much will be due this September 30?
    Mr. Kane. I think five, and three or four the next one.
    Mr. Wolf. And you are pretty confident they are----
    Mr. Kane. Five and four. Yes.
    Ms. Garvey. Their trust fund that they have in place does 
cover that. Just very briefly on the President's plan, which 
does include a transportation piece, two goals for us in 
transportation. One was to revitalize the District to keep 
those projects going, because I think while the District has 
made some progress, it is really not enough. It may not be 
enough. The second is to maintain that partnership. We worked 
very closely with the District providing technical assistance. 
And what the President's plan is suggesting is the 
establishment of a governing board with a five-board membership 
that would select the projects from the National Highway 
System. This board would take on the responsibility of 
establishing the priorities for within the National Highway 
System, much as a state does.
    Mr. Wolf. Who would appoint the board?
    Ms. Garvey. There would be one appointed by the mayor, one 
by the city council, one by the finance board, one from the 
Secretary of Transportation and one from the economic 
corporation, which is something that the President----
    Mr. Wolf. And they would be the state----
    Ms. Garvey. They would----
    Mr. Wolf. The highway----
    Ms. Garvey. Yes, they would act as the state--very similar 
to a highway commission, Mr. Chairman. And the implementation 
of their priorities and the implementation of the projects that 
they would lay out would be the responsibility of the Federal 
Highway Administration, either our Federal Land Office or our 
Division Office. We would use the existing staff that we have 
to implement the program. We would not be, obviously, selecting 
the projects. We really would become the contract managers, if 
you will. And the rationale is that this would free up the 
District to focus on the local streets, much as city----
    Mr. Wolf. A city.
    Ms. Garvey [continuing]. Does in other areas.
    Mr. Wolf. So of all the money that they got during that 
two-year period, they didn't lose anything, is that accurate? 
They were able to use every penny of it?
    Ms. Garvey. With a lot of help, or will be able to use it 
before the end of this year.
    Mr. Kane. Two different things. One is during that two-year 
time period they certainly used all the obligation authority 
that they had. And because apportionments have multi-year time 
period, there was no loss of funds. And the way that time clock 
worked, the match waiver was only during that two-year period, 
so projects that were started but payments didn't come due from 
contractors, they reverted back to having to have the match. So 
that our match waiver only covered the part of those projects 
that were initiated and had actually come to bills due.
    That is why the payback is only $10 million, whereas a 
traditional 20 percent match of, let us say, $100 million 
program in one full year would have sounded more like $20 
million a year that should have been paid back. But it was the 
way that bill was written. It was just on projects that were 
let during that two-year period and then only for where 
expenditures were incurred.
    So if you kind of follow what I am saying, the contracts 
get started but you have only bills come due a limited amount 
in the initial period.
    Mr. Wolf. Okay.
    Mr. Kane. So nothing was lost. Projects were started.

                           14th street bridge

    Mr. Wolf. There is one project that I have had an interest 
in. If you all could look at it. The Federal Highway 
Administration was very, very helpful to us a number of years 
ago. We came up with the idea of adding an additional lane onto 
the Teddy Roosevelt Bridge, which really made a big difference, 
and your people helped design it. If it hadn't been for your 
people, it wouldn't have been there. And that removable lane, 
if that man doesn't show up in the morning to move that lane, 
the whole traffic just backs up. We are trying to get the 
District involved in cooperation with the State of Virginia--
and Governor Allen is interested and Tom Farlay is interested 
in it--in adding a new lane to the 14th StreetBridge. If you 
added one additional lane to the bridge, the flow would be for those 
coming from Alexandria up--if you come on the Parkway, you would have a 
dedicated lane. But right now I don't know where you all live, but if 
you lived in Virginia and you came down the GW Parkway and you come to 
the hump of where the humpback is, you go under the 14th Street Bridge 
and come up. There is a merge there where you stop. You just keep 
merging. It doesn't work well on rush hour, but on non-rush hour it is 
very dangerous, because these trucks and cars are rolling coming from 
the south and you take your chance to get in.
    It has been going on now for over two years. You know, we 
went out. They looked at first they said, they weren't sure. 
Then they went out and looked at it again. It seems that there 
has been a bit of inactivity. If somebody from the Federal 
Highway Administration could look at it, I think it would be 
good for the region. I think it would be good for the District 
of Columbia. I think the easier it is to get into the District 
and then out, the more people are going to want to relocate in 
the District of Columbia.
    I have never been a member of Congress who has tried to 
move agencies out of the District of Columbia. One, I don't 
think we should be moving people if their kids are in schools, 
but secondly I want the District to be a strong, strong place. 
But that is--and then that backup extends sometimes into 
Fairfax County. If somebody could look at that and see if we 
could get everybody together to resolve it, because your people 
told me it is doable. We have just got to get the District and 
everybody----
    Mr. Kane. I know the VDOT has a very comprehensive corridor 
study underway right now, a consultant effort. They have some 
preliminary results that are supposed to be coming in shortly. 
We will sit down with them, take a look at what options they 
have come up with in their analysis, certainly.
    Mr. Wolf. If you could, and see what we can get.

                appalachian regional highway development

    Your budget contains $200 million in fiscal year '98, and 
$2.1 billion over the next six years for Appalachian Regional 
Highway development. How will these funds be distributed? Will 
they simply be a pass-through through the Federal Highway 
Administration to the Appalachian Regional Commission?
    Mr. Kane. We would be getting priorities and assessments of 
conditions from the Appalachian Regional Commission, but we 
wouldn't have to pass it through them. In effect, we would work 
with them on what priorities are and we would directly, then, 
deal with the states on those projects. And one hope with doing 
it this way would be to--in the past the dollar levels have 
been up and down each year and it has been a combination of 
both special language in appropriation acts, general funds, 
some contract authority funds. And we would hope that we would 
be able to have more of a long-range plan, just with contract 
authority funds without funds out of the general fund. So we 
would be working with priorities with the regional commission 
and then go directly to the states with the projects.

                    appalachian regional commission

    Mr. Wolf. We understand that Federal Highway and ARC are 
currently updating the 1992 cost estimate to complete the 
Appalachian development highway system. The last update 
concluded that 891 miles had yet to be completed at a cost of 
9.2 billion. How have these estimates changed over the past 
five years?
    Ms. Garvey. They actually were in the midst of doing 
another cost estimate, which is due May 1. So we will have on 
May 1 more accurate information and we will forward that to you 
at that time.
    Mr. Wolf. As of July '96, there remained unobligated more 
than a half a billion dollars in federal funds for the 
Appalachian Highway development. What accounts for this balance 
and why are these funds not being spent?
    Ms. Garvey. I believe all of those funds will be spent. 
Tony, have this broken down state by state.
    Mr. Kane. We do have the breakdown by project and by state. 
Some of the environmental process, in terms of timing of 
getting them, our indications are that it all will move, but a 
number of them are tied up in environmental stages. We can 
supply the information for the committee, if you would like, 
the detail by project on those.
    Mr. Wolf. Please.
    Mr. Kane. Okay.

                               corridor H

    Mr. Wolf. I come from a region that is impacted by Corridor 
H, and there has been a change of sentiment in some of the 
regions with respect to these roads. I just wonder, has anyone 
gone back to look? Just because Congress 30 years ago or 20 ago 
says something should be done--I mean, many of you have 
probably changed the color of your house, your drapes, your 
couch or your style. Should we go back and look at some of 
these roads to see if they are still needed or desired? For 
example Corridor H, I think, frankly, you would be better off 
having a parkway. One, it would be less expensive. Two, it 
would have less the environmental impacts. And three, it would 
serve the needs of the people that need a road. Have we ever 
gone back to look at some of these items again or do we just 
proceed because somebody planned them 20 years ago?
    Mr. Kane. We--go ahead.
    Ms. Garvey. I was just going to say I do think the 
environmental process does give you that opportunity, does give 
us that opportunity.
    Mr. Wolf. But of course there was an individual fired 
because he got across the breakers with another individual that 
was a former member of Congress, who the Clinton Administration 
jettisoned because he said things that certain people didn't 
like. So the process isn't always perfect.
    Ms. Garvey. It is not always perfect.
    Mr. Wolf. In fairness, I don't want to go tell another 
state what they ought to do, but since Corridor H does directly 
enter into the area that I represent, I just wonder if it 
wouldn't be better to build a parkway, rather than a 4-lane 
highway for Corridor H? You would still meet the transportation 
needs of the people that lived in the region, but it could be 
less costly and environmentally invasive.

                    appalachian highway development

    In addition to the federal-aid highway set-aside, is the 
Administration seeking other federal funds for Appalachian 
highway development, and if so, in what amount and are they to 
be derived from the highway trust fund?
    Mr. Kane. There is one anomaly in '98 of $90 million out of 
the general fund, and from then on solely from the Trust Fund--
and I must say I can't explain why the anomaly.
    Mr. Wright. Essentially, Mr. Chairman, it was an attempt to 
transition to a new approach. We are proposing contract 
authority for the first time for this program, so the ARC has 
continued to carry $90 million in its budget for 1998.Beginning 
in 1999, the Administration proposes that the full funding for the 
program be derived from contract authority from the highway trust fund.
    Mr. Wolf. Okay, well, there was $30 million in the 1997 
omnibus appropriations bill. What has happened to that money? 
What projects did it go to?
    Mr. Kane. Two allocations have been made so far, $20 
million towards Corridor D in West Virginia and $3.7 million 
for Corridor V in Alabama.
    Mr. Wolf. Tell me again.
    Mr. Kane. $3.7 million for Corridor V in Alabama.
    Mr. Wolf. Alabama. And how much in----
    Mr. Kane. And $20 million, Corridor D in West Virginia.
    Mr. Wolf. $20 million in West Virginia and three in--any 
for Kentucky?
    Mr. Kane. Well, potentially Kentucky and Pennsylvania will 
be the next----
    Mr. Wolf. Well, there is not a lot left if it is $20 
million and----
    Mr. Kane. That is right.
    Mr. Wolf. How did you determine that West Virginia got $20 
million, flip of a coin?
    Ms. Garvey. I was going to ask Dr. Martinez to answer that.

                         seat belt usage rates

    Mr. Wolf. We will go to Dr. Martinez.
    It is 86 percent in New Mexico and a low of 40 percent in 
North Dakota. Can you just update us on what the ranges are?
    Mr. Martinez. It is actually 87 percent in California.
    Mr. Wolf. 87?
    Mr. Martinez. Right, to a low of----
    Mr. Wolf. So are they the highest now?
    Mr. Martinez. They are the highest, yes, sir. And they have 
a primary seat belt law and a very good enforcement campaign.
    Mr. Wolf. And the average usage is what?
    Mr. Martinez. 68 percent for the second year in a row.

                  states with primary enforcement laws

    Mr. Wolf. And how many states have a primary law?
    Mr. Martinez. 11 states have a primary. One of those states 
has a primary, but has yet to start their enforcement campaign. 
States that have a primary seat belt law have an average use of 
60--I am trying to think of the number myself, it is 78 
percent, and then if they have enforcement it is higher. Is 
that correct?
    Mr. Hedlund. Belt use is 15 percentage points higher for 
primary states than for secondary.
    Mr. Wolf. Are trucks being covered?
    Mr. Martinez. Well, that is interesting. The number that 
States report is 68 percent. States report according to what 
they observe, and according to their laws. Some have passenger 
car only laws. Some have sport utility vehicles and light 
trucks also, which actually have lower seat belt use.
    Mr. Wolf. The states that do not have trucks covered, why? 
What is----
    Mr. Martinez. That is how they chose to do it. Remember we 
have primary laws and secondary laws. Why some chose to have 
secondary versus primary and whether they cover front seats 
versus back seats differs; it is a real hodgepodge out there. 
There are several ways that we look at numbers for seat belt 
use. We look at them in what they call potentially fatal 
crashes. When a crash is serious enough so that a fatality can 
or does occur, then we look at seat belt use. That is done 
through our FARS data. That is about 50 percent, 50/50, 50 
belted, 50 unbelted.
    Mr. Wolf. Are you making an effort to urge the states to 
cover the trucks?
    Mr. Martinez. Yes, we are. We actually have a very large 
coalition active nationally. You are seeing a lot of activity 
in the states for a lot of reasons, but partially because of 
that large coalition. Maryland is moving forward with theirs 
right now. D.C., as you know, is getting ready to implement one 
of the strongest primary seat belt laws in the country with 
points for failure to comply. Maryland just passed out of the 
Senate, yesterday with some support from Secretary Slater, who 
wrote a very nice letter which was read on the Senate floor to 
help pass it. It didn't have enough votes at the time to pass. 
We are actively engaged with the air bag coalition.
    I think we are making a lot of progress. I think this is 
going to be a fairly good year. I want to make sure, though, 
that when we do it, as Mr. Tiahrt said, that we have strong 
enforcement, because that makes a big difference in seat belt 
use. If you don't inspect it, they don't respect it. We find 
that to be an important case.

                presidential initiative on seat belt use

    Mr. Wolf. On January 23 the President asked the Secretary 
of Transportation to issue a plan that highlights ways to 
increase seat belt usage by March 7, 1997. NHTSA, to my 
understanding this is the lead agency. What is the status of 
that report?
    Mr. Martinez. That plan is moving forward quite quickly. We 
have asked for a little extended time because our approach is 
to be as inclusive as possible. Therefore, we wanted to write 
the report so that we had room for everyone to participate. We 
believe the problem is everyone's problem. We wanted to be able 
to move it forward to include governmental agencies also. The 
activities of the agencies are being reviewed internally and 
the report will be submitted to the President soon after that. 
We hope to roll it out with a lot of our partners, including 
governors and legislators and others that have worked with us.

                       occupant protection grants

    Mr. Wolf. You propose $9 million occupant protection grant 
program in fiscal year '98 to encourage states to promote and 
strengthen occupant protection laws. How would the occupant 
protection program work?
    Mr. Martinez. We are very proud of the opportunity with 
NEXTEA, to be able to offer incentives to states to improve 
occupant protection. There are two ways that program would 
work. One is through passage of laws and with programs such as 
child seat and enforcement programs, so that states can 
qualify. It is an incentive program. A second way is 
performance based. We have started working with the states. We 
have converted the 402 program to be performance based so that 
we can focus on the issues and less on the management and 
paperwork.
    The initial year of that program, we are requesting $9 
million. We have created an ability for us to flex money into 
that program should we have a high-demand problem. We hope to 
grow that program over time.

               Meeting With Governors on Seat Belt Issues

    Mr. Wolf. Did you ever ask to speak to the governors 
conference?
    Mr. Martinez. Yes, we did. Because it was an election year, 
they were trying to limit people coming to speak to them. We 
have engaged them and we are talking to their transportation 
committees right now about trying to do additional work with 
them. The governors did pass a resolution supporting seat belt 
laws and enforcement of seat belt laws, and that was a 
tremendous victory for us.
    Mr. Wolf. I would urge you to speak to the governors 
conference and perhaps bring one or two individuals with you 
who can testify that they were saved as a result of seat belts 
and make the case. I think that would be helpful.
    Headlights on during the day, I know some states are doing 
it. How much of a safety factor is that? Does it help that much 
or what difference does it make?
    Mr. Martinez. There is actually a pilot program being done 
through Fleetwood/General Motors that where the headlights are 
automatically turned on. The studies that have been done on 
those, having headlights on, have been done in what they call 
northern tier areas, Northern Europe and in Canada. I was going 
to say Northern U.S., but they wouldn't like that too much, I 
am afraid. In those places it works fairly well because they 
have overcast skies more often. They have a low cloud cover 
more often because of their environment, so it has been found 
to be beneficial. We have not made recommendations that this be 
a law everywhere simply because we are still evaluating it in 
different states. We can find out where it works and where it 
works better.
    Mr. Wolf. Somebody said they were trying it in parts of 
Florida. Is that accurate?
    Mr. Martinez. I don't know.
    Mr. Bischoff. Mr. Chairman, we have a voluntary standard 
that manufacturers are allowed to have daytime running lights 
which are on all the time. That is a voluntary standard. 
General Motors is converting all of its vehicles to have 
daytime running lights. I think Volvo is doing the same thing. 
So wherever they sell those vehicles----
    Mr. Wolf. I see.
    Mr. Martinez. I had to ask Mr. Hedlund what our 
participation in that is. Some states are looking at it. For 
example, if you have to turn your windshield wipers on, you 
turn your lights on, too, so it is assumed that it is going to 
be beneficial for the cloud cover.
    Mr. Wolf. They would be on the same switch, then, is that 
right?
    Mr. Martinez. Well, no, that would be voluntary for laws. 
We have not looked at that for regulation. You were talking 
about people using daytime running lights. I am not aware of 
any states doing that right now. There has been some discussion 
about when you have to use your windshield wipers for rain or 
something like that, the lights would turn on. All of this has 
raised the issue for us--what works and what doesn't work. We 
are looking at and studying this fleet that is going out into 
the marketplace.

                      Primary Seat Belt Law States

    Mr. Wolf. During last year's hearing, NHTSA testified that 
there were a few states that were currently considering primary 
seat belt laws. Did any states switch from a secondary to a 
primary seat belt law in the last year?
    [The information follows:]

    Georgia changed to primary enforcement effective July 1, 
1996, and the District of Columbia is changing on April 30, 
1997. The District's law will also be the first belt use law in 
the United States to assess ``drivers points'' for a violation. 
In addition, both the Maryland House and Senate have passed 
bills to enact a primary enforcement provision. Final action on 
the bills is still pending. However, if enacted as currently 
written, it is believed that the provision would become 
effective in Maryland on October 1, 1997.
    Mr. Wolf. There are three states with belt use laws that 
still do not cover the occupants of light trucks--Georgia, 
Indiana, and Missouri. What efforts is NHTSA undertaking to 
change these states belt usage laws to include occupants of 
light trucks?
    [The information follows:]
    Missouri's legislature is currently reviewing a proposal to 
extend their seat belt law to include light trucks. NHTSA 
continues to encourage States to upgrade their seat belt use 
laws and extend coverage to light trucks. This is provided to 
the states through both general and specific information and 
technical support.
    The importance of increasing occupant protection for all 
vehicle occupants in seating positions of every vehicle is a 
major theme in NHTSA's education and outreach materials. These 
materials include a draft model belt use law which has been 
used extensively with interested states, safety organizations, 
and coalitions. When requested, NHTSA provides specific 
information and technical support, such as cost savings 
estimations, focusing attention on the contribution of light 
trucks to crash experience.
    Included in the Department's NEXTEA proposed 
reauthorization legislation is a incentive grant program 
designed to stimulate increased safety belt and child safety 
seat use. Included in the qualifying criteria for basic and 
supplemental grants are safety belt use requirements for all 
passenger motor vehicles and a prohibition against riding in an 
open bed of a pick-up truck.

                       nationwide belt use survey

    Mr. Wolf. In the 1997 Appropriations Act, Congress provided 
funding for NHTSA to conduct another nationwide belt use 
survey. Has this survey been completed? If so, what are the 
results?
    [The information follows:]

    Data collection for the 1996 National Occupant Protection 
Use Survey (NOPUS) was conducted from October through December 
1996. NOPUS consists of four parts: (1) A Moving Traffic Survey 
for estimates on overall shoulder belt use, (2) a Controlled 
Intersection Survey which provides for estimates of shoulder 
belt use by vehicle type, characteristics of shoulder belt 
users, and child restraint use, (3) a Shopping Center Survey 
which provides estimates of rear-seat belt use and shoulder 
belt misuse, and (4) an Occupancy Count Survey which estimates 
the average number of occupants for specific vehicle type. Data 
collection for all four surveys is complete and data are being 
tabulated. Currently, results for the Moving Traffic Survey are 
available and summary results are shown in the tables below. 
Results from the remaining surveys will be made available as 
they are completed.

  NATIONAL OCCUPANT PROTECTION USE SURVEY SHOULDER BELT USE BY VEHICLE  
                      TYPE, OCCUPANT TYPE AND YEAR                      
                              [In percent]                              
------------------------------------------------------------------------
                                                          1996     1994 
------------------------------------------------------------------------
Overall:                                                                
    All \1\...........................................     61.3     58.0
    Drivers...........................................     62.2     59.1
Passenger Cars:                                                         
    All...............................................     64.4     62.8
    Drivers...........................................     65.1     64.2
Light Trucks, Vans, and Utility Vehicles:                               
    All...............................................     56.4     50.2
    Drivers...........................................     57.5     50.7
------------------------------------------------------------------------
\1\ All: Front Seat Outboard Passengers and Drivers.                    

    Mr. Wolf. If the nationwide survey has not been completed, 
when is it planned and how many communities will be monitored?
    [The information follows:]

    The next National Occupant Protection Use Survey (NOPUS) is 
scheduled for the fall of 1998 and will be conducted at 
approximately 4,000 randomly selected sites in 60 geographic 
areas across the country. After the results of the 1996 NOPUS 
have been completed, NHTSA will begin preparing for the 1998 
survey. This involves the selection of the sites, preparing the 
materials for training and data collection, and the training of 
the data collectors.
    Mr. Wolf. What efforts will NHTSA be undertaking as a 
result of recommendations included in this plan?
    [The information follows:]
    The President's plan to increase seat belt use nationwide, 
submitted to President Clinton by Secretary Slater on April 16, 
1997, presents new national goals for seat belt and child 
safety seat use and a national strategy to reach these 
ambitious goals. As part of the national strategy, NHTSA will: 
(1) build public-private partnerships; (2) provide information 
and technical assistance to states in enacting effective seat 
belt and child safety seat legislation; (3) provide financial 
support and assistance for increased high visibility 
enforcement; and, (4) encourage well-coordinated and effective 
public education. The combination of these four elements have 
proven to be extremely effective in increasing seat belt use in 
states which have adopted primary (standard) seat belt 
legislation.
    Mr. Wolf. How many of these recommendations are new 
initiatives instead of on-going efforts?
    [The information follows:]
    The President's plan to increase seat belt use nationwide, 
submitted to President Clinton by Secretary Slater on April 16, 
1997, combines many of the highly effective on-going activities 
and initiatives with new initiatives planned for FY 1998 and 
beyond. In addition to current activities such as the Special 
Traffic Enforcement Programs (STEP) and public education, the 
plan recommends new roles for everyone to participate in 
achieving the goals. As part of this new public-private 
partnership, the plan offers specific actions for many groups 
and individuals including the President, Congress, federal 
agencies, states, national organizations and coalitions, 
business, media, sports organizations, health care 
professionals, prosecutors and judges, and educators.
    The plan also recommends two additional initiatives that 
will dramatically increase seat belt use and reduce motor 
vehicle deaths, injuries and related costs. The first is a new 
Executive Order, signed by President Clinton on April 16, 1997, 
which requires all Federal employees to wear seat belts while 
riding in a motor vehicle while on duty. The Executive Order 
also establishes criteria for the establishment of seat belt 
policies on Department of Defense installations and national 
parks, and encourages all recipients of Federal funds to adopt 
on-the-job seat belt policies. The second new initiative, 
included in the Department's reauthorization proposal, provides 
incentive grants for states who pass primary legislation, 
eliminate gaps in their child passenger safety legislation or 
meet the President's seat belt use goals.

                  occupant protection incentive grants

    Mr. Wolf. How many states do you expect to qualify for 
occupant protection grants in 1998?
    [The information follows:]

    NHTSA estimates that 13 states may qualify for the new 
occupant protection incentive grants in 1998, based on the 
criteria proposed in NEXTEA.

    Mr. Wolf. Do you expect the number of states participating 
in this program to increase rapidly?
    [The information follows:]

    Yes, the agency anticipates that the number of states 
eligible for occupant protection grants will increase rapidly. 
Just as in the Section 410 incentive grant program, where the 
number of qualifying states, including DC, rose from 19 in FY 
1992 to 32 in FY 1996, NHTSA expects the incentives offered 
will spur states to implement the laws and programs needed to 
meet grant criteria. In addition, participation in this program 
will be accelerated as a result of the Presidential initiative 
to increase safety belt use rates nationwide.

    Mr. Martinez. Just for what it is worth, I actually drive 
with my lights on, because when I drove an ambulance years ago 
we always had our lights on. We were taught to put our lights 
on.
    Mr. Wolf. Buses do, too, don't they?
    Mr. Martinez. Motorcycles do also. It actually increases 
visibility. For motorcycles it is automatic.

                       alcohol-related fatalities

    Mr. Wolf. In 1995 the number of alcohol-related fatalities 
increased sharply to 17,274 from 16,580 in 1994. Why do you 
think that is taking place?
    Mr. Martinez. Well, we see a large decrease of 24 percent 
since 1985. That decade it went down. Last year it went up for 
the first time. It continued to go down for youth.
    Mr. Wolf. What was it up last year, then?
    Mr. Martinez. Last year it was up four percent.
    Mr. Recht. 1995.
    Mr. Martinez. Right.
    Mr. Wolf. So 1995 was the figure that I read.
    Mr. Martinez. Right, you are correct. I said 1985 through 
1995. In 1995 it went up four percent.
    Mr. Wolf. Okay, but last year, do we have any indication?
    Mr. Martinez. Early numbers, I think, are about level. We 
have our early numbers.
    Mr. Wolf. About the 17 or the 16? About the '95 level?
    Mr. Martinez. About the '95 level.
    Mr. Wolf. The '95 level. Why are fatalities increasing? I 
mean----
    Mr. Martinez. Well, the good news is it is not teenagers. 
It is the 21 through 35 age group that we still have trouble 
with. That is a very hard to reach group. One reason why you 
have seen us move to campaigns is to put more of a human face 
on it. The ones that show the videotapes are very powerful, to 
engage people who can influence these high risk drivers. We 
have also tried to expand this kind of 21 to 34 year old; one 
way to affect them more is to work more closely with sports. We 
have NCAA doing commercials for us. People recognize the Bobby 
Hurley commercial from the NBA. I just spoke to the NFL again 
last week. They actually have started to put that into their 
stadiums, major league baseball. The NFL did the same thing 
with the Superbowl this year.
    Mr. Wolf. Next to the beer cups that they are selling?
    Mr. Martinez. Well, it is interesting. I don't want to 
mention any particular sports, but the sporting world is also 
looking at the cost. First of all, they are competing with the 
entertainment industry now. That is what they are, so they have 
to make their environment more friendly and family oriented. 
There is actually a fairly good movement looking at things like 
smoking and beer and everything else. We are glad to see that. 
We are there. When they think about it, we are there to make 
them think harder about it.
    Mr. Recht. Actually on that, if you go to the Baltimore 
Stadium for a baseball game, you can get a beer in one hand and 
walk over to the designated driver booth on the other hand. It 
is actually right out in front of the food stands. They get a 
lot of people. They give you free Cokes if you put this little 
wristband on, and it is a terrific program going on right 
there.
    Mr. Martinez. Yes, the NFL actually picked it up for the 
Superbowl the last two years. I was going to mention to Mr. 
Pastor that they did it the first time in Arizona. It has been 
very successful. They like it. It makes it easier for them; 
better security issues. The San Francisco Giants said they even 
use less Port-O-Lets now. There are all kind of benefits to 
everybody.
    We have also put a special emphasis on youth, which I 
mentioned earlier to Mr. Tiahrt. We are trying to make sure 
that we have programs that affect youth. We are also expanding 
to more culturally diverse populations. And again, this is an 
example of getting the community involved as opposed tohaving 
government versus the bar owners or this and that. It makes a 
difference when it is community people working together for the common 
good.
    The safe communities program has been brought into the 
Native American environment. We have Hispanics now that we are 
doing outreach. There are large programs with Laraza and Cosmo 
and a few others. Also we have great training now for judges, 
prosecutors and law enforcement on effective programs and 
strategies. We are bringing them to work together on this 
issue, because it is not always the issue that you think of 
locally.
    I just met last week with the National Sheriffs 
Association, International Association of Chiefs of Police and 
others. One of the points I think is very interesting is that 
if crime goes up, the community holds the law enforcement 
agencies responsible. If drunk driving goes up or if deaths go 
up, no one is really held accountable. We are actually getting 
them to work with us more on that issue of trying to be the 
lead on this and have people recognize this as being a public 
health and public safety issue more and more.
    Mr. Recht. Along those lines I just had one other thing. 
Our statistics show that DWI arrests in this country have 
dropped by about 35 percent over the last four years leading 
into '95. We don't know what happened in '96 yet, but we think 
there is some correlation, perhaps, with that drop in 
enforcement activity.

                        alcohol incentive grants

    Mr. Wolf. The rest I will just ask for the record, but just 
so I put them here so you know how I think they are important, 
your alcohol incentive grants for 1998, will they be operable? 
I mean, are there many more states that are asking than you----
    Mr. Martinez. The short version is that we were concerned 
they were too low that we weren't being a disincentive. ISTEA 
tries to correct that and then also put the funding to that 
program. So yes, we think there are more states, and also 
additional programs, because there are supplemental grants that 
they can also use.
    Mr. Wolf. In your 1998 budget request, NHTSA is seeking an 
increase of $8,500,000 in the alcohol incentive grant program. 
Why is such a large increase necessary?
    [The information follows:]

    For years, the Section 410 alcohol incentive grant program 
has been very successful but under funded. For example, in FY 
1996, only $25 million in grant funding was available for 
distribution to eligible states, however, states qualified for 
grants totaling $36 million. With the authorization for the 
current Section 410 program ending in FY 1997, the agency has 
proposed a new alcohol incentive grant program. While the new 
program is modeled on the successful Section 410 program, it 
puts more emphasis on encouraging states to pass tough laws 
such as .08 BAC, Administrative License Revocation, and 
graduated licensing. A significant funding increase is needed 
to motivate state policy makers to enact and enforce these very 
difficult laws.

    Mr. Wolf. How many states do you expect to qualify for 
alcohol incentive grants in fiscal year 1998? How does this 
compare to fiscal year 1997?
    [The information follows:]

    In NEXTEA, NHTSA has proposed a new alcohol incentive 
program with new criteria as a successor to the current Section 
410 program. NHTSA estimates that 29 states may qualify for 
alcohol incentive grants in fiscal year 1998, based on the new 
criteria. NHTSA anticipates that 43 states will qualify for 
alcohol incentive grants in fiscal year 1997 under the current 
Section 410 program. NHTSA's past experience with the incentive 
grant programs leads the agency to anticipate that fewer states 
may qualify for grants in the first year of the new program (FY 
1998)--then continue to increase thereafter as states gain 
experience with and begin to implement the new grant criteria.

    Mr. Wolf. Does NHTSA have any other new initiatives in its 
1998 budget request to combat the rise in drunk driving 
incidents and fatalities?
    [The information follows:]

    In FY 1998 NHTSA will begin to implement the 
recommendations in Partners in Progress: An Impaired Driving 
Guide for Action, to reach the national goal of reducing 
alcohol-related fatalities to no more than 11,000 by the year 
2005. In 1997, a national public and private sector conference 
will be implementing the Guide strategies, as well as an 
innovative two year grant program to focus on new and 
innovative programs and research as recommended in the Guide.
    NHTSA will be developing messages and initiatives that 
target high risk and hard-to-reach populations such as 21-34 
year old males, youth (under age 21), and repeat offenders. In 
addition, NHTSA will be refining messages and implementing 
programs for culturally diverse populations, specifically 
Hispanics, African Americans, Native Americans, and Chinese 
Americans.
    NHTSA will continue to support effective laws--
administrative license revocation, zero tolerance for under age 
21, graduated licensing systems, .08 BAC, vehicle sanctions and 
new 410 incentive grant criteria. Training for judges, 
prosecutors and law enforcement in effective enforcement 
strategies and sanctions with special emphasis on repeat 
offenders and youth will also continue.
    NHTSA will focus special emphasis on youth--to stop 
drinking and driving before it starts. Strategies will include 
identifying efficient methods of processing offenders, testing 
effective alcohol beverage control programs, and identifying 
more effective prevention programs.
    NHTSA will increase emphasis on cooperative activities with 
partners, media, professional sports, the 3D Prevention Month 
Coalition, and with health care and advocacy partners. 
Additionally, NHTSA will continue to build collaborative 
partnerships with other Federal agencies, including the 
Department of Justice, the Department of Education and the 
National Institute on Alcohol Abuse and Alcoholism and Center 
for Substance Abuse Prevention.
    Included in the Department's NEXTEA legislation is a 
proposed incentive grant program designed to encourage states 
to implement laws and programs to combat alcohol-impaired 
driving. The program is intended to build on the successes of 
the Section 410 grant program.

                         underage drinking law

    Mr. Wolf. Young drivers have the highest rate of crash 
involvement, and many of these accidents involve alcohol. The 
National Highway System Designation Act of 1995 included a 
provision that allows supplemental federal apportionments to be 
withheld if states have not enacted and are not enforcing a law 
that considers an individual under age 21 who has a blood 
alcohol concentration of 0.02 percent or greater while 
operating a motor vehicle to be driving while intoxicated. How 
many states currently have this type of law in effect?
    [The information follows:]

    The legislation provides that, if a State does not meet the 
statutory requirements on October 1, 1998, five percent of the 
State's FY 1999 Federal-aid highway, National Highway System 
(NHS), the Surface Transportation Program (STP) and Interstate 
System apportionments shall be withheld on that date.
    If the State does not meet the statutory requirements on 
October 1, 1999, ten percent of its FY 2000 apportionment will 
be withheld. Ten percent will continue to be withheld on 
October 1 of each subsequent fiscal year, if the State is not 
in compliance.
    Thirty-seven States and the District of Columbia have set 
the BAC limit at .02 or lower for drivers under age 21. These 
States include: Alabama, Alaska, Arizona, Arkansas, California, 
Connecticut, Delaware, District of Columbia, Florida, Idaho, 
Illinois, Indiana, Iowa, Kansas, Kentucky, Maine, Maryland, 
Massachusetts, Michigan, Minnesota, Missouri, Montana, 
Nebraska, New Hampshire, New Jersey, New Mexico, New York, 
North Carolina, Ohio, Oklahoma, Oregon, Pennsylvania, Rhode 
Island, Tennessee, Utah, Virginia, Washington, and West 
Virginia. Delaware, Montana and Nebraska will have to amend 
their laws to comply with the federal criteria. The laws of 
Delaware, Montana and Nebraska, however, do not meet all of the 
Federal criteria. Accordingly, these States would have to amend 
their laws to avoid a withholding of funds on October 1, 1998.

    Mr. Wolf. What efforts is NHTSA undertaking to assure that 
states enact laws declaring youths under the age of 21 
intoxicated if their blood alcohol level exceeds 0.02 percent 
while driving?
    [The information follows:]

    NHTSA is working to ensure that every state enacts a ``zero 
tolerance'' law, which deems youths under the age of 21 to be 
intoxicated if their blood alcohol level exceeds 0.02 percent 
while driving. The National Highway System (NHS) Designation 
Act, passed in November 1995, mandated that each state enact a 
zero tolerance law by October 1, 1998, in order to avoid 
withholding of certain Federal-aid highway funds. The 
Administrator of NHTSA has sent letters to the Governors of 
every state which does not have a law meeting the requirements 
of the NHS Act, encouraging the passage of such a law and 
offering assistance. NHTSA staff has been providing educational 
materials and technical assistance to states developing zero 
tolerance legislation. In addition, as an incentive, states 
that implement a per se law of .02 BAC for persons under age 21 
may qualify for basic grants under the agency's Section 410 
alcohol incentive grant program. In the Department's NEXTEA 
proposal, NHTSA continues to offer incentives through a 
supplemental grant criterion, rewarding states that have zero 
tolerance laws and go beyond the NHS requirement to include a 
minimum 30 days license suspension.

                  youth, drugs and driving initiative

    Mr. Wolf. The budget contains a request for $2 million for 
a demonstration of a pre-license drug testing program for 
youth. How many have expressed an interest and what is this?
    Mr. Martinez. This is a relatively new program.
    [The information follows:]

    Informal inquiries to about 15 states by the American 
Association of Motor Vehicle Administrators indicated interest 
from three states and a desire for more information regarding 
the proposed demonstration program from several others. State 
interest is tempered by considerations that include questions 
about cost and public acceptance that may preclude their 
participation. No state has expressed a firm commitment to 
participate at this time.

    Mr. Recht. This is the drug testing program that the 
President suggested in the radio address.
    Mr. Wolf. How does it work?
    Mr. Recht. Well, it is going to be a demonstration program, 
with two to four states conducted it over two to three years. 
The intention is to just set a few parameters but then let them 
experiment, required that they test people 18 and younger. 
Perhaps they want to test other first-time applicants.
    Mr. Wolf. Where do you test them?
    Mr. Recht. Where?
    Mr. Wolf. School?
    Mr. Recht. That is an open issue. We would allow them 
either to test at the DMVs. Somebody might experiment saying, 
you have been chosen, go get a drug test within 24 hours and 
let them go to some private licensee. We would require they 
tested a minimum for marijuana, but they can experiment with 
the other drugs. There are all kinds of new designer drugs and 
the like that might be applicable. We would ask them to 
experiment with the sanctions they might impose. If there was a 
positive test, what do you do to somebody, and maybe also 
experiment with education and treatment.
    Mr. Wolf. So this is just open. You are just hoping four 
states will try it?
    Mr. Martinez. We always run at the balance, directing 
research where we think we have the answer, and we are going to 
tell you how to do it. We are trying to get from A to B and 
this is what we have to do. We do that a lot with our research 
programs in biomechanics. You are trying to build a dummy and 
you need the parts to be built. On the other side, you want to 
be able to spur innovation and creativity. That allows us to 
look at best practices that we can then move around. These 
would be along the lines of best practices where you would say 
here are the goals, here is what we are trying to do. We are 
looking for innovative ways to do this so we can get several 
different approaches tried and evaluated. Then we can create 
programs based on that. These would be basically demonstration 
programs. The number of programs would be between two and four 
depending on what the cost would be to make that program.
    Mr. Wolf. Are you stressing first-time people because they 
are younger and more----
    Mr. Recht. Well, I think the motivations were that the 
program is intended to do two things, reduce teen drug use and 
reduce drunk driving. And there is a feeling that drug testing 
teens who are by and large the first-time applicants, this is 
the group you want to attack. By the way, just to fully answer 
your question, in fiscal year '97 it is the drug office, ONCDP, 
that is putting in $2 million this year. And we intend to go 
out with some kind of RFP. We have about three states that have 
informally expressed interest.
    Mr. Wolf. What states are they?
    Mr. Recht. New York, California and Louisiana so far, but 
once we put it out, of course, any state that wants to apply we 
welcome.
    Mr. Martinez. I want to mention too that one of the things 
we are trying to do is to make sure we start sending the 
message that driving is a privilege, and with it comes 
responsibilities. The idea for this particular program came 
from not only the President's initiative, but from our 
discussions with teenagers who really felt that this was the 
sort of thing that if they did it, it would mean putting a 
greater emphasis on the privilege of driving. It would become a 
responsibility. We thought that was an important thing to do.
    Mr. Wolf. If you look at the numbers with regard to teenage 
drug use, it is growing. And in my area, in fact, I am doing 
something tonight out in Loudoun County. We have had a couple 
of conferences. We had General McCaffrey come to the first one.
    But the drug use among the young people is unbelievable and 
many people think it is not there when it is everywhere from 
the inner city to the suburbs to the rural areas. And it is a 
very, tough issue. When I go into the high schools and just 
listen to the kids, the numbers that they tell you of students 
using drugs is unbelievable. You would be shocked. It isn't 25, 
35, 45 percent. And when you add alcohol in, it is really 
frightening. So I think the more you do with regard to teenage 
alcohol use and drug use, the better.
    Could states be taken to court for drug testing youths 
prior to issuing drivers licenses without cause? If so, why 
would any state be willing to take this risk?
    [The information follows:]

    States have generally delegated to their licensing agencies 
authority to establish necessary rules and regulations to 
ensure that only safe drivers are licensed. Testing license 
applicants is a routine part of the process. For example, all 
states test for knowledge of the rules of the road and for 
visual acuity. A licensing test procedure could be considered 
to be unconstitutional or otherwise contrary to law if it were 
deemed to be discriminatory or not adequately supported by 
public safety or other important government interests. NHTSA 
and the Department of Justice believe that reducing drug-
impaired driving would be considered to be a legitimate 
exercise of governmental authority and could adequately support 
a reasonably designed drug-testing program.

                        youth driving initiative

    Mr. Wolf. Why is NHTSA focusing on first-time drivers when 
many experienced drivers may also have a problem with drug use 
and can avoid this licensing testing requirement?
    [The information follows:]

    NHTSA's efforts to reduce drugged driving do not focus 
exclusively on first-time drivers. Pre-licensure drug testing 
is only one component of a comprehensive proposal that includes 
an incentive grant program to improve state drugged driving 
laws; enhancement of enforcement, prosecution, and adjudication 
of drugged driving offenders; and expanded prevention, 
education and treatment for drug use and drugged driving.
    Pre-licensure drug testing would send an important message 
to the driving public that drugs and driving don't mix. It 
should be instituted as part of a systematic strategy to deter 
drug use and drugged driving. Pre-licensure testing should be 
combined with some form of unscheduled testing, after crashes 
or driving violations, in order to maximize the potential 
benefits.
    NHTSA's proposal for a pre-licensure drug testing 
demonstration program is designed to allow various approaches 
to be evaluted for their efficiency and effectiveness. States 
could decide to test all or some license renewal applicants if 
they wished.

                        state blood alcohol laws

    Mr. Wolf. How many states currently have laws that make it 
illegal to drive with more than a specific amount of a 
controlled or illegal substance in the driver's body?
    [The information follows:]

    Seven states have a per se drug law that makes it illegal 
to drive with any amount of a controlled substance in the 
driver's body. All states make it illegal to drive while under 
the influence of drugs (all ``drugs'' in 35 states, 
``controlled substances'' in the remaining states). In 45 
states the ``implied consent'' law applies to drugs other than 
alcohol.

    Mr. Wolf. In addition to the budget request, is the 
Administration trying to establish a new incentive grant 
program that would encourage States to enforce their drugged 
driving laws? If this program were authorized in ISTEA II, when 
will the grant program begin and how much funding is the 
Administration seeking?
    [The information follows:]

    The Administration's National Economic Crossroads 
Transportation Efficiency Act (NEXTEA) proposes a new incentive 
grant program designed to encourage States to take effective 
actions to improve State drugged driving laws and related 
programs. If this program were authorized, it would begin in FY 
1999. The proposed authorization level is $10 million--$5 
million from the Department of Transportation and $5 million 
from the Office of the National Drug Control Policy.

               funding for the pre-licensure drug testing

    Mr. Wolf. It is my understanding that the Office of 
National Drug Control Policy will be supplementing funding for 
both the pre-licensure drug testing demonstration program and 
the incentive grant program. How much funding is the Office of 
National Drug Control Policy providing in fiscal year 1997, 
planned to provide in fiscal year 1998, and in the out-years?
    [The information follows:]

    The Office of National Drug Control Policy (ONDCP) is 
providing $2 million for the pre-licensure demonstraton program 
in fiscal year 1997 and plans to provide $4 million in both 
fiscal years 1999 and 2000. For the incentive grants program, 
ONDCP will provide $5 million in both fiscal years 1999 and 
2000.

    Mr. Wolf. How do NHTSA and the Office of National Drug 
Control Policy plan to encourage states to establish pre-
licensure drug testing programs?
    [The information follows:]

    We plan to encourage states to establish pre-licensure drug 
testing programs by funding a demonstration program, conducted 
by 2-4 states over two years. A successful demonstration 
program will provide the independent evidence necessary to 
convince other states to implement a pre-licensure testing 
program.
    This demonstration program would provide support to the 
participating states to devise and test essential core elements 
of pre-licensing testing. It would allow various approaches to 
be evaluated for their efficiency and effectiveness. 
Participating states would become laboratories for 
experimentation and innovation. Only a few essential core 
elements of pre-licensure testing would be specified. The 
demonstration states would have considerable flexibility in 
implementing the program.

    Mr. Wolf. What studies have been conducted to evaluate the 
effectiveness of these programs? What did these evaluations 
indicate?
    [The information follows:]

    No state has yet implemented a pre-licensure drug testing 
program. Thus, there have been no studies conducted to evaluate 
the effectiveness of these programs.

    Mr. Wolf. Has this concept been tested thoroughly so that 
it will encourage the states to establish these programs?
    [The information follows:]

    No; that is the purpose of the demonstration program NHTSA 
plans to implement. The demonstration program will provide 
support to the participating states to devise and test 
essential core elements of pre-licensing testing. It would 
allow various approaches to be evaluated for their efficiency 
and effectiveness. Participating states would become 
laboratories for experimentation and innovation.

                           aggressive driving

    Mr. Wolf. A report recently released by the AAA Foundation 
shows that the number of acts of violence associated with 
aggressive driving continues to rise by seven percent per year 
since 1990. The report notes that from 1990 through 1995, 
aggressive driving has been the cause of 218 deaths and 12,610 
injuries. However, many incidents are not reported. What does 
NHTSA believe an accurate aggressive driving figure (both for 
fatalities and injuries) may be?
    [The information follows:]

    The deaths and injuries in the AAA Foundation report 
include a significant proportion of incidents that were 
violations of the criminal code rather than the traffic code. 
They include offenses by vehicle occupants such as assault with 
a dangerous weapon--automobile, gun, knife and club.
    Aggressive driving is not a traffic offense, per se, in any 
of the states. Current enforcement efforts are directed at 
violations generally attributed to the aggressive driver such 
as changing lanes without caution, following too closely, 
speeding, passing on roadway shoulders, etc. For this reason, 
we are unable to provide specific data relating to injuries and 
fatalities attributable to the aggressive driver. However, 
about two-thirds of all fatalities are related to unlawful 
driving behavior usually attributed to the aggressive driver.
    NHTSA is in the process of examining all of the States' 
reckless driving statutes to determine how many contain a 
lesser included offense, the title of which might be changed 
from ``careless driving'' to aggressive driving. Based on this 
examination of statutes, NHTSA will develop model legislation 
addressing the aggressive driver and encourage states to adopt 
the legislation or change the title of existing applicable 
laws. If a specific ``aggressive driving'' violation has been 
established, data collection will be facilitated.

    Mr. Wolf. Aggressive driving has been a problem in this 
area within the past year. Two notable incidents come to mind. 
The first occurred on the George Washington Parkway, where two 
people were fatally injured. The second occurred on 95 South, 
where a three year old child was critically injured. I am 
pleased to see that NHTSA plans to conduct an aggressive 
driving enforcement demonstration project in 1998. What work on 
aggressive driving has the agency conducted in the past?
    [The information follows:]

    NHTSA's activities to combat aggressive driving include 
public information and education (PI&E), demonstration 
programs, and research. Recent PI&E campaigns have addressed 
aggressive driving behavior. Brochures were developed to give 
motorists tips on what to do when confronted by an aggressive 
driver. The NHTSA speed media campaign has been redirected, 
focusing on aggressive driving problems. NHTSA has also 
conducted aggressive driving presentations at national law 
enforcement meetings and events.
    FHWA and NHTSA have a cooperative effort on automated red-
light running enforcement demonstration programs. The Office of 
Motor Carriers, NHTSA, and the Maryland State Police have begun 
a photo-radar demonstration project on the Capital Beltway. The 
program will target aggressive driving behaviors and speeding 
involving passenger cars and commercial motor vehicles.
    The agency has a research study underway of speeding, 
aggressive driving, and other unsafe driving behavior that 
contributes to crashes. The research will develop a 
relationship between specific unsafe driving acts and crash 
involvement for use in enforcement and public information 
programs. Additionally, a national attitudinal survey was 
started to determine why drivers speed, pass red lights, and 
commit other unsafe driving acts.
    In FY 1997, NHTSA will bring in a mid-level supervisory law 
enforcement officer from a state that is operating an effective 
aggressive driver countermeasure program. This one year NHTSA 
detail will allow the officer to assist in the development of 
an aggressive driver program and provide technical assistance 
to state and local law enforcement agencies.
    Other ongoing activities include development of a database 
of state statutes relating to reckless driving in order to 
develop model aggressive driving statutes.

                  aggressive driving enforcement demo

    Mr. Wolf. Please explain to the subcommittee the scope of 
your aggressive driving enforcement demonstration project.
    [The information follows:]

    Based on a preliminary examination of the problem and input 
from the law enforcement community, NHTSA believes that 
aggressive driving is primarily an urban problem. This driving 
behavior is triggered principally by congestion and 
frustration.
    NHTSA will conduct an aggressive driving enforcement 
demonstration project in a major urban area to identify: 
effective, innovative enforcement techniques; possible 
applications for new enforcement technology; legislative, 
prosecutorial or judicial needs; and what role, if any, that 
alcohol and/or drugs play in the problem. Site selection will 
be based, in part, on a FHWA sponsored study, Urban Roadway 
Congestion--1982 to 1993, published in August 1996. This study 
would provide baseline data on pre-treatment congestion 
indices, annual person-hours of delay (caused by congestion), 
congestion related excess fuel consumption, and congestion 
costs. The study will greatly facilitate project evaluation.
    NHTSA will examine enforcement techniques that have been 
successful in other jurisdictions, develop some innovative 
enforcement approaches suited to the specific site and develop 
some public information materials which are site specific. In 
addition, an evaluation plan will be developed to measure the 
impact of the project on crash rates, congestion rates, lost 
productivity, excess fuel consumption, and costs. Successful 
applications will be shared with the law enforcement community 
throughout the country.

    Mr. Wolf. Do you expect any work for the demonstration 
project to be conducted in this area?
    [The information follows:]

    In selecting demonstration sites, preference will be given 
to those included in a FHWA sponsored study, Urban Roadway 
Congestion--1982 to 1993, published in August 1996. This study 
provides baseline data on pre-treatment congestion indices, 
annual person-hours of delay (caused by congestion), congestion 
related excess fuel consumption, and congestion costs. This 
information will greatly facilitate project evaluation.
    Washington, D.C. is included in the FHWA study and is a 
candidate for a demonstration project. If selected, the site 
could possibly include all of the District of Columbia and 
portions of Maryland and Virginia as a number of smaller 
jurisdictions. Variations in laws and issues of coordination 
and access between the different law enforcement agencies and 
political jurisdictions may make it difficult for a 
demonstration to be conducted effectively in Washington.

                                Closing

    Mr. Wolf. We are supposed to have a vote at 2:45, and it is 
2:45. I appreciate all of you for coming up. The hearing is 
adjourned.

[Pages 197 - 990--The official Committee record contains additional material here.]


                                         Wednesday, March 19, 1997.

                  FEDERAL TRANSIT ADMINISTRATION (FTA)

                               WITNESSES

GORDON J. LINTON, ADMINISTRATOR, FTA
HIRAM J. WALKER, ACTING DEPUTY ADMINISTRATOR, FTA
PATRICK W. REILLY, CHIEF COUNSEL, FTA
JOHN W. SPENCER, DEPUTY ASSOCIATE ADMINISTRATOR FOR BUDGET AND POLICY, 
    FTA
CHARLOTTE M. ADAMS, ASSOCIATE ADMINISTRATOR FOR PLANNING, FTA
EDWARD L. THOMAS, ASSOCIATE ADMINISTRATOR FOR RESEARCH, DEMONSTRATION 
    AND INNOVATION, FTA
LYNN SAHAJ, ACTING ASSOCIATE ADMINISTRATOR FOR PROGRAM MANAGEMENT, FTA

         WASHINGTON METROPOLITAN AREA TRANSIT AUTHORITY (WMATA)

                               WITNESSES

RICHARD WHITE, GENERAL MANAGER, WMATA
PETER BENJAMIN, ASSISTANT GENERAL MANAGER FOR FINANCING AND 
    COMPTROLLER, WMATA

    Mr. Wolf. Good morning. Welcome. Your full statement will 
appear in the record. If you could summarize it?

                           Opening Statement

    Mr. Linton. Thank you very much, Mr. Chairman, and members 
of the Subcommittee. Let me first of all thank you for giving 
me the opportunity to testify before you today on behalf of our 
1998 budget request. As has been the case for the last four 
years, I look forward to working with you and discussing the 
importance of the Federal role in America's public 
transportation system.
    Now, let me first introduce my staff who are with me this 
morning; my Acting Deputy Director, Hiram Walker, to my 
immediate right; Charlotte Adams, the Associate Administrator 
of Planning; Edward Thomas, the Associate Administrator for 
Research, Demonstration and Innovation; to my left, Pat Reilly, 
our chief counsel; John Spencer, Deputy Associate Administrator 
for Budget and Policy; and Lynn Sahaj, Acting Associate 
Administrator for Program Management.
    Before I get started let me also say that I am very pleased 
and excited to come into your new quarters and see all the 
pictures of transit facilities. This is really a great, bright 
room. So thank you.
    Mr. Wolf. I didn't have anything to do with it.
    Mr. Linton. Well, let me thank you and your staff for that. 
It makes those of us who have the pleasure of coming here this 
morning have a warm feeling. So I would like to thank you for 
that.

                         istea reauthorization

    We in the FTA believe that ISTEA works, and that the 
proposal that we are putting forth builds on the success that 
we have had over the last several years. We recognize that 
transit is a critical element in our overall transportation 
system. The goal of every FTA program is to optimize the 
benefits of transit by using common sense government; 
government that costs less and does more.
    The benefits that we want to optimize include basic 
mobility for millions of Americans, congestion relief that 
eases gridlock and makes the country more productive, and the 
improvement of the quality of life in all of our livable 
neighborhoods.
    The Intermodal Surface Transportation Efficiency Act, which 
was passed in December of 1991, has been a success, and we are 
proud to have the opportunity to build on this legislation. But 
we have also been very pleased with our opportunity to work 
with you as partners over the life of this amazing legislation.
    Besides providing a record level of capital infrastructure, 
ISTEA empowered state and local governments by shifting 
decisionmaking authority and flexibility to them, enabling them 
to make sound investment choices. ISTEA also promoted 
partnerships through means as diverse as a more inclusive 
planning process that brought in new players and innovative 
financing strategies which attracted private sector resources.
    We are hoping to continue to build on these diverse 
partnerships. As you will hear later, our budget proposal and 
our reauthorization proposal provide for new opportunities to 
attract private sector resources, continuing to build on our 
innovative financing strategies that we have been able to use 
over the last several years.

                            capital projects

    In 1996, FTA proposed, and you supported, language that 
allowed periodic bus overhauls to be counted as capital 
expense. In fact, in fiscal year 1997, you encouraged us to 
explore further changes in the definitions of capital 
eligibility to make eligible more maintenance costs and to 
place FTA's program more in line with the highway programs.
    So this year, under NEXTEA, we are proposing just what you 
asked. We are proposing that the definition of transit capital 
be amended to include maintenance as an eligible expense. This 
parallels the capital definition for Federal highway projects 
and makes them more consistent in their definition of capital.
    This would provide the means for local transit operators to 
make better decisions on whether to invest Federal funds to 
prolong the life of existing assets or to invest in 
newvehicles, facilities, and equipment. In addition, transit providers 
in urbanized areas under 200,000 in population will also be given new 
flexibility to use all their transit funds for any eligible transit 
purpose, including operating expenses.
    Additionally, in 1998, we are proposing that the 
discretionary bus and bus-related funding and fixed guideway 
modernization funding be rolled into the Formula Programs. This 
is another way in which we are fostering local decisionmaking 
and increased flexibility. While rail modernization funds will 
be distributed by the same statutory formula as it is now, it 
will be made available to be spent on any eligible purpose, as 
opposed to being limited to specific categories.
    ISTEA focuses on transportation's bottom line--making 
America a better place to live. It emphasizes consideration of 
how transportation investment and policy choices affect safety, 
quality of life, and the environment.

                            welfare to work

    One of the most pressing problems today in the aftermath of 
the new welfare legislation is making the welfare reform work. 
Nationally, only six percent of those on welfare own an 
automobile. A person can't get a job if a person can't get to a 
job.
    In response to this problem, FTA is preparing a new 
initiative called Access to Jobs and Training. We recognize in 
the Department, as many around this country have recognized, 
that transit is, in fact, the ``to'' in Welfare to Work. If we 
are going to make a successful transition from welfare to work, 
we must make sure that the ``to'' of transit is involved in the 
process.
    These funds will be used to identify, plan and implement 
the best methods of solving local transportation problems 
relating to getting people off the welfare rolls and into jobs 
or training needed to enter the workforce.
    An example of one of these is our own Job Links program, 
which we have funded over many years. And we have seen many 
successful projects that have been developed as a result of the 
Job Links program where specialized transportation services 
have been put in place to connect people to jobs that would 
normally not have been served by the traditional transportation 
systems.

                                olympics

    We have also learned from our recent success in the 1996 
Olympics where we were able to work with many of the transit 
systems around the country to see that over 1,800 buses were 
used by the MARTA system to carry over 17 million people in 17 
days during the period of the Olympic Games. This particular 
achievement broke all previous MARTA ridership records.
    And we believe that the experience that we have gained in 
this success will allow us to assist the mayor of Salt Lake 
City, and the Salt Lake City Olympic Committee, as they plan 
for the Salt Lake City Games in 2002.

                     livable communities initiative

    One of the most heralded successes that we have had under 
ISTEA and that we all can feel very proud about has been our 
livable communities initiative. This is a project that has been 
embraced by the transportation industry, by mayors, by cities, 
by local organizations, and by all who are now beginning to 
actively look at how we can make sure that transit is 
integrated with the necessities of life and that all those 
necessities are within walking distance of transit stations.
    We believe that the livable communities initiative goes a 
long way to deal with many of the issues that we have to deal 
with over the next several years in trying to make sure that 
job training, day care centers, and other needs that people 
have are within walking distance of the transit stations that 
they use every single day. We have a number of examples 
throughout the country that we are very pleased to talk about 
and showcase around the country.
    Let me also say that the President has made it very much 
part of our initiative to make sure that we are, in fact, a 
customer-friendly organization. We are, also trying to make 
sure that government costs less while doing more. And we have 
been able to continue to work on our electronic grantmaking 
program, for which we received a Hammer award.
    This is a program that continues to reduce the amount of 
paper we use and also the burdens that we impose on our 
grantees. This program is one which we hope to be able to 
expand in this fiscal year and throughout the life of the ISTEA 
reauthorization.

                    advanced technology transit bus

    We are also very happy with our research programs. One of 
the most shining examples of that is the recent rollout of the 
ATTB bus. This is, the Advanced Technology Transit Bus that 
incorporates aerospace construction, accessible design, and 
hybrid electric propulsion into a single vehicle design.
    The ATTB bus saves over 10,000 pounds off of a typical 
30,000-pound bus. Savings from the weight reduction include 
lower fuel and brake costs, as well as less road damage. The 
low weight has a high efficiency drive system to save fuel, 
reduce emissions, and eases maintenance by providing a longer-
lasting, noncorrosive body.
    The ATTB bus is a solid example of defense-developed 
technologies being converted to transit use. This is a program 
that, if funded, could be developed in this country for export 
to other countries around the world.
    So, finally, we are requesting new budgetary resources of 
$4.4 billion in fiscal year 1998, approximately the same level 
appropriated in 1997. But the themes that have been developed 
in this budget include flexibility, predictability, 
streamlining our programs and processes, and providing 
innovations to improve service and efficiency.

                          capital investments

    Our budget provides $634 million for major capital 
investments. This amount reflects budgetary pressures. We are 
well aware of future demands of $40 to $45 billion in proposed 
major investment studies. But we are proposing higher budget 
authority in our reauthorization legislation that will allow 
for increased resources to be dedicated to new systems 
construction if future economic conditions warrant increased 
budget spending.

                           new starts program

    At this time, I would like to address some of the issues 
regarding New Starts, Mr. Chairman, that you raised in your 
speech on the House floor on March the 3rd, and, again, before 
the APTA Leadership Forum. We agree with many of the points 
that you made and appreciate your support in these areas.
    In all aspects of the FTA New Starts program, we are 
carrying out our statutory responsibilities as they are 
specifically laid out in ISTEA and yearly appropriations Acts. 
The requirement for project-specific FFGA's are clearly spelled 
out in ISTEA, and we are following that direction.
    It is true that projects such as those in Los Angeles and 
San Francisco take a very significant slice out of the overall 
New Starts funding pie. However, it must be noted that BART and 
LA have extensive enabling legislation in ISTEA. In fact, the 
California projects account for 22 percent of the total ISTEA 
earmarks for New Start funding.
    Our planning process has been carefully designed so as to 
not bias local decisionmakers towards one transportation 
solution over another. ISTEA expanded and strengthened the 
planning process, including a broader multimodal major 
investment study which replaced our alternatives analysis which 
was formerly done.
    In fact, under ISTEA, it is spelled out that project 
planning must be initiated from a multimodal point of view and 
that all options, including highway projects, must be evaluated 
before a final project selection is made. It cannot be 
overemphasized that local community involvement is required and 
encouraged every step of the way, and that the final project 
choice is truly a local preference.
    Regarding the level of the Federal match, in our major 
investment criteria, overmatch is encouraged and accounted for 
because it reduces the required Federal commitment, thus 
leveraging Federal funds. It is also an indicator of local 
support.
    As a result, for example, the New York-Queens Connector 
project is being constructed with approximately a 50/50 match 
of local and Federal funds. The Dallas-South Oak Cliff Light 
Rail Transit project is being funded with a local match of 43 
percent.
    It is FTA's policy not to propose funding for major 
investment studies and early engineering studies with New 
Starts construction resources. We have a longstanding policy 
that formula funds should support the early stages of project 
development. This reserves the New Starts resources for 
construction.
    As stated earlier, increased formula resources provide 
greater flexibility to states and local governments and transit 
authorities to be more responsive to the needs of their 
particular communities. This includes the flexibility to use 
that funding for major investment studies and early engineering 
studies.
    We continue to support the notion that our New Starts funds 
should be used for projects that are in final design, or final 
construction, and that those areas are where that money can 
best be utilized.

                            closing remarks

    In closing, our budget request seeks to build on the ISTEA 
themes of multimodal flexibility, innovation, and funding 
predictability. Our request seeks to capitalize on the proposed 
ISTEA reauthorization in order to make a straight-lined dollar 
amount go much further.
    We believe that the realignment of our programs within the 
FTA's budget will greatly increase the flexibility afforded to 
local decisionmakers. At the same time, Mr. Chairman, our 
budget request dovetails with the Clinton Administration's 
broader goals.
    The proposed Access to Jobs and Training initiative is a 
practical step that will assure the success of last year's 
welfare reforms. The request also reflects the President's 
stated commitment to balance the Federal budget by the year 
2002.
    Let me thank you for the opportunity to make these remarks, 
Mr. Chairman. And I, and members of our staff, stand ready to 
discuss and answer any questions that you may have and other 
members of the committee may have as well.
    [The prepared statement and biography of Gordon Linton and 
biographies of senior staff follow:]

[Pages 997 - 1021--The official Committee record contains additional material here.]


                      project management oversight

    Mr. Wolf. Thank you, Mr. Linton. We have a whole series of 
questions, and what we hope to do is to continue until about 
one o'clock or 1:15 and then maybe take a half-hour break and 
then come back, just to give you some sense of where we are.
    The project management oversight program, or PMO, was 
originally authorized by Congress in response to problems 
experienced by several FTA grantees in assuring quality 
construction. Due to a lack of in-house capability to oversee 
project implementation and to ensure a quality product, private 
sector engineering firms are hired by the FTA to conduct 
project oversight.
    The program, also referred to as Section 23, is funded by 
set-asides from each grant. At the request of this 
subcommittee, the Inspector General initiated an audit of FTA's 
PMO program to evaluate the effectiveness and management of the 
program.
    A preliminary report from the Inspector General is very 
troubling, and it paints a very disturbing picture. The report 
indicates that FTA's senior management denied the IG's initial 
request to review budget documents, informing the IG that it 
had no right to access the documents.
    Subsequent discussions and requests yielded incomplete or 
inadequate documents. In addition, FTA senior management 
prevented the IG's office from independently meeting with 
several project managers.
    The IG further informs the committee that FTA allocated 
nearly $10 million of section 23 funds for 11 management 
initiatives which are ineligible activities. The preliminary 
audit further revealed that project managers could not explain 
how their respective projects qualified for section 23 funding.
    It would appear that you are using section 23 resources for 
activities not authorized by the law and that your senior 
managers are indicating that there is something that they don't 
want the IG to see. What are your comments with regard to that?
    Mr. Linton. Well, let me just say I think that early on 
there may have been some misinformation from some members of 
our organization in not providing information. But I do know 
that our Office of Program Management did provide the IG with 
all the data that they requested to review our programs.
    We may differ to some degree with the IG on their 
interpretation of the oversight money. For example, I have 
before me the projects which are in question. And we believe 
that this is, in fact, an appropriate usage of the oversight 
funds.
    These funds are providing oversight of specific programs 
that we are conducting--the Intermodal Surface Transportation 
Efficiency Act oversight, drug and alcohol management 
information system oversight, where we have the responsibility 
to ensure that the transit industry is enforcing the drug and 
alcohol laws that were passed by this Congress.
    We do have the oversight responsibility, so we have to 
report on that information. We have used the oversight funds to 
do that. That is one of the items that is, in fact, in 
question.
    Transit security audits--we have a responsibility to ensure 
that our transit systems have security systems in place, 
particularly in light of many of the bombings and other things 
that have gone on around the country. So we have done audits of 
their security in terms of trying to make sure they do have 
systems in place to make sure that they are secure.
    The oversight of transit agency fare collection procedures 
is to make sure that, in fact, the procedures that they are 
using to collect funds and the process that they are using are, 
in fact, correct ones. We advise them when they are not.
    [The information follows:]

    FTA believes that its use of section 23 now codified as 
section 5327 resources is authorized by law and has fully 
cooperated with all reasonable requests by the IG for access to 
FTA records and personnel knowledgeable of the subject matter. 
FTA has provided detailed responses to each of the concerns 
raised by the IG in its discussion draft to which you refer.

    Mr. Wolf. Mr. Linton, no. I don't differ that you have the 
responsibility. The question is should they be done out of the 
section 23 funds and the set-aside funds? And the indications 
that we gather is they are not to. We are not questioning 
whether or not you should be auditing those things and look at 
it. It is where you get the money from.

                       oig access to fta records

    I guess the other question I have is why did your senior 
management stop the IG from obtaining data and also from 
meeting independently with your project managers? Because, 
obviously, the IG is doing its investigation at the request of 
the committee, and they have been helpful in other areas.
    Mr. Linton. Mr. Chairman, I don't have an answer to that. 
All I can say is that when I became aware of that, we did, in 
fact, disclose and provide the information to the IG.
    [Additional information follows:]

    Concerning OIG access to FTA records and personnel, we 
believe the OIG misunderstood the agency's positions.
    First, it appears that OIG misunderstood FTA's position 
regarding initial denial of OIG's request for documentation. As 
the IG auditors appeared to agree in a subsequent meeting, the 
scope of the original request as written was overbroad, 
requiring creation of detailed information on more than 4,000 
open grants. It was never the intent of FTA management to deny 
the OIG access to records. Rather, FTA objected to the OIG 
demand that FTA create such new records. All information was 
provided as soon as we could put it together.
    Similarly, the statement concerning the OIG's being 
prevented from meeting alone with project managers ``to obtain 
their reasoning for using section 23 funding for their 
projects'' also needs clarification. Knowing that as project 
managers they are not the ones who decide the source of funds, 
those individuals asked that any meeting for the OIG's 
expressed purpose include representatives from the Office of 
Chief Counsel, which makes the final legal determination of 
such issues.
    FTA agrees with its project managers that their opinions on 
that question are not authoritative statements of the basis for 
agency action. As noted by the OIG itself, six FTA project 
managers ``could not provide clarification or were unable to 
explain how their respective projects qualified for section 
23(h) funding.'' The report documents the rigor of FTA's 
process in its finding that the Office of Chief Counsel will 
not permit use of section 23(h) funds in an approval package 
unless the scope or purpose is consistent with FTA's 
interpretation of section 23(h)'s authorized purposes and will 
reject proposed grant funding inconsistent with that 
interpretation.
    While the draft report accurately portrays the limited 
knowledge of program managers for things they are not 
responsible for knowing, the relevance of this information to 
the audit objective is unclear. We also note the apparent 
inconsistency between these reported independent interviews and 
the claim that OIG was prevented from holding such interviews.

    Mr. Wolf. Well, but they weren't able to meet independently 
with your project managers. And I think in the future they 
ought to be permitted to do that because many times you learn 
good things that were helpful to you and helpful to the Agency.
    It would appear that many of the activities that are funded 
with Section 23 resources are activities that FTA has 
indicated--and I don't question whether you should be doing 
them--in its budget documents are funded from appropriations 
provided under the national planning and research account. If 
that were the case, it would appear to be a case of double-
dipping, if you will.
    Mr. Linton. Well, let me just say first of all I agree with 
you that much can be gained by having the IG have personal 
access to our project manager oversight firms, and they should, 
in fact, do so. But let me also say that we have 
responsibilities for oversight.
    We, with all great intentions and actually correct ones, 
believe that we were using section 23 money to do exactly what 
it was designed to do. We also do not have Section 26 money 
available to do these projects. There was only, in fact, $2.5 
million available of Section 26 money that we can use for a 
whole series of projects that we have to conduct during the 
normal operation of business.
    We could not have covered any of these projects with the 
amount of money that was available in Section 26. And we 
clearly thought that utilizing Section 23 was both an 
appropriate and responsible thing to do, and that was our 
intent.
    [Additional information follows:]

    Prior to Congressional enactment of expanded oversight 
authority under former section 23(h), many of the activities 
now authorized for funding under section 23 could be funded 
only under the national planning and research program and its 
predecessors. FTA has been evaluating these activities under 
the available sources for the past several years, shifting to 
section 23 those activities whose purposes are more 
appropriately characterized as necessary expenses relating to 
oversight than planning and research.

    Mr. Wolf. I think we should look at it carefully and maybe 
have a meeting with your people and the IG because from 
everything we gather it isn't. I don't question whether you 
should be doing those audits and checking them. I think you 
should, but the question is where you are getting the money, 
and is it a question of double-dipping.
    For the legitimate PMO activities, the committee 
understands that many of the PMO contractors are restricted 
from getting where they think they have to be and are simply 
engaged in reviewing the process. The problem was cited as an 
element of lax LA Red Line project oversight.
    If the product of the PMO program is only an assessment of 
the process, how does that benefit the program? I mean, they 
have got to get the necessary information so they can make 
these choices.
    Mr. Linton. I am sorry. I am not following your----

                         la red line oversight

    Mr. Wolf. The problem was cited--the LA Red Line was only 
oversight, that the PMO contractors were restricted from 
getting the necessary information that they needed.
    Mr. Linton. Restricted by whom? By LA?
    Mr. Wolf. By LA and by FTA.
    Mr. Linton. That is news to me. We have not restricted our 
PMO's in any form or fashion, and we have given them open 
access to the projects. And they are, in fact, our eyes and 
ears.
    Mr. Wolf. Do they get all the information that they need, 
or do they just review the process?
    Mr. Linton. They are supposed to seek all the information 
that they need, and we find the information they provide very 
helpful. And we could not--we would not be able to have any of 
the responsible oversight that we need if it wasn't for their 
eyes and ears and their access to information. If I ever 
learned that they could not get the information they needed, we 
would make sure that that was corrected.
    Mr. Wolf. Well, I think we should talk about that too then.

                        use of section 23 funds

    Mr. Wolf. If section 23 funds are being used for activities 
not authorized by Congress, why should the FTA continue to 
reduce its grantees' awards by some $25 million annually, funds 
which would otherwise be available to the grantees for needed 
capital, operating, and planning assistance?
    [The information follows:]

    FTA is only using section 23 (recodified as section 5327) 
funds for activities authorized by Congress.

    Mr. Wolf. The FTA has requested legislative changes in 
ISTEA which will permit the use of oversight funds to provide 
technical assistance to grantees for the purposes of correcting 
deficiencies uncovered during procurement systems review. 
Hasn't this authority been in effect for at least the last six 
years?
    [The information follows:]

    FTA does not interpret the necessary expense doctrine, as 
articulated by the General Accounting Office, to permit 
oversight funds to be used to provide technical assistance to 
FTA grantees to correct deficiencies identified in oversight 
reviews, including procurement systems reviews. Therefore, FTA 
has requested express statutory authority to do so.

                      procurement systems reviews

    Mr. Wolf. Even though FTA has identified deficiencies 
through its procurement systems reviews, what actions has FTA 
taken to correct them?
    [The information follows:]

    With the reorganization of the FTA, the regional offices 
have picked up the responsibility for the follow-up for the 
procurement system review program. After a procurement system 
review is conducted, the grantees are required to submit action 
plans to regional offices which identify the steps that will be 
taken to correct the deficiencies and bring their procurement 
system into compliance with the Federal requirements. The FTA's 
Office of Oversight provides assistance to FTA regional offices 
in reviewing a grantee's action plan to resolve any 
deficiencies that are identified during the procurement system 
review.

                  funding status of oversight funding

    Mr. Wolf. For the record, provide a table showing the 
fiscal years 1994, 1995, 1996, 1997 [estimate] and 1998 
[planned] the amount of section 23 funds carried over from 
prior fiscal years, the amounts apportioned, any adjustments, 
obligations, and the end-of-year unobligated balance.
    [The information follows:]

[Page 1027--The official Committee record contains additional material here.]


    Mr. Wolf. For fiscal years 1996, 1997, and 1998, please 
provide a detailed breakout by activity of the planned program 
use of these funds. Be sure to provide an estimated cost of 
each activity. For each of the activities, also note, where 
appropriate, the amount of Section 26 funds used to support the 
same activity.
    [The information follows:]

[Pages 1029 - 1033--The official Committee record contains additional material here.]


                                 safety

    Mr. Wolf. On safety, less than a month ago, Secretary 
Slater indicated that his number one priority for the 
Department was the safety of the national transportation 
system. It has been the guiding principle for this subcommittee 
and members on both sides of the aisle in allocating limited 
resources. The 1997 appropriation and 1998 budget request 
include significant increases for a number of safety programs 
across the modes. Is safety an important FTA priority, and 
could you describe how safety is an important priority with 
regard to your budget?
    Mr. Linton. Well, let me just say safety is an important 
priority. We see safety through out our program. We think that 
even capital investments is an issue of safety and we are 
making sure that we have maintenance money in our new capital 
definition. We see that as a safety issue. When you can ensure 
that the products that are on the street, the rail systems that 
are in place are being well maintained, that is an element of 
safety.
    But let me also say that we have used our available Section 
26 funds, as you mentioned earlier, to continue to focus on our 
training programs. We have used the Transportation Safety 
Institute to train many of the transit employees around the 
country in everything from how to deal with alternative fuels, 
to how to deal with safety and security incidents, to how to 
deal with terrorism and bombings, to how to look at their own 
emergency planning systems. We have continued to try to expand 
that program.
    I would also say, Mr. Chairman, that during this current 
fiscal year, we have had to curtail some of that safety 
activity once again because the funds were not available to 
support them as we have in the past.

                    transportation safety institute

    Mr. Wolf. But you reduced funding for the Transportation 
Safety Institute by 20 percent from $750,000 to $600,000?
    Mr. Linton. We reduced it only because the resources were 
not available. We reduced it----
    Mr. Wolf. But that is your only function with regard to 
safety--the only major function. And if the Secretary says 
safety is his number 1 priority, and it clearly is with regard 
to this committee, there are going to be program differences, 
and we wish we could do more than we have. But safety has been 
the Secretary's and this Committees number 1 priority.
    In many areas, the committee has added much more funding 
than the Department has asked, but I think to cut the 
Transportation Safety Institute from $750,000 down to $600,000 
is a wrong message. We have been told they hired an outside 
contractor to audit the Transportation Safety Institute at a 
cost of $250,000. Is that accurate?
    Mr. Linton. That is correct. And let me explain----
    Mr. Wolf. Explain, but to audit a program--now you are 
going to spend--you are going to spend $600,000 to spend 
$250,000 to audit it, and that is your major safety issue.
    Mr. Linton. I am not sure that we spent $200,000. First of 
all----
    Mr. Wolf. $250,000.
    Mr. Linton. I am not sure we spent $250,000 for that audit 
so----
    Mr. Wolf. Do you have people here to tell us?
    Mr. Linton. I think it is more like $50,000 [$100,000]. We 
don't even have that kind of money to spend on those kinds of 
projects' so I know that is not possible.
    Mr. Wolf. Well, could we see that too?
    Mr. Linton. Sure.
    Mr. Wolf. Can one----
    Mr. Linton. I think it is $50,000 [$100,000] because I 
recall signing the report. But let me just say that the reason 
that we have had to reduce our money for safety is because of 
the earmarks in our Section 23 money. We only had $2.5 million 
available in order to fund all of the core programs that we 
have in our Section 26 funds.
    As a result of that, we had to reduce a number of projects, 
including TSI. There were also some safety recommendations that 
were made by the National Transportation Safety Board that we 
could not even undertake because the discretionary funds that 
we needed to do those weren't available.
    One of the reasons that we audited this particular program 
is because we needed to try to find a way that we can do more 
with less. There were questions raised in the audit as to 
whether or not more classes could be held with less money, 
whether or not we were getting the most effective kind of 
training from the classes with the money that is being spent. 
We think that spending $50,000 [$100,000] for the evaluation 
when we are trying to make sure that we are reaching the 
intended outcomes from the money that we spent is a good use of 
funds.
    Mr. Wolf. Well, I think there may be a difference with 
regard to the committee on that issue. I think safety is very, 
very important. As you know, we have had a number of accidents 
here in the Washington metro area and a number of other areas.
    And I think to reduce it from $750,000 if my memory serves 
me, down to $600,000, and then to audit the program at $50,000 
or $250,000, whatever the case may be--and we will get to the 
bottom of that--I think is really not appropriate.
    And, particularly, in light of Secretary Slater's, 
priorities and this is not meant to be a partisan issue. Maybe 
there are some agencies that have not included the necessary 
money to fund safety programs, knowing that maybe the committee 
would add it later, and we have.
    Safety for people riding on the rails or on the airlines, 
whatever the case, is extremely important, and I don't think 
that your budget or section 23 fund allocation puts enough of 
an emphasis on safety. We can talk more about that.

                           safety commitment

    Mr. Wolf. Could you describe for the committee your 
commitment to safety?
    [The information follows:]

    The FTA has long been proactive in the area of safety. 
Although the agency has no regulatory authority, with the 
exception of the drug and alcohol testing and the state safety 
oversight program, there have been efforts in the area of 
research and training. Public safety oversight has taken the 
form of security audits of select transit systems and the FTA 
is currently coordinating commuter rail safety with the Federal 
Railroad Administration through their Rail Safety Advisory 
Committee.
    The FTA's 1994 ``Safety Management Information Statistics'' 
report, now in its fifth year of publication, indicates a trend 
of declining transit incidents from 90,163 in 1990 to 70,693 in 
1994 (``incidents'' are the total of all events such as 
collisions, derailments, personal casualties and fires). Also 
declining were fatalities in all transit modes from 339 in 1990 
to 320 in 1994 and suicide attempts which dropped from 126 to 
103 in the 1990-94 period. Injuries have been relatively static 
at 58,193 in 1994 compared to 54,556 in 1990.
    Similar statistical declines were experienced in transit 
passenger miles, all modes, which went from 35.5 billion in 
1990 to 34.9 billion in 1994 and total transit passengers which 
declined from 7 billion in 1990 to 7.3 billion in 1994.

                    transportation safety institute

    Mr. Wolf. As you know, the FTA has no regulatory function 
in the safety arena, and it cannot impose civil penalties. The 
FTA does, however, support the Transportation Safety Institute 
in Oklahoma City through which training is provided to some 
5,000 bus drivers, mechanics, inspectors, and other technicians 
a year. This is FTA's only safety training program. Given FTA's 
limited role in transit safety, wouldn't you want to do as much 
as possible through the TSI?
    [The information follows:]

    The FTA has financially supported the transit safety 
training program at TSI since 1976. This fiscal year we have 
been forced because of budget constraints to reduce that 
contribution from $750,000 to $600,000. In the upcoming fiscal 
year (1998) we hope to expand the number of safety courses 
offered at TSI and increase the FTA contribution to a level of 
$800,000.

    Mr. Wolf. What is the Department's budget request for the 
Transportation Safety Institute for fiscal year 1998?
    [The information follows:]

    The FTA budget includes $800,000 for the Transportation 
Safety Institute in fiscal year 1998.

                         safety program funding

    Mr. Wolf. Given that the FTA budget is approximately $4 
billion, what is the total you have allocated for all of your 
safety programs?
    [The information follows:]

    The FTA's fiscal year 1998 safety program is budgeted at 
$1.1 million of the 49 U.S.C. Sec. 5314 program (National 
Transit Planning and Research). In addition to a specific line 
item for ``Safety and Security'', funds from the National 
Transit Planning and Research Program are also allocated for 
safety related research issues such as, for example, transit 
vehicle fire and materials studies, grade crossing safety, 
development of emergency management plans and child safety 
concerns.
    In addition, virtually all FTA projects include various 
elements of safety as, for example, rail systems which are 
provided Federal assistance to install specific safety 
improvements such as new or upgraded train control and guidance 
systems and capital grants for new bus and rail vehicles which 
are equipped to conform with improved standards for emergency 
egress, fire and smoke suppression and technologically advanced 
safety enhancements such as dynamic and/or friction generated 
retardation systems.

    Mr. Wolf. Mr. Sabo.
    Mr. Linton. Mr.----
    Mr. Wolf. Excuse me. Go ahead.
    Mr. Linton. Excuse me. If I may add, in our appropriations 
request last year, we even asked for money to be set aside for 
safety because we thought it was so much of a priority. When we 
got our final passback back, in fact, the money was not set 
aside for safety. And as I indicated, there was only $2 million 
in discretionary money to use against all the programs that we 
have to fund, including our safety program.

                          operating assistance

    Mr. Wolf. Mr. Sabo.
    Mr. Sabo. Thank you, Mr. Chairman. Welcome again to the 
committee. I understand all the budget difficulties you have--
targets to meet--and at times you may have more budget 
authority than outlays for a given fiscal year.
    And that results in us having new programs which have 
budget authority that won't have much expenditure in '98 but 
will in '99, 2000, 2001, and 2002.
    I am concerned that at times we don't do what makes sense 
because of the mismatch of BA and outlays. I refer specifically 
to the FTA's recommendation to eliminate what is a very limited 
amount for transit operating assistance.
    I understand the money that goes to larger systems is not a 
large percentage of their budgets, but these systems are 
struggling to get money to operate--from local and state 
sources. Many times the marginal federal operating funding is 
very important in determining whether you can keep certain 
routes going, particularly in bus systems.
    And I just have to say that as a general rule, I much 
prefer to keep funding in the existing programs that are 
working fairly well than to cut them to create new programs. 
Therefore, I have a tough time getting very excited over 
changing the definition of what capital funds can be used for 
at the expense of operating assistance, or starting a new grant 
program for people going to work who may have been on welfare 
when we are cutting operating assistance.
    In our area at least--in the core city--the primary means 
of transportation to most jobs is a bus system, and we must 
keep those bus routes going. I don't find it a particularly 
attractive alternative that some bus routes maybe closed so 
that we might have the option of applying for a grant which we 
may or may not get.
    Reverse commuting is a major problem, and a difficult one 
to resolve. But I don't think a very limited grant program is 
going to solve that problem.
    So I have to indicate my disappointment that we are still 
fighting over maintaining a very limited amount of money for 
operating assistance. I think it is important, and I would much 
prefer to see operating assistance increased than see funding 
going into some new program which may or may not work. We will 
have to struggle to find the outlays, and we can hope to get a 
little bit more in 602[b] allocation to the subcommittee.
    So I understand why you are doing what you are doing. You 
put your budget together to make it look a little better, but I 
just think that cutting operating assistance, again, is a very 
negative thing to do for our larger urban areas that are 
struggling for resources. And I think that cut can have a much 
more negative impact on the ability of people without cars to 
get to work than any pluses from a new discretionary grant 
program. I think I will leave it at that, Mr. Chairman, and let 
other folks ask questions.

                     livable communities initiative

    Mr. Wolf. Mr. Foglietta.
    Mr. Foglietta. Thank you, Mr. Chairman, and I welcome you, 
Gordon Linton, today, a person who is from the great City of 
Philadelphia. However, I am a little disappointed because I 
believe that last night you would sneak over to my office and 
check on the questions that I had prepared to ask you today and 
address those questions in opening remarks and leave not too 
many questions for me to ask you.
    Mr. Wolf. You didn't do that to me.
    Mr. Linton. I wish I had.
    Mr. Foglietta. But there is one issue I know that you and I 
both agree on and that is using transportation investments as a 
way to leverage jobs and economic opportunity. That is why I 
supported you and former Secretary Pena's efforts to fund the 
livable communities initiative.
    Through your leadership, funds were awarded to Chester, 
Pennsylvania, one of the poorest communities in the entire 
United States of America, to revitalize the Chester train 
station and other projects like that across the country. I was 
a bit disappointed that this subcommittee never shared my 
enthusiasm or our enthusiasm for the livable communities 
initiative which made the Chester train station the active 
program that it is. However, I know that you are continuing to 
put that program to work, and I applaud you for that.
    I also want to applaud you and the Department for some of 
the work you have done with problems we have in our cities. 
Philadelphia, as Mr. Sabo has stated--Philadelphia and 
othercities all across the country are suffering because they have so 
many thousands of low-income individuals who will lose welfare benefits 
and have to find work. And yet the Department is cutting operating 
assistance which these people need so desperately.
    In Philadelphia alone, as you well know, there are 25,000 
individuals who will lose their welfare benefits and have to go 
out to find work. There are in my district--my congressional 
district 39 percent of the families don't own automobiles. So 
we are talking about these people going to work, but I think 
you and I understand and the members of this committee 
understand that employing these people will be difficult to 
achieve.
    I think that we have to look at all type of areas to see 
where we may be able to. And I am pleased to see that the 
Federal Transit Administration requested funds to create 
transportation options for low-income people to get to work.
    Your program does provide one answer to the very simple 
question of how do we get people to work if we can't get them 
from one place to another and get them off of welfare to get 
them to work.

                          OPERATING ASSISTANCE

    However, your budget request also included some changes to 
the transit program. You and I both have fought for mass 
transit operating assistance for many years. It has sometimes 
been a lonely fight.
    However, this year you are proposing no Federal operating 
assistance to properties serving populations over 200,000 
people. This means that Philadelphia and other large systems 
like it will lose the funding they received last year. 
Philadelphia stands to lose $12.5 million in operating 
assistance.

                      EXPANDED CAPITAL DEFINITION

    Now, I realize that expanding the definition of allowable 
capital expenses to include maintenance will be of significant 
assistance. But even so, SEPTA--and I suspect other large 
systems throughout the country--will lose substantial funding. 
I am told that in SEPTA's case, when the Commonwealth of 
Pennsylvania interprets how state funds can be spent to match 
Federal funds, the result is a very limited actual benefit for 
SEPTA.
    Can you tell us some more about your proposal and the 
rationale behind eliminating operating assistance? And, 
further, have you assessed how the various states restrict the 
use of their funds for capital and operating and the extent to 
which those restrictions reduce the benefit of your proposed 
change?
    Mr. Linton. Thank you, Congressman, and let me just say 
that this will give me a chance to respond to Congressman 
Sabo's question as well--first let me say that we are very 
excited about the livable communities initiative, as you 
indicated. It is one which we have still been able to do around 
the country even without specific appropriated resources.
    We have been able to work with many of the transit 
properties who have been able to use their own funds to do 
these projects. And we have been able to provide technical 
assistance to enable them to do those, and they have been very 
successful. They go a long way in terms of making the 
transition from welfare to work possible.
    In fact, in our new Access to Jobs program, some of those 
kind of projects would also be eligible. We would be eligible 
to do day care centers at transit stations such as the things 
we were talking about in Chester. We will be able to make 
connections between training institutions and transit stations 
such as what we are doing in Louisville through local community 
projects.
    We will be able to do things like we are doing in Tucson, 
Arizona, and other places like that where we are making the 
connection between transit and the amenities that people need 
to make their success in this country worthwhile.
    But let me also say that, as you know, I have personally 
not been just the Administrator for FTA, I have been a long-
time champion of transit. I am very knowledgeable of the law in 
Pennsylvania relating to transportation because I am the author 
of much of it. So that is something that we can continue to 
discuss.
    But let me also say that even prior to coming to FTA as the 
Administrator, and even during the years in which I was a 
legislator, and during the period of time in which I served on 
the Board of the Southeastern Pennsylvania Transportation 
Authority, we in this industry have always been engaged in a 
longstanding fight over reductions in operating assistance.
    We have expended a lot of resources, capital resources, 
time and energy over many, many years with that continuing 
battle. It is my personal belief, and not just because this is 
a proposal that the Administration is offering, that this is, 
in fact, a good direction, a productive direction, and a win-
win direction for the industry. And let me cite a couple 
examples.
    Regarding the issue of what is operating and capital--
historically, the highway industry has been able to identify 
many things that we in transit have always called operating as 
capital--clearly. I always used the analogy that painting a bus 
is operating in the definition that we have used for years. 
Painting a bridge is capital.
    So those types of operations have gone on in the highway 
industry for years. No one has identified them as operating 
assistance. In the transit industry we have always gotten 
tagged with statements that this is money being spent for 
operating assistance, and, therefore, operating assistance 
should be eliminated.
    Well, if, in fact, painting a bridge is an asset 
maintenance provision that can be paid for out of capital, it 
seems to me that painting a bus is also an asset maintenance 
provision that should also be able to be paid out of capital.
    So the question here is not whether or not it is capital or 
operating, the question is really whether or not the resources 
are in place to enable the transit systems to pay for the 
various needs that they have.
    It is my belief that under the definition of capital, 
SEPTA, WMATA, other systems like that, will be able to pay for 
many of the same items that they have been paying for out of 
operations. And what it gets us out of is this poor definition 
of operating assistance that we have been tagged with in this 
industry for years. It gives transit and highways the same 
definitions for utilization of resources.
    It makes sure that--as we try to make sure that there is a 
level playing field between the surface transportation modes--
we are using the same definitions to mean the same thing.
    In effect, it will also mean that local systems like SEPTA, 
like WMATA will have access to more resources, that they can 
use for a broader range of activities, than they currently have 
access to with the narrow definition of operating assistance.
    We have looked at, from my Section 15 data, the amount of 
money that systems like WMATA and SEPTA pay for asset 
maintenance. They pay for maintenance far in excess of what we 
provide them in operating assistance. So they will be able to 
use this definition to apply it to more of their local needs 
than they can under the definition of operating assistance.
    This is not just a proposal that makes the budget balance, 
this is a policy change that I think is good for the industry. 
And not only am I just discussing it in terms of the 
President's budget. My good friend, as we get to the quiet 
backrooms of your office, you will also find that I will also 
discuss this with the same sense of passion that I am 
delivering it this morning, because I truly believe that in 
regards to the long-term health of this industry, it is the 
best thing that we can do.

                 CAPITAL DEFINITION SIMILAR TO HIGHWAYS

    Mr. Foglietta. You did a wonderful job on that. You were 
talking about the gray areas where the distinction is not very 
clear between capital and operating. But there are certain 
areas which we definitely all agree are operating expenses, and 
those cuts are going to affect those areas. No question about 
that.
    Mr. Linton. Congressman, if you will allow me, I can even 
discuss what those areas are. The only area that I can 
definitively state at this moment that would not be acceptable 
under the definition of capital would be the salaries of bus 
drivers and railcar drivers.
    Mr. Foglietta. Well, then----
    Mr. Linton. Even, in fact, as is done in highways, labor 
costs that are related to the painting of the bridge is related 
to asset maintenance under the highway definition. Labor costs 
of mechanics related to maintaining the bus is still related to 
asset maintenance. We are using the same definitions that the 
highway industry would use so, in fact, the only area which 
would probably be excluded would be that area of the bus and 
railcar drivers and fuel.
    And those are costs which transit systems can, in fact, pay 
for out of their own local match, their own local share, and, 
therefore, pick up that portion of the Federal dollars and 
transfer the eligibility that we will now give them to meet 
those other voids in their budgets.
    I think it is a win-win situation, and I think it is a good 
proposal. I would hope that all of us would take a closer look 
at the merits of this. I know on the surface many of us who 
have been battling for years and years for operating assistance 
on first blush would say that this is a terrible injury to the 
industry. I would hope that we all examine this very closely 
and look at its potential for the health of the industry before 
we dismiss it out of hand.
    Mr. Foglietta. I thank you for that answer, and I do take 
you up on your offer to come over to my office where we could 
discuss this further more informally. However, I would suggest 
that if this proposal were adopted, I would imagine that some 
sort of an adjustment period would be necessary, and would you 
agree to something of that sort where we can move from one to 
the other?
    Mr. Linton. There may be a slight adjustment period, but 
let me also say that it is different from the bus overhaul 
provision that we requested and you supported in previous years 
where there has been more of an adjustment period necessary. 
This particular change is well within the way in which the 
industry currently allocates their funds and their budget.
    It will be very easy for them to go right to the Section 15 
data, which is data that we collect on how money is being 
spent, and easily make the transition from the utilization of 
the operating assistance in their budget item to utilizing 
those same items under this new expanded definition for 
capital.
    So I think that, in contrast to the transition period that 
they have had to have in the bus overhaul, which has been a 
much longer one, this one is going to be extremely easy, and it 
will not require the same length of transition as the previous 
one.

                RAIL MODERNIZATION UNDER FORMULA REQUEST

    Mr. Foglietta. On another subject, the Administration has 
also suggested that rail modernization become a subset of the 
Formula program instead of being part of the discretionary 
program. It is true that ISTEA converted the rail-mod program 
to a formula, but it is very important that Congress decided to 
keep it in the discretionary program with the New Start and bus 
projects.
    I believe it is important from a policy and political 
perspective to link the fortunes of New Start and rail-mod, and 
ISTEA requires that their funding levels be equal. Your 
proposal eliminates that link, and I am concerned that the 
change could put rail-mod in a position where every dollar 
allocated to those systems detracts from the broad Formula 
program.
    Doesn't your change risk setting up a natural competition 
between those who rely on the Formula program exclusively and 
those properties with acute capital needs which have been 
served by both the Formula program and the Section 3 rail-mod 
program?
    Mr. Linton. Let me respond to that point, Mr. Chairman. In 
our new proposal--in our reauthorization proposal and also in 
our 1998 budget proposal,we are creating an opportunity to 
create a single disbursement of funds to transit properties. Once again 
we are trying to eliminate paperwork, trying to make our system more 
efficient and streamlined.
    But we need to make sure that it is clearly understood that 
the formula for rail-mod is not being eliminated. We are using 
the same formula for rail-mod that is currently existing under 
the law. That will not change.
    And the way the grant will work, it will draw from the same 
formula, using the same variables that are in the formula, and 
it will match that up with the money that comes from our normal 
Formula funds and give the money to the properties in one 
single lump sum.
    So the rail modernization formula itself will not be 
changed. It will still operate on a separate track. We will 
still use the same variables that we currently use to define 
how much it is. That will not change.
    Regarding the discretionary bus program, which, as you 
indicated, will also go into the formula, we are maintaining 
the same match as is currently used.
    So even though it appears that it is a major adjustment, we 
are utilizing existing formula structures to come up with the 
numbers so that continuity with the previous history of this 
Agency remains. But one of the significant changes with this is 
that we will now provide the grantees the opportunity to use 
the money for all legitimate transit uses.
    So if SEPTA chooses that in a particular year, even though 
they will get their fixed guideway money out of the same 
formula, if they choose to do bus rehab with it or they choose 
to do a bus facility with it, they will now have the option of 
doing that.
    Mr. Foglietta. Thank you, Mr. Linton. Thank you, Mr. 
Chairman.

                   independent transportation network

    Mr. Wolf. Mr. Olver.
    Mr. Olver. Thank you, Mr. Chairman. Mr. Linton, thank you 
for being here today and bringing your folk to help us out. I 
want to ask about a program that I know has some national 
significance. We have a large number of people particularly 
living in small metropolitan areas or rural areas who need 
transportation services, people who are elderly or disabled. 
And I think that might fall into a general category of things 
that are called paratransit.
    And I know that there have been programs that have been 
supported. One of them that I want to mention is up in broadly, 
the area that I come from, New England--being the only person 
on this committee from the New England area.
    There is a program in Maine called the Independent 
Transportation Network that research--that had been done by the 
AARP and the Transportation Research Board, the FTA, the 
Highway Safety Administration, the Southern Maine Council on 
Aging, Agency on Aging, and the Maine Department of 
Transportation had worked on and put together a program to 
provide these kind of very flexible services for individuals 
with the age and disability characteristics that I have just 
generally described.
    The FTA provided some start-up monies for this program--I 
think it was probably in fiscal year 1996--out of a need--a 
recognized need of I think maybe $300,000 or thereabouts that--
I think maybe $125,000 was provided. Is money provided for the 
rest of that start-up to get this program that so much 
investment has already been placed in, to help them get off the 
ground? Is that provided in the 1998 budget? I think it was not 
directly available in the 1997 budget. Is it provided in the 
1998, or is there some still in the 1997 that can be used for 
this purpose?

                       limited research resources

    Mr. Linton. I recall that we did fund this project in 1996. 
The way we were able to fund it, Congressman, was out of 
discretionary money. And we were not able to fund it when the 
request came for 1997 because we didn't have the discretionary 
money.
    Mr. Olver. This is the subject of the earlier conversation? 
I didn't get exactly how much discretionary money you believe 
you had in the 1997 budget.
    Mr. Linton. $2.5 million.
    Mr. Olver. Was the total nationwide of discretionary money?
    Mr. Linton. That is correct. And out of that, we have to 
fund our safety programs. We have required statutory studies 
that we have to do, such as our 3(j) report. By the way, I am 
happy to report to the Chairman that we have the 3(j) report 
available and it will be made available to you today. We have 
studies such as those that we are required to do.
    I can give you a litany of projects that both the Congress 
has requested that we do and that the very nature of the 
business that we are involved in requires us to do. The $2.5 
million does not allow us to fulfill these needs.
    So as a result of that, what we have done this year, and 
that was the nature of the earlier debate, is we have tried to 
squeeze into that $2.5 million programs that we need to do, 
with the understanding that sometimes during the course of the 
year, we do get unobligated balances from projects in which 
money was not spent. When that money becomes available, we can 
then assign it to some of those priority projects such as the 
safety element that Congressman Wolf made reference to earlier.
    But we have to try to balance our budget and remain 
withinthe budget that we have. We are constrained. We can't do all that 
we would like to do. We can't do all that the members who make 
inquiries to me would like us to do. And, quite frankly, even this 
year, I struggled, and my staff will verify that--we struggle with our 
program plan to make the decisions that I had to make that fit projects 
within that $2.5 million.
    It is not a situation I like to find myself in, and the 
things that I had to cut out were not projects that I think 
were fat. So that is where I find myself this year, and I don't 
know if it will change.
    Mr. Olver. If you have unobligated funds--I am not sure I 
am putting this in the correct way--if projects come through 
with balances, as you have described them, in the course of the 
year, are you able to then use those monies at your discretion, 
or does that require a whole new reallocation scheme to pass 
through this Congress, or does it require the approval of the 
Chairs of the authorizing committees or the appropriating 
committees on either or both sides, or just how does that work?
    Mr. Linton. In this particular category, the money is 
available at my discretion. But let me just say that when we 
went through our program plan, we left on our priority lists of 
projects, as I said earlier, we had to cut off a number of 
projects.
    So if, in fact, there are available discretionary funds 
that become unobligated, as Chairman Wolf said, safety is the 
number 1 priority. So we would have to go back and see if we 
can allocate that money to restore some of the safety classes.
    There are required studies that we are not going to be able 
to do at this point in time. We may be able to do them 
throughout the rest of the year as money comes along. I will 
have to allocate money back to try to fill those needs. So we 
will try, as we always do, to use resources in the most 
efficient way that we can.
    Mr. Olver. Does your fiscal 1998 budget plan include the 
completion of this obligation? I am not sure it was really an 
obligation. That is perhaps not the correct word, but the 
completion of the start-up for this project. This is according 
at least to what I understand the Chairman talks about being a 
bipartisan committee. Of course, Maine is a very bipartisan 
state when you consider the sum total of the delegations and 
the two branches.
    Mr. Linton. My fiscal 1998 budget is silent on those kind 
of projects. We have----
    Mr. Olver. Solid on this?
    Mr. Linton. I mean silent. I am sorry.
    Mr. Olver. Silent?
    Mr. Linton. Silent. When we submit our budget, it leaves 
Section 26 open. We make some suggestions like the ATTB bus, 
but the specific projects in that area are not filled. We 
approach that as discretionary funds that will be made 
available to apply to projects such as the one that you are 
suggesting.
    However, we can only apply what is available once the 
deliberation of the Congress is complete, and we understand 
what remains available for us to use. So we won't know until 
the end of this deliberation how much money I will have to 
apply to projects such as the one you are mentioning.
    Mr. Olver. I don't know how--to exactly what degree--maybe 
you can help me here--to what degree this is a national model. 
I don't know how many similar projects are going on that are 
around that you have funded, but this one has gotten rather 
wide publicity as a project--as a model for both the planning 
process and thereby the approach that they have gone about 
trying to develop a transportation system that is very flexible 
for an at-risk population, a population for which 
transportation access is always a difficult one, and for small 
metropolitan areas in southern Maine representing a couple 
100,000 people in its totality of the metropolitan area. Are 
there many other projects like this going on?
    Mr. Linton. We have projects that are similar, but they are 
not specific to this one. This is a project that we were highly 
excited about. It does fit an emerging population. We know that 
the elderly population in this country is rising tremendously. 
We are greatly concerned about the kind of transportation 
services that we are going to have available for the elderly as 
that population continues to expand.
    We saw this as a much needed piece of research and a 
project that we think could have significant national 
prominence. So I agree with you, Congressman. We think it is a 
great project.
    Mr. Olver. I hope your excitement about the project remains 
and that, therefore, we can reach some sort of accommodation on 
it at some later time.
    Mr. Linton. I am often very excited about the projects. The 
problem only comes when we must match them to available 
resources. If the resources are there, you just remain excited. 
But if the resources aren't there, I can stand here and be 
excited, and you can be excited, but our project won't go 
forward.
    Mr. Olver. Well, you stay in the excited state, and we 
will--thank you very much, Mr. Chairman.

                    advanced technology transit bus

    Mr. Wolf. Mr. Tiahrt.
    Mr. Tiahrt. Thank you, Mr. Chairman. Welcome to the 
committee, Mr. Linton.
    Mr. Linton. Thank you.
    Mr. Tiahrt. I am new on this Committee, and I am trying to 
understand how you operate. I think there is--looking through 
your testimony and trying to find the relationshipbetween 
research and development in your overall budget, and I think it kind of 
goes to the philosophy that if you can invest in research and 
development and develop low cost methods for mass transit, then it 
would make it more economical for communities to maintain this mass 
transit with less support. So it would then free up more sources of 
revenue to go elsewhere.
    But it looks like your research and development, from what 
I can tell from your testimony, is less than one percent of 
your overall budget. And it is not a very big investment 
percentagewise, and I don't know what the gauge is--you know, 
what yardstick to use, whether this is good or this is too 
little, too--I can't really tell.
    And some of my questions may be answered if I could see 
this ATTB, this advanced transit bus. One of my concerns coming 
from the Midwest--Wichita is in my district, and we have a 
transit system that quite often has a bus that carries probably 
45 people or so, and there is four people in it or five people 
in it.
    And it would seem more economical that we ought to have 
something that has 24 or less running these routes most of the 
time. But I don't see any research for a smaller bus frame. Is 
there anything in your budget that addresses a smaller bus?
    Mr. Linton. Let me just say that many of our systems do use 
smaller vehicles, and there is no prohibition on our standpoint 
as to the size of the vehicles that systems use.
    Mr. Tiahrt. Well, how big is the ATTB?
    Mr. Linton. The one that we are using is a 40-foot bus. I 
think that is part of the six prototypes that we are now 
building. It is our hope--in fact, we think if the development 
of this bus continues as we see it, we think that it will, in 
fact, be able to be produced as a smaller bus with a smaller 
chassis.
    We think that it will be possible in the future for this 
particular technology to be used for buses, trucks, et cetera. 
We think there is even possibilities that we will be able to 
use it for rail cars, and there is also possibilities that we 
will be able to use it for electrified buses and trolley buses. 
So we think that there are tremendous possibilities in the long 
term for the technologies being developed.
    Mr. Tiahrt. Does this bus have a composite frame, or is it 
a metal frame, or what is the design of the bus?
    Mr. Linton. Some people call it the stealth bus from the 
stealth bomber, because it is made of composite particles in 
its frame. That is where it gets its light weight, but it is 
also where it gets its durability. It is corrosion free, it is 
very lightweight, and it is very strong.
    We think that when we are trying to deal with issues such 
as truck weights on our highways, concerns about the damage to 
the highways, the concerns about buses being able to meet those 
highway weight limits, that this particular vehicle has many, 
many prospects for the future to help us deal with that 
particular problem. Additionally, the way the bus operates, all 
of its component parts are on a grid system so in terms of 
maintenance, both time and costs are reduced because it is very 
easy to remove its major component parts on the grid, repair 
them, and replace them in a very efficient manner. So this is a 
bus that we think has major, major prospects for the future.
    Mr. Tiahrt. And I think I read that this one was--started 
working last fall, is that right--the first prototype?
    Mr. Linton. That is correct. I think we rolled it out this 
past fall.
    Mr. Tiahrt. Where is that vehicle located at?
    Mr. Linton. Right now it is still at the Norfolk plant I 
believe in California. We are looking for six prototypes to be 
completed by the end of next year. I believe in 1998. We do 
have within our budget request $10 million that will complete 
our cooperative agreement with Norfolk and Los Angeles 
Metropolitan Transit Authority, as well as the other 30 to 40 
transit authorities around the country that are part of the 
peer review team that is looking at the project.
    But we think that with the $10 million that we have 
requested in this budget, that we will be able to complete the 
Federal share of commitment to the project and hopefully to 
have six vehicles completed by the end of 1998.
    Mr. Tiahrt. Do you fund this directly? Is this funded 
directly from your agency, FTA?
    Mr. Linton. That is correct. And jointly we have supporting 
funds from LACMTA. I think we also had a similar project on a 
separate track in Houston. Houston has now also integrated 
their project into this one. You saw we have funds from LACMTA, 
the Los Angeles County Metropolitan Transit Authority, 
ourselves, and we had some in-kind service and other support 
from Norfolk. Others have also contributed to the funding of 
the project.
    Mr. Tiahrt. Are you funding that indirectly then through 
these other agencies, or is that their separate investment into 
the future?
    Mr. Linton. We made the funds directly from our budget to 
Norfolk and LACMTA as part of a cooperative agreement.
    Mr. Tiahrt. Are all these six buses going to be 40-foot 
buses?
    Mr. Linton. All of the six buses this round will be 40-feet 
buses. And what we would like to do is once the six buses are 
completed and after they go through testing to make sure that 
they are roadworthy, we would like to deploy the buses in 
various parts of the country so they can be tested in actual 
revenue service to see whether or not our expectations and our 
predictions will stand up in actual use.
    Then after that is done, there will be some discussion as 
to whether or not there are manufacturers who are interested in 
manufacturing the bus on a long-term basis. And then we will 
also begin to look at other uses such as smaller buses, trolley 
buses and other places where the technology can be utilized.

                        attb and ada compliance

    Mr. Tiahrt. What is the level of the floor in ATTB's? How 
many inches above ground?
    Mr. Linton. It is a low-floor bus. I don't know exactly. I 
think it is 14 inches.
    Mr. Tiahrt. Does it require a mechanism for ADA to raise 
wheelchairs up, you know?
    Mr. Linton. No, it does not. It actually has a ramp that 
you can board, and that is one of the other features of the bus 
because boarding is extremely easy. It reduces time that the 
bus has to be delayed in terms of boarding passengers. It makes 
it accessible for everyone.
    Mr. Tiahrt. One of the big problems I think is the number 
of moving parts in the current ramps on these buses require a 
tremendous amount of maintenance just to lift, and that is 
unfortunate because we want everybody to have access to mass 
transit.
    Mr. Linton. I totally agree. And the ramp system that is 
being used in that eliminates many of those problems.

                         smaller passenger bus

    Mr. Tiahrt. I wish it was a little smaller. You had some 
other program that would look at a smaller bus because too 
often--I mean, even here in Washington, we see buses that are 
only partially empty, and I know there are peak times. But if 
you look at the difference between a smaller passenger bus and 
larger, what is it--three or four gallons' difference--Delta--
net difference in fuel cost per mile--take that times seven 
days a week for over a whole year, that is a lot of money.
    Mr. Linton. I think that is an issue that has been raised 
quite a bit by many in the industry and many in Congress, and 
we have raised the issue ourselves. But what we find now is 
that more and more properties are beginning to look at smaller 
vehicles.
    They are beginning to recognize that there are some service 
niches that they are not meeting with the large vehicles. And 
many of them are, in fact, using smaller vehicles. And we 
continue to support them and we continue to pay for that. It is 
a local decision.
    We are right now looking at a fuel cell bus that uses a 
hydrogen electric fuel cell. It is another research program 
that we have been involved in funding. That is a 30-foot bus. 
So we have other options that are available, that look at 
smaller vehicles as well.

                           alternative fuels

    Mr. Tiahrt. Have you any plans to look at alternate fuels 
like--and there is an emulsion now that Caterpillar has a 
license. Caterpillar, as you know, makes engines, and this 
emulsion is 55 percent naphtha, which is the easiest to process 
from crude oil, and 45 percent water.
    And I think in the Reno area they have got some experiments 
going on, but Caterpillar has license to build an engine that 
could be used in mass transit that would use this. It, of 
course, reduces the emissions considerably 45 percent, and I 
wonder if you--is that part of this research plan, to look at 
alternate fuels like this emulsion or perhaps a renewable fuel 
like gasohol? Is that part of your plan?
    Mr. Linton. We have not embarked on a significant project 
in terms of those type of alternate fuels, but I can say that 
in areas such as hydrogen fuel cells, which I mentioned 
earlier, and other type of electric vehicles, compressed as 
well as liquified natural gas, those are areas in which we have 
ongoing research that we are conducting with the resources that 
are available now.
    We are trying to complete our research on those areas 
before we can go into others because, once again, we have 
limited resources. And we are not able to go through the whole 
litany of all of the alternative fuels that are out there and 
being discussed in the market.
    Mr. Tiahrt. Well, the Department of Energy has spent 
hundreds and hundreds of millions of dollars on electric cars, 
electric fuel cells. So far, we have found out that they are 
expensive, they are heavy, and they go about 18 holes. We would 
like to look into some alternate areas, you know, that I think 
have great potential.
    Mr. Linton. As we get resources, we continue to try to do 
additional research. But let me also say something in defense 
of the electric buses that only go 18 holes, or 18 hole 
electric vehicles. What we have seen in technology is that as 
it gets developed and additional research is done, and I can 
use the hybrid electric bus as one example, we have been able 
to reduce the size of the battery. This begins to reduce the 
weight, thus beginning to get to some of those targets that we 
would like to have to make the vehicles much more usable and 
much more cost effective.
    So I would not suggest that we have reached a conclusion on 
the use of electric vehicles. I think we still have a long way 
to go. And a lot of the things that you mentioned that are now 
problematic, we will be able to resolve. We also are engaging 
in things with the Department of Energy as well as EPA and in 
many of their initiatives to look at alternative fuels as well.
    Mr. Tiahrt. I would like to leave you with this thought, 
and maybe it is a statement more than a question.
    If we can develop smaller buses that are cost-efficient, 
fuel-efficient, and also accessible for people with 
disabilities, I think that we can have less federal dependency 
on operating mass transit systems, and I don't know that you 
are investing enough in the future, and what I see here, less 
than one percent. I would like to see more invested, because I 
think that again, this goes back to the old parable, that it is 
better to teach someone how to fish than it is to give them a 
fish.
    Mr. Linton. We are strong believers in investment. The 
problem once again becomes resources, and we have been 
resourceful.
    In fact, we used to have the DARPA funds, which are funds 
from defense conversion that we used. We also were able to, as 
I said earlier, work with the Department of Energy as well as 
the EPA to collaborate and utilize funds. In our 
reauthorization proposal, we have in place a partnership 
proposal to try to encourage research with the private sector 
so that we can also do some partnerships with private funds and 
federal funds to leverage our research.
    We recognize that more research needs to be done, and we 
are trying to find ways within the confines and constraints of 
our budget to do more of that.
    Mr. Tiahrt. I want to distinguish what I consider research, 
and that is basic research as a difference to applied research, 
and I will go back to a simple explanation.
    During the space program, we developed technology for 
calculators. That was the basic research. Texas Instruments 
then took that and applied that basic research commercially, 
and I think the position the federal government ought to have 
is in the area of basic research where we look at alternate 
fuels, fuel cells, all those things, and that is where our 
investment ought to be, not something that can be taken and 
commercially expanded.
    I would like to see this ATTB sometime or some pictures of 
it, and if you have something available, I would like to get 
that information sent to my office.
    Mr. Linton. We have videotapes. We have a whole package, 
and we will even have staff come over and give you a personal 
presentation.
    Mr. Tiahrt. Thank you. Thank you, Mr. Chairman.
    Mr. Wolf. Mr. Packard.
    Mr. Packard. Thank you, Mr. Chairman, and welcome, Mr. 
Linton. We are pleased to have you back before the committee.
    Mr. Linton. Thank you, sir.

                        13(c)--labor protection

    Mr. Packard. I have two questions, and the second gives me 
much more greater concern than the first.
    The first is regarding 13(c). We have made an attempt to 
streamline the requirements of 13(c), and I would like your 
impressions of how it is working. Under the new guidelines, 
strict requirements for certification for protections in an 
expeditious and predictable manner will ensure that the federal 
funds can be released within 60 days from the date that the 
Department of Labor begins processing an application from the 
Federal Transit Administration.
    I would like to know how these streamline guidelines are 
working in terms of 13(c).
    Mr. Linton. Sure. I think we have a good report on that 
matter. You are correct that we were involved in some major 
discussions about 13(c) and at the time, there was tremendous 
discussion. I recall the ones that you and I had personally 
regarding the delay in projects and money being funded as a 
result of that.
    Let me just say that prior to the new guidelines, that 85 
percent of the grants receive certification within 90 days. I 
can say right now that 98 percent of the grants received 
certification within 60 days, so that is a tremendous change in 
terms of the ability to get through the 13(c) process and get 
our money to our grantees and make sure that the American 
public gets use from their taxes.
    We think that the process has worked well. There has been a 
tremendous improvement and the results are in the numbers.

                      santa barbara--electric bus

    Mr. Packard. I appreciate that report and the way that it 
seems to be working. I think that that was very much needed.
    The second issue that I am concerned about, very concerned 
about, and one that I will read rather carefully because I 
think it expresses the concern that I have and the information 
that we need, and it is regarding Santa Barbara and its 
electric bus program.
    You are well aware that this committee bent over backwards 
to support your efforts to showcase transit technology, the 
vehicles at the Atlanta Olympics, and we provided millions of 
dollars of funding for alternative fuel buses.
    I might just brag a little bit and mention parenthetically 
that I don't totally agree with Mr. Tiahrt's evaluation of 
electric buses. I think that they do have a future, and I think 
that even though there are some problems, I see that as one 
area of alternative fuel that we still can't abandon.
    Be that as it may, we did provide millions of dollars for 
alternative fuel buses at the Olympics. A primary component of 
that showcase was to involve state-of-the-art battery-powered 
electric buses. FTA had significant difficulty in obtaining 
such vehicles, and then the associate administrator for 
technical safety programs approached Santa Barbara Metropolitan 
Transit District, the operator of the largest electric bus 
fleet in the country about the participation in that showcase 
at the Olympics.
    The committee supported this participation and urged FTA to 
be creative in its efforts in the fiscal year 1995 
appropriations report, and although no discretionary monies 
were available in mid-1995, Santa Barbara agreed to advance the 
funds to the bus acquisition based upon a letter of no 
prejudice from FTA.
    The assumption was that reimbursement would be forthcoming 
the following year. Santa Barbara built and transported five 
electric buses, as well as maintenance crews and drivers to the 
Olympics to support the FTA's showcase. The buses were among 
the most reliable vehicles provided, and to date, the FTA has 
remained unwilling to provide reimbursement despite this 
committee's directive to do so and despite the FTA finding 
money for other projects in this category.
    Santa Barbara is ready to proceed on construction of its 
consolidation bus facility and bus charging facility and is 
faced with money shortfalls. When can the committee expect to 
be notified that the FTA is abiding by its letter of no 
prejudice and providing the reimbursements to Santa Barbara? A 
very direct question.
    Mr. Linton. Let me just say, Mr. Chairman, I recognize the 
issue that is being brought to my attention.
    We issue letters of no prejudice to properties 
continuously. We make it clear to the properties at the time 
that we issue the letter of no prejudice that that is not a 
guarantee of the availability of future federal funds. The 
purpose of the letter of no prejudice is so that properties can 
in fact proceed with using their own resources and doing so in 
a way that it does not prejudice them from receiving future 
federal funds if they are available for those projects.
    We have LONPs that people have been using throughout the 
country. When we get an opportunity that we can in fact 
reimburse them with resources, we try to do so. I have had 
personal conversations with these representatives for Santa 
Barbara. I told them at the time when this was discussed what 
the likelihood was of getting the LONP reimbursed.
    I would suggest that they did not unwillingly or 
unknowingly go into this venture understanding what the 
prospects of the future were. I never, when any property comes 
into my office, make any ironclad promises on LONPs. In fact, 
what I generally tell properties and I tell them even now as 
they are going to discuss their needs for the reauthorization, 
I am very clear with grantees on what the prospects are for 
both discretionary funds as well as our program being 
oversubscribed. I am not one to tell them that they can expect 
to get resources. I am very clear about that, and I am also 
very clear that when we send communications to members of 
Congress as well as to people who make requests for money that 
we make it very clear what the prospects are.
    We will try and continue to work with Santa Barbara to try 
to see if we can in fact provide some resources for the 
commitment that they made to showcase their project in the 
national arena of the Olympics.
    Mr. Packard. I think that another aspect of this, of 
course, is the very committed feelings of this committee in 
regard to the reimbursement to Santa Barbara. We think that 
that was a unique experience. The Olympics were one time only 
and unique, and I think that the committee has expressed to FTA 
their desires for that reimbursement to take place. We hope 
that that will have some effect upon your decision.
    Santa Barbara Electric Transportation Institute has emerged 
as a provider of the most complete, detailed, and extensive 
information on fleet operations of electric vehicles. Most of 
FTA's alternative fuel projects in the past three years have 
had analyses and evaluations conducted by Santa Barbara.
    The institute received $500,000 to help support this data 
collection and dissemination efforts for the past year. Could 
you give us the status of that award?
    Mr. Linton. The status of the award, just a minute, 
Congressman. I think we will try to get you some updated 
information on that grant.
    I think my staff has just said that they have been working 
with Santa Barbara and they have the information available, so 
the approval package is being put in place.
    [The information follows:]

    A cooperative agreement was awarded to the Institute on 
March 20, 1997.

                        sole source requirement

    Mr. Packard. Thank you. The committee has received 
indications that your general counsel believes that 
congressional priorities not identified in statutory language 
will not be honored unless project staff completes sole source 
justifications.
    What can you tell us about this policy, and does this 
somewhat single out Santa Barbara as the first implementation 
of this process or this policy?
    Mr. Linton. My general counsel is right here. I am not 
quite sure I understand the question. Maybe----
    Mr. Packard. If you would like to defer to the general 
counsel and let him answer, I would be happy to refer the 
question to him.
    Mr. Linton. Mr. Reilly is to my left, sir.
    Mr. Packard. Did you understand the question?
    Mr. Reilly. Yes, I did. I have not so opined. I don't know 
if you are referring to the department's general counsel or the 
prior chief counsel of FTA.
    Mr. Packard. I can't give you more information. Perhaps we 
ought to talk individually on that.
    Mr. Reilly. I would be happy to.
    Mr. Packard. There are other research projects across the 
country that would be affected by this same policy, and I would 
be interested if Santa Barbara is particularly singled out or 
if this applies across the board to all of these others such as 
Cleveland, OH; Minnesota, Hennepin County; and Southwest Ohio, 
I understand, would fall into that same category.
    Perhaps maybe we ought to at least for the record have you 
respond to the question. We will try to clarify some of the 
information that would be necessary for you.
    Mr. Linton. We will be glad to respond to the chairman and 
provide that information to the committee.
    Mr. Packard. Thank you, Mr. Chairman.
    [The information follows:]

    It is long standing policy of DOT that a written 
justification accompany any non-competitive award of assistance 
to non-governmental entities. Statutory language and 
subordinate sources of legislative intent, such as committee 
reports, will satisfy this requirement in most cases. With 
respect to grants for research and development, however, 
Federal law enacted as part of the Federal Acquisition 
Streamlining Act of 1994, establishes Congressional policy that 
any program, project, or technology identified in legislation, 
other than to a Federal Government entity, be awarded through 
merit-based selection procedures, unless the provision of law 
specifically states that the award to that entity is required 
by such provision of law in contravention of the policy set 
forth in subsection 266(a). (41 U.S.C. Section 266) A sole 
source justification for the non-competitive award to the 
Institute was deemed appropriate, consistent with this 
statutory requirement.

    Mr. Wolf. Mr. Pastor.
    Mr. Pastor. Thank you, Mr. Chairman. First of all, let me 
apologize for being late. Interestingly, a few doors down, the 
Secretary of Energy was talking about renewable fuels and the 
hydrogen engine.
    Mr. Linton. The Secretary of Energy.
    Mr. Pastor. Right.
    Mr. Linton. Somebody I know.
    Mr. Pastor. I think you do, but now he is talking about 
hydrogen engines, et cetera. I am new to the committee, so I 
look forward to working with you and learning more about the 
department and the objectives and how I can assist in 
furthering the transportation needs of this country.

                           future new starts

    I basically have just one question, Mr. Chairman, and on 
page 13, Mr. Administrator, you allude to a speech that was 
given on the floor by our chairman on March 3 in which I agree 
with many of his points.
    He brings out the issue of the full funding grant 
agreements which you have entered into, and let me quote one 
remark in those remarks. ``For those of you considering light 
and heavy rail projects in your areas any time in the near 
future, let me just say this. Under the current system, there 
are no funds available.''
    That is very discouraging because, as you know, there are 
areas in this country who are experiencing population growths, 
and in particular, in Arizona, as you know, and Nevada and many 
of the western states, you have the explosion of the population 
and they have transportation needs.
    Many are trying to cope with the future and how they can 
move people around to work, children to school, so that you 
don't have the congestion and at the same time, meet the EPA 
standards that are being imposed in terms of clean air.
    In Arizona in the Maricopa County area and Phoenix Metro 
area, what is happening is that cities are now going to the 
electorate and saying are you willing to pay an additional one 
cent, half-cent sales tax, whatever it may be, to solve the 
transportation needs of our community.
    Tempe recently passed that sales tax. You are going to have 
Scottsdale do it; you are going to have Phoenix, Glendale. So 
these cities are saying we have a responsibility, but we want 
to cooperate with the federal government since in many cases, 
it is in both of our interests.
    But when the chairman who is more knowledgeable on this 
matter than I am advises me that under the current system, 
there are no funds available, how would you address and 
mitigate that concern that they may have? It is a concern that 
not only deals with Arizona, but I think in all the western 
states where you have population growth that is exceeding all 
expectations.
    Mr. Linton. Let me respond to that. Let me also say, 
Congressman, that I was in your district. We have a livable 
communities project in your district. Your chief of staff from 
your district office was there, and it is a great project. In 
fact, I think we are continuing to support that project.
    While I was there, I met with several of the mayors, and 
members of the Chamber of Commerce. They told me of the recent 
passage of the referendum in Tempe, and that other cities and 
counties in Arizona were also pursuing that. They recognize 
that there is a tremendous amount of growth that is going on in 
that region, and they also recognize that continuation of just 
highway expansion alone would not solve their congestion 
problems.
    I was impressed that the people that I met with at the time 
were not just the transit properties, but it was the Chamber of 
Commerce, and it was the corporate community, whose members who 
are hanging out the flag to say that they wanted local support 
for transit projects.
    I recognize what is going on in your district and in your 
community on both of those fronts. Let me also say that there 
is a tremendous dilemma that we have regarding the demand for 
resources. We all are going to have to face the same dilemma as 
we go forward with reauthorization of ISTEA.
    It is clear, and in fact, our own information indicates to 
us that it may be $43,000,000,000 to $45,000,000,000 of 
projects that we know about that are in the MIS stage that are 
looking for resources within the next couple years.
    If you look at ISTEA, our authorization has been 
$4,000,000,000 to $5,000,000,000, and if you look at what is in 
fact being funded, we currently have projects that are 
authorized in ISTEA which have full funding grant agreements 
which we are directed through the authorization to provide 
funding for. Those are projects that will call on money in the 
next authorization, and they will call on over $3,000,000,000, 
so there will be additional resources available in the next 
authorization, but it will not be a lot.
    That depends on what ultimately Congress decides to do in 
the authorization. How big the envelope is will determine how 
many additional projects will be funded. But once again, if you 
look at the projects that we have entered into full funding 
grant agreements with, these are projects that were in fact 
designated in ISTEA. We were instructed to engage in those 
deliberations, to move towards those grant agreements, or they 
were also projects that received earmarks by the Congress over 
a series of years to move them to the stage in which they could 
have a full funding grant agrement.
    These are projects that were not chosen at the discretion 
of the agency. These are projects in which we were both 
directed and supported by the efforts of Congress, and we have 
tried to work with all of you to see that they come to 
fruition. But yes, they are beginning to fill up the envelope, 
and there is tremendous demand around the country that is going 
to create quite a squeeze as we try to deal with 
reauthorization.
    We are going to have to struggle with all of you as well, 
as to how we try to achieve that.
    Mr. Pastor. As you correctly stated, this effort is not 
only of the public transit people, but the Chambers and 
thebusiness community and advocates are now understanding that in order 
to solve our problems with traffic and getting people in and out to 
their work sites or schools or whatever, that everybody is going to 
have to get involved on a regional basis.
    At the same time, they also recognize that there may be a 
requirement of greater matching from the local level, and the 
mix of that is proper and has to be determined early and we go 
forward.
    I look forward to working with you, and hopefully, we can 
maybe make the envelope a little bigger so that the needs that 
you have in the growth areas of this country can be addressed.
    In Arizona, because I represent the state, but I think if 
you go to other western states, in the growth areas, you will 
find similar problems.
    The other problems we are having are that we not only have 
a traffic problem, we also have the EPA saying that you have to 
meet clean air standards, which is very proper, and building 
more freeways and adding more cars is not the solution.
    Mr. Olver. Would the gentleman yield?

                status of full funding grant agreements

    Mr. Pastor. Yes, sir.
    Mr. Olver. In the midst of this, I am very interested in 
this conversation, but I see that you have made 19 full funding 
grant agreements since 1993.
    How many of those are now or are any of them fully 
constructed and completed now of those 19?
    Mr. Linton. Yes.
    Mr. Olver. I would like to see the list of the 19 that have 
been reached up to now with a brief analysis, and I think it 
would be helpful to other members of the committee, so I would 
ask the chairman to get this as part of the record----
    Mr. Wolf. Without objection.
    Mr. Olver [continuing]. Which are the 19 projects and what 
their present status is, that is, what their expected funding 
is, how much is already in, how much is the expectation.
    I would like to see a clear, short analysis of what your 
expectations under the budget level that you are asking for, 
how many years just to do those 19, and then what are maybe 
some group of the next set of priorities which gets really to 
what my colleague from Arizona, I think is greatly concerned 
about is, where are those places that are growing very quickly, 
some of them in the sun belt and southwestern parts of the 
country that we can expect because of the huge growth rate, 
that they are going to need some really new and innovative 
transit routes here soon, but have not come in as we know, so 
what you think are the next group of 19 priorities that are 
going to be coming up later.
    [The information follows:]

    The following table provides the information you requested 
on the nineteen Full Funding Grant Agreements (FFGAs) approved 
since 1993, including Section 5309 cost, funds received to date 
and outyear costs [if any].
    In addition, there are a number of new starts projects 
being considered by various areas as part of the MIS process. 
Preliminary numbers from MISs underway which are considered to 
have a major transit component indicate a potentially large 
demand for new starts funding.
    We have identified a group of projects which have emerged 
from the developmental process and will be ready for 
implementation. We have committed or will shortly commit 
slightly over $3.7 billion to current FFGAs and intended FFGAs 
in FY 1998 and outyears. The Department's proposed NEXTEA would 
provide an additional $2.0 billion over the amount needed to 
fund existing/planned FFGAs and allow FTA to fund some of the 
next group of deserving new start projects. This will, of 
course, depend on the enacted level of the re-authorization and 
subsequent appropriations.

[Pages 1057 - 1058--The official Committee record contains additional material here.]


                          section 3(j) report

    Mr. Linton. We would welcome the opportunity to work with 
you and the chairman and other members of the committee. Here 
is Charlotte Adams, my associate administrator for planning. I 
know she has been up on the Hill on several occasions and I 
think probably with the T&I committee because of their major 
discussions about reauthorization, but we are available to 
share with you information on both the projects that we have in 
the pipeline, and those projects that are in the MIS.
    I know that there was report language that expressed 
concern about delivery of our 3(j) report and that you want to 
have it in time so you can deliver on those projects.
    I am happy to report, Mr. Chairman that I have in my hand, 
right here the 3(j) report. We have boxes available of them 
This report has a good deal of the information that you are 
requesting.
    Mr. Olver. Does it have a cohesive summary?
    Mr. Linton. It is drafted strictly for people like me who 
have a lot of documents to read and want it short and concise. 
Most of that is here for the projects that we currently have 
under consideration. However, some of the MIS projects, because 
we no longer determine when localities can enter an MIS, don't 
have the kind of data that we used to have when we had control 
as to when they enter into MIS.
    We don't have control over that, but we do have good data 
that we have collected that we will make available to the 
chairman and members of the committee as well to add to our hot 
off the press 3(j) reports that are here today.
    Mr. Olver. Thank you.
    Mr. Pastor. Thank you, Mr. Administrator. I look forward to 
working with you and thank you, Mr. Chairman.
    Mr. Wolf. Thank you. I can see you are pretty proud of 
having that there.
    Mr. Linton. Yes, Mr. Chairman.
    Mr. Wolf. We have a whole series of questions but I would 
like to comment on just four or five of the issues that came 
up.
    One, Mr. Pastor is exactly right, and I could be wrong, but 
I believe all of the full-funding agreements were negotiated 
during or after 1993. I could be wrong. There may be one or two 
that were not.
    Secondly, if you look at the numbers, more than 50 percent 
of the total goes to California, Oregon, and New Jersey, and 
that is unfair to Minnesota, Arizona, and others. That truly 
has to be looked at. Their transportation problems are as great 
as the other areas, and if you will look at the growth in some 
of our states. In fairness to them, although I don't represent 
Arizona, this is a national issue and a national committee, we 
need to seek more balance in the program. I think you really 
have to.
    Secondly, what Mr. Packard said, on the Santa Barbara 
issue, the committee included report language that directed you 
to fund the project. You funded the Kansas City project and, 
the Pennsylvania Consolidation Bus purchase. You to fund Santa 
Barbara, as well, because that has been the desire of the 
Committee and I would urge you, to find the necessary resources 
and honor the Committee's request.

                          operating assistance

    Mr. Foglietta made a very good case on phasing out 
operating assistance. I think you ought to consider a gradual 
phase out of the operating subsidies. I hope, and we will have 
to all sit down and talk about it here in the committee, but I 
believe that rather than abruptly terminating operating 
assistance, we need to gradually ween transit authorities from 
operating assistance. Maybe we could do it over two or three 
years.
    I think in fairness, there probably ought to be a phase-
out.
    Mr. Linton. Mr. Chairman, I really would like to continue 
to work with you and your staff on that issue, and I am very 
passionate about the concept. I think, quite frankly, that you 
joined us because you directed us to look at expanding 
definitions.
    I think we and APTA and others are in agreement over the 
definition aspect of it. I think there is support for the 
definition, but there seems to be some concern about the 
elimination of the operating assistance aspect of it.
    I think that is something that we need to continue to work 
on and look forward to working with you as we go through the 
deliberations on the final product.
    Mr. Wolf. With the previous definition change, it was going 
to be a dollar-for-dollar, and it has resulted in a dollar-for-
dollar, an individual from SEPTA testified that a termination 
of operating assistance would be a hardship for them. I think 
that if you do phase it out over a two-year or three-year, FTA 
ought to come back and tell the Committee how you are working 
with APTA on an aggressive program to educate the transit 
authorities so that there is no sudden or unmitigated loss of 
operating assistance.
    Could you just submit for the record, the transit districts 
that have expressed on interest in test deployments of the 
stealth bus?
    Mr. Linton. Yes.
    Mr. Wolf. Would you submit that for the record?
    Mr. Linton. Yes, we can.
    [The information follows:]

    Success in obtaining commitments for ATTB test deployments 
has been very good. Eleven positive responses have been 
received to date. They are as follows:
    MTA New York City Transit, New York, NY.
    Washington Metropolitan Area Transit Authority, Washington, 
D.C.
    Phoenix Transit System, Phoenix, AZ.
    New Jersey Transit, NJ.
    Chicago Transit Authority, Chicago, IL.
    King County Department of Transportation, Seattle, WA.
    Capital Metropolitan Transportation Authority, Austin, TX.
    Greater Cleveland Regional Transit Authority, Cleveland, 
OH.
    Milwaukee County Transit System, Milwaukee, WI.

                      staffing separations impact

    Mr. Wolf. Over the last several years, particularly during 
fiscal year 1996, FTA has witnessed a rash of separations. 
Seasoned employees have either participated in the buyout 
program; have been pressured out, we have been told; or have 
retired so much so that FTA's current staffing level is 
extremely low.
    In fact, the senior career staff of the agency appears to 
have been really hit hard with the retirement or departure of 
some very qualified and tenured career people. Given the 
departures and the current staffing level of the agency, do you 
believe that you now have the technical ability to review or 
audit comprehensively the agency's current grant portfolio?
    Mr. Linton. Let me just say----
    Mr. Wolf. How hard do you think you have been hit from all 
the retirements and departures?
    Mr. Linton. We have been hit very hard. We have been able 
to maintain our responsibilities in operating the agency, but I 
will say that it has been difficult. It has required a lot more 
work from all of my staff. But I personally see to it that that 
is done.
    We have a significant number of our positions that are 
advertised for filling. Quite frankly, we have had some 
difficulty on occasions even filling positions. I would find it 
difficult to believe considering the state of the job market, 
but we have had some difficulty in getting responses.
    Several of my managers have said to me on a couple of 
occasions that they have posted positions a couple of times 
without getting a significant number of applicants to choose 
from, so we have even aggressively gone to colleges and 
universities and we are trying to do a number of things to try 
to meet those.
    We are aggressively pursuing that, because of the stress 
and the workloads. As you suggested the staff can't continue to 
bear the burden of a loss of senior talent.

                little rock, arkansas, light rail system

    Mr. Wolf. Just out of curiosity, do you think that the 
Little Rock, Arkansas, light rail system would be a wise public 
or federal investment for a city of about 125,000 people?
    [The information follows:]

    The Central Arkansas Transit Authority has proposed to 
implement a one mile- long tranist light rail link between 
downtown Little Rock and an 18,000 seat arena currently under 
construction in North Little Rock. The proposed system will 
utilize existing Union Pacific freight track. The upgrade of 
this track to passenger standards, improved signalization, and 
other capital costs associated with the project are estimated 
at $7 to $9 million. In FY 1997, Congress appropriated $1.99 
million in Section 5309 funds to undertake a study evaluating 
the financial feasibility of the fixed guideway project. The 
city of Little Rock is also in the early stages of preparing a 
proposal that would extend the system west to the Central High 
School Civil Rights museum.
    Generally, smaller urbanized areas like Little Rock might 
have difficulty supporting a new investment in rail transit. A 
more important determinant than city size, however, is the 
types of land uses and built densities in the area served by a 
proposed rail system; these factors ultiamately contribute to 
an estimation of ridership, operating costs and recoveries, and 
economic development impacts of the project. The degree to 
which a proposed investment in rail meets locally-defined goals 
for improved mobility and air quality, achieves system-wide 
operating efficiencies, and supports community development 
objectives must also be considered when evaluating its 
worthiness. The Little Rock proposal is still in its very early 
planning stages; further study is required before all costs, 
benefits, and impacts can be known with any accuracy. Until 
that time, it is premature for us to speculate on the viability 
of light rail in Little Rock.

                              hiring plan

    Mr. Wolf. Please provide a hiring plan indicating by month 
and by office the number of FTE FTA plans to hire during fiscal 
year 1997.
    [The information follows:]


[Page 1063--The official Committee record contains additional material here.]


                     meeting the challenge training

    Mr. Wolf. Mr. Linton, last year, the committee was critical 
of FTA's ``Meeting the Challenges of Change'' training program 
because, according to the course proposal, the course generated 
fear by asking probing questions. The committee also believed 
that the program was required of all FTA employees. The 1997 
Act deleted funds for this training and included statutory 
language that prohibited training such as this. Is the 
``Meeting the Challenges of Change'' training course still 
offered today?
    [The information follows:]

    The ``Meeting the Challenge for Change'' (MTCFC) workshop 
is no longer offered to FTA employees. When it was offered, 
participation was on a voluntary basis only. The purpose of the 
MTCFC workshop was to afford employees the opportunity to work 
cohesively as a team to recommend solutions to ``real'' 
organizational and management issues. The course agenda was 
identified through assessment meetings with FTA employees and 
were categorized as follows: Human Resources, Customer Service, 
Internal Communications Management, and Managing Change. The 
workshop offered management improvement techniques to enable 
FTA managers to accomplish the work with less staff, empower 
employees, utilize team concept, and delegate decisions to 
lower levels. The workshop also addressed an area of the 
National Performance Review for developing a multi-skilled work 
force through individual and group career counseling sessions, 
recommendations for structured rotational assignments and 
mentoring and shadow programs to increase employees' knowledge 
and skills in areas of interest.

    Mr. Wolf. Is this course the same program that was 
originally procured by the FTA from Alexander Consulting and 
Training, Inc., of Philadelphia?
    [The information follows:]

    Yes, however, the course content was based on subjects 
identified by FTA employees during the assessment meetings held 
prior to the contractor designing and delivering the course to 
the FTA work force. The firm that was awarded the contract was 
Alexander Consulting and Training, Inc. of Norfolk, Virginia.

    Mr. Wolf. If not, presumably there must have been a major 
change in the scope from work of the original contract. Was the 
contract rebid?
    [The information follows:]

    There was no major change in the scope of the contract; 
however, the course agenda was developed during the assessment 
meetings with FTA employees. The contract was modified to 
reduce the travel costs of the Regional employees by increasing 
the number of Regional training locations to six.
    No, the contract was not rebid; it did not require a 
competitive bidding process since it was awareded to an 8(a) 
firm.

                         status of open grants

    Mr. Wolf. How many grants are currently ``open''? What does 
this level represent as a percent of total grants?
    [The information follows:]

    The Federal Transit Administration has 4,676 grants that 
are currently open. Over the past 3 fiscal years a total of 
2,640 new grants were obligated which is an average of 880 
grants being obligated each year.

    Mr. Wolf. How many grants does the FTA expect to ``close'' 
during fiscal year 1997? And 1998? How do these levels compare 
to fiscal year 1996?
    [The information follows:]

    In fiscal year 1996 the FTA closed 775 grants. In fiscal 
year 1997 the FTA expects to close approximately 860 grants 
which is almost ten percent above the 1996 level. We expect to 
maintain the same level of close-outs in fiscal year 1998.

    Mr. Wolf. What amount of recoveries is expected in fiscal 
year 1997? And 1998? How do these levels compare to fiscal year 
1996?
    [The information follows:]

    In the past three years the FTA has averaged $130 million 
in recoveries. In fiscal year 1997 and fiscal year 1998 we 
expect to maintain a similar amount in recovered funds.

    Mr. Wolf. What is the current unobligated balance of funds 
recovered by FTA's grant close-out activities? Are those funds 
available until expended once they are recovered or is the 
period of availability limited?
    [The information follows:]

    As of March 23, 1997 the Federal Transit Administration 
recovered over $23,800,000 in both closed and open projects. 
These funds are available until expended, however there are 
restrictions on the period of availability of allocations. In 
general, funds recovered from projects remain with the section 
and grantee until they lapse. Most of FTA's programs have a 
period of availability of either three years or four years. 
After they lapse, they are either transferred to the most 
recent appropriation heading for any such section or remain 
with the account and are reappropriated to all areas in the 
succeeding fiscal year.

                    projects funded with recoveries

    Mr. Wolf. Please delineate by activity and cost the 
programs or projects funded with recoveries in fiscal years 
1994, 1995, 1996, and those activities planned or programmed 
for fiscal years 1997 and 1998.
    [The information follows:]

    The activity and cost of the programs funded with recovered 
funds for fiscal years 1994, 1995, and 1996 are listed on the 
table below. Those activities planned or programmed for fiscal 
year 1997 reflect actual distribution of recoveries through 
March 23, 1997. We estimate a similar distribution of 
recoveries as they become available for the remaining two 
quarters for fiscal year 1997 and fiscal year 1998.

[Page 1066--The official Committee record contains additional material here.]


                       use of recovered resources

    Mr. Wolf. What activities are authorized to be funded with 
the resources recovered through FTA's close-out activities? Are 
funds recovered under the section 3 program only available for 
other capital projects for example?
    [The information follows:]

    Funds recovered under the Research Training and Human 
Resources account are authorized to be transferred to the 
Transit Planning and Research account and are distributed with 
section 5314, National Planning and Research. Amounts recovered 
under section 5 are authorized to be transferred to section 
5307, urbanized area formula program. All other recoveries 
remain in the account where they are recovered and are used for 
the purposes for which they were originally intended.
    Funds recovered under the section 5309 program are only 
available for other capital projects.

                           chicago circulator

    Mr. Wolf. I understand that the Chicago Circulator project 
was closed out in December. What were the recoveries from that 
particular grant?
    [The information follows:]

    As you know, the City of Chicago officially canceled the 
Chicago Circulator project in October 1995 after the State of 
Illinois refused to provide a previously agreed-upon \1/3\ 
share of the project and the U.S. Congress failed to earmark 
funds for the project in FY 96.
    After the project was officially canceled, the project 
underwent an exhaustive audit to determine final eligible cost 
prior to being officially closed out. This close-out audit has 
been completed and final figures on the project are provided 
below:
    Amounts originally obligated to the project: $115,970,276.
    Amounts deobligated and reprogrammed: $86,525,158.
    Amounts obligated and drawn down on the project: 
$29,445,118. [spent on eligible items-verified by final audit]
    The final close-out audit found only about $2.1 million of 
the $31.5 million spent on the circulator project to be 
ineligible. The City of Chicago has reimbursed FTA for that 
amount.

                        wmata oversight staffing

    Mr. Wolf. On a controversial issue, local, close to home, 
over the previous two years, the Committee has been concerned 
about the staffing of the WMATA oversight and has discussed 
this issue in our reports.
    We learned not from you but from the general manager of 
Metro that you decided to transfer the oversight of WMATA from 
Washington, D.C. to Philadelphia.
    I know that Philadelphia has better hoagies and better 
cheesesteaks than Washington, but that is not a good enough 
reason to change. We had asked you to reconsider. You then 
refused. Because Metro is here in Washington and it makes more 
sense to administer its oversight here than back there, the 
committee was forced to include bill language requiring you to 
maintain the WMATA oversight from FTA's headquarters. In 
addition, the conferees provided two FTEs to provide the 
oversight.
    Last year I learned that you terminated the existing 
staffing arrangement and disbanded the experienced WMATA team, 
transferring or detailing the individual employees to unrelated 
duties. We questioned whether the new staff was experienced 
with WMATA. We were particularly concerned because of the then-
pending NTSB investigation, of which you are very much aware.
    We learned that the senior person assigned to WMATA 
oversight was also assigned to the primary responsibility for 
the Olympics.
    During the hearings last year in response to my specific 
question, ``What percentage of his time deals with the 
Olympics?'', you replied, ``Very small.''
    We have since learned that between the date of our hearing 
and the close of the Olympics, he spent more than a very small 
percentage of his time on the Olympics. He travelled several 
times to Atlanta, posed with the Vice President for a photo op. 
In fact, he did such a great job with the Olympics, and I am 
sure he did--I don't question the person's capability--he 
received a Secretarial level award and a large cash bonus 
specifically citing his Olympian efforts and not the WMATA 
efforts.
    He was subsequently promoted out of the WMATA oversight 
function to a high level position in your planning office and 
may very well be here today.
    Would a person receive a bonus if he just spent a very 
small percentage of time on the Olympics? I am really concerned 
that you may have misled the committee.
    We have worked hard on WMATA. We are coming down to the 
completion of the system. It is a well-run system. The new 
general manager is here. But oversight is very, very important, 
and it just seems that you have been resisting something that I 
don't think should be a very controversial issue.
    I don't believe that you are complying with the committee's 
specific instructions. It is not that we are asking you to 
lessen the FTA's oversight. We want you to have aggressive 
oversight.
    In August of '96, you temporarily assigned the title of 
WMATA team leader to a new deputy associate administrator for 
program management, someone with no previous experience in the 
oversight area. I am concerned that you haven't really complied 
with the law. I am concerned that you have been fighting the 
committee on something that ought to just be a slam-dunk; it 
ought to be something on which we can work together. Would you 
comment on that?
    Mr. Linton. Sure. Let me just say that we have two FTEs as 
requested assigned to WMATA. One of the individuals has ten 
years' experience working with the WMATA team.
    The other individual is a general engineer who had previous 
experience working on the urban renewal project in Washington 
related to WMATA, and has been there for 11 years.
    Both of those individuals are assigned to the WMATA desk in 
our office. They have no other assignments. They will continue 
to be there, and we have no plans of moving the WMATA to 
Philadelphia.
    I agree with the chairman. I myself personally have found 
the idea of having WMATA oversight in my office to be valuable, 
so I have changed my view on that.
    Mr. Wolf. You have changed your view?
    Mr. Linton. Absolutely. I strongly support it staying in 
the Washington office, and we have two staff members assigned 
to it, and if I can get additional resources, I will assign 
another one.
    There is no reluctance on my part, and in fact, as we may 
talk about WMATA later on this afternoon----
    Mr. Wolf. We will.
    Mr. Linton [continuing]. I think there are some major 
opportunities and good reasons for both the oversight to be in 
the office in Washington and major benefits, not just for you 
and I but also for the nation in terms of WMATA being a 
laboratory for a lot of things that we would like to do. So it 
gives me, the administrator, a lot more personal time as well 
to work with that staff in our office as well as their staff on 
a number of those projects.
    Mr. Wolf. I am glad you changed your mind, because that is 
what we thought, and therefore, I am not going to press you on 
the guy's Olympic award as to why, but I do think it is good, 
and so the rest of the questions, I will just submit for the 
record and we will move on.
    I had some other questions, but you have raised my comfort 
level.

                     wmata oversight/ada compliance

    Mr. Wolf. I will cite for you one example where a serious 
problem has arisen with WMATA which you have not properly 
addressed. In April, 1995, you and your general counsel, 
without consultation with any technical staff, agreed to grant 
WMATA a determination of equivalent facilitation for the use of 
an undeveloped, unproved, and untested technology to comply 
with the ADA requirements. WMATA has been unable to meet the 
deadlines and has been granted by you a time extension with 
another one pending. Despite the fact that you had a WMATA 
project management oversight contractor under contractor for 
several years, it was not until a few months ago that you asked 
for a technical review of this situation. Why did you wait so 
long to review this situation?
    [The information follows:]

    In approving WMATA's request for a finding of equivalent 
facilitation, it was clear that WMATA would have to undertake a 
product development program to produce the Infrared Integrated 
Indicating System. Granting this finding was entirely 
consistent with the provisions of the Americans with 
Disabilities Act Accessibility Guidelines (ADAAG) and FTA's 
long standing policy of easing the introduction of new 
technology into mass transportation service. Additionally, it 
appeared to be a worth while effort to provide an acceptable 
alternate to this installation of the detectable warning 
surface required by ADAAG that, you will recall, had been 
resisted so strenuously by WMATA. Moreover, such a 
detectability system might have other applications that would 
prove to be beneficial to persons with visual disabilities. 
Allowing WMATA Alternatives under a grant of equivalent 
facilitation was strongly supported by Congress, including this 
committee. This committee encouraged FTA to test the proposed 
detectability system on the WMATA system because WMATA is a 
well run, long system.
    The FTA acted in good faith in accepting the installation 
schedule proposed by WMATA. It is now clear that WMATA did not 
understand the time required to bring this product from concept 
to reality. In approving WMATA's first request for a six-month 
time extension, FTA was provided with an accelerated and 
amplified installation schedule. There was no hint, at that 
time, that the product development process was not proceeding 
well. However, with the second request for a six-month time 
extension, submitted just days before a critical installation 
milestone date, it became apparent that this development 
process was in trouble. At that time I assigned the WMATA 
oversight contractor to investigate the program.

    Mr. Wolf. Now, a law suit is pending [filed September 3, 
1996] against not only WMATA but FTA and DOT. The ADA 
legislation required that key station comply by July 26, 1993. 
Here we are nearly four years later. I have learned that your 
PMO contractor has estimated that it could take an additional 
24 to 33 months for WMATA to implement this system. Do you 
intend to grant WMATA another extension? On what basis?
    [The information follows:]

    I have deferred a decision on WMATA's request for a further 
extension of time to install the Infrared Intergrated 
Indicating System (IRIIS) in the twelve stations of the 
Metrorail Yellow Line to give WMATA an apportunity to review 
the Project Management Oversight contractor's report and 
examine the continued viability of the IRIIS prototype 
development. By mid-April WMATA is to consult with FTA as to 
whether WMATA should complete the development of IRIIS.







    Mr. Wolf. It appears that it was your personal decision to 
allow WMATA to go forward with this inventive technology. If 
WMATA is held accountable, shouldn't you also be held 
accountable?
    [The information follows:]

    The Americans with Disabilities Act (ADA) guidelines issued 
by the Access Board permit departures from particular 
requirements of those guidelines ``where the alternative 
designs and technologies used will provide substantially 
equivalent or greater access to and usability of the 
facility.'' The concept of equivalent facilitation derives from 
language in the Report of the Committee on Education and Labor, 
accompanying the ADA, in which the committee stated its intent 
as follows: [T]he regulations will include language providing 
that departures from particular technical and scoping 
requirements, as revised, will be permitted as long as the 
alternative methods used will provide substantially equivalent 
or greater access to and utilization of the facility. Allowing 
these departments will provide public accommodations and 
commercial facilities with necessary flexibility to design for 
special circumstances and will facilitate the application of 
new technologies.'' H.Rept. 101-485, Part 2, p. 119. The same 
language is found in Senate Labor and Human Resources Committee 
Report accompanying the ADA when it was introduced in the 
Senate the previous year. S.Rept. 101-116, p. 70.
    In April 1995, acting within this authority, I found that 
WMATA's current platform edge safety system, when supplemented 
by the installation of new technologies, satisfies the 
equivalent facilitation standard.
    That decision is currently under review in federal district 
court; if the court upholds the decision, the plaintiff's claim 
against WMATA alleging a violation of the ADA will be resolved 
in WMATA's favor.
    In November 1996, all parties filed motions for summary 
judgment. FTA and DOT urge that the equivalent facilitation 
decision was a reasonable exercise of authority, is supported 
by the record, was rendered after ample opportunity for 
consultation with the American Council of the Blind and other 
representational groups, and is entitled to deference in light 
of the legislative history and the Access Board's explicit 
authority that the FTA Administrator has the latitude to grant 
such determinations. The court has not yet acted on the pending 
motions.

          operating assistance under reauthorization proposal

    Mr. Wolf. I had a question about a phase-out of operating 
assistance, but I think you have told me that you tend to agree 
with us on the phase-out. I am not trying to put words in your 
mouth, but you gave me the indication.
    What are your feelings? We don't have to go into great 
detail and I am trying to move along so that everyone is not 
kept here too late.
    Do you support the concept of a phase-out or working with 
the Committee on this?
    Mr. Linton. Mr. Chairman, I would like to work with the 
committee.
    Mr. Wolf. I mentioned the gentleman from SEPTA does not 
share your opinion that elimination of transit operating 
assistance will not be a problem. I am not raising SEPTA 
because you are from Philadelphia, but I raise SEPTA because 
Mr. Foglietta raised it, and the gentleman was from one of the 
largest transit authorities that testified.
    Mr. Linton. Mr. Chairman, as you know, I spent a 
significant number of years on the SEPTA board.
    Mr. Wolf. I know that.
    Mr. Linton. I was the driving force in the state 
legislation that was passed in 1991 which I sponsored which was 
enacted into law that provides a lot of resources for SEPTA. I 
battled for them for years even prior to being on the board.
    I am keenly aware of SEPTA's problems and dilemmas. I 
shouldn't say this on the record, but I also have heard from 
someone in SEPTA who said that this proposal would be a great 
idea during the years in which they would not have a senior 
member on the committee and would not have the good access to 
some of the resources that are available as a result of that. 
That came to me from a member of the SEPTA staff, but I will 
not name that individual.
    We will work with you on this issue and we will pursue it 
further.
    Mr. Wolf. What outreach activities do you plan to assist 
transit authorities in adjusting to the new definition and to 
mitigate any sudden loss?
    Mr. Linton. I think we strongly agree with you.
    We recognize that when you make these kind of changes, 
there is an educational process that must take place, and we 
have already talked about putting together forums with APTA so 
that the definitional changes can be implemented and also using 
some consultants if we have those available to work with 
transit systems individually to show them how they can take 
advantage of this, our state infrastructure banks, and a number 
of the other innovative techniques that we will have that will 
allow them to get more resources.
    Mr. Wolf. During the 1980's, all transportation sectors saw 
increases in productivity except for public transportation 
which fell 40 percent. Studies have shown that most federal 
transit dollars went directly into wage and benefit increases 
for transit workers rather than into improved services. What 
leads the FTA to believe that permitting areas of population of 
less than 200,000 to use of all of their formula funds for 
operating costs will improve transit agencies' efficiency and 
improve transportation services?
    Mr. Linton. Yes. Our new proposal will give properties 
under 200,000 more latitude to use operating aid than they had 
before. You are correct.
    We also recognize in the last couple years when there were 
reductions in operating assistance that there was some effort 
to hold those properties harmless because it was felt that they 
were disproportionally impacted on by a reduction in the 
operating costs that took place in previous years.
    We think that this just gives those properties the 
flexibility to deal with the same needs that the committee felt 
they were vulnerable to when the committee decided to provide a 
hold harmless provision. We just decided to give them the 
flexibility of being able to use that if they so chose to do 
so, but we expect that many of these properties will continue 
to focus on capital, on purchasing buses and vehicles. But 
under this new provision, we will give them the local decision-
making ability to have more flexibility.
    Mr. Wolf. How long do you propose to give them that 
opportunity?
    Mr. Linton. That is a continuation in our reauthorization 
proposal for the entire six years.
    Mr. Wolf. While FTA is proposing to more broadly define 
allowable capital expenditures to include associated capital 
maintenance, FTA is proposing to eliminate the transit 
operating assistance program entirely, in one fell swoop, for 
all properties except for the smallest transit authorities. If 
this proposal were adopted, I would imagine that a new 
adjustment period would be necessary for transit properties to 
fully understand what operating costs could be defined as 
capital expenditures and for the properties to seek other local 
sources of funds to make up any shortfall. Why did FTA not 
believe a phase-out of the program or a safety net was 
necessary and propose instead an abrupt termination?
    [The information follows:]

    This proposed approach is in the budget because transit 
agencies have sufficient maintenance resources whicb can be 
reallocated from an operating to a capital expenditure making a 
phase out unnecessary. Moreover, grantees already have the data 
management systems in place to take advantage of the revised 
capital definition and accounting changes will not be 
necessary.

    Mr. Wolf. The general manager of SEPTA testified before the 
committee that such a termination would add a tremendous strain 
on an already troubled and old transit property like SEPTA. 
Does FTA not share these concerns?
    [The information follows:]

    Our analysis indicates that SEPTA will be able to mitigate 
the effects of the operating assistance elimination by using 
the revised definition of preventive maintenance. In FY 1995, 
SEPTA used $24 million in Federal operating assistance. In the 
same year, SEPTA's maintenance expenditures were $200 million, 
an amount eight times greater than the Federal operating 
assistance used. Therefore, if SEPTA reallocates approximately 
one-eighth of current maintenance expenditures from operating 
to capital as allowed by the redefinition, the elimination of 
operating assistance will be mitigated.

                             program levels

    Mr. Wolf. The fiscal year 1998 budget request for transit 
programs of $4,380,000,000 is essentially a straight-line 
budget request when compared to the fiscal year 1997 enacted 
budget. Yet, I know you would agree or hope you would agree 
that the majority of transit systems, particularly the larger 
ones, will see a net decrease from last year's level if your 
budget is enacted since the access to jobs and the rural 
technical assistance programs are to come off the top, and you 
have proposed a reduction of almost $130,000,000 or 17 percent 
in rail modernization.
    Mr. Linton. I am not sure that the computer printout that I 
have shows that.
    Mr. Wolf. What does it show?
    Mr. Linton. In fact, it seems to indicate that there are 
more winners than there are those that have less resources in 
the new formulation.
    I am sure that we will submit that to you for the record, 
but I think the charts that we have will reflect that.
    Mr. Wolf. You can submit it for the record, but if you have 
something there that you want to refer to now, or if you want 
to wait for the record.
    Mr. Linton. I think we will submit them for the record, but 
we do have this information that is here.
    [The information follows:]

    The following table shows that 315 of the 406 urbanized 
areas are winners. In large areas, 62 percent are winners. Each 
of the losing urbanized areas had a significant bus earmark in 
fiscal year 1997 that cannot be guaranteed in fiscal year 1998.

[Page 1074--The official Committee record contains additional material here.]


                     innovative financing programs

    Mr. Wolf. The Administration proposes $2,000,000,000 for 
innovative financing programs to be administered by the Federal 
Highway Administration. How will FTA ensure that it has a place 
at the table and that transit capital projects have an 
opportunity to take part in these programs?
    Mr. Linton. Let me just say that those programs will 
include items such as state infrastructure banks. The first ten 
state infrastructure banks that we approved a couple years ago, 
out of those ten, I believe eight or nine of those actually 
have transit provisions within their SIBs.
    Mr. Wolf. What is the most transit one?
    Mr. Linton. I don't know the dollar amount, but both the 
FHWA and FTA administrators have had the responsibility of 
signing off on the certification for those programs.
    Mr. Wolf. You said that they had a large, but what of the 
ten had the most transit involved?
    Mr. Linton. The ten projects to date have not expended 
money. What they have put in place were the procedures where 
they could in fact spend money on transit or highways, and I 
believe eight or nine of the ten have put in place procedures 
so that they could spend money on transit.
    We saw that as a plus, because they had the option of going 
one way or the other or both. We won't know until, I guess, May 
of this year what the actual expenditures have been of those 
ten and how they begin to spend the funds.
    We are also working with FHWA as we both review the 
proposals from the additional states that were authorized in 
the statute in 1997. We will also have the same role as we try 
to expand this to all 50 states in our reauthorization 
proposal.

                      formula grant consolidation

    Mr. Wolf. A major change in the budget is the consolidation 
of all formula driven grant activities under the formula 
program to allow for greater flexibility and predictability at 
the local level. That sounds good, Mr. Administrator, but if it 
is such a good idea, why do you think the American Public 
Transit Association and its 1,100 members state ``the existing 
program structure is right for the transit industry and [its] 
customers''?
    [The information follows:]

    I have discussed FTA's fiscal year 1998 program with APTA 
and I can assure you our budget is designed to improve the 
nation's transit systems; and I will defer to APTA to describe 
directly to you their support or concerns about specific 
Administration proposals. I will state that our proposal does 
move the ``discretionary'' element of the Bus and Bus Related 
and Fixed Guideway Modernization programs from Washington, D.C. 
to the state and local level, and that is a good thing for APTA 
members and transit's customers. Moreover, our proposal 
continues the long-standing support for both bus and rail 
modes, and historic and new fixed-guideway systems. The greater 
flexibility and predictability FTA's proposed funding 
categories will improve on past, more rigid budgets by allowing 
for more direction of resources to needs. I anticipate further 
discussions about the budget with you and with interested 
parties such as APTA and am certain that our proposal is sound.

                     capital versus operating costs

    Mr. Wolf. The budget justifications indicate that the 
definition of capital will be expanded to include costs 
associated with preventative maintenance, as you referred to 
earlier. Does this differ technically with the President's 
budget, and if it does, how does FTA propose to change the 
definition of capital costs?
    Mr. Linton. The present budget is built on and accommodates 
that definition. Both our reauthorization proposal which the 
President announced last week as well as the 1998 budget that 
we are submitting to your committee for review is based upon 
that expanded definition of capital.
    Mr. Wolf. Two years ago, this Committee included language 
that broadened the definition of capital expenses. How have the 
transit authorities responded to this new flexibility and has 
the FTA seen a decline in the aggregate amount of federal 
operating assistance that transit systems seek under the 
formula program?
    [The information follows:]

    FTA implemented the capitalization of vehicle overhauls in 
March, 1996, about mid-point in the fiscal year and many 
grantees had already applied for their grants earlier in the 
year. FTA allowed those grantees to utilize the vehicle-
overhaul program through budget amendment. Statistical data on 
the overall use of the program will not meaningful until after 
a full fiscal year grant cycle. Initial reaction by grantees 
has been very positive, and the capitalization of vehicle 
overhauls funds has been accelerating. As of mid-March, 1997, 
over $64 million of federal funds have been provided under this 
program.

    Mr. Wolf. At the time the definition was changed, the FTA 
thought that it would mitigate the reductions of $200,000,000 
in operating assistance on a dollar-for-dollar basis. Now, in 
fiscal year 1998, does the FTA again expect that the proposed 
changes will mitigate the elimination of $400,000,000 in 
operating assistance on a dollar-for-dollar basis? Upon what 
evidence do you base your conclusion?
    [The information follows:]

    FTA analysis indicates that with the capital redefinition, 
the amount of expenditures transit agencies will have available 
to reallocate from operating to capital is approximately eight 
times greater than recent Federal operating assistance used.
    For example, in FY 1995, transit operators in areas over 
200,000 population (the areas affected by the proposed change) 
accounted for $163 million in Federal operating assistance 
expenses. In the same year, these operators had $5.2 billion in 
maintenance expenditures; maintenance expenditures which would 
be classifed as capital expenses under the proposed definition. 
Consequently, if transit agencies reclassify only a portion of 
current maintenance expenditures from operating to capital as 
allowed by the proposed change, they would be held harmless.
    Out confidence that operators will successfully employ the 
new definition, combined with the other benefits of the 
proposals such as harmonizing the transit and highways capital 
definitions and protecting the Federal capital interest, make 
this a very sound proposal.

    Mr. Wolf. FTA does not anticipate the current outlay rates 
used for the capital portion of the formula grants program to 
change significantly due to allowing preventative maintenance 
to be defined as an eligible capital expense. Why does FTA 
believe this to be the case--have, for example, formula grant 
outlays not increased due to changes made a year ago in the 
interpretation of associated capital maintenance and bus 
rehabilitation?
    [The information follows:]

    Outlay rates are not expected to change with the 
redefinition of capital based on the actual experience of the 
Federal Highway Administration. Including maintenance as an 
eligible expenses in the Federal-aid Highway program did not 
result in an increase in their outlays.
    Actual FY 1996 outlays were actually lower than originally 
estimated in the beginning of the fiscal year, in spite of the 
changes made to associated capital maintenance and bus 
rehabilitation?

                       rail modernization formula

    Mr. Wolf. What is the FTA's position on APTA's 
recommendation to modify the rail modernization formula? Do you 
believe that newer areas receive a fair take of rail 
modernization funds and how have your relationships been with 
APTA?
    I understand they have some sort of an agreement that they 
were meeting and came up with some ideas.
    Mr. Linton. I understand we weren't involved in the 
negotiations or the discussions.
    Mr. Wolf. But they must talk to you, though.
    Mr. Linton. Well, you know, quite frankly, it was not 
something that was shared with the administration. In fact, it 
was not something that was shared with me.
    I only heard about it as a side-bar conversation. As a 
result of that, I am not familiar with the details. We still 
have to examine the proposal. However, I understood that the 
source of the resources that they are going to use to make the 
change as they are suggesting is going to come from the 
oversight money, that they will use the money that we currently 
use for oversight to make the adjustment.
    There will be no money available to do the oversight that 
the IG and everyone else has been insisting for years that we 
do. That money that is being taken off the top now for 
oversight will be used to make this adjustment in the rail mod.
    That is what I have heard, but I haven't seen it.
    Mr. Wolf. Does that make sense to you?
    Mr. Linton. No, it doesn't. It is clear, with the number of 
projects that we have, that we need to maintain the federal 
oversight of the use of funds in construction, and we don't 
have any other source to be able to do that.

                       overmatch--reauthorization

    Mr. Wolf. What about an overmatch? Mr. Pastor mentioned 
overmatch, and you mentioned the Dallas overmatch, if my memory 
serves me earlier.
    What about the ratio formula change? Do you think highways 
and transit should be the same?
    Mr. Linton. Our reauthorization proposal is silent on that, 
I believe. ISTEA provides a provision that encourages 
overmatch, and we have increasingly seen that. That is why I 
have cited the Dallas project as well as the Queens Connector 
in New York project. We are seeing more and more projects where 
there is both overmatch and also local governments going 
through tax referendums to provide local support. That was done 
in Baltimore and in Denver where the local governments have 
paid for the first one or two segments of a system with their 
own local money and then come to the federal government for 
support of the extensions.
    We have seen more and more of that happening, and we think 
it is a good thing to encourage.

                      new starts--rail versus bus

    Mr. Wolf. While proposing to fold a number of transit 
programs into a new formula program, the Administration 
continues the new starts program. Would you agree that the 
current system of providing federal funds specifically for 
fixed-guideway, new starts systems induces metropolitan areas 
to pursue more costly, less flexible systems compared to 
flexible route transit systems such as buses which can use 
rights-of-way that are shared by other vehicles, i.e., Houston?
    Mr. Linton. Let me----
    Mr. Wolf. You mentioned a statement that we made. We raised 
that issue. What are your thoughts--I hope we are just not 
getting locked into things because it was done that way before. 
What are your feelings about this?
    Mr. Linton. I do not and the agency does not favor rail 
over buses.
    Mr. Wolf. What percentage of the agency's budget goes to 
rail versus buses?
    Mr. Linton. I think it is probably a very small percentage 
if you look overall. The majority, the great majority----
    Mr. Wolf. Well, if you look at total spending for rail, 
everything.
    Mr. Linton. The great majority of the agency's money does 
go to bus. The new start projects themselves get a lot of 
attention, but that is only 25 percent or one-third.
    Mr. Wolf. One-third.
    Mr. Linton. A much smaller percentage of our overall budget 
is in fact in the new-start category, but that is the one that 
gets a lot of attention. A substantial portion of our funds 
goes to both maintaining and buying buses and bus-related 
facilities.
    Mr. Wolf. What percentage?
    Mr. Linton. 50 percent is going to bus.
    Mr. Walker. I am depending on the lady on the end.
    Mr. Wolf. And does that mean 50 percent on rail then? If 
you would just submit that and----
    Mr. Linton. Sure.
    Mr. Wolf. I am now operating on 50-50, but you can just 
submit it.
    Mr. Linton. Let me further answer your question if I may, 
Mr. Chairman.
    We are not showing any particular leaning towards rail or 
bus. In fact, the new start process is one in which the local 
governments are supposed to look at alternatives. We have found 
that many of them are moving towards rail, but we also have 
some that are moving--in fact, towards bus. In Cleveland, a 
project that was identified early on, the Euclid Corridor 
project was one that we asked to be reprogrammed.
    That was initially identified as a rail project, and after 
going through the alternative analysis and MIS, they chose to 
go to an enhanced bus plan and take the lower cost alternative. 
We readily will enter into an agreement with them on making 
that choice.
    [Additional information follows:]

    Of the total funds obligated under FTA capital programs for 
FY 1996, that is $4,250.8 million, 41 percent funded bus 
capital needs while 59 percent funded traditional rail 
modernization and new rail starts activities.

    Mr. Wolf. But does that happen a lot? That is not your 
fault necessarily, but does that happen a lot? A rail comes up, 
and I am going to jump ahead and get into some of these rail 
questions on new start funding and oversight, but does that 
happen a lot?
    Mr. Linton. It does not happen a lot. The vast majority of 
projects that are coming out of the new start pipeline are 
focused on heavy rail and light rail, but let me just say that 
we do have projects like the Pittsburgh Busway. We do have 
projects as you referenced, the Houston Regional Bus Plan.
    I just made reference to the Euclid Corridor project. We 
have a very interesting project in Oregon, in Eugene, Oregon, 
where they are going to look at a very, very exciting bus 
guideway system that we think has tremendous possibilities in 
other locations around the country.
    We do not dictate but we think that there are other systems 
that should be looking at other options and not just pursuing 
the areas of rail as well.

                            formula changes

    Mr. Wolf. As we discussed earlier, a major change in the 
budget this year is the consolidation of many transit programs 
under a new formula. Should transit capital assistance be 
allocated to states and localities in a way that mirrors 
federal aid highway assistance to guarantee a minimum return on 
the taxes that they send to Washington?
    Mr. Linton. Our federal----
    Mr. Wolf. If that were the case, how would that work? I 
mean, I know how the mechanics would work. I would like for the 
record if you could just submit to us a model, if you will, 
based on that, assuming that we had the same program in federal 
highways that we have in transit or vice versa, how would the 
different areas do based on that, and I would just like to get 
your thoughts on it.
    Mr. Linton. I think we can try to do a commuter run and see 
if we can get that information to you.
    Clearly, our transit formula program is based on a number 
of variables including miles, population, density, and a number 
of variables that are put within the formula. The purpose of 
that is to try to direct the money to the areas where the needs 
are.
    It is clear to me that there are transit-intensive areas 
where the needs and the population densities as well as the 
mileage utilized indicate a need for additional support. I 
think if we look at the nation as a whole, and as we look at 
all of our federal funds, we try to deal with the needs within 
this nation and sometimes, that means in some programs that one 
city or one state is being helped because they have that 
particular problem and other cities do not have that problem 
and they don't get those resources.
    That is what I think is the nature of federal government, 
so I actually support the current structure that we have, but 
we will provide for you a run that will show something that 
will parallel what is done with highway funds.
    [The information follows:]

[Page 1080--The official Committee record contains additional material here.]


                      transit formula distribution

    Mr. Wolf. Why did the Administration not seek to change the 
allocation formula under the transit formula grants program? Do 
you believe that the current formula represents the best 
distribution or is better than other alternatives?
    [The information follows:]

    We believe that the present formula provides a good 
distribution based on related transit needs. The formula 
includes a transit service level and urbanized area 
characteristic factors. Service level is represented by fixed 
guideway route miles and revenue vehicle miles and bus revenue 
vehicle miles. Urbanized area characteristics include 
population and population weighted by population density. In 
addition, there are incentive tiers designed to reward system 
efficiency and effectiveness, which include bus and fixed 
guideway passenger miles and weighted by passenger miles 
divided by operating costs. The formula provides relatively 
higher amounts to areas with higher population, population 
density, transit service levels, and efficient and effective 
transit service. The weights included in the formula fairly 
distribute funds between those areas with large amounts of 
existing service and those with potential needs for service. 
All in all, the formula does a good job of allocating resources 
to areas with the most need for transit.

    Mr. Wolf. FTA seeks to level the playing field between the 
highway and transit program by expanding the definition of 
allowable capital expenditures to include maintenance of 
capital assets. Similarly, does the FTA propose to apply the 
two-year Byrd test of solvency to the Mass Transit Account 
rather than the current one-year Rostenkowski test? How would 
such a change affect FTA's ability to fund new projects?
    [The information follows:]

    The NEXTEA reauthorization proposes to use the Byrd 
Amendment solvency test to assure that current commitments of 
the Mass Transit Account are covered by its financing and to 
bring us more in-line with the highway program.
    The intent of the Byrd and Rostenkowski amendments is to 
assure that the Highway and Mass Transit Accounts remain 
solvent. If, for any year, the unfunded authorizations are 
greater than the estimated income for the next one or two 
years, as appropriate, across-the-board cuts in transit or 
highway apportionments are required. By using the Byrd solvency 
test, the Mass Transit Account is able to support a fully trust 
funded authorization level of $30.8 billion over the six years 
of NEXTEA. However, the Rostenkowski solvency test would fail 
in the sixth year.

                new starts full funding grant agreements

    Mr. Wolf. The budget today you present reduces funding for 
new starts $170,000,000 below the levels contained in the full-
funding grant agreements signed by FTA. In doing so, project 
costs will increase and further strain FTA's portfolio in the 
outyears.
    Under such circumstances, how can we be sure we don't 
penalize existing projects and cost-effective proposed projects 
by making new commitments to big-ticket projects with 
questionable cost-effectiveness?
    Mr. Linton. Let me just say that we, like all of us, are 
constrained by the desire to balance the budget by 2002. As we 
constructed our budget submittal, we were both guided by a 
desire to continue our commitments and the investment in the 
infrastructure and, at the same time, to try to meet the goal 
of balancing the budget by 2002.
    We believe that the proposal that we submitted, even though 
it is less than the schedule that we had worked out with the 
various FFGA grantees, is one that will allow us to meet our 
commitments by the end of ISTEA-II or NEXTEA, and will still 
allow these projects to move along on a good pace to 
completion.
    In addition, the authorization level in our NEXTEA proposal 
would allow us to raise those individual appropriations in 
future years if the economic conditions warranted.
    Mr. Wolf. I think the economic conditions will be more 
difficult from the budget point of view each year. This year, 
we are faced with big problems, and next year, it is going to 
get worse.
    The committee is looking at the whole FAA. We have a big 
hole in FAA's budget and nobody wants to reduce funding 
aviation safety. I don't know what is going to happen.
    The budget requests $634,000,000 for new starts. If this 
level of funding is sustained over the next several years, 
which we don't even know if it will in FTA will not be able to 
issue another FFGA until the year 2003. What do we tell the 
other transit systems that are preparing for federal 
participation in their projects? Do you just say the cupboard 
is bare?
    Mr. Linton. It is my impression that if we pay out in the 
outyears for the projects that we currently have FFGAs, or 
propose FFGAs, that the commitment would have to be made in 
NEXTEA to the tune of about $3,700,000,000.
    Mr. Wolf. What about if you sign full-funding agreement--
you are ready to sign two more full-funding agreements?
    Mr. Linton. We are including those in that number.
    Mr. Wolf. When are you going to sign them, if you do sign 
them?
    Mr. Linton. We are not able to sign a full funding grant 
agreement with Sacramento. We do have some issues with the 
available authorization.
    Mr. Wolf. If you didn't sign the full-funding agreement in 
Sacramento, and I am not against any of the projects. I want to 
make that clear. The difference there would be a savings of 
about $103,000,000.
    Mr. Linton. That may be correct.
    Mr. Wolf. So when would that be available for new projects? 
In the year 2003?
    Mr. Linton. Actually, it will depend on the authorization. 
If in fact, we look at the current level of authorization which 
has been in the area of $5,000,000,000, our commitments into 
that authorization would be $3,700,000,000, so there will be 
money within----
    Mr. Wolf. When would that be paid by? When would they be 
finished?
    Mr. Linton. Some of them go out to the end of the 
authorization.
    Mr. Wolf. That assumes a fully authorized level, and we 
have never been at that level. I think you see the point that I 
am trying to make. If you would want to comment----
    Mr. Linton. Let me just say once again that we proceeded as 
the authorization legislation suggested that we proceed, and we 
may in fact have the same dilemma in ISTEA-II. The issue will 
come down to the deliberations that will take place with the 
Congress as to how it is decided to proceed with major capital 
investments.
    We have offered our reauthorization proposal, but our 
reauthorization proposal does not speak to how Congress will 
deal with issues of identifying projects for the next 
authorization.
    Mr. Wolf. If the FTA cannot fund within the existing 
budgetary constraints the 13 full funding grant agreements that 
have already been signed, why is the FTA so eager to sign two 
additional full funding grant agreements that will commit the 
agency to an additional $1,000,000,000? Shouldn't we finish 
what we have started before we initiate new ones?
    [The information follows:]

    The reduction applied to FTA's new starts budget in the 
President's fiscal year 1998 budget request was necessitated by 
the drive to achieve a balanced budget. The recommended level 
will allow these thirteen projects to continue their activities 
without incurring any consequential delays in project 
implementation schedules. Moreover, the proposed budget 
reduction in this category does not affect the President's 
original commitments to these projects. Those commitments stand 
as pledged.
    Also, this reduction does not signal any lessening in the 
President's overall commitment to mass transit. This 
Administration remains willing to provide long term 
commitments, within existing commitment authority, to projects 
which meet the new start requirements and are ready to proceed 
into construction. The extension of BART to the San Francisco 
Airport and Sacramento's south LRT extension are projects which 
have met these requirements. It should be noted that the 
commitments made to date are within the commitment authority 
provided by the Congress in ISTEA and comply with Congressional 
direction made with regard to projects specified in ISTEA.

                        major investment studies

    Mr. Wolf. Last year, you indicated that FTA was aware of 53 
major investment studies currently underway throughout the 
country that may lead to requests for section 3 new start 
funds. What is the number today? It was 53 last year. Is it up 
any at all?
    Mr. Linton. I think there are 68 that we know of now in the 
pipeline.
    Mr. Wolf. So from last year, it went from 53 to 68. Again, 
you can see the problem.
    There was a rumor that we have heard that a nationally 
respected engineering consulting firm was touring the country 
and approaching medium sized cities offering transportation 
systems analyses services. For a few hundred thousand dollars, 
these firms said they would look at the data, determine that 
the city would be well suited for a light rail. They 
subsequently suggested that the city obtain federal funding for 
preliminary engineering and even go so far as to provide the 
city the names of Washington lobbyists to better position them 
in the annual bidding for appropriations.
    These engineering consulting firms, some might say, are in 
it for the short haul, because they get their money up front. 
The cities would then be used to secure $20,000,000 or 
$30,000,000 for major investment studies, preliminary 
engineering, and design costs.
    Does this trouble you or have you heard this or does 
thistype of activity trouble you as the administrator?
    Mr. Linton. I haven't heard it. It does trouble me, but it 
doesn't surprise me. It is clear that as properties leave the 
Hill and have discussions with their members, they often find 
themselves in my office, and many of them come with their plans 
for their future projects.
    As I stated earlier in part of our discussion, I am always 
very clear in discussing the magnitude of demand and the limits 
of the resources. I guess sometimes, individuals come to my 
office with great smiles and they leave with sad faces, but I 
think it is important to be responsible in giving people 
accurate and clear information.
    I would hope that we do that as we go through the 
deliberations of NEXTEA, that we set out a process that clearly 
identifies priorities. That we set out a process that clearly 
identifies fairness, and we set out a process that lets people 
who are in this pipeline know what the realistic expectations 
are for their projects so that if the resources won't be here, 
they can explore other resources such as state infrastructure 
banks, bond financing, and the federal credit program that we 
hope to have initiated in our reauthorization proposal.
    We would hope that that kind of discussion takes place in 
the deliberation of NEXTEA.
    Mr. Wolf. I am going to ask one more question and then 
yield to Mr. Pastor to see if he has any questions.
    I think part of your role should be to be the defender of 
the weak, also, to speak out on some of these issues, because 
who you hire to represent you might not be an indication of how 
successful you are.
    My mom never drove. We lived at 70th and Reedland, just up 
the street from Elmwood. You know where that is very, very 
well. People like that can't hire powerful firms in town to 
represent them.
    I see things going on that trouble me deeply. I see the 
Chinese are represented by powerful firms in this city. Back in 
the '60s and '70s and the '80s, no law firm would have ever 
represented the Soviet Union when they were persecuting those 
of the Jewish faith; they were persecuting Pentacostals; they 
were doing all that.
    Now, in China, we have Catholic priests in jail, Catholic 
bishops in jail. We have evangelicals in jail. We have 
persecution of Muslims, persecution of Buddhists. We have sold 
weapons to Saddam Hussein that were used to kill American 
soldiers. The Chinese have more gulags than the Soviet Union, 
and we have people clamoring to represent them.
    If you transfer that case out of there into this situation 
here, I think it is important that those who cannot maybe 
necessarily afford the powerful--I have nothing against anybody 
hiring anybody in town to represent them, but I do think you 
should almost be the defender of fairness, if you don't use the 
word weakness, whereby you can speak out and be bold on these 
issues, because there may be some areas that either can't 
afford to hire these people or maybe don't know that they 
should and end up getting shortchanged, where those who do, and 
I think you share my concern on this.
    Mr. Linton. I share your concerns, Mr. Chairman.
    Mr. Wolf. Let me just say, I am not being critical of a 
locality that does, but I just want to make sure that we are 
not discriminating against a locality that doesn't.
    Mr. Linton. Let me just say, Mr. Chairman, that to give you 
an example, it has been my feeling that the discretionary bus 
program has been one in which those who are more influential, 
those who have superior access, have been able to benefit 
versus the properties around the country who have been on our 
waiting list for years and have not been able to get those 
resources.
    That is one of the reasons why I was an advocate for the 
formalization of the bus discretionary program for that reason 
specifically. So that it balances out the resources and it 
makes everybody a winner overall versus some having the 
opportunity to win the bus discretionary lottery and have an 
angel that would take care of them versus those who were not 
fortunate enough to be in that position and left without 
resources.
    In trying to be the person who speaks out for those who are 
not represented, we sought to have that bus discretionary money 
formulized, so that equally across the board all the systems 
could benefit.
    Mr. Wolf. Mr. Linton, to date, how many of these major 
investment studies have produced capital cost estimates and 
what is the total capital cost of these fixed guideway 
alternatives?
    Mr. Linton. I will give some of my staff an opportunity to 
participate this morning, particularly since we have some new 
members of our staff who have new positions. We have Charlotte 
Adams who is our Associate Administrator for Planning who has 
the information on the MIS. That is something that comes under 
her purview.
    Ms. Adams. As the administrator mentioned, we no longer 
approve entrance into major investment studies like we did 
prior to ISTEA when we approved entrance into alternatives 
analysis. Therefore we don't manage the MIS caseload. We are 
monitoring and providing technical assistance for 68 major 
investment studies around the country, are considering major 
transit alternatives.
    Of those 68, 47 have an estimate to date of 
$43,000,000,000.
    Mr. Wolf. [$40 billion to $45 billion].
    Ms. Adams. In 1996 dollars, and that is the total transit 
cost, not necessarily the amount they would ask the federal 
government for. We don't know that yet. It is a little 
preliminary in the planning stage.

                     value engineering requirements

    Mr. Wolf. Does FTA require certain transit capital projects 
that have high estimated total costs be subject to value 
engineering? If not, why not?
    [The information follows:]

    FTA's Value Engineering (VE) policy is included in FTA's 
Grant Management Guidelines, Circular 5010.1B, dated September 
7, 1995 which stipulates that FTA requires VE on all major 
capital projects, including all new start projects. 
Additionally FTA's policy encourages the application of VE 
techniques on all construction projects.

                    financial reporting requirements

    Mr. Wolf. In response to uncontrolled expenditures on the 
Central Artery project, this Committee sought to enact 
legislation that would have required biannual and periodic 
updates of the project's finance plan. Language requiring such 
updates was considered in the National Highway Systems 
Designation Act but not included in the final Act. In your 
opinion, should this requirement be applied to transit capital 
projects as well? Do you, for example, currently require 
periodic updates of finance plans on large projects such as the 
LA Red Line and BART projects?
    [The information follows:]

    The Federal Transit Administration (FTA) requires that 
projects covered by Full Funding Grant Agreements (FFGA) submit 
a financing plan in support of the grant application before 
signing a FFGA.
    After review of the plan, FTA makes a determination if the 
grantee has the financial capacity necessary to carry out the 
project. FTA assesses the plan to determine if the funding 
sources are stable, reliable and available within the project 
timetable. the grantee is responsible all addition cost should 
the project develop overruns that exceed the projected project 
cost.
    In our FFGA's the grantees also certifies to provide the 
local financial commitment in an amount sufficient to assure 
timely and full payment of the project costs necessary to 
complete the project.
    On major projects such as the LA Red Line and BART, FTA 
also periodically monitors the grantee's financial plan to 
ensure that local funding sources are in place in support of 
the project. The financial plan also commits the grantee to 
provide financing for future operation and maintenance of the 
project.
    FTA's risk assessment process is designed to identify 
transit agencies that may have financial issues. Once 
identified, a Financial Management Oversight contractor is 
assigned to take an in-depth look into the grantees financial 
strength. FTA is geared to provide more routine financial 
capacity reviews of grantees responsible for implementing major 
capital projects in the future.

                     section 13(c) labor protection

    Mr. Wolf. Are there any changes that the Administration's 
proposing to reduce labor costs to transit agencies?
    We went through 13(c) last year, and we were not 
successful, and I don't expect that we will do it this year, 
but it does continue to come up.
    Mr. Linton. We are not proposing any changes in our statute 
that will change the current operations of 13(c).
    We are putting into statute some of the provisions of 13(c) 
that we have been doing operationally, but we are not making--
--
    Mr. Wolf. You referred to them earlier. You are not making 
any.
    Mr. Linton. That is right.

                    mass transit revenue for amtrak

    Mr. Wolf. On the effect of the half-cent from the mass 
transit account for Amtrak, what would be the programmatic 
effect if a half-cent were diverted from the mass transit 
account of the highway trust fund to create a new capital fund 
for Amtrak? Would such a proposal severely restrict FTA's 
contingent commitment authority and its ability to fund new 
starts?
    Mr. Linton. Yes, it would. It would tremendously if, in 
fact, the proposal came out of the mass transit account. I 
believe all the discussions at this point would not have that 
occur.
    Mr. Wolf. Does the Administration's NEXTEA proposal permit 
the use of transit formula funds for Amtrak capital or 
operating costs, and if so, under what circumstances?
    [The information follows:]

    In the fiscal year 1998 budget, the Department is 
requesting that $767 million be funded from the Highway Trust 
Fund for Amtrak. This includes $423 million for capital and 
$344 million for operating.
    Eligible transit capital grant activities (proposed Section 
3003) in NEXTEA include public and private vehicles and 
facilities that are used to provide intercity bus or rail 
passenger service. This definition would make certain Amtrak 
expenditures eligible for transit formula and other program 
funds. In urbanized areas over 200,000 population this would 
include capital expenses, and in urbanized areas under 200,000 
this would include operating and capital service.
    For the FTA administered funds to be used for Amtrak 
activities, an FTA grantee (e.g., a state or local transit 
agency) would have to sponsor the project. The increased local 
discretion over the use of these funds will support intercity 
transportation services which help tie local transit service 
into an intermodal system.
    We are committed to developing an affordable long-range 
plan that preserves the national passenger rail system and 
permits Amtrak to achieve its potential.

                      access to jobs and training

    Mr. Wolf. The budget requests $100,000,000 for a new 
discretionary grant program to state and localities to support 
new or modified service for low-income individuals including 
welfare recipients which you referred to earlier. Why is 
another new categorical discretionary grant program necessary 
in view of the $2,000,000,000 spent annually on transportation 
services by the Department of Health and Human Services under 
the Medicaid program and funding provided from other federal 
departments such as Veterans Administration, Education, Housing 
and Urban Development, and Labor through programs such as 
social services block grants, vocational rehabilitation, and 
the JOBS program, and through DOT's own existing grant formula?
    Mr. Linton. Mr. Chairman, let me just say that you are 
correct in that there is a substantial amount of money, and 
between $1.2 and $2 billion is probably accurate in HHS funds, 
but many of those programs are categorically restricted in that 
a substantial portion are Medicaid programs and therefore, must 
be used for that. Many of the programs are for the elderly and, 
as a result, can only be used for that.
    What we are seeking here is a program that can be used to 
continue our implementation of welfare reform.
    Mr. Wolf. If I could just interrupt you, and the reason I 
do, we are going to have a vote and then we will recess for a 
while.
    The Governors Association plans to initiate a pilot program 
to develop a transportation component in five welfare states. 
Should you be waiting for them to see what they do before you 
do this?
    Excuse me for interrupting you, but I wanted to make that 
point.
    Mr. Linton. That program is one of our initiation. In fact, 
I was the one that suggested to my staff that we need to begin 
to get the States' Department of Transportations, and labor, 
and welfare agencies to begin to look at how they coordinate 
their services to deal with this expanding need.
    That program is focused on trying to do that, but that 
program will still need resources to be able to implement the 
actual welfare-to-work programs.
    We think that the $100,000,000 that we have put in our 
reauthorization proposal, as well as the budget proposal, would 
allow those activities to take place. The activities themselves 
may come about as a result of the coordinated planning that 
will take place from those state agencies.
    Mr. Wolf. Well, APTA stated before the Committee that funds 
for the program should not--we are not arguing whether you 
should do this. Clearly, you should be doing this, but they 
should not be taken out of transit program's existing 
appropriated amounts as the Administration has proposed, and we 
were told that FTA took this same position during the budget 
formulation, but that you were overruled by OMB. Is that 
accurate?
    Mr. Linton. I understand APTA's position. Mr. Chairman, 
this is the proposal that we are supporting.
    Mr. Wolf. But it is nothing--I used to work for a cabinet 
secretary who was overruled by OMB every Friday afternoon at 
6:00. Were you overruled? I just wanted to know that.
    Mr. Linton. During the discussions, Mr. Chairman, we did 
have some different views on this particular item.
    Mr. Wolf. That is the concern, that you are taking funds 
out of the existing program.
    Are the discretionary awards that FTA expects to make under 
this program to be available only for start-up costs, and if 
so, considering the scarce federal and local resources for 
transit programs and the rising costs associated with capital 
needs, labor costs, and federal mandates, Buy American, et 
cetera, what makes the FTA believe these services will be 
sustained?
    Mr. Linton. What we are looking for in this program is 
collaboration from existing agencies. We are also looking for, 
in many of the programs, a 50-50 share. So we are looking for 
the local governments, the social service agencies, and others 
to bring their own resources to the table.
    We think that that provides a significant buy-in where they 
are putting up their own resources as well as ours.
    Mr. Wolf. I guess the key word is sustained.
    Mr. Linton. And that is why I think they will be sustaining 
them, because they are going to be putting up their own 
resources in trying to make the programs work. Several of the 
states, which I am very excited to hear about, are providing 
provisions to use the surplus of funds that they have from 
welfare reform to be used to do some transportation programs. 
They think they will be able to match what we provide with the 
resources that they will have as well.

               oversight of large scale transit projects

    Mr. Wolf. Moving on to another subject with regard to 
oversight. The GAO recently reported that cost management and 
cost containment are not a goal of FHWA's oversight and are not 
part of its organizational culture. As a result, Federal 
Highway has few requirements that ensure that cost containment 
is an integral part of large-dollar highway management. I 
suspect that the GAO would say the same about the FTA and its 
new starts program. At a time of scarce federal resources, is 
it time that FTA rethink its role in managing the costs of 
large scale transit new starts?
    Under the Central Artery project, we have now put together 
a team made up of the IG, the GAO, and the Federal Highway 
Administration. I have asked them to do the same thing with FTA 
on the LA project and the BART project and maybe some others, 
but with scarce federal resources, is it time that FTA rethink 
its role in managing the cost of large scale transit new 
starts?
    Mr. Linton. Absolutely. I think the question was asked of 
the Secretary and he responded in terms of the LA project that 
we will be doing a lot more intensive research and oversight 
than we have done in the past.
    For instance, in the LAMTA recovery plan, we have sent in 
our financial management oversight consultant to go in and 
begin to look at their books. This is something that we have 
not done in the past, but we are going to use those type of 
techniques much more in these kind of projects.
    Mr. Wolf. Maybe you could put together a team with GAO and 
IG. We have asked them to do that.
    Mr. Linton. That has also been discussed with the deputy. 
Just yesterday we discussed the possibility of being able to do 
that in Los Angeles as well.
    Mr. Wolf. What I am going to do is turn it over to Mr. 
Olver so he can ask any questions. Upon the completion, you can 
adjourn the hearing to give you a chance to get a sandwich and 
maybe return at 1:30. Is that convenient?
    Mr. Linton. That is fine.
    Mr. Wolf. Go ahead if you have any questions, if not, just 
adjourn.

                         attb and vehicle size

    Mr. Olver. Thank you, Mr. Chairman, and I will allow them 
some time to enjoy their lunch. I will be relatively brief.
    Since I have just come back in after having left, and I 
realize now that you are on an area that I had gone out with 
some questions just before, but I will leave the continuity of 
that for the Chairman to pick up when you start back up again.
    If I may just make a couple of comments and maybe a couple 
questions about an earlier set of discussions that you were 
taking on with Mr. Tiahrt from Kansas.
    The ATTB, I guess it is, is that correct?
    Mr. Linton. That is correct.
    Mr. Olver. I would have to go and find it again.
    Mr. Linton. Sometimes I do, too.
    Mr. Olver. I live in an area where my largest community is 
45,000 or so people. With each one of those larger communities 
in my district--there is about five of them that have some kind 
of smaller communities grouped around them and so forth, and I 
see similar to what Mr. Tiahrt had been saying, that a lot of 
rather large buses which are--I don't know how big they are; 40 
feet seems like a lot of bus, but I suppose--I don't know how 
many passengers.
    Is that a 36-passenger or something like that? What would 
that be?
    Mr. Linton. It is a 43-passenger bus.
    Mr. Olver. We are still talking about 43-passenger buses at 
a 40-foot bus, which is awfully large for a lot of our smaller 
transit arrangements.
    In Massachusetts, we have eight or ten regional transit 
authorities and most of them serve relatively small areas where 
you would rarely--I don't think in the largest of those 
regional transit there is, other than the Boston metropolitan 
area, the MBTA, that you would see a time when a 40-some-odd 
passenger bus was going to be full. Many of them are operating 
buses that are even larger.
    I am amazed, and maybe you could just say, I am amazed that 
this is an area where we have not gotten--we are still working 
on the prototype buses for even something in the 40-passenger 
range, and it seems to me we ought to be working on the 
prototypes in the 25- to 30-passenger range which would--
unless, in terms of economy of scale here, there is such small 
additional economy to be reached by having the smaller vehicle 
compared with now a 40-foot, 43--if I heard correctly, 43 
passenger, versus what so many of them are using, which are 50- 
to 60-passenger buses, which is even larger.
    Mr. Linton. Let me just stress this point because there 
seems to be some misconception in the industry that there is a 
requirement by the federal government that properties use a 
certain size bus.
    There isn't. It is definitely left up to local discretion 
as to what size buses they use. One of the reasons that the 
ATTB bus with its prototypes has started out with a standard 
size bus is that many of the systems that were initially buying 
into its development were systems that are larger systems that 
have major bus needs. This includes Los Angeles where they have 
a 2,000 bus system, and they carry over 1,000,000 passengers a 
day and the buses are overloaded, and they are making a major 
effort to try to replace them.
    They were the initial major partner in the ATTB bus 
development project. Another was Houston, where they have a 
regional bus plan that calls for very large buses. As I 
indicated earlier, we do have projects such as the Georgetown 
project with fuel cells, where we are working with a 30-foot 
bus as a prototype.
    The ATTB bus, we believe, can also be tailored to be a 25-
foot bus. It has the possibility of being altered and tailored 
to accommodate a smaller vehicle.
    Mr. Olver. Are we really doing the international research 
in this area? Everybody around the world is using buses which 
are much larger? It seems to me there must be lots of 
territories or maybe it is specifically territories here in 
this country where the regional transit organizations that I am 
talking about have anywhere from 15 to maybe 40 buses that are 
serving a population of 100,000 or so with a core and some 
communities around, and we--the 40-footers are just plain too 
big, and yet you point out there is no requirement that you 
have to buy larger than the ATTBs because that is what has been 
there for the most part, but why are we spending so much effort 
at creating one, an ATTB, a 40-footer, if there are already 
others on the market? Are there others in that range on the 
market?
    Mr. Linton. There are buses of all sizes within the market, 
and many of the properties are using both the buses the size of 
the ATTB and many of them are also using small buses.
    We do have many bus manufacturers who are making 25- or 30-
foot buses and many of the properties around the country are 
buying them.
    Mr. Olver. What are we--if a range of buses is available, 
either American or Canadian or other industrial country 
technologies, why are we then doing a prototype arrangement 
with six ATTBs?
    What are the features there that are so unique or critical?
    Mr. Linton. Let me go through a couple examples.
    It is made of composite parts, so it is a lightweight 
vehicle. It is about 10,000 pounds less than a normal size bus.
    It also has specific technology that is being utilized 
within it that we don't currently use in an integrated system 
in any other buses, so it offers those type of advantages.
    The reason that it was once again started with a 40-foot 
vehicle is because those who were partners in the project have 
a need for 40-foot vehicles. But it can, as I indicated, be 
tailored to a 25- or 30-foot vehicle for those in the industry 
who require it. Once it gets to the manufacturing stage, I am 
sure that those who are interested in manufacturing would make 
25- or 30-foot vehicles to respond to that market.
    It is a low-floor bus. It is easy to maintain. It is 
lightweight. The noncorrosive parts that are used to make the 
shell have long-term usage, a long-term useful life. Those are 
the kind of attributes within the vehicle that we are looking 
at and many members of the transit industry are excited about 
those particular areas of it.

                  attb and inspector general findings

    Mr. Olver. Well, since I guess I have opened a can here, I 
am not sure exactly what is in it. I notice that the Chairman 
had a couple of questions that would have been asked later in 
the process, so I will just finish this up and ask those for 
the record.
    My understanding is that you had based your support on the 
belief that that would provide a cleaner, safer, and most cost-
effective bus, but your Inspector General has informed the 
committee that while the ATTB will result in a cleaner bus, 
that we don't really have the data to know--to conclude whether 
that project is going to produce a safer and more cost 
effective bus.
    Do we now have those data or when will we get them?
    Mr. Linton. I don't disagree with the Inspector General. 
She indicated that the kind of testing that we are currently 
doing would not give us enough data and information to reach 
those conclusions, and that many of the tests that we are doing 
were being done with a prototype. They are being done in a 
laboratory environment. They are being done utilizing 
simulations from computers and other means. She is not 
suggesting that it will not have those results. All the 
Inspector General is suggesting is that we will be better able 
to determine whether or not those results are achieved once the 
bus is put in actual usage, which we hope to have happen over 
the next two years, when we will test it in revenue operations.
    Mr. Linton. That is correct.
    Mr. Olver. In place, and that will be done after the 
prototypes in operation?
    Mr. Linton. That is part of the purpose of the testing time 
that we will have. Once we have the six prototypes they will in 
fact be deployed in different sections of the country so that 
they can be tested in different environments, different 
conditions, and so that we can begin to measure some of the 
savings that we think will occur.
    Mr. Olver. Well, let me follow that with one other then. 
The IG found that a comprehensive life cycle cost analysis had 
not been performed to determine if it would be cost-effective 
to procure and operate the ATTB and that the analysis should be 
completed in order to make informed decisions to fund grantee 
purchases of the ATTB. Is your answer essentially the same or 
is there an additional answer to that?
    Mr. Linton. It is essentially the same. That is all part of 
the same testing that we agreed with the----
    Mr. Olver. When are the six prototypes supposed to be done?
    Mr. Linton. By 1998, I believe.
    Mr. Olver. By the end of 1998, some time in 1998. And when 
will we have those kinds of tests? Are we then not going to be 
pushing the purchase of ATTB until the kinds of tests that you 
have suggested that you want to do and the Inspector General 
has alluded to can be completed? When would that be?
    Mr. Linton. The vehicles will be ready around the end of 
1998 and you are correct about the testing period. Some of the 
testing will probably take place as the vehicles are coming off 
the assembly line. I think that even though the six will be 
completed at the end of 1998, some of them will be put in 
testing prior to 1998. And so we will begin to get some 
indication over the next year or two what some of these issues 
are as they are tested out.

                        attb and ada compliance

    Mr. Olver. One last comment. The gentleman from Kansas had 
also commented about asking what the floor of the bus was and 
so on. I am told that we put a lot of effort into making all of 
our vehicles recently handicap-accessable and those mechanisms 
especially in the northern areas are very unreliable, subject 
to great maintenance problems, and so we really do need and I 
trust that in this process maybe making the floor lower.
    After all, most of our cars only have about an eight-inch 
clearance and once you get in under that eight-inch clearance 
where your feet are probably not more than a foot off the floor 
it ought to be able to get them quite low. These buses are 
operating on pretty good highways except sometimes the potholes 
do get serious in our part of the country and it ought to be 
possible to make those mechanisms a lot more reliable.
    Mr. Linton. That is one of the major attributes of the bus, 
the fact that it is low floor. It is a low-floor bus versus 
having the multiple parts that many of us have to use with the 
lifts in other buses that sometimes malfunction. It is the hope 
that this bus will have the reliability and therefore the lower 
maintenance cost as a result of that.
    It is important for me to mention that we do have an 
advisory committee, a peer review team that is evaluating this 
bus throughout its entire development process and that the peer 
review team is representative of a significant number of the 
transit properties around the country. So they send their own 
technical staff to examine the production process.
    They are looking at the elements even prior to going into 
testing and making suggestions to the manufacturer on elements 
which they think would be improved because they are interested 
in the vehicle coming out in a way that can solve a number of 
their problems, such as maintenance costs, fuel costs, and 
reliability. These are issues that they constantly raise so 
they are sitting there raising the questions and trying to see 
that they are answered even before we get into the testing 
phase.
    Mr. Olver. Thank you, Mr. Linton. I took more time than I 
had intended to, but we are adjourned until 1:30.
    [Recess.]

                             bart extension

    Mr. Wolf. Mr. Linton, we appreciate your response to our 
letter regarding the BART extension to the San Francisco 
International Airport. We do have additional questions based on 
your response, which we will provide in writing. We are 
concerned, however, about the ability of the local and federal 
governments to pay for the project, particularly because the 
appropriations schedule assumed in the finance plan makes cost 
increases likely.
    We talked about that earlier today. BART's current finance 
plan makes some generous assumptions about future congressional 
appropriations. The plan assumes $110 million in fiscal year 
2000; $160 million in 2001; $150 million in 2002; and $108 
million in 2003. These out-year assumptions are higher than 
those the FTA previously criticized BART for being too high. 
What accounts for the change in your judgment?
    I feel an obligation to say this again. It is not that the 
Committee is opposed to something. It is from the dollars point 
of view and knowing that next year this will be more difficult 
and aggravated each following year.
    You are requesting $670 million this year for new starts 
when you ought to be at $800 million, so based on that could 
you answer the question?
    Mr. Linton. We do not have the schedule. Mr. Chairman, can 
we submit this for the record? I have a schedule here that 
provides the out-year cost for the BART project but these are 
preliminary numbers.
    [The information follows:]

    The preliminary schedule for the outyear cost of the BART 
extension to the Airport and Millbrae is provided below. The 
final schedule will not be determined until the FFGA is awarded 
for this project.

                                             BART AIRPORT EXTENSION                                             
                                                  [in millions]                                                 
----------------------------------------------------------------------------------------------------------------
                                                   Fiscal year                                                  
-----------------------------------------------------------------------------------------------------------------
       1998               1999               2000               2001               2002               2003      
----------------------------------------------------------------------------------------------------------------
$54.78...........           $74.0             $110.0             $160.0             $150.0             $117.3   
----------------------------------------------------------------------------------------------------------------

    Mr. Wolf. Sure, that will be fine. I do not think you had 
to answer that to cover this next one. Assuming the effect of 
not meeting these appropriations targets, which I think will be 
exceptionally difficult to do, will be to increase BART's 
borrowing costs above the $40 million included in the finance 
plan for its short-term borrowing program. Given the precarious 
financing of the project, how will BART pay for these certain 
increased costs?
    Mr. Linton. Mr. Chairman, as we always do in our FFGAs if 
there are costs that go beyond the contingency account that our 
full funding grant agreement grantees are required to have, if 
they cannot cover the excessive costs in those contingencies it 
is their responsibility to meet any overruns above that.
    And that is in fact BART also has a mechanism that is also 
designed within their funding program to bridge any shortfalls. 
On some it may be able to be absorbed within the capital 
mechanism that they have that is built in to their contingency 
requirements.
    Mr. Wolf. Are you sure about that? You said may.
    Mr. Linton. Well, of course it is going to depend on how 
much the overruns are but they do have in place the mechanisms 
that should give them some flexibility to avoid serious impacts 
from cost overruns. But if they do not, if they are not able to 
absorb them, it is truly as we have always said, the 
responsibility of the grantee to come up with those additional 
amounts.
    Mr. Wolf. FTA is asking for $54.8 million for the project, 
but the finance plan BART submitted to FTA calls for $64 
million in new starts funds in fiscal year 1998. Does this mean 
the project will have a bigger fiscal year 1998 cashflow 
shortfall that BART has planned for, thereby increasing 
financing costs and perhaps creating higher overall project 
costs?
    Mr. Linton. Well, it is our hope that, during the course of 
the FFGA, if the economic turn continues and there is more 
opportunity for additional resources that in the out-years they 
will be able to receive additional appropriations. But also the 
fact of the matter is that we expect that within the 
contingency fund they will be able to absorb some of what is 
basically a small reduction in the first year of the FFGA. They 
should be able to absorb that without any significant increase 
in construction costs or increase in financing costs.
    Mr. Wolf. But that really is the tip of the iceberg. The 
plan assumes $110 million in fiscal year 2000, $160 million in 
the year 2001. Every projection up here shows that the budget 
on the discretionary side getting tighter and tighter and 
tighter. This year in the budget that the Administration sent 
up there is $248 billion for interest on the debt. Even if we 
get to a balanced budget, that clock runs.
    We are not paying off the debt, the $5 trillion debt, we 
are just balancing the budget and so it is not going to get any 
better and what I think--really think you would provide a 
public service to the people in these different areas to put 
together a thoughtful reasoned letter explaining what some of 
the potential problems are because I do not think it is fair to 
people to go in thinking that they might be--the way it is 
going to be when clearly you are not going to be in town when 
we hit these numbers.
    You may not be here and so I think, in candor, something 
ought to be just said whereby people understand what the 
potential funding problems are.
    Mr. Linton. Mr. Chairman, I care about the program. I do 
not just care about my role as the administrator here. I have 
cared about transit for a long time. I will care about it when 
I leave this position and I operate that way. I truly want to 
and try to as much I can to make sure that what we do is for 
the betterment of the program overall.
    Mr. Wolf. I am sure. I do not have any differences with 
you. You know what I am saying.
    Mr. Linton. Sure.
    Mr. Wolf. You stated that a 12.5 percent contingency in 
BART's estimate is reasonable. We have been told that BART's 
last two extensions cost 23 percent and 68 percent more than 
the estimates in their environmental documents. Is this typical 
of new rail starts, and do you think maybe this suggests higher 
contingencies should be required of BART?
    Mr. Linton. That is higher generally. Most of our projects 
have been in the 12 percent or less range.

                         bart operable segments

    Mr. Wolf. The BART extension would consume a very large 
portion of new starts from a shrinking budget, and the FTA's 
own reports show that the project ranks low in terms of cost-
effectiveness. In light of these circumstances, have you 
considered dividing the BART project into two or more operable 
segments?
    Mr. Linton. No, we have not. The FFGA authorization 
language that was in the ISTEA that suggested that we go forth 
with an FFGA specifically talked about the extension to the 
airport as it is currently being constructed. That is how we 
have tried to operate with the project in fulfillment of the 
language that is in the authorization.
    That has been the local request from BART. That has been 
the request supported by the Congress, the governors and others 
from that state.
    Mr. Wolf. But the two segments, you could go to the airport 
as one and the Millbrae as second. That is what I meant. You 
just said to the airport. You got two different segments.
    Mr. Linton. I do believe that the language within the bill 
also speaks to the Millbrae extension as also part of it.
    Ms. Sahaj. The airport asked specifically not to be a 
determinate for----
    Mr. Wolf. The airport does not want to put a lot more money 
into this too and I do not know that that is what the language 
says.
    Mr. Linton. You are probably right. As I recall now, the 
language speaks to FFGA from BART to the airport. It probably 
does not make reference to the Millbrae segment.
    Mr. Wolf. So you could do it in two operable segments?
    Mr. Linton. That is probably correct.
    Mr. Wolf. And would you look at that?
    Mr. Linton. Yes, we will.
    Mr. Wolf. Okay. And the last question, and we will move on, 
would you agree that FTA, the FAA and Congress need to review 
whatever deal is decided between the parties before FTA issues 
a full funding grant agreement?
    Mr. Linton. Absolutely.
    Mr. Wolf. Mr. Sabo.

                     operating assistance--outlays

    Mr. Sabo. Thank you, Mr. Chairman. Let me just make a 
further comment on the question this morning of operating 
assistance and be a little bit more specific about my concerns 
and my concerns reflect what Mr. Foglietta and Chairman Wolf 
also said.
    We set obligation limits and we appropriate budget 
authority in this Committee and sometimes we look at those as 
equals but they are not because we also deal with budget 
agreements which set outlay limits for us. And one of my 
concerns is that I am not sure it makes sense to further expand 
the definition of capital expenditures to include maintenance. 
You may well be right in the long term, but that assumes that 
we will have more money in outlays to spend in the years ahead.
    When I look at the outlays operating spends out at around 
60 percent. Capital at 15 percent, your new grant program at 5 
percent. So while the budget authority in all of those programs 
may be equal, and actual dollars available for transit agencies 
to spend next year, those definition switches significantly 
reduce dollars available to them in fiscal year 1998 even 
though the amount of budget authority we may have is close.
    But switching to those programs with low outlays in '98 
means those outlays are going to come in future years and 
gradually we build up to a new outlay limit. The assumption has 
to be that any budget agreement here is going to have some 
escalating amount of outlays and discretionary spending. With 
everything I see, the opposite is likely to happen.
    Outlay limits are likely to be level or reduced. And so as 
we switch this year, if we were to switch to something that has 
low outlays, takes money away in 1998, on the assumption that 
we are going to have more flexibility inoutlays in future 
years, that just simply is not likely to happen. And so I really hope 
you take a close look at it in terms of the impact on outlays in the 
type of pattern you set.
    If you look at the President's budget he has his 
assumptions, economic assumptions, however, if they are wrong 
there are deep cuts in outlays in the President's budget in 
years 2001, 2002, at which point the outlays that are coming 
from our budget authority this year kicking in in full force. 
So I hope you go back and closely examine that and look at some 
way that we have some sort of level outlays over a period of 
time rather than de-escalation through what may be similar 
budget authority this year but setting a pattern in place that 
just eats up money in the future which may or may not be here.
    Mr. Linton. I think we would like to look at that but as I 
look at the outlay rate versus looking at the capital expansion 
definition versus the operating, the outlay spending is much 
slower on the capital side. If you compare the two I would 
think that the proposal that we are putting in place would have 
less impact on outlays because the money is spent slower over 
the period of years.
    Mr. Sabo. Well, it has lesser impact this year. You are 
taking cash in hand away from transit agencies in 1998, giving 
them a less amount now but that money--we are passing a budget 
authority or obligation limit in 1998, they are going to outlay 
in greater proportions in 1999, 2000, 2001. Over a period of 
years if you are right you will have an equal amount of outlay 
but it is going to be reduced this year, escalating in the 
future, and I see very little indication that the flexibility 
Congress has with total outlays for discretionary spending is 
going to be increasing over the years so you are helping your 
outlay problem for this year's budget but creating new and 
additional problems not only for transit but for other 
discretionary programs in future years.
    So it is a temporary easing of outlay problems which takes 
actual expenditures out of the hands of the transit agencies in 
1998 and assumes that we are going to have some greater 
flexibility in later years to deal with outlays. So I really 
hope you take a close look at the recommendations and see how 
we can develop a whole better line.
    Mr. Linton. I will look at that and I would like to get 
back to have some more discussion with you after we examine it 
again.

                   bart full funding grant agreement

    Mr. Wolf. Could the FTA just approve BART to the airport in 
the FFGA, and leave the extension from Millbrae to the airport 
for a later date?
    [The information follows:]

    While it might be possible to approve a BART extension to 
the airport and defer construction of the Millbrae intermodal 
terminal, a number of problems would arise from such a 
decision. First, making the airport the sole terminal of the 
line would trigger additional environmental work to assess the 
impact of changing the end point of the line. Considerable re-
design would also be required. In the case of the airport, this 
would also re-open a number of questions about the eligibility 
of the airport contribution previously settled by the FAA, 
given that non-airport passengers would no longer have an 
alternative service to bypass the airport. Moreover, the San 
Francisco Airport Commission requested early in the process 
that the airport not be the terminal station for the BART 
extension. Second, eliminating the Millbrae intermodal terminal 
would reduce the projected ridership for the extension by about 
33,000 (almost 50 percent of the projected ridership for the 
extension). Finally, eliminating the Millbrae station would 
only save an estimated $135 to $165 million--a savings easily 
consumed by the inevitable delays such an action would 
generate.

    Mr. Wolf. Has FTA evaluated how much the cost could be 
reduced by ending BART at the airport for the time being?
    [The information follows:]

    BART estimates that a savings on the order of $136-$165 
million in construction costs could be achieved if the Millbrae 
station were not to be built. However, any savings would likely 
be illusory since such a decision would trigger additional 
environmental restudies and substantial redesigns (airport as 
sole terminal of the line, endangered species impacts, wetlands 
issues) generating delays and potentially significant cost 
escalation.

    Mr. Wolf. I understand that BART, the airlines, and the 
airport are working to resolve their differences. What is the 
status of these discussions and what is the likely resolution?
    [The information follows:]

    We have been informed that BART has reached agreement on 
all outstanding issues which were under negotiation.

                     LOS ANGELES REVENUE DIVERSION

    Mr. Wolf. The Committee has been concerned about the 
repeated attempts by the City of Los Angeles to divert 
illegally airport revenue for non-airport uses. The conferees 
were troubled by reports that they directed the FTA not to 
award funds made available for the Red Line project unless the 
Inspector General certified that no illegal revenue diversion 
had occurred.
    The FAA has initiated part 16 proceedings against the City 
of Los Angeles, and a little over a week ago, the Secretary 
gave the committee his assurance that the Department will not 
award any of the funds provided in the fiscal year 1997 
appropriations act for the Red Line project while airport 
revenue enforcement proceedings by the FAA are underway. Will 
you provide the same assurances Secretary Slater did?
    Mr. Linton. Absolutely. We have gotten preliminary 
information from the Inspector General and it is clear to us 
that we will not be releasing the funds for LACMTA and that 
they will continue to be suspended.
    Mr. Wolf. In December 1996, you warned in an interview that 
the MTA faces a lack of confidence and funding difficulties in 
Washington if it continues to send mixed messages. You were so 
concerned that you and then-Secretary Pena summoned the 
leadership of the MTA and the City of Los Angeles to your 
offices this past January to ask the Board to ``reaffirm its 
commitment to the Metro Red Line as its highest priority.''
    MTA, in response, said that the subway if its highest 
priority. At the same time, MTA officials were meeting with bus 
advocates to reassure them that the bus expansion and court-
ordered consent decree is MTA's highest priority. The Mayor has 
publicly endorsed a bus alternative to the Red Line subway 
project, and is quoted as saying, ``Making improvements in bus 
service in my number one priority.''
    Mr. Linton, the Red Line project is the only rail project. 
Why did you accept their response which in itself is indicative 
of a lack of purpose and consensus and what actions do you 
expect to take as a result of the ambiguity that appears to be 
out there?
    Mr. Linton. Let me just say that we have asked for a 
recovery plan from LACMTA. We are still reviewing that recovery 
plan. We still have some concerns about how they are going to 
be able to meet the overall demands that they would like to 
meet in the long term which includes the Red Line as well as 
the Blue Line project to Pasadena which is locally funded as 
well as the enhancement of BUS as a result of the consent 
decree.
    We have asked our financial manager consultant to go in, as 
I stated earlier, to look at their books. We are still 
reviewing the results of that but it is clear to me that we are 
going to have to put in place fairly severe procedures with 
LACMTA. I think the Secretary alluded when he was before you 
that some of the provisions that were put in place in 
Massachusetts were things that he thought would be needed with 
LACMTA.
    We have reached the same conclusion. We hope in the next 
week or two that we will have a response to that recovery plan. 
Quite frankly, it is going to lay out some pretty tough 
medicine in terms of what we are going to be doing with the 
authority. We are going to try to insure that funds that we 
provide are being allocated to our projects and that the 
projects are being managed better and that there is some 
consistent view on what the governor's structure in that area 
wants to do to meet the transportation needs of the community.
    So I think we still have some concerns. We are still 
reviewing the report, but it is clear to me that we are going 
to have to put in some very stringent measures to make this 
project work. We are still committed to the project. Whenever I 
have been in LA and I looked at both their system and the needs 
of their community, there are very severe transportation needs 
in that community. The project itself goes a long way in terms 
of meeting those needs.
    I also hear discussions about future projects. My view 
right now is that there needs to be a concerted effort to focus 
on what is currently on their plate to make that work. We quite 
frankly are not interested in discussion future projects.

                      LOS ANGELES RED LINE PROJECT

    Mr. Wolf. The GAO informed the Committee last week that MTA 
has plans to expand the Red Line's 23-mile system in the near 
future and is seeking new authorizations in NEXTEA. Do you 
believe that these plans are premature, is that what you are 
saying?
    Mr. Linton. Well, I think as the Administrator I cannot 
tell any location not to come forth and ask.
    Mr. Wolf. But given the seven-year delay in the Mid-City 
extension----
    Mr. Linton. But what I am saying is that I think it is 
premature. I think we need to show a product that is successful 
to demonstrate that one should look for the federal government 
to be partners with expansions.
    Mr. Wolf. It appears very likely that the MTA may be unable 
to meet its obligations under the full funding grant agreement. 
The Mayor of the city, as you know, favors a bus alternative, 
other political leaders seem to be for different things. There 
was a poll done dealing with how the residents felt and it 
indicated that more than half, I think, opposed building a 
subway.
    Today the Eastside extension is two years and $70 million 
over budget; the Mid-City extension, which I just referred to, 
is over seven years and nearly $200 million over budget. And I 
think surely that is going to escalate because of that. 
Wouldn't these facts require the FTA and MTA to renegotiate the 
full funding agreement?
    Mr. Linton. We are going to do that, Mr. Chairman. We are 
going to have to do that. There is no question about it. But I 
also want to state that we still think that both the Eastside 
project because there have been some decisions made on what 
they should be doing on the Eastside project, those decisions 
have been made by the Board.
    We do think that the Eastside project is one that as 
currently constructed should go forward and we believe that the 
Mid-City project, one that has been delayed to some degree, is 
still one that is worthy of our support and one that meets 
major needs in that region. So we would like to still support 
those three legs as identified now.
    Our recovery plan, the response to their recovery plan 
submission, is going to be one that we are going to lay out the 
mechanism on how we are going to require them to put in place 
some techniques to recover some of the costs overruns to try to 
recover some of the delays and to focus on money on completing 
the lines that are currently under consideration and we are 
not, as I said earlier, going to be talking about extensions 
beyond that until these projects are brought under control and 
within some limits.
    Mr. Wolf. If you renegotiate a full funding agreement that 
would certainly allow more money for other projects around the 
country.
    Mr. Linton. Well, renegotiating the full funding agreement 
in itself does not mean that the monies will be removed or the 
authorization. It means that we have to look at what their 
local share is. There are some issues in there regarding the 
completion of the program. It does not necessarily mean that--
--
    Mr. Wolf. But it could. It would almost would have to look 
at some change or almost----
    Mr. Linton. It may, but it may not.

                      LOS ANGELES RED LINE SAFETY

    Mr. Wolf. I think it should. I think it is a partial 
solution to the problem. I have one other question about safety 
and then I want to ask you something. We were told a little 
over a month ago a Red Line construction worker was decapitated 
when a half-ton refuse bin broke free from its moorings and 
struck his head.
    This accident follows at least six other serious accidents 
in the last two months. We were told it prompted one 
construction official to express fears that workplace safety 
was taking a back seat to progress. A Superior Court judge 
awarded $12 million to compensate other construction workers 
who were injured, noted that testimony in his courtroom 
indicated a ``callous disregard'' for workers' safety by the 
MTA. What are you doing to ensure safety compliance on the Red 
Line construction project?
    Mr. Linton. Let me say that we are looking at the LACMTA 
safety record as well as what they are doing to mitigate----
    Mr. Wolf. And how is it?
    Mr. Linton. There are two ways of measuring safety in 
projects like this. The lost time injury rate for the project 
as we see it is pretty consistent with the national norm. The 
lost time injury rate for this segment is .06 versus the 
national average of 4.9 so that is in fact fairly good.
    The recordable incident rate, however, is one which exceeds 
the national average. For their segment it is 13.4 and the 
national average is 11.8. They are, in fact, putting in place 
new mechanisms to deal with the recordable incident rate which 
is the one that is above the national average. That means 
spending more time with employees before they go into the 
tunnels and the construction sites, putting more emphasis on 
injury prevention and constantly monitoring and staying on top 
of that. So those are new measures that they have put in place.
    Mr. Wolf. And FTA is going to watch it?
    Mr. Linton. That is right.
    Mr. Wolf. Aggressively?
    Mr. Linton. That is right. Part of the recovery plan 
measures that we are going to put in place is going to be tough 
medicine. And it is going to be much tougher than what we have 
put in place even to date. It is going to be extraordinary 
measures but this is an extraordinary situation.
    Would it not make sense to get Mr. Torres and the other 
members of the California delegation of both parties and the 
mayor who is a good person, and governor and yourself and 
somebody from the committee, somebody from the IG's office and 
GAO to come and sit down together, separating the full funding 
agreement things out and really seeing for the amount of money 
that we have, and we want to be fair to Los Angeles, how we can 
move the most people possible and do what, one, the people of 
Los Angeles want, and I do not live out there and I do not 
think I should tell them what they do, but, two, what will be 
in the best interests, and, three, what can be afforded.
    Wouldn't it be a good idea to get everybody together to 
break bread, to come over to your office, buy a Dunkin Donut 
and sit everybody down and resolve these numerous issues.
    The LA project is going to have an impact on property 
taxes; it is going to have an impact on affairs; it is going to 
have an impact on air pollution; it is going to have an impact 
on so many things that I believe that there is too much 
arguing. And given the seven years delay in the Mid-City line 
and two years delay in the Eastside and cost overruns or 
renegotiating full funding agreements, it would seem to make 
sense for the parties to get together in a spirit of 
reconciliation, if you will, and just sit around the table and 
see what can be done within the parameters and the flexibility 
that FTA has and the amount of money they have to see if 
something can be done. Wouldn't that be a good thing for you to 
do?
    Mr. Linton. Mr. Chairman, let me just say in all due 
candor, that meetings that I have had with the various parties 
in LACMTA to try to reach consensus on how to move projects in 
the same direction have been futile. And in those discussions 
the parties that you have mentioned to a large degree have been 
represented.
    We are still responding to what is currently on our plate 
as the recommendation of their local body. Even though the 
mayor has expressed some views on what he would like to see 
done differently, the views of the body in which the mayor is 
also a member still support what we are trying to do now.
    Mr. Wolf. I think if we got Mr. Torres and Mr. Dixon and 
the mayor and the MTA and some people from the IG's office and 
from the GAO to look at this because we all know they have some 
real problems.
    Clearly, there is a transit need and so if you can identify 
the solutions to the need within the parameters of how much 
money you have and what is doable, I think that would be for 
the best interests of the people out there. I know no one else 
who could do it other than the FTA.
    Mr. Linton. I wish I had that kind of confidence in my 
ability to get that done, but let me just say----
    Mr. Wolf. You have not all been there though. I mean I 
think if you had GAO and IG and yourself lay out the cold, hard 
reality of where we are and were willing to spend some time.
    Mr. Linton. We are going to. As I indicated earlier, I 
think we are going to have opportunities for some real tough 
looks at the resources that are there and the ability to meet 
the mobility needs of the people in Los Angeles. I think I am 
very much in sync with you in terms of the need for an 
examination of what is possible and the need for support from 
all the parties in place to make it happen. And we are going to 
be looking to get the same result.
    Mr. Wolf. I think you got to get everybody around the table 
because those who are not around the table are going to break 
and say they were not part of the agreement. If you can let us 
know what you are doing and keep us up to speed on that, we 
would appreciate it. Otherwise, I think they are going to have 
a problem and they are going to lose their opportunity to deal 
with it.

                 inspector general audit of la project

    Mr. Wolf. Last week the Inspector General informed the 
committee that the IG has completed a limited-scope audit of 
the city of Los Angeles' department of airports revenue 
retention. The IG determined that there were three areas where 
prohibited airport revenue diversions occurred after the 
enactment of the 1997 Appropriations Act.
    Based on the IG's audit, do you intend to withhold the $70 
million included in the 1997 DOT Act? Would you also agree that 
any disbursement of the $70 million would be in violation of 
the Act?
    [The information follows:]

    The DOT Inspector General identified a diversion of funds 
by the City of Los Angeles from the Los Angeles airports which 
is not consistent with the conditions for release of funds 
provided in the Conference Report accompanying the fiscal year 
1997 Appropriations Act. Therefore, FTA is currently 
withholding the $70 million. While disbursement of the funds 
would not be in technical violation of the Act under principles 
of appropriations law published by the General Accounting 
Office, FTA has sufficient authority to withhold the funds 
consistent with the intent of the conferees and has agreed to 
do so.

                       la red line project delays

    Mr. Wolf. This Committee continues to be troubled about the 
ability of the MTA to manage its construction of the Metro Red 
Line in the face of escalating costs, significant schedule 
delays, criminal prosecutions and continuing investigations, 
difficulties in engineering, and issues of organizational 
management (including the recent resignations of both the 
executive officer and the executive officer for construction). 
Insufficient sales tax revenues, the court-ordered consent 
decree for additional bus service, and cost overruns may lead 
to operational deficits of over $1 billion. Mr. Linton, there 
is an old expression: ``When you find yourself in a deep hole, 
the first thing you do is stop digging!'' Mr. Linton, is it 
time to stop digging?
    [The information follows:]

    We have already accomplished a number of actions in 
building a framework for dealing with the situation. On 
December 16, 1996, senior DOT officials, including the 
Secretary, Deputy Secretary and FTA Administrator, met with key 
members of the Los Angeles County Metropolitan Transportation 
Authority (MTA) Board of Directors to discuss concerns over the 
status of the Metro Rail Red Line extension and proposed 
corrective measures necessary to restore confidence in the 
project. This was followed up by a letter from the FTA 
Administrator on January 6, 1997 to the MTA Board Chairman 
stating the specific steps required to save the project. FTA 
also assigned an independent financial consultant to review 
MTA's capital financing plans. MTA submitted a recovery plan on 
January 15, 1997 after having adopted a Code of Conduct for 
Board members as well as a resolution reaffirming MTA's 
commitment to the Red Line project as its highest rail 
priority.
    Now, after studying the MTA's recovery plan for restoring 
project schedules and financial health, FTA continues to harbor 
serious reservations on the credibility and overall viability 
of the recovery plan and the financial assumptions which 
support it. Independent analyses have confirmed these 
reservations. FTA is in the process of conveying these 
reservations to the MTA and will be taking steps to restructure 
the current FFGA.

    Mr. Wolf. The MTA recently submitted a recovery plan to the 
FTA, which includes new schedules and budgets for the Metro Red 
Line Mid-City and Eastside extensions. FTA has recently hired a 
financial management consultant to review MTA's financial 
capacity to fund its transportation program. I believe you 
received a preliminary briefing just last week. When is the 
study to be completed and what preliminary findings will you 
share with the Committee today?
    [The information follows:]

    The financial capacity review of the MTA is an on-going 
effort until September 30, 1998. The initial review assessing 
the current financial capacity of the MTA has been completed. 
As needed, FTA will request an updated analysis when new 
developments affecting MTA financial capabilities are 
identified. Preliminary findings from the initial review are:
    1. The proposed Recovery Plan depends upon:
    Bus operations cost savings contrary to previous trends,
    no further rail capital cost over-runs,
    no sales tax or fare revenue shortfalls, and
    growth in sales [tax receipts] higher than previous 
experience.
    Without a cash reserve, there is an excessive risk that 
another round of ``adjustments'' will be required within six 
months to one year.
    2. $300 million of Proposition C Discretionary funds 
[needed] to accelerate MOS-3, provide a cash reserve, or meet 
Consent Decree requirements are programmed [instead] for the 
Pasadena Blue Line.
    3. $142 million of the City of Los Angeles share of MOS-3 
is linked to milestones for future rail lines which may not be 
attained.

    Mr. Wolf. I understand that some $240 million is included 
in the MOS-3 full funding grant agreement for the Mid-City 
extension. These funds have been committed against the balance 
of the trust fund. Since the project is seven years behind 
schedule, well after the re-reauthorization of ISTEA, why not 
reallocate these funds to other worthy projects that are ready 
to go and have completed or are soon to complete the required 
analysis, but are precluded because FTA has fully committed the 
balances of the trust fund?
    [The information follows:]

    While the project is admittedly behind schedule at this 
point, the delays have resulted from the unexpected detection 
of abnormal levels of hydrogen sulfide along the former planned 
alignment. This, in turn, required a prudent re-examination by 
MTA of alternative alignments to avoid areas identified as 
containing pockets of the gas. Once a new alignment is 
selected, this segment can again enter the final design phase.
    As you know, FTA suspended payments for the Mid-City final 
design effort in February, 1994, after the presence of the gas 
was confirmed. FTA will be able to resume payments once the 
environmental work is completed on a proposed new alignment and 
a record of decision is issued. FTA now estimates that final 
design can be re-initiated within 12 to 18 months.
    It would not be a prudent action to remove the Federal 
commitment to this segment of MOS-3, in light of the facts that 
Mid-City continues to enjoy strong local political and 
community support and is an integral part of a comprehensive 
program to bring high capacity rapid transit service to key 
quadrants of the contested. FTA will continue its support of 
the Red Line project. This is one of the most transit dependent 
and congested corridors.

    Mr. Wolf. Is the FTA continuing its suspension of further 
federal payments for the Mid-City project that it announced in 
December? When, and under what circumstances, would the FTA 
lift the suspension?
    [The information follows:]

    FTA continues to suspend payments on the Mid-City segment. 
Payment has been suspended since February 1994 when LACMTA 
suspended final design following detection of abnormal levels 
of hydrogen sulfide along the former alignment.
    We would contemplate resuming payments on the Mid-City 
segment when a new alignment is selected and the project is 
ready for final design.

    Mr. Wolf. It has been suggested that Congress is to be 
blamed in part for the project's cost overruns and schedule 
slippage because it has chosen not to appropriate the funding 
needed to support the federal funding schedule in the segment 3 
full funding grant agreement. In fact, recent federal 
appropriations have lagged because of MTA's own difficulties 
with the project. What assurance can you provide for the 
Committee that none of the additional costs associated with the 
project because of less-than-anticipated appropriations levels 
will be borne by the federal government?
    [The information follows:]

    The FFGA explicitly requires that MTA maintain the project 
schedules regardless of the rate of federal funding, caps the 
federal participation in the project, and binds the MTA to 
deliver the project regardless of final cost.
    Attachment 6 of the full funding grant agreement (FFGA) 
sets forth an anticipated schedule of federal and local funds 
for the construction of the project. While the provision of 
federal funds by FTA is subject to the availability of 
Congressional appropriations, MTA is obligated to provide local 
funds as identified in Attachment 6 and as necessary to 
maintain the project schedule.

                         la occupational safety

    Mr. Wolf. What responsibility does FTA or its contractor 
have in ensuring that all federal occupational safety and 
health regulations are followed? When was the last safety 
review of MTA conducted?
    [The information follows:]

    As a major funding partner in supporting the Los Angeles 
Red Line project, FTA's primary concern is that the project be 
delivered within scope, schedule and budget as contained in the 
FFGA. FTA periodically checks to insure that MTA has properly 
staffed its safety program.
    The California Occupational Safety and Health 
Administration has the Federal responsibility for providing 
safety oversight of the Red Line project. Cal-OSHA is required 
to visit the project once a quarter because tunneling is 
involved. However, the frequency appears to be more than once 
per quarter. The last official visit was February 18, 1997.

    Mr. Wolf. Testimony before the court included a statement 
by the safety manager on the project in which he says that the 
head of Parsons-Dillingham refused to allow him to correct the 
problems or to stop the project. With testimony such as this, 
one has to ask how many close calls and deaths must there be 
before safety on the project is enforced?
    [The information follows:]

    MTA recently announced that it is working with Vice 
Presidents of the firms constructing the Red Line to underscore 
MTA's concern about safety. We believe the MTA is vitally 
interested in the safety of the people who build the system.
    Since October 1995, the Los Angeles County Transportation 
Metropolitan Authority's (MTA) Safety Department has been fully 
staffed. MTA maintains its safety statistics in conformance 
with Federal guidelines for the Compilation of safety data.
    The Lost Time Injury Rate (LTIR) is commendable for both 
active Red Line projects. The cumulative LTIR for Segment 2 is 
2.6 and the cumulative LTIR for Segment 3 is 0.6 versus the 
national average of 4.9.
    However, the Recordable Incident Rate (RIR) for both active 
projects exceeds the national average. The cumulative RIR for 
Segment 2 is 19.6 and the cumulative RIR for Segment 3 is 13.4 
versus the national average of 11.8.
    The Lost Time Injury Rate is based on the number of lost 
time injuries per 200,000 work hours incurred on the project. A 
Lost Time injury is an injury which results in time away from 
normal duties as a result of the injury beyond the day on which 
the injury occurred.
    The Recordable incident Rate is based on the number of 
recordable injuries per 200,000 work hours incurred on the 
project. A Recordable injury is any injury which requires 
medical treatment beyond first-aid.
    MTA is working with its Contractors and Construction 
Managers to take steps to implement further actions in pursuit 
of a lower than national average RIR. Specifically, MTA is 
revising its Safety Manual and Safety Awareness Program to 
focus more directly on the minimization of recordable 
incidents.

               houston-disadvantaged business enterprises

    Mr. Wolf. Let us try to go rapidly. And then when we break, 
maybe we will have to come back and do Metro.
    The FTA requires transit authorities to have an affirmative 
action program. In Houston a U.S. District judge made a 
preliminary finding that Houston's metropolitan transit 
authority program was unconstitutional and has granted an 
injunction that forbids Metro from continuing its affirmative 
action program required by FTA. You, in response, have 
suspended all payments of federal funds to Metro, placing 
millions of federal funds in jeopardy. You recently advised 
Metro that its newly revised gender neutral program did not 
comply with federal regulations and that so long as Metro 
remains under the constraints imposed by the injunction, Metro 
cannot qualify for a recipient for federal funding. You are 
insisting that Metro behave in manner that a federal judge has 
found unconstitutional. Can you give Metro a waiver?
    Mr. Linton. Mr. Chairman, let me say first of all that the 
federal judge has not found the Metro program unconstitutional. 
In fact, the federal judge has not ruled on whether the program 
is constitutional or not. The federal judge has enjoined Metro 
from, in fact, utilizing their program. We sought to enter into 
the litigation. We were denied by the federal judge an 
opportunity to do so. The Department of Justice also sought an 
opportunity to engage in the litigation. We are still waiting 
for the judge to give his ruling on that provision.
    The program that we have which is part of statutory 
requirement is one that has not been found unconstitutional 
either at the Supreme Court, nor by the judge in question. Even 
last year when there were discussions regarding the federal 
programs, the so-called Adarand decision, that decision did not 
rule that the programs were unconstitutional. As a result of 
that, they are still part of federal law, so the requirement 
that we have is the same one that we have here in Washington, 
in Houston, and all across the country. Throughout the nation 
the program is still operating.
    Mr. Wolf. So where does this put, Houston Metro?
    Mr. Linton. We are working with Houston Metro to try to get 
relief from the injunction. We are working--my counsels are 
meeting with their lawyers, talking to the city's lawyers.
    Mr. Wolf. The Secretary was going to get an opinion from 
the Attorney General. Do you know if he has asked for it?
    Mr. Linton. An opinion from the Attorney General regarding?
    Mr. Wolf. On this issue.
    Mr. Linton. Are you aware of that?
    Mr. Reilly. Several months ago, the Department of 
Transportation sought the Department of Justice to issue a 
notice which would require the court to allow the United States 
into the lawsuit. I don't know if that is what you are talking 
about or not. That is the only thing I am aware of at this 
point.
    Mr. Wolf. So where are we, then? What would Mr. Delay tell 
the people of Houston?
    Mr. Linton. Right.
    Mr. Wolf. Houston Metro, which is a project that is a good 
project.
    Mr. Linton. We believe the project is a good project. I 
have worked with Mr. Delay over the last several years to 
continue to get through some other hurdles we have had with 
that project. We have come out with a good result. We are 
trying to work with the City of Houston on this one, as well.
    Mr. Wolf. How soon do you think you will have it resolved?
    Mr. Linton. There are two questions. The first is in 
regards to when the judge will make a decision on Houston's 
request to be removed from the injunction. The other question 
is when the judge will decide as to whether or not FTA, 
represented by the U.S. attorneys, can engage in the 
litigation. And those are before the judge.
    Mr. Wolf. When do you expect the judge to rule?
    Mr. Reilly. He has been slow to rule. I would anticipate 
sometime in the next six to eight weeks.
    Mr. Wolf. And what impact is this having on Metro today?
    Mr. Linton. There are a number of projects. Their section 
5309 funds are for construction projects. They have not been 
able to receive these funds.
    Mr. Wolf. Well, I think maybe you are--let me submit a 
number of questions for the record.
    Mr. Wolf. Since you appear to be unwilling to consider a 
waiver, what can you suggest as an alternative affirmative 
action program that would be acceptable to the FTA and likely 
to pass muster of the court?
    [The information follows:]

    Section 1003 of ISTEA requires that not less than 10 
percent of DOT funds be expended with socially and economically 
disadvantaged individuals and presumes that women and certain 
minorities are socially and economically disadvantaged. 
Although the Supreme Court in the Adarand decision did not find 
this statutory program unconstitutional, a federal judge in 
Houston, acting without the benefit of briefing by the Federal 
Government on the issues, has prohibited Metro from considering 
race or gender in awarding contracts in a preliminary 
injunction that remains in place. FTA has an obligation to 
ensure implementation of the statutory program that requires 
consideration of race and gender. Moreover, FTA cannot presume 
to know what kind of plan will satisfy the court in Houston. 
DOT and FTA have moved to intervene in the suit to persuade the 
court that the Congressionally mandated DOT DBE program is 
constitutional.

    Mr. Wolf. Metro has asked that the FTA permit Metro to 
qualify as a recipient of federal funding for specific projects 
which are critical to addressing Houston's transit and mobility 
needs and which have been supported by FTA grants since their 
inception. Funds for these projects were awarded several years 
ago and, in some cases, had already been expended prior to the 
injunction. When do you expect to respond to Houston Metro's 
request and what preliminary indication can you share with the 
committee?
    [The information follows:]

    FTA responded on March 5, 1997, to Metro's request for 
definitive agency action on a project-by-project basis. FTA 
stated that although it will continue to permit Federal funding 
for Metro's pre-injunction contracts for grants that FTA 
approved prior to the injunction, FTA will neither reimburse 
Metro for expenditures on new construction-related contracts 
necessary to complete projects identified by Metro, nor approve 
additional grants to carry out construction-related projects.

    Mr. Wolf. More generally, I understand that other federal 
agencies have accepted race and gender-neutral programs. Does 
the FTA have any plans to consider such programs, which seem 
acceptable to the courts?
    [The information follows:]

    If other Federal agencies have accepted race and gender-
neutral programs, they must have greater flexibility than DOT 
has under its statutory Disadvanted Business Enterprise (DBE) 
program. Section 1003 of ISTEA requires that not less than 10 
percent of DOT funds be expended with businesses owned and 
controlled by socially and economically disadvantaged 
individuals and presumes that members of certain minority 
groups and women are such individuals. The statute thus 
prescribes a program that is not race and gender-neutral.

    Mr. Wolf. Along the same lines, is the FTA reforming its 
requirements to meet the constraints imposed by the courts, and 
if so, when will these new requirements be in place?
    [The information follows:]

    The Department of Transportation (DOT) has prepared a 
Supplemental Notice of Proposed Rulemaking that it expects to 
publish for public comment in the near future. After 
considering the comments, DOT will publish a final rule 
amending its current Disadvantaged Business Enterprise (DBE) 
regulation.

    Mr. Wolf. What specific recommendations will the FTA be 
proposing in its rulemaking to ensure that its DBE regulations 
conform with the Supreme Court's Adarand decision?
    [The information follows:]

    The Supplemental Notice of Proposed Rulemaking (SNPRM) that 
DOT expects to publish in the Federal Register responds to the 
``narrow tailoring'' requirements of the Adarand decision. The 
following aspects of the rule proposed for change in response 
to Adarand include overall goals; means of meeting goals; the 
rebuttable presumption of disadvantage; graduation; 
concentration of DBE firms in certain types of work; and 
program waiver.

    Mr. Wolf. Have you talked to Mr. Delay recently?
    Mr. Linton. No, I have not. I had responded to Mr. Delay's 
correspondence, and I also contacted his office to see if in 
fact we could meet.
    Mr. Wolf. Could I suggest you give him a call.
    Mr. Linton. Sure.
    Mr. Wolf. Perhaps after the break or even talk to him on 
the phone during the break about seeing if there is something 
that could be done.
    Mr. Linton. Sure.

                        NOVA BUS AND BUY AMERICA

    Mr. Wolf. Have you had any dialogue with Niagara Frontier 
Transportation Authority, the Rochester-Genesee Regional 
Transit Authority, PACE of Arlington, Illinois, the Connecticut 
Transit because they have been caught off-guard by news that 
they will probably not receive a previously awarded grant. Have 
you had any dialogue with them before your announcement, or 
what is the status?
    Mr. Linton. Let me just say that we received a complaint 
lodged against NovaBus that they were violating the Buy America 
provision of law. We did an investigation, as we do when we are 
an investigatory body in that regards. That is not something 
that is open for debate or discussion among the parties. What 
has to happen in that situation--we are almost similar to the 
IG. We have to go out, do a fact finding, collect information 
from the properties and make a ruling. That is exactly what we 
did. We did a fact finding, received the information, and we 
notified all the parties of the finding. We notified both 
NovaBus and we also notified the four properties that were 
involved.
    The statute is fairly clear. It states that if there has 
been a Buy America violation, that federal funds cannot be used 
to pay for those vehicles.
    Mr. Wolf. Did you audit them to see that there has been?
    Mr. Linton. We do not do audits.
    Mr. Wolf. Who does?
    Mr. Linton. According to the statute and the regulations 
the responsibilities for making sure that the Buy America 
provisions have been complied with rests in the hands of the 
properties. The properties are required to do a pre- and post-
audit. They are also required to certify that the products that 
they have purchased have been in compliance with Buy America, 
and they are also required to have an inspector on site to 
ensure that the manufacturing process is being done by the bus 
manufacturer which they are purchasing the vehicles from.
    Mr. Wolf. But, you know, I think you have got to get 
personally involved in this, too. We have been told--Mr. Riley, 
the Chief Executive Officer of the Rochester-Genesee Regional 
Transit Authority, has informed the committee that they do not 
have the funds to reimburse the FTA. His total annual budget is 
$35 million. A repayment of $12.2 million, even in 
installments, would be devastating. Mr. Swist has said that the 
impoundment of $7.6 million for the Niagara Frontier 
Transportation Authority would drive his transit into 
bankruptcy. Federal grants account for a large percentage of 
the transit authorities budgets. This is creating chaos.
    Mr. Linton. Mr. Chairman, let me just say that when we make 
a finding--and this is not the first time we have done that--
When we make a finding, the properties have an opportunity to 
come in----
    Mr. Wolf. These are little properties, though.
    Mr. Linton. The little properties have an opportunity to 
come in and discuss it with us. That has not taken place. We 
are open to that.
    Mr. Wolf. We are going to call them tomorrow to tell them 
that you said that you would sit down with them and work this 
thing out, because----
    Mr. Linton. We have, in fact, provided information. And the 
responsibility is for them to come in and sit down with our 
general counsel, who is prepared to meet with them.
    Mr. Wolf. Well, why don't you give them a call tomorrow.
    Mr. Linton. You bet.
    Mr. Wolf. And who would audit NovaBus? I wasn't clear. You 
said you don't do audits. Who would audit?
    Mr. Linton. The audit of all the buses in complying with 
Buy America is done by the grantees. All of our grantees----
    Mr. Wolf. There is no certification, though.
    Mr. Linton. All of our grantees--WMATA does it with theirs. 
All the grantees----
    Mr. Wolf. But, you see, the problem when one self certifies 
and Nova says what it is, where do they go? How do they get out 
of the circle?
    Mr. Linton. One self certifies and----
    Mr. Wolf. Buy American gets certified by the company, 
correct?
    Mr. Linton. Buy America----
    Mr. Wolf. Nova says they are okay, so where does the small 
company----
    Mr. Linton. The small company is supposed to pre-audit 
before they purchase the vehicle, whether or not the bus 
manufacturer is complying with Buy America.
    Mr. Wolf. How do they do that?
    Mr. Linton. Many of them have contracts----
    Mr. Wolf. Well, I----
    Mr. Linton. And they also--excuse me. I'm sorry, Mr. 
Chairman.
    Mr. Wolf. No, go ahead. You go ahead.
    Mr. Linton. They are also required to have an on-site 
inspector to ensure that that is in fact going on. That is part 
of the Buy American provision and responsibility of the 
grantees. All of them across the country, all 560 of them, are 
required to do that. Now when, in fact, after an investigation 
it is----
    Mr. Wolf. You are not filibustering here, are you?
    Mr. Linton. What is that?
    Mr. Wolf. You are not filibustering?
    Mr. Linton. No, I would never do that. You never learn that 
in the legislature.
    Mr. Wolf. How much time is left? Ten minutes. And is there 
another vote right away? Ten minutes to debate. Maybe we could 
walk over together. So that would be ten minutes and then what? 
And then is that it?
    Well, why don't you call them and then just let us know. We 
will ask these for the record.
    Mr. Wolf. I understand that the FTA is demanding the return 
of millions of dollars in previously awarded FTA grants from 
numerous grantees because the FTA has found that the grantees' 
subcontractor for buses, a Canadian company called NovaBus, did 
not meet FTA's domestic final assembly requirements for buses, 
alleging that most of the significant manufacturing operations 
took place in Canada. Transit authorities in New York, 
Connecticut and Illinois are all affected. What is the total 
amount in FTA grants that the FTA is demanding to be returned?
    [The information follows:]

    FTA has not yet demanded the return of any grant funds by 
the four grantees involved. All four grantees have been given 
an opportunity to explain their positions, and FTA will 
consider the submissions of each of the grantees. The total 
amount of grant funds in question is $33,269,468.

    Mr. Wolf. What other regional transit authorities may find 
themselves in similar situations? How extensive is the problem?
    [The information follows:]

    FTA's investigation showed that only four grantees received 
vehicles from NovaBUS that did not meet the Buy America final 
assembly requirements. These grantees are: Rochester Genessee 
Regional Transportation Authority, PACE, the Niagara Frontier 
Transportation Authority, and the Connecticut Department of 
Transportation.

    Mr. Wolf. Four FTA grantees, working independently of each 
other, uniformly misinterpreted FTA guidelines for final 
assembly. Does FTA think it proper to issue so harsh a penalty 
over noncompliance with rules that are at best, vague and 
ambiguous, and after good faith efforts to comply with 
regulations?
    [The information follows:]

    FTA's final assembly requirements are understood and 
followed by the bus industry at large. FTA has surveyed the 
other five bus companies operating in the U.S. market. All five 
convert bus shells into finished products at their U.S. plants 
by adding major components such as engines, electrical systems, 
and heating and cooling systems. Most of the companies 
specifically cited FTA guidance as setting the standards they 
must meet for final assembly. As for the four grantees, FTA 
found that they had not properly conducted their required Buy 
America audit reports. The reports contained mainly material 
provided by Nova Bus. A grantee cannot rely solely on such 
information in conducting its audits, but must determine 
whether, in its own analysis, manufacturing activities 
constitute adequate final assembly. If a grantee contends that 
the rules are vague and ambiguous then it should not certify 
that it is satisfied that the Buy America requirements have 
been met. Each grantee so certified.

    Mr. Wolf. If the real target in this witch hunt is NovaBus, 
the agent responsible for making sure the complex ``Buy 
America'' regulations are followed, why are you using regional 
transit authorities and the persons they serve as pawns?
    [The information follows:]

    FTA initiated its investigation of Nova Bus in response to 
a whistleblower complaint that Nova Bus' Quebec/Schenectady 
operation did not meet the Buy America final assembly 
requirements. In accordance with its regulations, FTA required 
the complainant to submit detailed and convincing evidence of a 
possible violation, and reviewed this information carefully to 
ensure that an investigation was justified. Under FTA's Buy 
America regulations, grantees are responsible for ensuring 
compliance with Buy America and must certify that any vehicles 
they purchase meet the applicable requirements. Under no 
circumstances should a grantee passively rely on a 
manufacturer's certification. Therefore by law, the grantee, 
not the manufacturer, must answer to FTA when vehicles are 
found to be in noncompliance.

                          BUY AMERICA--GENERAL

    Mr. Wolf. Will FTA issue a waiver of the Buy America 
requirements under the ``public interest'' provisions of the 
statute and the regulations? If not, why not?
    [The information follows:]

    FTA has received requests for a public interest waiver of 
the Buy America requirements from some of the affected 
grantees. FTA will make a determination on their requests after 
considering all relevant factors. To date, none of the grantees 
has presented evidence of financial harm. FTA will consider 
this evidence when it is presented.

    Mr. Wolf. What is FTA doing to ensure that this situation 
does not happen again? For example, is the FTA reviewing its 
interpretation of the regulation to ensure that it is not 
incorrect or that the definition is defective? Do the 
regulations need further clarification?
    [The information follows:]

    FTA believes that its definition of final assembly is 
consistent with the purpose of the Buy America provision, which 
is to ensure that FTA funds are used to create manufacturing 
jobs in the United States. Therefore, FTA's regulation and 
guidance require that most major assembly operations take place 
in the United States. In the case of rolling stock, FTA has 
stated that the installation and interconnection of major 
components, such as the steering system, transmission, the 
engine, and the braking system, constitute final assembly. FTA 
recently conducted a survey of bus manufacturers' final 
assembly operations and is satisfied that the industry as a 
whole meets these standards. FTA has also approved a compliance 
plan from NovaBUS under which that company has agreed to shift 
production from Quebec to New York State in order to perform 
more manufacturing operations in the United States.

    Mr. Wolf. How will the FTA improve its dialogue with its 
grantees who are struggling to determine the validity of claims 
made by manufacturers that they comply with the Buy America 
assembly requirements?
    [The information follows:]

    To help its grantees better understand the final assembly 
requirements, FTA has recently issued guidance to them on 
conducting proper pre-award and post-delivery audits of a 
vehicle manufacturer's final assembly operations. This guidance 
explains what manufacturing processes constitute final assembly 
and clarifies the role of the grantee's on-site inspector in 
ensuring that the Buy America requirements have been met. FTA 
has advised grantees that any questions of interpretation of 
the requirements should be referred immediately to FTA.

                     attb-Inspector general issues

    Mr. Wolf. A keystone of the FTA's research program has been 
the advanced technology transit bus. The FTA has based its 
support for the ATTB on claims that the bus will result in a 
cleaner, safer, and more cost-effective bus, yet the Inspector 
General informs the committee that while the ATTB will result 
in a cleaner transit bus, data is not sufficient to conclude 
that the project will produce a safer and more cost-effective 
bus. Does the FTA take issue with the conclusions of the 
Inspector General?
    [The information follows:]

    No, the Federal Transit Administration (FTA) does not take 
issue with the Inspector General's (IG) memorandum, but rather, 
wishes to clarify and to put into perspective the IG's 
conclusions. The IG correctly concludes that information 
available at this stage of the Advanced Technology Transit Bus 
(ATTB) program is insufficient to use as a basis for absolute 
conclusions about the safety and cost-effectiveness of a 
production ATTB. That is why FTA is requesting $10 million to 
complete the fabrication and testing of six prototype ATTBs. 
The data gathered will provide sufficient information regarding 
safety and cost-effectiveness of ATTB prototypes, and in turn, 
will form a sound basis for projecting that information toward 
the safety and cost-effectiveness of production ATTBs.
    In addition to the IG finding that the ATTB will emit less 
pollutants, resulting in a cleaner bus, it is important to note 
that the contractor performed several safety-related tests. 
These tests included a side-impact crash test with an 
automobile, a burn-through test to determine the self-
extinguishing characteristics of the composite body, and a 
wheel well impact test. These test results showed no apparent 
damage to the ATTB structure. In addition, the IG survey 
supported FTA's assertion that the ATTB will save approximately 
$3,660 in annual fuel costs per bus.

    Mr. Wolf. The Inspector General found that a comprehensive 
life-cycle cost analysis had not been performed to determine if 
it would be cost-effective to procure and operate the ATTB and 
that the analysis should be completed in order to make informed 
decisions to fund grantee purchases of the ATTB. When will the 
FTA conduct such an analysis and when will it be completed?
    [The information follows:]

    The data necessary to support a life-cycle cost analysis 
will be collected concurrently with Advanced Technology Transit 
Bus (ATTB) prototype field testing and durability testing at 
the Altoona Bus Testing Facility. By the time the test program 
is completed in December 1998, the data needed for a 
comprehensive life-cycle cost analysis will be compiled. The 
analysis should be available within 90-days of the conclusion 
of the test program. The ATTB prototype program will provide a 
sound basis for projecting the cost, performance, and cost-
effectiveness of a production version of the ATTB.

                      georgetown fuel cell project

    Mr. Wolf. And I want to ask some about the Georgetown 
University cell bus for the record.
    Another research project supported by the FTA's research 
and development program is the Georgetown University fuel cell 
transit bus program. In fiscal year 1998, the FTA is seeking 
$6.5 million. Has the FTA conducted a life-cycle cost analysis 
of the fuel cell bus?
    [The information follows:]

    FTA recognizes the importance of life cycle cost analysis 
in the development of a commercially viable fuel cell transit 
bus and is requesting $5 million for the program.
    The existing program requires such a study to be completed 
by Booz-Allen & Hamilton, the Systems Integrator for the fuel 
cell transit bus.
    The study is scheduled to begin in May 1997 and will be 
completed this fall. It was not possible to begin this any 
earlier since the fuel cell power system and electric drive 
train for the fuel cell transit bus were not sufficiently 
defined.

    Mr. Wolf. When does the FTA plan to conduct such an 
analysis and when will it be completed?
    [The information follows:]

    The study is scheduled to begin in May and will be 
completed this fall. It was not possible to begin this any 
earlier since the fuel cell power system and electric drive 
train for the fuel cell transit bus were not sufficiently 
defined.

    Mr. Wolf. Georgetown University is seeking $14 million in 
fiscal year 1998; $8 million for the basic program to develop 
two fuel cell powered buses and $6 million to accelerate the 
pre-commercialization process. In addition, the University is 
requesting $25 million for an Intermodal and National 
Depository Fuel Cell facility. What can FTA tell the committee 
about the nature and need of those requests? Why did FTA reject 
these requests during its budget formulation?
    [The information follows:]

    Given the limited resources available and the tremendous 
demand on the National Program, FTA allocated $5 million for 
the fuel cell transit bus program to continue development of 
two fuel cell powered buses. The FTA believes that it would be 
premature at this point to accelerate the commercialization 
process of this technology for transit buses until more 
definitive results from the current program have been obtained.
    The goal of the current 40-foot fuel cell bus program is to 
commercialize fuel cell transit buses for transit agencies. The 
project is well underway with a prototype 40-foot phosphoric 
acid fuel cell bus scheduled to be completed by December 1997. 
Work has also been recently initiated on the development of a 
prototype 40-foot proton exchange membrane fuel cell bus which 
is expected to be completed by the end of 1998. Both efforts 
are focused on the development of a 40-foot fuel cell transit 
bus that would be economically viable for transit agencies to 
operate in regular revenue service.
    To that end, the testing and demonstration of these buses 
should be conducted at transit agencies. Since Georgetown is 
not expected to host these 40-foot fuel cell transit buses, a 
larger fuel cell maintenance facility would not be required. 
Following the successful testing and demonstration period, it 
is envisioned that a limited number of production 40-foot fuel 
cell transit buses would be fabricated and introduced in a 
number of transit agencies across the country. Again, since 
Georgetown is not a transit agency, none of these 40-foot fuel 
cell transit bus would be delivered to Georgetown.
    We believe that the proposed project (extensive access 
ways, parking for university automobiles, and an informational 
repository for fuel cells) is not only outside of the scope of 
the FTA Fuel Cell Transit Bus Program, but is also outside the 
scope of the FTA National Program in general.
    FTA will continue to work with Georgetown to complete the 
40-foot fuel cell transit bus program and to make it a 
resounding success for the transit community. However, FTA 
cannot justify using its National Research Programs funds for 
the proposed Intermodal and National Depository Fuel Cell 
Facility.
    The Fuel Cell facility project could be considered for 
funding under FTA's formula assistance program if an eligible 
recipient under that program were to include the facility as 
part of the Transportation Improvement Program for the 
Washington, DC transportation management area.

[Pages 1113 - 1377--The official Committee record contains additional material here.]


             WASHINGTON METROPOLITAN AREA TRANSIT AUTHORITY

    Mr. Wolf. We have a series of votes on the House floor. We 
will have to do first go vote and then back and work in WMATA 
oversight. We may have to come back and do ten minutes or 15 
minutes and run back. We need a time management study of the 
Congress. We will submit your statement for the record rather 
than get into it now. I ought to just go vote and then I will 
be right back.
    [Recess.]
    [The oral and prepared statement and biography of Richard 
White follow:]

[Pages 1380 - 1414--The official Committee record contains additional material here.]


                  general observations and challenges

    Mr. Wolf. WMATA has seen a sea change in its top 
management. I am going to ask you a lot of these questions 
briefly, and then if you can elaborate on all of them, frankly, 
for the record, because I don't think we are going to have 
enough time.
    WMATA has a sea change in its top management.
    Mr. White, you have been in the job as general manager for 
less than a year. What significant challenges do you see coming 
in?
    Mr. White. Right now our most significant challenge is to 
finish the construction of the 103-mile system. That is our 
first challenge. That includes finding sufficient funding to 
build our planned Branch Avenue yard and to purchase an 
adequate number of cars for the 103-mile system.
    The second significant challenge is to help the region face 
up to the fact that we have to have an adequate level of 
funding to preserve and rehabilitate the investment that has 
been made in the transit system.

                     wmata's appropriations request

    Mr. Wolf. What are you asking for this year, next year? 
When will the 103-mile system be paid for, and what is next?
    Mr. White. We are requesting $200 million in fiscal year 
1998 appropriations. That will leave us with a remainder of $50 
million in the fiscal year 1999 appropriation cycle. That will 
then complete the federal commitment to the 103-mile system.
    Mr. Wolf. And then you mentioned the other thing.
    Mr. White. I was answering your previous question on our 
priorities. Beyond completing the 103-mile system, the second 
major priority is to preserve the investment in what will be a 
$10 billion investment made in the bus and rail system. We need 
to have an adequate level of money to rehabilitate the system.
    I think our third basic priority is to kind of change--
adapt to the changing environment around us. We are facing some 
very significant demographic changes, population and shifts 
that have an effect on our ability to serve the metropolitan 
area.
    The fourth major issue is to ensure that we find a way to 
have dedicated state and local funding that comes our way 
rather than do what I call, ``pass the hat every year and pray 
and hope.''
    Mr. Wolf. Your permanent team is in place? The whole team?
    Mr. White. I am still in the process of filling a few extra 
vacancies. I have made my key appointments, starting with the 
Deputy General Manager of Operations. That position has been 
filled with a topflight professional. I have recently filled my 
safety position, which was a significant vacancy. That has just 
recently been filled. A few other key vacancies have recently 
been filled, but I have another two or three to fill.

                       wmata's maintenance needs

    Mr. Wolf. Okay, what is WMATA's first priority? And I think 
I know the answer. Is it to complete the 103-mile system, to 
respond to growing capital shortfalls, or is it to extend the 
original system with spurs to Largo?
    Mr. White. Our first priority is to finish the 103-mile 
system. That is our first priority.
    Mr. Wolf. In an interview with The Washington Times, you 
indicated WMATA needs an infusion of $40 to $80 million in the 
next few years just to maintain the aging system. You continued 
to state that if WMATA doesn't get it, riders will see the 20-
year old Metro go the way of troubled systems in New York, 
Chicago, and Boston. Would you comment on that?
    Mr. White. Yes, that is really speaking to the issue that 
the WMATA system is moving into its middle age. Our oldest rail 
lines have been serving the public for 21 years now. As we are 
aging, our capital rehabilitation and replacement requirements 
are going up, to the point that we estimate we are going to 
need on average about $185 million per year for the next six 
years.
    Mr. Wolf. $185 million?
    Mr. White. $185 million.
    Mr. Wolf. What would have that figure been five years ago?
    Mr. White. Closer to the 100 to 125 million-dollar range. 
We foresee at this point in time currently available funds of 
less than half of that. We estimate that about 90 million is 
available annually based on current federal, state, and local 
funding arrangements. We have a fairly significant funding gap 
of about $90 to 95 million a year.
    Mr. Wolf. Where do you propose to get those funds?
    Mr. White. That is one of the key issues that is being 
discussed right now. The language in last year's Appropriation 
Committee report has spurred us on in a couple of areas. First, 
you identified the major problem of the fragmentation of 
regional bus services and asked us to take a leadership role in 
developing a cohesive regional plan to address that issue. We 
are doing that.
    At the same time that we are doing that, we are building a 
coalition of people to see if we can't come together with a 
regional consensus on what is the appropriate level of funding 
for Metro and how do we find more stable and predictable state 
regional and local funding sources.

                               ridership

    Mr. Wolf. What is the ridership now?
    Mr. White. Our daily ridership today is about 505 to 
510,000 trips per day on the rail system and about 360 to 
365,000 trips per day on the bus system.
    Mr. Wolf. And what were your projections and expectations, 
say, ten years ago?
    Mr. White. I can't speak to what the projections were ten 
years ago. With respect to trends, last year was a fairly 
difficult year for us for a number of reasons. In fiscal year 
1996 we saw our bus ridership drop about 12 percent. We saw our 
rail ridership drop about five percent. Those trends, I think, 
have bottomed out. Rail ridership is back up from a year ago. 
Bus ridership is below where it was a year ago slightly. But, 
these are troublesome ridership trends that we are watching 
very closely.
    Mr. Wolf. But where do your projections--if somebody had 
been testifying ten years ago, what would have they said your 
ridership for both bus and rail should have been?
    Mr. White. I am advised----
    Mr. Wolf. Rail was 500 and some, so what were the rail 
expectations when this system was designed and planned and 
begun, the construction, where would have they been?
    Mr. White. I am advised that the estimates for rail were 
approximately where we are today, a little over half a million 
trips per day.
    Mr. Wolf. And what about for bus?
    Mr. White. I think the bus projections, would have been 
quite a bit higher than ridership is today. We had a maximum of 
approximately 460,000 trips per day on bus several years ago. 
The trend suggests we would have been closer to the half a 
million trips per day on buses, as well.
    Mr. Wolf. So you are down?
    Mr. White. Considerably.
    Mr. Wolf. If you could provide more detail on both of those 
subjects, the expectations on both rail and bus and what they 
are today and explain why you think they are up or, obviously 
in these cases, why you think they are down.
    [The information follows:]

    In 1989, ridership projects were prepared for the Authority 
for 1995 and the 89.5 mile Metrorail system and supporting 
Metrobus service. The projections utilized the regional travel 
demand forecasting procedures maintained by the Metropolitan 
Washington Council of Governments (MWCOG) and projections of 
population and employment prepared by the local governments for 
the MWCOG.
    The ridership projections produced by this analysis were 
approximately 585,000 weekday Metrorail passenger trips and 
467,000 weekday Metrobus passenger trips. Actual ridership 
figures were less than the projections. In Fiscal 1995, 
Metrorail ridership averaged 519,000 weekday passenger trips, 
or 11 percent less than the projection. Metrobus actual 
ridership was 409,000 weekday passenger trips or about 12 
percent below the projection. While the ridership projections 
exceeded actual ridership, the overall performance of the bus 
and rail systems compared to the projections has been quite 
good when compared to protections made for other systems and 
accounting for dramatic changes that have occurred in the 
region.
    Clearly, demographic changes and changes in service levels 
have had an adverse affect on the Authority's ability to meet 
the projections. With regard to demographic changes, the 
declines in employment in the District of Columbia and the 
growth in suburban employment, as well as the growth in 
suburban population and the sharp decline in population in the 
District of Columbia, were not foreseen in 1989.
    The other major factor that affected the ridership 
projections were the levels of transit service, particularly on 
the Metrobus system. The Metrobus network of routes utilized in 
the 1989 projections did not include the service reductions and 
local government takeovers of Metrobus service that occurred 
between 1990 and 1995. In the case of service takeovers, the 
service is being provided by local governments and the riders 
are on those bus systems. They are just not on the Metrobus 
system.
    Hopefully, the results of the regional bus study will 
establish a plan for the region and will translate into actual 
future service levels. However, future ridership projections 
will still have to rely on demographic projections as base 
inputs.

                            financial issues

    Mr. Wolf. What are the principal reasons for WMATA's money 
woes?
    [The information follows:]

    WMATA is facing fiscal constraints from three fronts: flat 
or declining ridership, level local subsidies, and increased 
costs.
    The downsizing of the Federal workforce and relocation of 
Federal jobs from the central core area have affected WMATA's 
ridership. From 1992 to 1996, employment in the central core 
(D.C., Arlington, and Alexandria) decreased by 28 thousand 
jobs, reflecting the movement (or elimination) of Federal jobs 
and the private sectors jobs which support them. In Fiscal 1996 
alone, we estimate the financial impact of the federal 
downsizing to be a loss of $10 million in passenger revenues.
    This drop in core employment is mirrored by a minuscule 
Metrorail ridership increase of one percent per year since 
1992, compared with nearly eight percent per year from 1985 
through 1991. This trend is even more pronounced in Metrobus 
ridership, which has declined by nearly four percent per year 
since 1992.
    The impact of Federal downsizing and relocation, as well as 
the generally sluggish local economy, has also been felt by the 
local governments, whose fiscal problems have limited their 
ability to increase subsidies to WMATA.
    WMATA's operating and capital improvement costs have 
increased for three reasons. First, the Metrorail system has 
expanded in recent years, requiring additional resources to 
provide service and maintain the system. Second, inflationary 
pressures have caused costs to rise. And third, with portions 
of the rail system now over twenty years old, the system is 
aging and increasingly requires capital investments beyond 
routine maintenance to continue providing the quality of 
service the riders have come to expect.
    With fares already fairly high and no substantial ridership 
growth, there is little room for passenger revenue growth. With 
local jurisdictions unable to increase subsidies substantially, 
the only other income source is also constrained. Thus the 
Authority faces the task of covering increased costs with level 
income.

                                 fares

    Mr. Wolf. Fares account for less than half of WMATA's 
operating budget, with the other half coming from local 
jurisdictions and the Federal Government. Two years ago, WMATA 
was forced to raise fares ten cents. Given the continuing 
financial crisis of the District and the suburban 
jurisdictions, will you be forced to raise your fares anytime 
in the near future?
    Mr. White. We recover approximately 53 percent of our 
operating costs from fares, and----
    Mr. Wolf. That is total bus and rail?
    Mr. White. Total bus and rail, 53 percent.
    Mr. Wolf. And breaking down rail is?
    Mr. White. We recover is approximately 70 percent on rail 
and approximately 35 percent on bus. I am very pleased that for 
the second year in a row our proposed fiscal year 1998 budget--
our fiscal year starts this July 1--proposes no fare increases 
and no service reductions. In fact, we have proposed some 
service expansions. I am very focused on finding a way to 
maintain our services at current fare levels, recognizing that 
I think we are at the upper echelons of what the market can 
bear with respect to our fare structure.
    Mr. Wolf. I agree. I think we are at the upper level. When 
I look around the country, we are--if I read it right, we are 
higher than most.
    Mr. White. It depends. We are unlike a lot of transit 
systems in that we have a distance based fare structure. Our 
base fare is considerably lower than most.
    Mr. Wolf. But the base----
    Mr. White. Our average fare----
    Mr. Wolf [continuing]. Is so small----
    Mr. White. Yes, our----
    Mr. Wolf. You can go from one part of Manhattan to the 
other part of Manhattan and change----
    Mr. White. For $1.50.
    Mr. Wolf [continuing]. And spend all day long, it seems, 
and here you are--you go from Vienna to downtown and it is 
$2.30.
    Mr. White. Our average fare is about $1.85.
    Mr. Wolf. Yes. Last year it was indicated that Fairfax was 
having difficulty meeting their subsidy requirement. Has this 
changed over the past year?
    Mr. White. This year we have not had any difficulty from 
any of our jurisdictions in meeting their subsidy requirements.
    Mr. Wolf. What about--no other jurisdictions is the 
District the same way?
    Mr. White. Yes, payments from the District of Columbia have 
been quite timely in the last several months; certainly since I 
have been here.
    Mr. Wolf. The financial condition of the District has not 
improved. What does the DC financial crisis mean to WMATA? Is 
there any impact that that will have on WMATA in any way at 
all?
    Mr. White. We have to watch it very closely. The District 
supports us with $180 million per year. That is a very sizable 
sum. About $130 million of that is for operations and $50 
million is for capital. We need to watch very closely the 
financial condition of the District which affects their ability 
to provide funding.
    We have seen in the last couple years a very debilitating 
cumulative effect of fare increases and service cuts, 
particularly in the District of Columbia, which has been driven 
by prior year fiscal crises that they have had to deal with. 
Certainly past experience has been that when the District has 
had to cut its budget, it has a devastating effect on the 
transit riders in the District of Columbia. I am trying to make 
sure local officials understand the tradeoffs when they make 
budget decisions.

                           district payments

    Mr. Wolf. When and in what amounts are the next payments to 
be paid by the District government due to WMATA?
    [The information follows:]

    The net payments from the District of Columbia were due on 
Tuesday, April 1, 1997.
    The amount due was $28,609,335. The payment was made on 
time.

                      wmata system rehabilitation

    Mr. Wolf. You said that Metro will need as much as $150 
million annually to maintain the existing system. What are the 
system's principal replacement and rehabilitation needs and how 
does this level compare with other systems around the country?
    Mr. White. Our needs are your typical needs of a transit 
system with a large-part being rolling stock replacement. We 
have 1300 buses and 760 rail cars. Rehabilitating and replacing 
those vehicles constitutes the lion's share of our capital 
improvement program. Additionally our basic facilities, 
structures, and support equipment need to be rehabilitated. Our 
current estimate in this year's budget shows the phenomenon of 
an aging system. Our capital needs are going up from $150 to 
$185 million per year.
    Mr. Wolf. We will have more for the record on that.
    Metro has stated in previous years that it may be necessary 
to request additional funding to construct the Branch Avenue 
rail yard and to purchase additional cars. Are these items 
still required, and is Metro planning to request additional 
funding?
    Mr. White. Yes, the items are still required. As you may 
recall, Mr. Chairman, it was understood clearly by the parties 
at the time that the full funding grant agreements were 
executed that those were unfunded components of the program. It 
was recognized that they needed to be done, but probably 
exceeded the funds identified at that time. Since then we have 
been working to fit these two projects within the existing 
funding levels.
    I am pleased to say that, to date, we have identified 
approximately $170 million due to the efficiencies and savings 
in our construction program. These funds will be applied to the 
Branch Avenue yard and cars. In total, the maximum amount that 
will be needed for these two projects is about $350 million. We 
are working our way through this project. I am feeling more 
confident by the day that we will be able to accomplish both of 
these projects within the existing authorization.

            proposed addison road to largo town center line

    Mr. Wolf. What actions has WMATA taken to advance the draft 
environmental impact statement and general plans for the 
Addison Road to Largo Center rail extension? And has this 
proposed leg of the system been added to the Metro Adopted 
Regional System?
    Mr. White. This project is an initiative of the State of 
Maryland, and co-sponsored by Prince George's County. The role 
of WMATA is to provide professional services and to help to 
support the advancement of the technical engineering and 
environmental work associated with the project. Today the 
project has gone through the alternatives analysis phase. It 
has gone through the Draft Environmental Impact Statement phase 
and is now being advanced to the Final Environmental Impact 
Statement preliminary engineering phase, subject to 
appropriations and by the State of Maryland.
    Mr. Wolf. What will the project cost?
    Mr. White. $382 million.
    Mr. Wolf. $382 million for how many miles?
    Mr. White. 3.1 miles.
    Mr. Wolf. So that is roughly 100 million--I mean, that is 
130 million a mile if we believe those figures.
    Mr. White. That is probably slightly less than the costs 
for our existing system. Cost has been contained, because the 
rail line is in a dedicated right of way that has been on a 
master plan in Prince George's County for over 20 years now. 
That in essence has contributed to a lower estimated project 
cost.
    Mr. Wolf. And the daily transit ridership would be what?
    Mr. White. 15,000 new transit riders per day.
    Mr. Wolf. Does----
    Mr. White. The project has a cost effectiveness index of 
about $7.30 per rider.
    Mr. Wolf. But how do you come and ask for that when we 
haven't completed the system?
    Mr. White. We are not presently asking for anything at this 
stage.
    Mr. Wolf. But are you not, kind of, buying into it if you 
are doing the planning and you are doing the work for them?
    Mr. White. The interest of the state is to preserve its 
decision making options as the project moves through its 
environmental and preliminary engineering phase. Further 
decisions on this project will be made about a year and a half 
from now, subject to the release of funds from the State of 
Maryland.
    Mr. Wolf. There is 20 million needed to complete the final 
environmental impact statement and preliminary engineering. 
What funds does WMATA expect to contribute to these activities?
    Mr. White. There is about 4.7 million that is necessary to 
complete the Final Environmental Impact Statement and 
Preliminary Engineering to secure a Record of Decision. WMATA 
is not planning on funding any part of that.
    [Additional information follows:]

    All costs incurred by WMATA for the Draft Impact Statements 
and General Plans are being fully reimbursed by the State of 
Maryland.

    Mr. Wolf. And how many staff years has WMATA contributed to 
date?
    Mr. White. We have received a little less than a million 
dollars for our own staff work to date for this work, which 
translates into approximately 8.6 staff years of work.
    Mr. Wolf. What are the estimated annual operating costs to 
WMATA if this were extended?
    Mr. White. The estimated operating costs are approximately 
$1.3 million per year, which likely would be funded under a 
jurisdictional subsidy allocation formula.
    Mr. Wolf. Considering the existing capital and operating 
shortfalls of the 103-mile system that you talked about 
earlier, how can WMATA afford the additional financial burden 
of the Largo extension?
    Mr. White. Mr. Chairman, our priorities are to finish the 
103-mile system and to ensure that we have an adequate level of 
funding to preserve the existing investment. What we see going 
on around us are initiatives by the respective states, 
Maryland, Virginia, and the District, to look into the future 
beyond the 103-mile system. Perhaps it is many years from now, 
but they are all looking into what their priorities may be 
beyond the 103 miles. We have only participated by providing 
professional services.
    Mr. Wolf. I better go vote. If you will excuse me, I will 
try not to do this again. Hopefully we will just wrap up the 
next time. I have a lot more questions, but excuse me. I will 
try to be back in ten minutes.
    [Recess.]

                        wmata system maintenance

    Mr. Wolf. We are going to have another vote in about ten 
minutes, and I think that will be it. You can thank Mr. Linton 
for filibustering in the morning whereby the time was 
eliminated, but we will have to submit a lot for the record.
    On maintaining the system, you talked about Metro's annual 
cost of $180 million?
    Mr. White. $185 million.
    Mr. Wolf. $85 million. How does this compare with the 
funding this region spends on highways?
    Mr. White. Interestingly, it is probably about 25 percent 
what the region spends to maintain highways, to the best of our 
ability to calculate that number. You have to go to a lot of 
different sources to estimate. But the best of our 
understanding is that the region spends about $750 million a 
year on maintaining the highway system, so our projected 
transit maintenance losts would be a little bit more than 20 
percent of that.
    Mr. Wolf. And what are the consequences if we don't invest 
in this type of funding?
    Mr. White. Well, I think the consequences are what happens 
if the public investment is allowed to slowly deteriorate over 
time. You don't see it on a moment-by-moment basis, but 
eventually we will start seeing considerably less reliable 
service, as we begin to have problems with aging equipment. 
Without reinvestment customers will start to experience 
problematic escalators, elevators and fare collection 
equipment.
    We do a lot to maintain these systems and yet we still have 
problems. These are the kinds of systems that will start 
failing if you don't have an adequate level of rehabilitation 
funding. That, of course, become a disincentive for riders. 
Once this happens a transit system can get into a downward 
spiral where you start raising fares and cutting service to 
make up for insufficient rehabilitation funding.
    Mr. Wolf. How do other transit properties pay for their 
maintenance expenditures?
    Mr. White. It seems like just about every transit system in 
the country, except perhaps one or two in the top 30 systems 
around the country, have some form of dedicated funding that 
goes their way. It comes in many different variety of sources, 
including property taxes and sales taxes, automobile licensing 
fees, excise taxes, and gas taxes, among a number of different 
sources. There is a very large menu of different choices that 
metropolitan areas have, and they have seemingly chosen 
different sources.
    We don't experience that funds are allocated through the 
jurisdictional budgeting process, on a year-by-year basis. We 
really don't get any money that comes directly our way. And as 
a result, we really are dependent on annual local and state 
appropriation processes.
    Mr. Wolf. What deferrals of rehabilitation and replacement 
actions have been taken within the past year to accommodate for 
reductions in local, state or federal support and other 
unforeseen expenses?
    Mr. White. At this stage, it is most pronounced in our 
replacement program, particularly in our bus replacement 
program. That is the part of the program that has suffered the 
most. As a result, we have a fairly old bus fleet. We have 
about an average bus age of more than ten years, which makes us 
among the oldest bus fleets in he nation. That that is the 
thing that we have seen most dramatically to date.
    However, right now in an upcoming year we are beginning to 
see shortfalls. The nuts and bolts of our system, like chiller 
systems and other parts of our infrastructure are really part 
and parcel to the service that we provide. We are now on the 
cutting edge of this problem. I think we have a couple of years 
to try and solve it. And as we do that, we are trying to do is 
to keep on sticking our fingers in the dike and solving our 
most immediate rehabilitation needs with the funding that we 
have.

                      regional mobility conference

    Mr. Wolf. Do you think the regional governments know? 
Because I think some people sense that Metro is a new system. 
It is a new/old system or an old/new system, however you would 
define it. But do all the regions know how serious it is based 
on what you are saying?
    Mr. White. We are starting to get into that educational 
process. You may know, Mr. Chairman, that we held a very 
successful conference in January of this year where we had 
about 175 attendees, from all walks of life, including 
governmental, business, and civic leaders. The Federal 
Government also had representatives there. Members of Congress 
were there, as well. I think it was a good starting point in 
the educational process. It is the beginning of a renewed 
commitment by the region to metro. There is at least an 
understanding that the issue is serious enough that it needs to 
be addressed. What that outcome will be, I can't predict, but 
at least we were successful in bringing it to people's 
attention.
    Mr. Wolf. When is your sense that we will be able to know 
what the recommendations are and how the region will be 
responding to them?
    Mr. White. Your report language on the bus issue asked for 
us to report back to the Congress by September 30 of this year. 
That is the timetable that we are using. Our panel really has 
two principal charters. One is to make recommendations with 
respect to the bus issue. Concurrently, the panel is to develop 
recommended funding strategy. Our expectation is that both of 
those issues will be done within the September time frame.
    Mr. Wolf. And the process is, then, the different local 
jurisdictions will----
    Mr. White. Once there is consensus as to what is needed and 
how that money gets spent, I think the debate will turn to 
which potential funding sources are available in the various 
jurisdictions throughout the region. The panel's 
recommendations could range from one singule funding source 
regionwide to a series of different funding sources, varying in 
Maryland, Virginia, and the District.
    Mr. Wolf. Are we disadvantaged by the split jurisdiction?
    Mr. White. It certainly makes our job more difficult when 
we really have to deal with three state legislative bodies, as 
well as several counties and municipalities.
    Mr. Wolf. Is this a time to look in terms of an authority 
now that the Metro will be completed? There is the airport 
authority which operates both airports.
    Mr. White. Some people may have given that a passing 
thought. I am not sure that would be the solution, at least in 
the short term. I can't predict how this situation may evolve 
over time, but at least in the near term, I think we are going 
to look within the existing structures that are in place and 
attempt to determine what financing mechanisms are available.
    Mr. Wolf. Well, obviously, then, the localities would have 
to take the leadership to do that. I am not suggesting that 
something be imposed now, but is that something that is being 
looked at or--and since you do cross state lines--MARTA down in 
Atlanta has Atlanta, its region. We go across into two states 
and the District of Columbia. It is very difficult. And within 
it the different localities--how many different localities, 
governmental localities, are in the operating area?
    Mr. White. We have nine member jurisdictions in our 
Interstate Compact, including Loudoun County. We have two 
states that fund us, as well as the District of Columbia and 
the Federal Government. We have a lot of people that we deal 
with on these funding issues.
    Mr. Wolf. Any other system have that many?
    Mr. White. Not to my knowledge.

                            ridership trends

    Mr. Wolf. With the rail ridership dropping by 2.4 million 
trips this year, which will cost Metro, what, $3 million, you 
said? What will the drop in ridership cost Metro?
    Mr. White. Rail ridership declined about five percent last 
year. And I would say the factors----
    Mr. Wolf. What does that cost you?
    Mr. White. Approximately $10 million in lost passenger 
revenue.
    Mr. Wolf. And you are pretty confident that that has 
stopped?
    Mr. White. Yes. Last year was an extraordinary year with 
the winter storms and the Federal furloughs. They had 
significant impact on us. Those issues, on top of the changing 
regional demographics, have had a big impact on us. The 
District of Columbia has lost ten percent of its population in 
the last six years. We primarily serve the central city. Fully 
37 percent of all commute trips to the Washington downtown area 
are on Metro. As the central city shrinks, that has a 
significant impact on us.
    A second significant factor is the downsizing of the 
Federal Government. More than 50,000 regional Federal jobs have 
been lost in the last several years. That translates into 
approximately $10 million of lost annual revenue to us.
    Mr. Wolf. Okay. What percentage of the riders on Metro are 
outside the region or tourists versus those that are inside?
    Mr. White. I am not sure I know that off the top of my 
head.
    [The information follows:]

    Based on our most recent Metrorail survey taken in 1994, 
approximately 39,000 weekday trips or 5.7 percent of our daily 
total are made by individuals who live outside of our Transit 
Zone. Comparable data is not available for Metrobus.

                          proposed largo line

    Mr. Wolf. I have some more questions about the Largo 
project.
    The Maryland General Assembly is currently considering 
allocating state funds for the remaining planning, 
environmental and engineering analysis. Can you bring us up to 
date on what the Maryland General Assembly has done or plans to 
do to move this project forward?
    [The information follows:]

    In its 1997 session, the Maryland General Assembly has 
favorably reviewed a proposal from the Maryland Department of 
Transportation to provide $4.7 million in state funds for the 
Addison Road to Largo transit extension study. These funds will 
be available beginning July 1, 1997 for the purpose of 
completing the Final Environmental Impact Statement (FEIS) and 
the Preliminary Engineering (PE) for a Metrorail extension from 
the existing Addison Road Station to a proposed terminus 
outside the Capital Beltway at Largo Town Center. It is 
anticipated that both of these elements will be completed by 
June 30, 1998.

    Mr. Wolf. If state funds were made available, when would 
preliminary engineering and the final environmental impact 
statements be completed?
    [The information follows:]

    On February 27, 1997, the WMATA Board took the following 
actions relative to the Blue Line Extension from the Addison 
Road Station to the terminal station at Largo Town Center:
    A. The Blue Line Extension was added to the Adopted 
Regional System (ARS) effective upon the following:
    1. Satisfactory completion of the Final Environmental 
Impact Statement (EIS) and an issuance of a Record of Decision 
by the Federal Transit Administration; and
    2. Approval of a financing plan for the construction, 
acquisition and operation of the new facilities by the WMATA 
Board and the execution of implementing financial commitments 
by the WMATA Compact signatories.
    This action did not obligate signatories or local 
governments to fund the construction of any facilities.
    B. The General Plans were approved for the preferred 
alternative resulting from the December 3, 1996 public hearing 
on the Draft Environmental Impact Statement and proposed 
General Plans.
    C. The General Manager was authorized to assist the 
Maryland Mass Transit Administration (MTA) as a cooperating 
agency with the preparation of the Final Environmental Impact 
Statement for the Blue Line Extension.

                            dulles corridor

    Mr. Wolf. In closing I would just say that I have been and 
am a strong supporter of mass transit, and have been in the 
region with regard to Metro, in fact, working with the area 
delegation. One of the reasons that I got on this committee and 
asked to be on this committee years ago was to deal with the 
issue with regard to Metro funding. And while, as I made the 
comment last year, my district no longer has--there are no 
Metro stops in my district. My district now goes down to the 
Harrisonburg area and out to Winchester and Fauquier County and 
Rappahannock County and Rockingham County, but I am still 
committed to Metro. I think it is important, to have Metro in 
Washington as SEPTA is important to the whole surrounding areas 
of Philadelphia. So that has not been a problem for me.
    Things do change, though, and that is why I have such a 
problem with regard to the Largo project. And there is a move 
afoot with regard to the Dulles rail and some concerns that we 
have. And I think we are better off doing what has to be done 
to finish the system and then to take care of any of the 
problems that it may have and be less inclined to be thinking 
ahead with regard to Largo.
    One other question is what would the Dulles extension cost?
    Mr. White. In current dollars, approximately $1.45 billion.
    Mr. Wolf. Current dollars. So as we go on----
    Mr. White. About $1.9 billion in escalated dollars.
    Mr. Wolf. $1.9 billion. Could you do some studies for us--
you don't have to get them to the committee. I just want to see 
them, what the densities would have to be for the rail to be in 
the Dulles Corridor. Secondly, would there be any impact on the 
tolls collected on the Dulles toll roads? Thirdly, would there 
be an impact on the Greenway, because the Greenway had--that is 
the road that--it goes from Dulles out to there, had 
difficulties. Would there be the requirement for--did you 
want--
    Mr. White. Yes, Mr. Chairman. We will work with Secretary 
Martinez. His office has taken the lead on----
    Mr. Wolf. The problem with his office, though, is his 
office just seems to want to go ahead and do this thing. 
Secretary Martinez doesn't serve on the committee. Secretary 
Martinez doesn't have the responsibility. I mean, I care about 
the property taxpayers of Fairfax County and Loudoun County and 
Arlington County and Montgomery County.
    So Mr. Martinez, who I know as a good friend, every time I 
hear him he is anxious to move ahead. But Mr. Martinez will be 
gone. Next year Mr. Martinez will be out working for somebody, 
and I think that is fine, but the people that live in the 
region are going to be the ones that have to deal with how they 
pay for this. And I think it is important. I hope to live long 
enough that I get to get on the subway at Farragut Square and 
go out to Dulles Airport and ride on a rail. And I think I 
will, but I think before we jump ahead and move in, we have got 
to be careful.
    So if you could just give us whether--what the far rate, 
what the density rate would be. Would we have to have a Boston 
at Reston? What is your guess?
    Mr. White. I know what the aggregate ridership estimates 
are, but I don't know what the estimates are for individual 
stations. I would have to study that previous analytical work a 
little bit more closely.
    Mr. Wolf. If you could give me what you think, and if you 
could do it relatively fast. Again, this is not for the record. 
We are finished with regard to what you have to supply for the 
record.
    Mr. White. Okay.
    I am one who believes, and we have the funding and FTA has 
been helpful with regard over the years, of getting the bus 
system up and running whereby we can then move from bus into 
rail. And I think if we have an aggressive bus system where 
people are learning to come in from mass transit, then the 
transfer is relatively easy. I worry about jumping from nothing 
over to that.
    Also some of the figures that I have seen take some of the 
ridership from the Orange line and shift it over to there. 
Well, that is not really a gain for Metro. That is mixing 
things from one line to the other.
    So what would the density be? Would you have to have paid 
parking at all those park and ride lots? Now they are free. 
Would you have any impact on the tolls being collected? Because 
that is a sensitive issue because, as you know, the Greenway 
was not successful and now the ridership is increasing because 
they dropped the tolls.
    Then I think these issues--and if I could ask you, Mr. 
Administrator, if you would do the same thing. Again, this is 
not for the record. Just have somebody put these things 
together. And if you could have your very best person who has 
no bias at all with regard to whether these things should go or 
not go to come up and sit down with us whereby we could just 
look at this and maybe compare. And it would be helpful if you 
didn't talk to Metro before the time so that you are not really 
comparing.
    Mr. White. Sure.
    Mr. Wolf. Nobody is going to graded, but just to see. And 
then we could talk to your best person. And I have great 
respect for you. I think Metro did a good job when they hired 
you. You or your best person, your best person at FTA. We don't 
have to get you to come up. And then we can have somebody from 
the county to sit in and just kind of kick these things around 
to see where we are because when I look at some of the needs 
that you say, which I am hopeful that we can address, but I 
just want to be careful that we move careful enough so that 
when we do move it is successful.
    We will adjourn and just submit the rest of the questions 
for the record.

                             bond financing

    Mr. Wolf. Has WMATA exhausted its proceeds from its transit 
bond financing?
    [The information follows:]

    WMATA has substantially exhausted its proceeds from its 
transit bond refinancing. A total of $58,450,000 in transit 
bond proceeds has been made available to the Authority's 
Capital Improvement Program budget to finance critically needed 
capital rehabilitation projects. During Fiscal Years 1994 
through 1997, a total of $58,402,000 has been applied to the 
capital improvement budget and a balance of $42,000 remains for 
application to the Fiscal Year 1998 budget.

                             safety issues

    Mr. Wolf. To what extent will recommendations in a recent 
National Transportation Safety Board prompted by last year's 
crash at the Shady Grove station contribute to Metro's 
financial troubles?
    [The information follows:]

    Overall costs associated with the corrective action 
implemented in response to the National Transportation Safety 
Board's [NTSB] could exceed $10 Million. The single highest 
cost item identified thus far is an estimated $7.6 Million for 
installing carborne monitors on the entire Metrorail fleet. 
Hardware installations and software modifications to reduce the 
number of station over-runs could approach $700,000. The 
corrective action for station over-runs will be funded by 
reprogramming capital improvement programs funds. Funding for 
the cost of installing the carborne monitors has not yet been 
identified. Other significant costs include: software 
modifications to reduce the rail car default speed to 49 mph 
($100,000); development and conduct training courses and 
exercises for OCC personnel, personnel in safety sensitive 
positions, and fire department personnel ($200,000); third rail 
power circuitry graphics along the right-of-way ($100,000); and 
procurement of third rail power warning devices for the fire 
department ($75,000).

    Mr. Wolf. In that report, the Board recommended that Metro 
find a way to strengthen its lightweight rail cars to make them 
better to withstand a crash. What action is WMATA likely to 
take to comply with this recommendation and what will it cost?
    [The information follows:]

    WMATA's rail car consultant, Booz-Allen and Hamilton, is 
currently studying the crash worthiness of the rail cars. This 
study is expected to be completed by June 1997. The study will 
identify recommended corrective actions and cost estimates. The 
cost to enhance the crash worthiness of the rail cars, if 
required, would be in addition to the estimated $10 million 
discussed in the other safety related questions.

    Mr. Wolf. Also in the report, the Board recommended 
including overhauling the system's anemic safety department, 
which had fallen victim to budget cuts over the past several 
years. How has WMATA responded to this challenge and what are 
the cost implications of these actions?
    [The information follows:]

    The Office of Safety now reports directly to the General 
Manager. This will enhance the effectiveness and status of the 
office in the organization. An executive level position (Chief 
Safety Officer) to lead the Safety Office has been created. The 
new Chief Safety Officer, Mr. Frederick C. Goodine, from the 
Massachusetts Bay Transportation Authority will start on April 
28, 1997. The staffing of the new Safety Office will total 19 
positions, which is comparable to staffing of safety offices in 
similar transit properties. The total operating costs 
(personnel + non-personnel) for FY '98 ($1.8M0 associated with 
this increase in staff and increased responsibilities is 
$851,400 over WMATA's approved FY `97 Operating Budget.

                        regional mobility panel

    Mr. Wolf. Please elaborate for the committee the nature and 
scope of the regional mobility panel. What is its charter and 
the framework of the study?
    [The information follows:]

    The Regional Mobility Panel is composed of 30 members 
representing local governments, the federal government, state 
departments of transportation, the business community, citizens 
and WMATA.
    The Panel's charter is threefold: (1) assess the current 
and future bus tranpsortation needs for the Washington 
metropolitan region; review the structure, form of funding and 
role of Metrobus; and determine how to deliver cost effective, 
efficient and coordinated bus service to the region, (2) 
develop an action plan to address WMATA's role in meeting the 
region's current and future mobility needs, and (3) examine the 
funding needs of the Metro system and to propose and seek 
predictable and reliable funding mechanisms to meet these 
needs.

    Mr. Wolf. Since 1975, Metrobus has reduced its fleet by 
about 20 percent as a result of service takeovers by its 
Compact member jurisdictions and service reductions. 
Regionally, the total number of buses providing service to the 
public has not increased as a result of these takeovers, and in 
many parts of the region the service has declined despite the 
fact that the region's population has increased by 50 percent 
in the last 20 years. What recommendations do you anticipate 
the panel will make to address these challenges? Can you share 
with the committee any preliminary findings or recommendations?
    [The information follows:]

    There appears to be a recognition among members of the 
panel that regional bus service has not been able to meet the 
regions travel needs.There are many causes for this and they 
relate to the cost of service, changing demographics and travel 
patterns, and the burden that population growth, reduced local 
tax revenues and reductions in federal payments to state and 
local governments have placed on local budgets. As a result, 
service levels have declined and new service proposals have 
been set aside in favor of preserving existing service areas. 
The Authority hopes that the Panel will propose solutions to 
providing more cost effective radial and circumferential 
service as well as a stable and predictable mechanism to 
adequately fund these services.
    At this time, there are no preliminary findings or 
recommendations from the Panel. However, there appears to be a 
consensus building on the Panel that there is a role for 
Metrobus and the local jurisdiction bus services where Metrobus 
would provide service on routes of regional importance and that 
local govenrments would provide other services in 
neighborhoods.

    Mr. Wolf. What will the role of the panel be as the 
regional bus study proceeds?
    [The information follows:]

    The regional Mobility Panel is the decision making body for 
the regional bus study. They have agreed to a work plan that is 
designed to achieve a consensus on a direction for regional bus 
service and funding of the service that will involve local 
government bus services and the regional Metrobus system.

    Mr. Wolf. What is the status of the deliberations of the 
mobility panel?
    [The information follows:]

    The Regional Mobility Panel met for the first time on 
February 11, 1997 to establish procedures, review their 
charter, approve a work plan and to receive a briefing by the 
consultant (KPMG Peat Marwick) on the study process. The Panel 
has approved a scheduled for April 8, May 20, June 17, July 15, 
September 9 and October 14. The Panel also established a 
technical committee to review material and provide assistance 
to the Panel.

    Mr. Wolf. When will the panel make its final 
recommendations? Are you on schedule to deliver the results of 
the study by the end of the fiscal year?
    [The information follows:]

    The work plan approved by the Regional Mobility Panel calls 
for decision points throughout the course of the study. The 
Panel plans to approve the final study report and adopt a 
resolution on the study at its September 9, 1997 meeting. Their 
schedule calls for delivering a final report to the Committee 
by the end of the fiscal year.

                         changing demographics

    Mr. Wolf. We have read a great deal in the papers about the 
changing demographics of the Washington region. Could you 
comment on how the demographics of this region are changing and 
how this has affected Metro?
    [The information follows:]

    The Washington region is experiencing dramatic demographic 
changes. The region as a whole is experiencing population and 
employment growth. However, Washington, DC is experiencing a 
decline in both population and employment.
    Since 1993, employment in the region grew by 160,000 jobs. 
During that same period, employment in the District declined by 
almost 40,000 jobs. Since 1990, population in the suburbs 
increased by over 162,000 while the District's population 
declined by 63,000, nearly 10 percent. In the last year alone, 
the District's population declined by 11,000.
    These changes pose challenges to the regional bus and rail 
systems. By design, the systems' basic route structures serve 
trips that are radial in nature, that is from the suburbs to 
the urban core. Suburban growth in both population and 
employment has created residential and commercial activity 
centers outside current route structures. The current and 
future challenge for the region's bus and rail systems will be 
the continued provision of service to the high concentration of 
jobs in the urban core while also recognizing and responding to 
the need for more creative and non-traditional approaches to 
offering transit service for suburb-to-suburb and city-to-
suburb (reverse flow) trip patterns.

    Mr. Wolf. Specifically, what are the implications of the 
changing demographics of the region for the Metrobus system?
    [The information follows:]

    The dramatic demographic changes that have taken place in 
the Washington region have had discernible impacts on the 
Metrobus system. Population and employment decreases in the 
District of Columbia (core service area) have contributed to 
the loss of Metrobus' riders over the last four years. Suburban 
growth in population and jobs is occurring beyond the reaches 
of the existing bus routes. Fiscal constraints have made it 
difficult to offer new service initiatives to serve new 
suburban concentrations of residential and commercial 
developments. The current employment and population trends in 
the urban core as well as the suburbs will require the 
implementation of more innovative service initiatives in order 
to respond to emerging trip patterns.

    Mr. Wolf. And, Mr. Linton, I appreciate you taking the time 
to come up.
    Mr. Linton. Thank you.
    Mr. Wolf. Same with regard to Metro. And the hearing is 
adjourned.
    Mr. White. Thank you, Mr. Chairman.

[Pages 1431 - 1443--The official Committee record contains additional material here.]




                           W I T N E S S E S

                              ----------                              
                                                                   Page
Adams, C. M......................................................   991
Benjamin, Peter..................................................   991
Bischoff, Donald.................................................     1
Garvey, J. F.....................................................     1
Kane, A. R.......................................................     1
Linton, G. J.....................................................   991
Martinez, Ricardo................................................     1
Recht, P. R......................................................     1
Reilly, P. W.....................................................   991
Sahaj, Lynn......................................................   991
Spencer, J. W....................................................   991
Thomas, E. L.....................................................   991
Walker, H. J.....................................................   991
White, Richard...................................................   991









                               I N D E X

                              ----------                              

                     Federal Highway Administration

                                                                   Page
Absorption of ICC Employees......................................   669
Accident Fatality Rates..........................................   598
Additional Non-DOT Cost Sharing for NADS Construction............   378
Administration's NEXTEA Proposal--Congressman DeLay............759, 760
Advance Technology in all MCSAP Sites............................   397
AHS:
    Alloction and Request........................................   416
    ``Associates'' Contributions.................................   413
    Contract Monies Allocation...................................   422
    Coping with Appropriation Comm. Reductions in Funding........   413
    Coping with Under Funding....................................   414
    Costs, Activities, Etc.......................................   423
    Cost Breakout................................................   422
    Cost Cutting Initiatives.....................................   410
    Demonstration................................................   419
    Demonstration--Technology Development........................   418
    Fundamental Program Changes..................................   414
    Implication of Eliminating Outreach Funding..................   419
    Implications of Holding the Funding Level at FY 1997 Level...   415
    Paving System Down to Essentials.............................   412
    Platooning of Trucks.........................................   415
    Program Components--Activities, Amounts, Etc.................   420
    Recommendations for Appropriation Actions....................   407
    System Concept Explanation...................................   409
    Total Project Review.........................................   406
    1997 AHS Demonstration--Commercial Vehicle Involvement.......   408
Alameda Corridor:
    Alameda Corridor...........................................140, 163
    Annual Alameda Loan Needs....................................   168
    Bonds........................................................   164
    Bond Sales...................................................   167
    Financing Plan...............................................   167
    Loan Agreement...............................................   166
    Revenue Bonds................................................   167
Allocation of $10 Million for RT-TRACS...........................   351
Annual Alameda Loan Needs........................................   168
ANPRM:
    Added Research Information...................................   523
    Comparison--ANPRM and Driver Fatigue and Alertness Study 
      Findings...................................................   524
    FHWA Research and Literature Review..........................   523
    Number of Comments and Information Received..................   524
Appalachian Highways:
    Highways.....................................................    78
    Highway Development..........................................   181
    Regional Highways............................................    82
    Regional Highway Development.................................   180
    Regional Commission..........................................   180
Applying Acoustics to Monitor Traffic and/or Pipeline Maintenance   504
Appropriated Demonstration Projects..............................   552
Assistance Provided to use the National Systems Architecture.....   283
Baseline Data for Evaluating the Metropolitan Deployment 
  Initiative.....................................................   369
Bid Rigging......................................................   173
Biographies:
    Anthony R. Kane..............................................    23
    Jane F. Garvey...............................................    22
Border and High Priority Initiatives.............................   716
Bridge Vulnerability Assessments:
    Assessment Factors...........................................   537
    Improvements to Reduce Risks.................................   538
    Methodology to States........................................   539
    State Initiated Programs.....................................   536
    Status of Intermodal Task Force's Work.......................   535
Bridge Management Systems:
    Number of States.............................................   534
    1994 Load Resistance Factors--FHWA Programs..................   533
Budget Highlights................................................     2
Building NADS VS Upgrading HYSIM or IDS..........................   375
Calcium Magnesium Acetate--Research and Development..............   478
Canadian Compliance Reviews......................................   689
Central Artery:
    Cost Analysis................................................   547
    Financing Strategies.........................................   103
    Interstate Construction Funds................................   546
    Oversight Staff Years........................................   548
    State Funding Options for Central Artery/Tunnel Project......   106
    Tunnel Advance Construction..................................   104
    Tunnel Cost Containment Goals and Project Costs..............   102
    Tunnel Cost Estimate.........................................   106
    Tunnel Grant Anticipation Notes..............................   106
    Tunnel Insurance Program...................................103, 104
    Tunnel Project Costs.........................................   102
    Tunnel Project Cost Review...................................   105
    Tunnel Shortfall Estimates...................................   106
Challenge Program..............................................671, 717
Changes in DOT Field Structure...................................   150
Clean Air Act Studies and Research...............................   608
Closely-Spaced Platoon Operations................................   410
CMAQ Program.....................................................   761
Commercial Vehicle Accidents by Vehicle Miles of Travel..........   695
Commercial Motor Vehicle Industry................................   398
Common Truck Problems............................................   651
Common Sense Government and Innovation...........................     3
Commuter Rail Eligibility........................................   146
Comparison of Apportionments and Contributions Estimated for 
  NEXTEA Period (FY 1998-FY 2003)................................    81
Comparison of Allocation to S. Africa to Other Countries.........   497
Comparison--ANPRM and Driver Fatigue and Alertness Study Findings   524
Compliance Reviews:
    By State.....................................................   683
    First Time Carriers..........................................   687
    Ratings....................................................688, 689
    Reviews......................................................   679
    State Participation..........................................   681
Comprehensive National Review of Highway-Rail Crossings Design 
  and Construction...............................................   744
Congestion Mitigation and Air Quality Program....................    99
Construction of Permanent Truck Inspection Facilities--Texas/
  Arizona........................................................   665
Construction Industry Unemployment Rates.........................   601
Consumer ITS Costs...............................................   156
Contribution to the Alameda Project..............................   167
Corridor H.......................................................   181
Cost Estimate To Build NADS......................................   379
Cost to Continue Progress on CVISN...............................   400
Cost Trends and Capacity in the Construction Industry............   600
Cost Allocation Study:
    Measures to Ensure Objectivity...............................   487
    Major Findings/Conclusions...................................   489
    Study........................................................   486
Cost/Benefit Reports on Deploying ITS............................   224
Cost and Benefit of ITS Investment...............................   336
Cost of Intelligent Transportation Infrastructure................   153
Covert Operations................................................   654
Credit Enhancement Candidates....................................   143
Critical Standards...............................................   276
CVIS Program.....................................................   691
CVISN:
    Commercial Motor Vehicle Industry Contributions..............   402
    Cost to Continue Progress on CVISN...........................   400
    FHWS Proposal For Long-term Funding..........................   403
    Linkage......................................................   405
    Private Sector Contributions.................................   404
CVO Progress Report..............................................   393
CVO Expenditures on Outreach.....................................   384
District of Columbia:
    Ability to Repay Non-Federal Share...........................   202
    District of Columbia.......................................110, 177
    Increased Federal Share of Funding...........................   200
    State Administrative Costs...................................   199
    Transportation Improvement Plan..............................   197
    Transportation Improvement Plan--Developing and Monitoring...   197
    Transportation Improvement Plan--Funding...................198, 200
    Transportation Needs Study: Payment..........................   217
Deficient Bridges................................................   595
Demonstration Research Projects..................................   615
Demonstration of the Model Deployment Initiative.................   355
Denver Test Facility--Cleanup of Hazardous Waste.................   212
Disadvantaged Business Enterprise Program........................   619
Discretionary Grant Program......................................   544
Discretionary Bridge Program--FHWA/Coast Guard Oversight.........   520
Discretionary Funds..............................................   579
Discretionary Bridge Program.....................................   585
Discretionary Bridge Program.....................................   519
Discretionary Bridge Program--Listing of Bridges.................   520
District of Columbia...........................................110, 177
Donor/Dunes State Issues.........................................    98
Driver Fatigue:
    Fatigue and Alertness Study..................................   625
    Fatigue Studies..............................................   626
    Fatigue Studies Completed....................................   630
    Fatigue Studies Planned......................................   631
    Regulatory Action............................................   528
    Recommendations for Hours of Sleep...........................   527
    Resulting Actions Planned....................................   526
    Use of Non-prescription Drugs..............................734, 736
Effect of Delayed Enactments of ISTEA............................    96
Effect on Moving Research Conducting at HYSIM to NADS............   376
Effective Management of the National ITS Program.................   265
Efforts to Reduce Fatal Motor Vehicle Crashes....................   673
Eligibility of Amtrak Under Federal-aid Programs.................    94
Emphasis on Safety Research--FY 1998 Request.....................   439
Environmental Research for Wetlands..............................   482
Environmental Research Agenda--Report on Clean Air and Highway 
  Transportation.................................................   477
Environmental Research Program--Major Challenges.................   475
EPA Requirements--Trigger for Additional Research................   479
Evaluation of the Operational Test Program.....................301, 304
Evaluation of the Operational Test Program.....................308, 312
Evaluation of the Operational Test Program.....................316, 320
Expenditures on Institutional Studies............................   352
Expenditures on Evaluations......................................   338
Failing to Comply with Yield Right-of-way Signs..................   750
Fatal Accidents Involving Trucks.................................   697
Fatal Motor Vehicle Crashes......................................   672
Federal Support to Deployment ITS Technologies...................   365
Federal Aid Highways Obligations.................................   573
Federal Credit Program...........................................   146
Federal Involvement in CVISN.....................................   401
Federal Government Guarantee of Tax-exempt Debt..................   510
Federal-aid Obligations by Month.................................   571
Federal-aid Highway Construction Price Trends....................   599
Federal-aid Limitation Exemptions................................   590
Federal-aid Highway Formulas and Factors.........................    92
FHWA Expenditures for 1996 Olympics..............................   254
FHWA Project Management Oversight................................   168
FHWA Administrative Staff and Supervisor-to-employee Ratio by 
  Region and Division............................................   622
FHWA Opening Remarks--Ms. Garvey.................................     2
FHWA Oversight on Highway Projects...............................   172
FHWA Involvement in DC Project Selection.........................   199
FHWA-NHTSA Speed Management Team.................................   746
FHWA's Financial Management Information System...................   229
Field Operational Test...........................................   370
Field Structure..................................................   149
Filed Operations Staff Breakdown.................................   621
Finance Plan for Utah I-15 Project...............................   170
First Quarter (Section 310 (D)) obligations......................   572
Flexibility and Discretionary Grant Programs.....................    78
Funding:
    Commitments to Pay for Operating Time........................   379
    Consistent with the National Architecture and Standards......   357
    Information Systems or Strategic Safety Initiatives..........   720
    Promoting U.S. Companies--Highways Related Technologies......   501
    Trade Corridors..............................................   769
    Woodrow Wilson Bridge........................................   177
Funds Needed to Complete Standards Work..........................   281
Future Outyear Cost for NADS.....................................   380
Garrett Morgan ITS Room--Cost Explanation........................   241
Gateway Border Crossing Pilot Program............................   722
Geographical Information System--Improving Statewide Planning....   462
High Performance Concrete--Status................................   458
Highway:
    Apportionment Formulas.......................................    84
    Operations and Management--Cost Included in Planning Process.   461
    Performance Concrete--Status.................................   458
    Project Cost Containment.....................................   171
    Projects Cost Containment Mechanism..........................   169
    Project Financial Plans......................................   171
    Projects Oversight...........................................   171
    Rail Grade Crossing Action Plan..............................   737
    Safety Outreach..............................................   752
    Trust Fund--Contributions....................................   771
    Trust Fund--Outlay Rates.....................................   101
    Trust Fund--Transportation Infrastructure Credit Program.....   505
Hours of Service Rulemaking......................................   633
Hours of Service.................................................   632
How Air Quality Models Address Criticisms........................   481
How to Reduce Cost of Developing Standards.......................   281
Impact of Compliance Reviews.....................................   686
Implementation of the Previous NHTSA/FHWA Speed Management Plan..   747
Implementation of ITS Technology.................................   156
Implementation of Computer System that Supplies Information to 
  Commercial Vehicle Inspections.................................   396
Improved Inspection Facilities in Texas..........................   665
Improving the Local Technical Assistance Program.................   443
In-house Research Projects.......................................   603
Incident Management--Planned Activities for FY 1998..............   248
Incident Management Coalition; Funding Deletion..................   246
Incorporating ITS into the Transportation Planning Process.......   232
Increase in Mainstreaming Category...............................   372
Increase State Involvement.......................................   354
Increase in Funding for the ITS Program..........................   265
Infrastructure Bank Program Barriers.............................   141
Infrastructure Investment........................................     3
Innovative Financing.............................................   133
Innovative Financing Programs....................................   138
Innovative Financing--Congressman Packard........................   755
Institutional Barriers/Coalitions................................   361
International Trade Corridors--I-69............................767, 768
International Registration Plan..................................   690
International Scanning Trips--Funding Source.....................   491
International Program--Major Challenges and Opportunities........   500
Interstate and Intrastate Commercial Vehicle Accidents...........   694
Interstate Pavement Conditions by State..........................   592
Interstate Pavement Conditions by Functions......................   593
Iowa Simulator Request...........................................   713
ISTEA:
    Reauthorization Proposal--Congressman Obey...................   770
    Funding Obligated for Transit Projects.......................   553
    Status of Implementation Guidelines for 1995 Amendments......   531
    Demonstration Projects.......................................   551
    Reauthorization Funding Levels...............................    90
    Reauthorization NHTSA's Goals and Priorities.................    95
    Direct Loan Program..........................................   142
    Reauthorization Priorities...................................    94
Intelligent Transportation Systems:
    Activities and Expenditures..................................   271
    Building NADS vs Upgrading HYSIM or IDS......................   375
    Commuter Benefits............................................   157
    Consumer ITS Costs...........................................   156
    Contract and GOE Expenditures................................   288
    Cost Estimate To Build NADS..................................   379
    Cost/Benefit Data............................................   294
    Cost/Benefit Data............................................   296
    Deployment...................................................   155
    Deployment...................................................   153
    Deployment Obstacles.........................................   155
    Funding for Education........................................   228
    Funding Level Implications...................................   270
    Funds Used for other Purposes................................   253
    Highway/Rail Grade Crossings.................................   247
    Impact of Reduced Funding for Public Education...............   231
    Infrastructure and the Freight Industry's Needs..............   236
    Management Improvements......................................   251
    Management And Oversight Responsibility......................   266
    Market/ITS User Acceptance Research..........................   288
    Model Deployment; FY 1997 Funds Allocation...................   243
    Model Deployment and Incentive Projects......................   264
    NADS Research................................................   374
    Number and Types of Standards................................   279
    Police Notification of Impaired Drivers......................   293
    Priority Corridors: Deployment of ITS Technologies...........   358
    Program Improvements.........................................   230
    Projects Dealing with Truck Drivers..........................   287
    Projects Requiring Additional Federal Funds..................   347
    Projects Over Original Cost..................................   345
    Projects that are not Progressing............................   350
    Projects that are Behind Schedule............................   339
    Relationship to the Intermodal Freight Industry..............   233
    Relationship to US Global Competitiveness....................   235
    Rural Program................................................   225
    Rural Program--Alameda and Alaska............................   226
    Scanning Tours and Scholarships..............................   238
    Spending Plan................................................   286
    Standards Status.............................................   277
    Standards Development........................................   274
    Systems Architecture.........................................   268
    Unobligated ITS Funds........................................   348
Justification of Research, Development, and Technology Increase..   207
Large Project Finance Plans......................................   169
List of All Operational Test not Completed.......................   258
Loan Guarantee Projects..........................................   147
Local Transportation Assistance Program Contributions............   446
M&C Expenses--Funding Justification..............................   428
M&C Status Report; Purposes, Amounts, and Uses...................   252
Major Research Topics/Activities for FY 1997.....................   472
Major Challenges: Grade Crossing Team............................   745
Management And Coordination (M&C) Expenses--Limitation Impacts...   429
Market/ITS User Acceptance Research..............................   288
MCSAP Sites with New Technology..................................   394
MCSAP Grants-Supplemental Incentive Grants.......................   702
Minimum Allocation donor State Bonus, Hold Harmless, and 
  Emergency Relief Data..........................................   582
Miscellaneous Programs...........................................   578
Mobile Home Tires--Congressman Regula............................   776
Model Deployment Initiative......................................   157
Model Deployment and Incentive Projects..........................   264
Model Deployment; FY 1997 Funds Allocation.......................   243
Motor Carrier:
    Advanced Technology Availability.............................   725
    Compliance with Safety Obligations Prior to Beginning Cross-
      Border Operations..........................................   661
    Full Time Equivalent Staff by Office.........................   675
    Hazardous Material Carrier Training..........................   729
    Information Systems and Strategic Safety Initiatives.........   718
    Integrated Safety Fund.......................................   721
    Judicial Outreach Request....................................   712
    NAFTA Safety and Enforcement Issues..........................   530
    NAFTA........................................................   659
    NAFTA--Conditions in Mexico..................................   660
    NAFTA--Federal/State Inspectors..............................   666
    NAFTA--New Border Crossing Pilot Program.....................   667
    NAFTA--Safety Enforcement/Conditions in Mexico...............   663
    NAFTA--Truck Inspection Facilities...........................   664
    No Zone Campaign.............................................   729
    Outreach Request.............................................   711
    Regulatory Relief and Safety Demonstration Project....756, 757, 758
    Research Supplemented by ITS Funding.........................   692
    Research Activities with NHTSA...............................   677
    Research Development and Technology..........................   693
    Safety Performance Incentive Grants..........................   715
    Staff by Specialty...........................................   658
    Training and Administrative Request..........................   717
    Training Request.............................................   709
    Training.....................................................   728
    Unobligated Contract Authority...............................   691
NADS Research....................................................   374
NAFTA:
    Conditions in Mexico.........................................   660
    Federal/State Inspectors.....................................   666
    NAFTA........................................................   659
    New Border Crossing Pilot Program............................   667
    Safety and Enforcement Issues................................   530
    Safety Enforcement/Conditions in Mexico......................   663
    Truck Inspection Facilities..................................   664
National Science and Technology Council Impact on Budget Request.   449
National Recreational Trails Funding Allocations.................   587
New State Infrastructure Bank Programs...........................   141
New Initiative--Funding from Research, Development, and 
  Technology.....................................................   212
New Discretionary Program........................................    82
New Motor Carrier Safety Campaigns...............................   753
NEXTA:
    Administration's NEXTEA Proposal--Congressman DeLay........759, 760
    Formula Proposal...........................................772, 773
    Proposal Versus Budget Request...............................   775
    Proposal Versus Budget Request...............................   763
    State Apportionments.........................................    79
Number of Out-of-service Vehicles................................   642
OHS Reauthorization Proposal.....................................   754
OMC Administrative Takedown......................................   733
OMC Meetings.....................................................   732
OMC Travel.......................................................   732
OMC Field Offices................................................   731
Opening Remarks--Mr. Sabo........................................     1
Opening Remarks--Ms. Garvey......................................     2
Opening Remarks--Mr. Wolf........................................     1
Operational Test VS Model Deployment.............................   353
Out-of-service Vehicles by State--FY 1996 Covert Activity........   646
Out-of-service Drivers with Log Book Violations..................   650
Out-of-service Activities......................................641, 643
Out-of-service Vehicles--compliance Activities...................   644
Overlap of OMC And NHTSA Priorities..............................   727
Overview of Administration Proposal..............................     2
Pan American Highway Institute...................................   218
Pedestrian and Work Zone Safety--Allocation Breakout.............   429
Pedestrian Safety VS. Work Zone Safety--Funding Balance..........   431
Pen-based Technology......................................635, 637, 638
Pending Lawsuits--Alameda Corridor...............................   164
Performance-based State Enforcement Program...............707, 708, 709
Phase Out Funding for FHWA Driving Simulator.....................   381
Planned Expenses for Architecture Program........................   385
Planning Research Area--Increased Funding for Data Analysis......   459
Planning and Research Program--Major Challenges..................   471
Policy Research Problem--Most Critical...........................   485
Policy Research--Reduction of Request............................   484
Position Allocations.............................................   620
Potential Alameda Default........................................   166
Pre-pass System Testing Results..................................   639
Pre-pass System Deployment.......................................   640
Priority Corridor Program: Results/Benefits......................   221
Priority Corridors--Allocation Versus ISTEA Funding Requirements.   223
Priority Emphasis for Safety Research and Transfer Activities....   438
Priority Corridors--Public's Reaction to ITS Technologies........   364
Priority Technologies Program--Successes and Challenges..........   454
Professional Capacity Building Program...........................   237
Program Support Funds............................................   267
Programs to Reduce Commercial Vehicle Accidents..................   696
Programs to Reduce Common Truck Problems.........................   652
Project Management Plan..........................................   176
Project Cost of NADS.............................................   377
Proposed Transfers from The Highway Trust Fund...................   100
Proposed Changes in Highway Funding Formulas.....................    97
R&D Technology Transfer Activity--Cost/Funding Analysis..........   434
Reallocated MCSAP Grants.........................................   704
Recycled Materials Research......................................   503
Red Light Running Program........................................   749
Redistribution of Unobligated Federal-aid Authority..............   576
Reorganization and Consolidation.................................   147
Reporting of Commercial Vehicle Accidents........................   698
Reporting of Commercial Vehicle Accidents........................   701
Research Initiatives.............................................   676
Research Areas--Breakout of Advanced Research....................   440
Research and Development Contractors.............................   602
Research Areas--Quantitative Documentation.......................   441
Research and Technology Support Costs............................   217
Research, Development, and Technology Program--M&C Cost 
  Limitation Impacts.............................................   209
Results From ITS Evaluation and Assessment Program...............   366
Results From Projects: Model Deployment Initiative and Commercial 
  Vehicle Information System.....................................   373
Revenue Bonds/Volume Caps........................................   135
Right-of-way Revolving Fund......................................   588
RT-TRACS Project; Expenditures During FY 1997....................   245
Rural Initiative Benefits........................................   432
Safer Inspection Module..........................................   382
Safety Research and Technology Transfer Program--Effects of 
  Termination....................................................   439
Safety Research and Development--Requested Amount for Fiscal Year 
  1998...........................................................   451
Safety Items--Status of Issuance of Guidance.....................   532
Safety Board Recommendations--DOT Response Time..................   540
Safetynet Reporting of Commercial Vehicle Accidents..............   699
Scanning Tours and Scholarship Expenses..........................   240
Second Generation of The Aspen System............................   636
Shift of Programs from General Fund to Trust Fund................   101
SIB and Credit Program Outlay Rates..............................   518
South Africa--Use of Federal Funds to Promote Educational 
  Activities and Jobs Programs...................................   210
South Africa--Technology Transfer Activities.....................   495
SP&R and National Cooperative Highway Research Progam............   607
State Infrastructure Banks:
    Analysis of Applicants and Products..........................   515
    Announcing Awards............................................   515
    DOT Allocation Plan..........................................   512
    Leveraging of Non-Federal Money..............................   511
    Listing of State Applicants for Fiscal Year 1997.............   514
    Listing of Original State Participants.......................   514
    Project Selection Criteria...................................   512
    SIB and Credit Program Outlay Rates..........................   518
    Slow Progress................................................   513
    State Infrastructure Banks.................................134, 138
    State Infrastructure Bank Program Funds.........................141
    State Infrastructure Bank/Transportation Infrastructure 
      Investment.................................................   139
    Success and Challenges.......................................   516
    Transportation Infrastructure Investment.....................   139
State Funding Options for Central Artery/Tunnel Project..........   106
State Level of Effort............................................    94
State Administrative Costs.......................................    93
State Highway Project Management.................................   168
State-by-State Comparison of Total Apportionments................   774
Statement of Jane F. Garvey:
    Conclusion...................................................    20
    Infrastructure Safety and Efficiency.........................    12
    Innovation in Financing......................................    10
    Innovation for Today and Tomorrow--ITS.......................    14
    Innovation--Implementation Common Sense Government...........    17
    Innovation in Technology.....................................    11
    Opening Statement............................................     5
    Overview.....................................................     5
    Strategic Infrastructure Investment..........................     6
    Safety.......................................................     7
    Infrastructure Investment....................................    13
States Performing Compliance Reviews.............................   680
States that Received Reallocated Funding in FY 1996 and FY 1997..   705
Status Report on Implementing Roadmaps...........................   292
Status of Authorized Demonstration Projects......................   550
Status on Strategic Plan for Professional Capacity Building......   224
Sufficient Fees to Cover various Costs Associated with Former ICC 
  Employees......................................................   670
System Performance Rewards.......................................    99
Systems Performance Measures.....................................    92
Table of Carryover Funds for Each GOE Category...................   213
Table of ISTEA GOE Contract Funds................................   202
Tangible Results From ITS Mainstreaming Program..................   371
Tax Exempt Debt..................................................   139
Tax Income/Tax Expenditures--Impact on Budget....................   509
Technology Transfer Related Allocations--Benefit to United States   499
Technology Transfer Program--Leverage Partnerships...............   425
Technology Transfer--Strategies for Increasing Cost Sharing......   452
Training Advisory Committee and Skills Assessment Committee--
  Results........................................................   220
TRANSIMS:
    Actions Taken to Secure Non-DOT Funding......................   470
    Amounts Allocated with Breakout..............................   464
    Any Contract Funding.........................................   466
    Cost Control Measures........................................   467
    Funding Requirements Table...................................   469
    Technological Challenges and Testing Needs...................   466
Transportation Credit Program:
    Credit Program--Assessment...................................   506
    Effectiveness and Efficiency.................................   507
    Level of Direct Loans and Loan Guarantees....................   509
    New York Harbor Freight Control..............................   508
Treasury Error on Highway Funds................................764, 766
Truck Size and Weight Study--Major Findings/Conclusions..........   488
Truck Size and Weight Study/Cost Allocation Study--Expenditures..   490
Truck and Bus Accidents..........................................   657
Trust Fund Contributions versus Returns..........................    80
Univ. Transportation Centers--FHWA Mission and Objectives........   442
Unobligated ITS Funds............................................   348
Uploading Truck Accident Data to SafetyNet.......................   700
Use of Funds on a Project-by-Project Basis.......................   391
Use of National Systems Architecture.............................   282
Use of Carryover Funds...........................................   213
Use of GOE and/or ISTEA Funds for Department Concerns............   210
Utah I-15:
    Financing....................................................   170
    Funding......................................................   170
    Project......................................................   165
    Project Funding..............................................   172
    Reconstruction Project--Funding Alternatives.................   543
    Reconstruction Project--Finance Sources......................   543
    Reconstruction Project--Funding Availability.................   542
    Reconstruction Project--Ensuring Cost Estimate Accuracy......   542
    Reconstruction Project--Cost Projections.....................   541
Utilization of ITS Funds for other Purposes......................   253
Utilization of Iowa Simulator....................................   714
Value Engineering Guidance.......................................   169
Variable Toll Issues.............................................   175
Vehicle Safety Issues--Border Crossings..........................   529
Washington DC Program Implementation.............................   198
Wisconsin Rate of Return Under NEXTEA............................   772
Woodrow Wilson Bridge:
    Agreement....................................................   176
    Cost Difference..............................................   174
    Design/Build.................................................   177
    Environmental Impact Statement...............................   176
    Federal Contribution.........................................   174
    Financial Analysis...........................................   175
    Funding......................................................   176
    Tolls........................................................   174
    Woodrow Wilson Bridge......................................110, 174
    Woodrow Wilson Bridge........................................   112
14th Street Bridge...............................................   179
1995 Safety Study--Postponed Rulemaking Activity.................   521
1995 Safety Board's Study........................................   525
1995 Safety Study--Request for Comments..........................   522
1997 AHS Demonstration--Commercial Vehicle Involvement...........   408

                     Federal Transit Administration

Access to Jobs and Training:
    Criteria.....................................................  1157
    HUD Bridges to Work..........................................  1159
    Welfare to Work..............................................   993
Access to Jobs--Criteria.........................................  1157
Access to Jobs Program.................................1087, 1116, 1156
Accident Data....................................................  1311
    Collisions...................................................  1312
    Derailment/Buses going the road..............................  1315
    Fires........................................................  1314
    Operating Statistics.....................................1316, 1318
    Personal Casualties..........................................  1313
    Totals of Incidents, Fatalities, Injuries and Property Damage
                                                             1317, 1319
Accounting Services..............................................  1171
Administrative Expenses......................................1013, 1165
    Accounting Services..........................................  1171
    Electronic Commerce..........................................  1178
    Electronic Grant-Making......................................  1173
    Full-Time Equivalent.........................................  1168
    Hiring Plan........................................1062, 1063, 1169
    Staffing.....................................................  1336
    Vacant Positions.............................................  1361
    Wide Area Network............................................  1176
Advanced Technology Transit Bus (ATTB)............994, 1045, 1227, 1374
    $10 Million Request..........................................  1235
    ADA Compliance, ATTB and.................................1047, 1092
    Inspector General Findings...................................  1091
    Motor Vehicles Safety Standards..............................  1229
    Test Sites, for ATTB.........................................  1231
    Trolley Bus Program, Use of ATTB.............................  1232
    Vehicle Size, ATTB and.......................................  1089
ATTB and ADA Compliance......................................1047, 1092
ATTB and Inspector General Findings..............................  1091
ATTB and Vehicle Size............................................  1089
ATTB--Inspector General Issues...................................  1111
Advanced Lead Acid Battery Consortium............................  1193
Alternative Fuels................................................  1048
Atlanta Olympics.................................................  1180
Average Age of Bus Fleets........................................  1329
Bay Area Rapid Transit (BART):
    Capital Improvement Plan for BART............................  1139
    Cash Flow, for BART Extension................................  1143
    Extension of BART............................................  1093
    Extension to San Francisco...................................  1118
    Full Funding Grant Agreement.................................  1097
    Growth and Sales Taxes, for Bay Area.........................  1140
    ISTEA Earmarks, Bay Area.....................................  1146
    Letter to Chairman Wolf, Dated Feb. 11, 1997.................  1124
    Operable Segments............................................  1095
    Operating Plan...............................................  1137
BART Capital Improvement Plan....................................  1139
BART Cash Flow...................................................  1143
BART Extension...................................................  1093
BART Extension to San Francisco..................................  1118
BART Full Funding Grant Agreement................................  1097
BART Growth and Sales Taxes......................................  1140
BART--Letter to Chairman Wolf, Dated Feb. 11, 1997...............  1124
BART Operable Segments...........................................  1095
BART Operating Plan..............................................  1137
Bay Area ISTEA Earmarks..........................................  1146
Biographies:
    Gordon J. Linton.............................................  1014
    Hiram J. Walker..............................................  1016
    Patrick W. Reilly............................................  1017
    John W. Spencer..............................................  1018
    Charlotte M. Adams...........................................  1019
    Edward L. Thomas.............................................  1020
    Lynn Sahaj...................................................  1021
Building On ISTEA................................................   999
Bus:
    Average Age of Fleets........................................  1329
    Capital and Formula Funds....................................  1331
    Earmarks, FY 1995-1997.......................................  1240
    Earmarks, Status of..........................................  1245
    Unobligated Funds............................................  1239
Bus Capital and Formula Funds....................................  1331
Buy America--General.............................................  1110
Capital Definition Similar to Highways...........................  1041
Capital Fund Distribution........................................  1328
Capital Investments..............................................   994
Capital Obligations for Certain Cities...........................  1334
Capital Projects...............................................992, 993
Capital Versus Operating Costs...............................1076, 1115
Capitalizing On Successes........................................  1003
Chicago Circulator...............................................  1067
Closing Remarks..................................................   996
Comparison of Trust Fund Receipts to Apportionments..............  1080
Denver Southwest LRT.............................................  1154
Disadvantaged Business Enterprise Requirements...................  1120
Electronic Grant-Making..........................................  1173
Electronic Commerce..............................................  1178
Elimination of Operating Assistance..............................  1114
Expanded Capital Definition......................................  1039
Farebox Recovery.................................................  1309
Financial Reporting Requirements.................................  1085
Formula Changes..................................................  1079
Formula Programs.................................................  1007
Formula Grant Consolidation......................................  1075
FTA Full-Time Equivalent.........................................  1168
FTA Staffing.....................................................  1336
Fuel Cell:
    Preliminary Findings.........................................  1215
    Proton Exchange..............................................  1216
    Budget Request...............................................  1217
    Georgetown Bus Program.......................................  1213
    Georgetown Project...........................................  1112
Fuel Cell--Budget Request........................................  1217
Fuel Cell--Preliminary Findings..................................  1215
Fuel Cell--Proton Exchange.......................................  1216
Funding Status of Oversight Funding..........................1026, 1027
Future New Starts................................................  1053
FY 1997 Hiring Plan..........................................1063, 1170
FY 1998 Budget Request...........................................  1007
FY 1995-1997 Bus Earmarks........................................  1240
Georgetown Fuel Cell Bus Program.................................  1213
Georgetown Fuel Cell Project.....................................  1112
Grant Allocations for FY 1997 and 1998...........................  1289
GSA Rental Payments..............................................  1172
Hiring Plan............................................1062, 1063, 1169
Houston--Disadvantaged Business Enterprises......................  1105
Houston Metro....................................................  1367
HUD Bridges to Work..............................................  1159
Human Resources..................................................  1226
In Closing.......................................................  1013
Independent Transportation Network...............................  1042
Innovative Financing Programs................................1075, 1114
Inspector General Audit of LA Project............................  1102
ISTEA Reauthorization............................................   992
Joint Partnerships...............................................  1191
LA--Eastside Extension...........................................  1153
LA Occupational Safety...........................................  1104
LA Red Line Oversight............................................  1024
LA Red Line Project Delays.......................................  1102
LA--Restructure of FFGA..........................................  1149
Labor Compensation and Operating Assistance......................  1326
Lessons for Salt Lake............................................  1183
Limited Research Resources.......................................  1043
Little Rock, Arkansas, Light Rail System.........................  1061
Livable Communities Initiative...........................993, 994, 1038
Los Angeles Metro Red Line Project.........1099, 1119, 1148, 1149, 1153
    Los Angeles Red Line Project:
    Eastside Extension...........................................  1153
    Oversight, of Red Line.......................................  1024
    Project Delays, of Red Line..................................  1102
    Occupational Safety, Concerns................................  1104
    Restructure of FFGA, Red Line Project........................  1149
    Safety, Concerns.............................................  1100
Los Angeles Red Line Safety......................................  1100
Los Angeles Revenue Diversion....................................  1097
Major Capital Investments........................................  1009
Major Investments Studies........................................  1083
Mass Transit Account.............................................  1322
Mass Transit Revenue For AMTRAK..................................  1086
Meeting The Challenge Training................................997, 1064
Metropolitan/Rural Policy Development............................  1224
Military Technologies Adaptable to Transit.......................  1236
National Park Service--Fuel Cell.................................  1222
National Program Activities......................................  1193
National Program Projects........................................  1195
National Transit Projects List...................................  1206
New Bus Model Testing in Altoona.................................  1213
New Rail Vehicles and Infrastructure.............................  1223
New Starts--Rail Versus Bus......................................  1078
New Starts Program...............................................   995
New Starts:
    Chicago Circulator...........................................  1067
    Denver Southwest LRT.........................................  1154
    Full Funding Grant Agreements................................  1081
    Future.......................................................  1053
    Program......................................................   995
    Rail Versus Bus..............................................  1078
    Status Earmarks..............................................  1261
    Status of Full Funding Grant Agreements......................  1055
    Unobligated Balance Justification............................  1265
New Starts Full Funding Grant Agreements.........................  1081
New Start Unobligated Balance Justification......................  1265
New Welfare Initiative...........................................  1369
NovaBus & Buy America............................................  1108
NovaBus & Buy America Requirements...............................  1121
NTSB Concerns....................................................  1160
OIG Access To FTA Records........................................  1023
Olympics.........................................................   993
Opening Statement................................................   991
Operating Assistance:
    Operating Assistance.........................1037, 1038, 1060, 1372
    Operating Assistance--Elimination of.........................  1114
    Operating Assistance--Outlays................................  1096
    Operating Assistance Under Reauthorization Proposal..........  1070
Operating and Capital Funding--30 Largest Operators..............  1304
Overmatch--Reauthorization.......................................  1077
Oversight:
    Planned Program Use of Funds--FY94-FY98......................  1030
    Project Management...........................................  1022
    Oversight of Large Scale Transit Projects....................  1088
    WMATA Oversight Staffing.....................................  1067
Oversight of Large Scale Transit Projects........................  1088
Planned Program Use of Oversight Funds--Summary..................  1029
Planned Program Use of Oversight Funds--FY94-FY98................  1030
Planning and Project Development.................................  1224
Procurement Systems Reviews......................................  1025
Program Levels...................................................  1072
Project Management Oversight.....................................  1022
Projects Funded With Recoveries..................................  1065
Rail Modernization Under Formula Request.........................  1041
Rail Modernization Formula.......................................  1077
Reauthorization:
    Building On ISTEA............................................   999
    Capital Definition Similar to Highways.......................  1041
    Issues, Reauthorization......................................  1163
    Rail Modernization Under Formula Request.....................  1042
    Operating Assistance Under Reauthorization Proposal..........  1070
    Overmatch--Reauthorization...................................  1077
Reauthorization Issues...........................................  1163
Recovery Activities..............................................  1066
Research Partnerships............................................  1194
Research--Long Range Plan........................................  1184
Safety:
    Commitment...................................................  1035
    Program Funding..............................................  1036
    Safety.......................................................  1034
    Security.....................................................  1225
Safety and Security..............................................  1225
Safety Commitment................................................  1035
Safety Program Funding...........................................  1036
Safety...........................................................  1034
Santa Barbara-Electric Bus.......................................  1050
Section 13(c) Labor Protection...................................  1086
Section 3 Project Status.........................................  1256
Section 5307 Funding for Areas Without Transit Service...........  1287
Section 5307 Urbanized Area Formula..............................  1074
Section 5307 Urbanized Area formula Apportionments...............  1271
Section 3(j) Report..............................................  1059
Small Transit Operators..........................................  1376
Smaller Passenger Bus............................................  1047
Sole Source Requirement..........................................  1052
Staffing Separations Impact......................................  1060
Staffing.........................................................  1366
Statement of Gordon J. Linton....................................   997
Status of FFGA's Awarded Since 1993..............................  1057
Status--New Starts Earmarks......................................  1261
Status of Bus Earmarks...........................................  1245
Status of Full Funding Grant Agreements..........................  1055
Status of Open Grants............................................  1064
13(c)-Labor Protection...........................................  1049
Transit Formula Distribution.....................................  1081
Transit Planning and Research:
    Advanced Technology Transit Bus (ATTB)........994, 1045, 1227, 1374
    Military Technologies Adaptable to Transit...................  1236
    National Park Service--Fuel Cell.............................  1222
    National Program Activities..................................  1193
    National Program Projects....................................  1195
    National Transit Projects List...............................  1206
    Transit Research.............................................  1184
Transit Research.................................................  1184
Transportation Safety Institute..............................1034, 1036
Trends of Fatalities, Incidents and Injuries.....................  1320
Unobligated Bus Funds............................................  1239
Unrestricted Cash................................................  1180
Urban Work Trips.................................................  1306
Use of Section 23 Funds..........................................  1025
Use of Recovered Resources.......................................  1067
Vacant Positions.................................................  1361
Value Engineering Requirements...................................  1085
Washington Metropolitan Area Transit Authority...................  1012
    Bond Financing...............................................  1427
    Changing Demographics........................................  1429
    District Payments............................................  1419
    Dulles Corridor..............................................  1425
    Fares........................................................  1418
    Financial Issues.............................................  1417
    General Observations and Challenges..........................  1415
    Opening Statement--Richard White.............................  1380
    Platform Edges...............................................  1435
    Proposed Addison Road to Largo Town Center Line..............  1420
    Proposed Largo Line..........................................  1424
    Rail Construction Program....................................  1440
    Regional Mobility Conference.................................  1423
    Regional Mobility Panel......................................  1428
    Ridership....................................................  1416
    Ridership Trends.............................................  1424
    Safety and Crime.............................................  1437
    Safety Issues................................................  1427
    Service Improvements.........................................  1442
    WMATA's Appropriations Request...............................  1415
    WMATA's Maintenance Needs....................................  1415
    WMATA Oversight..............................................  1431
    WMATA System Maintenance.....................................  1421
    WMATA System Rehabilitation..................................  1419
Welfare To Work..................................................   993
Wide Area Network................................................  1176
Witness List, FTA................................................   991
Witness List, WMATA..............................................   991
WMATA Oversight Staffing.........................................  1067

             National Highway Traffic Safety Administration

ABS Research.....................................................   860
Aggressive Driving:
    Aggressive Driving...........................................    89
    Aggressive Driving...........................................   125
    Aggressive Driving...........................................   194
    Aggressive Driving Enforcement Demo..........................   195
Air Bag:
    Deactivation.................................................   120
    Deployment...................................................   953
    Deployment Injuries..........................................   974
    Depowered....................................................   115
    Depowering...................................................   107
    Effectiveness................................................   119
    Fatalities...................................................   107
    Funding......................................................   119
    Funding......................................................   159
    Safety.......................................................    25
    Safety.......................................................   114
    Safety Funding...............................................   955
    Safety Program...............................................   121
    Safety Standards.............................................   130
    Smart Air Bag Definition.....................................   118
Air Bags and Child Safety Seats..................................   127
Alcohol:
    Incentive Grants.............................................   189
    Incentive Grants.............................................   908
    Related Fatalities...........................................   187
    Related Fatalities...........................................   814
    (and) Speed Related Fatalities...............................   830
State Blood Alcohol Laws.........................................   193
Antilock Brake Investigation.....................................   859
Authorizing Legislation (Summary of).............................    58
Auto Safety Hotline:
    Hotline......................................................   947
    Hotline Expansion............................................   948
Bicycle Safety...................................................    83
Bicycle Safety...................................................   882
Biography:
    Donald C. Bischoff (Executive Director)......................    54
    Philip R. Recht (Deputy Administrator).......................    53
    Ricardo Martinez, MD (Administrator).........................    52
Biomechanics:
    Research.....................................................    26
    Research.....................................................   950
Budget Request (the).............................................    30
Child Safety Seat:
    CD Rom Data Base.............................................   137
    Education....................................................   128
    Installation.................................................   136
    Proposed Rulemaking..........................................   135
    Proposed Rulemaking..........................................   137
    Recall.......................................................   821
Child Safety Seats...............................................    86
Child Seat Resources for the Indigent............................    87
Child-Size Test Dummies..........................................   129
Closing..........................................................   196
Compliance Test Failure Data.....................................   870
Corporate Average Fuel Economy (CAFE):
    CAFE.........................................................   866
    Fuel Economy.................................................   978
    Penalties Collected..........................................   868
    Standards....................................................   988
    Standards/Light Track and Vans...............................   868
Crash Outcome Data Evaluation System (CODES).....................   820
Crash Statistics.................................................   887
Crashes:
    Fatal--Percentage Change.....................................   807
    (by) Type of Collision.......................................   819
Data Linkage.....................................................    26
DOT:
    Field Structure..............................................   149
    Field Structure (changes in).................................   150
Driver Education Program (Michigan's Two-Stage)..................   827
Driver Fatigue...................................................   886
Drug:
    Pre-Licensure Drug Testing (Funding for).....................   193
    Testing......................................................   123
    (and) Youth Safety...........................................    26
Drunk Driving (Measures to Reduce)...............................   813
Emergency Medical Services.......................................   960
Enforcement:
    (of) Alcohol Impaired Driving................................   914
    Levels of Safety Belt Use Laws...............................   789
Fatalities by Vehicle Category...................................   894
Fatigue and Drowsiness...........................................   975
Fifth Percentile Female/Child Dummy Enhancement..................   952
General Administration...........................................    70
Graduated Licensing:
    International Efforts........................................   826
    Project......................................................   825
    Systems......................................................   824
Head Protection Devices..........................................   978
Helmet Laws......................................................   162
Highway Fatalities for Selected Countries........................   898
Highway Safety:
    Expenditures.................................................   834
    Program......................................................    36
    Program......................................................    66
Highway Traffic Safety Grants:
    Program......................................................    72
    Section 402 Grant Obligations................................   840
    Section 402 Indian Safety Grants.............................   842
    Section 402 NHTSA Personnel..................................   837
    Section 402 Program Areas....................................   837
    Section 410 Funding..........................................   903
Integrated Safety Fund...........................................   970
International Harmonization:
    Office.......................................................   969
    Program......................................................   979
International Safety Ranking.....................................   844
ISOFIX...........................................................   822
ISTEA:
    Effect of Delayed Enactments of ISTEA........................    96
    Reauthorization--NHTSA's Goals and Priorities................    95
ITS:
    First Generation Road Departure Collision Avoidance System...   158
    Funding......................................................   961
    Heavy Vehicle Drowsy Driver Detection System.................   159
    Operational Test of Rear-End Collision Avoidance Systems.....   158
    Program......................................................   158
    Program Increase.............................................   967
Law Enforcement Services.........................................   126
Legislation to Lower Blood Alcohol Limits........................   828
Motorcycle Helmet Laws (Mandatory)...............................   879
Motor Vehicle:
    Death Rates for Indians......................................   843
    Related Deaths...............................................   842
    Safety Standards.............................................   120
National Advanced Driving Simulator (NADS):
    NADS.........................................................   778
    NADS Cost Estimate...........................................   779
    NADS Cost Sharing............................................   780
    NADS Current Schedule........................................   781
    NADS Development Cost........................................   779
Negotiated Rulemaking979.........................................
New Car Asessment Program (NCAP):
    NCAP Costs...................................................   851
    NCAP Funding.................................................   850
    NCAP--Motor Vehicles Tested..................................   853
    NCAP.........................................................   858
NHTSA:
    Budget in Brief..............................................    55
    Budget Request...............................................    25
    (and) DOJ Collaboration......................................   959
    Downsizing Goal..............................................   926
    (and) FHWA Speed Management Plan.............................   812
    Goals to Reduce Fatalities/Injuries in Rural Areas...........   899
    Goals to Reduce Fatalities/Injuries in Urban Areas...........   901
    Historical Funding...........................................    60
    Influences Safety Defect Recall..............................   865
    Key Initiatives..............................................    26
    Key Regulations..............................................   947
    (and) OMC....................................................   971
    Opening Remarks..............................................    24
    Overseas Travel..............................................   922
    Safety Recall Campaigns......................................   863
    Staffing.....................................................   934
    Strategic Plan...............................................    59
Occupant Fatalities of Vehicles by State.........................   891
Occupant Protection Grants.......................................   183
Occupant Protection Incentive Grants.............................   187
Odometer:
    Fraud........................................................   875
    Fraud Investigations.........................................   877
    Fraud Program................................................   878
Offset Crash:
    Testing......................................................   848
    Testing Standards............................................   849
Operating Expenses...............................................   969
Pedalcyclist Fatalities by State.................................   884
Pedestrian/Bicyclist Research....................................   883
Political Appointees.............................................   926
Presidential Initiative on Seat Belt Use.........................   183
Primary Seat Belt Law States.....................................   185
Proposed Rulemaking to Depower Airbags...........................   116
Records and Licensing Funding....................................   971
Regional Staffing................................................   927
Reorganization and Consolidation.................................   147
Repeal of Motorcycle Helmet Laws.................................   881
Reprogramming....................................................   942
Research and Analysis............................................    68
Research and Analysis Program....................................    43
Restraint Use Among Fatalities...................................   787
Rollover.........................................................   977
Safe and Sober...................................................   949
Safe Communities.................................................    26
Safe Communities Funding.........................................   839
Safety Assurance Program.........................................    34
Safety Assurance.................................................    64
Safety Belt Use Laws--Key Provisions.............................   791
Safety Belts.....................................................    25
Safety Performance Standards.....................................    62
Safety Performance Standards Program.............................    32
Safety Systems Funding...........................................   973
Seat Belt:
    Alcohol Goals................................................   816
    Demonstration Program........................................   785
    Model Seat Belt Use Law......................................   790
    Meeting with Governors on Seat Belt Issues...................   184
    Nationwide Belt Use Survey...................................   185
    Presidential Initiative on Seat Belt Use.....................   183
    Usage Rates..................................................   182
    Usage Rates..................................................   782
    Use Law Enforcement..........................................   788
Shift of Programs from General Fund to Trust Fund................   101
Side Impact Standard.............................................   847
Speed:
    Management...................................................   160
    Related Fatal Crashes........................................   807
    Related Fatal Crashes--Number and Percent....................   809
    State Interaction on Speed Issue.............................   162
    Study of the Impact of Increased Speed.......................   811
Speed Limit:
    Issues.......................................................    87
    Motocycle Helmet Laws--Impact on Fatalities..................   891
    National Speed Limit.........................................   159
    State Speed Limit Increases..................................   160
    State Speed Limits for Cars and Trucks.......................   793
Statement from the Administrator.................................    57
States:
    (with) Administrative License Revocation Laws................   921
    (with) Increased Speed Limits................................   108
    (with) Primary Enforcement Laws..............................    82
    (without) Speed Limits.......................................   160
Survey of Drunk Driving Attitudes................................   958
Training.........................................................   934
Underage Drinking................................................   122
Underage Drinking Law............................................   190
Unobligated Balances.............................................   941
Vehicle Safety Compliance........................................   873
Waivers to Permit Depowering of Air Bags.........................   116
Witnesses........................................................     1
Youth Driving Initiative.........................................   192
Youth, Drugs and Driving Initiative..............................   191
Youth Fatalities.................................................   815

             Washington Metropolitan Area Transit Authority

Addison Road to Largo Town Center............................1420, 1424
Appropriations Request...........................................  1415
Authority Goals..................................................  1406
Biography of Richard A. White....................................  1414
Bond Financing...................................................  1427
Capital Improvement Requirements.................................  1410
    Maintenance Needs............................................  1415
    System Maintenance...........................................  1421
    System Rehabilitation........................................  1419
Closing Remarks..................................................  1410
Demographics.....................................................  1429
Financial Issues.................................................  1417
    District Payments............................................  1419
    Fares........................................................  1418
Dulles Corridor..................................................  1425
Fast Track Construction Program..................................  1388
    Financing Fast Track.........................................  1391
    Rail Construction Program....................................  1440
Federal Regional Partnership.....................................  1387
General Observations and Challenges..............................  1415
Metro--The Value of The Investment...............................  1397
Platform Edges...................................................  1435
Regional Bus Service.............................................  1402
Regional Mobility Conference.....................................  1423
Regional Mobility Panel..........................................  1428
Ridership........................................................  1416
    Ridership Trends.............................................  1401
Safety Issues....................................................  1427
    Safety and Crime.............................................  1437
Service Improvements.............................................  1442
Statement of Mr. White (Oral)....................................  1380
Statement of Mr. White...........................................  1386
WMATA Oversight..................................................  1431

                                <all>
</pre></body></html>
